<html>
<title> - NOMINATION TO THE FEDERAL COMMUNICATIONS COMMISSION</title>
<body><pre>[Senate Hearing 115-478]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-478

                           NOMINATION TO THE 
                   FEDERAL COMMUNICATIONS COMMISSION

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 19, 2017

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
                             
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                            


                Available online: http://www.govinfo.gov
                
                
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-161 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="97f0e7f8d7f4e2e4e3fff2fbe7b9f4f8fab9">[email&#160;protected]</a>                               
                
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  CORY BOOKER, New Jersey
JAMES INHOFE, Oklahoma               TOM UDALL, New Mexico
MIKE LEE, Utah                       GARY PETERS, Michigan
RON JOHNSON, Wisconsin               TAMMY BALDWIN, Wisconsin
SHELLEY MOORE CAPITO, West Virginia  TAMMY DUCKWORTH, Illinois
CORY GARDNER, Colorado               MAGGIE HASSAN, New Hampshire
TODD YOUNG, Indiana                  CATHERINE CORTEZ MASTO, Nevada
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 19, 2017....................................     1
Statement of Senator Thune.......................................     1
    Prepared statement...........................................     1
Statement of Senator Nelson......................................     4
    Letter dated July 17, 2017 to Hon. John Thune and Hon. Bill 
      Nelson from L. Earl Franks, Ed.D., CAE, Executive Director, 
      National Association of Elementary School Principals.......    86
    Letter dated July 17, 2017 to Hon. John Thune and Hon. Bill 
      Nelson from Daniel A. Domenech, Executive Director, AASA...    87
    Letter dated July 18, 2017 to Hon. John Thune and Hon. Bill 
      Nelson from Tom Armelino, Executive Director, National 
      Association of School Superintendents......................    87
    Letter to Hon. John Thune and Hon. Bill Nelson from Erika K. 
      Hoffman, Legislative Advocate, California School Boards 
      Association; and Adonai Mack, Director of Political Affairs 
      and Strategy, Association of California School 
      Administrators.............................................    88
Statement of Senator Moran.......................................     5
Statement of Senator Blumenthal..................................     6
Statement of Senator Gardner.....................................     6
Statement of Senator Lee.........................................    51
Statement of Senator Markey......................................    53
Statement of Senator Schatz......................................    57
Statement of Senator Fischer.....................................    62
Statement of Senator Peters......................................    64
Statement of Senator Cortez Masto................................    66
Statement of Senator Booker......................................    68
Statement of Senator Udall.......................................    70
Statement of Senator Wicker......................................    72
Statement of Senator Cantwell....................................    74
Statement of Senator Baldwin.....................................    75
Statement of Senator Hassan......................................    77
Statement of Senator Klobuchar...................................    80
Statement of Senator Duckworth...................................    82
    Press release dated December 18, 2014 from the Federal 
      Communications Commission..................................    84
    Tweet dated July 3, 2017 from Commissioner Clyburn...........    85

                               Witnesses

Hon. Pat Roberts, U.S. Senator from Kansas.......................     3
Hon. Ajit Pai, Nominee to be a Member, Federal Communications 
  Commission (Reappointment).....................................     7
    Prepared statement...........................................     9
    Biographical information.....................................    12
Hon. Jessica Rosenworcel, Nominee to be a Member, Federal 
  Communications Commission (Reappointment)......................    27
    Prepared statement...........................................    28
    Biographical information.....................................    29
Brendan Carr, Nominee to be a Member, Federal Communications 
  Commission.....................................................    38
    Prepared statement...........................................    39
    Biographical information.....................................    41

                                Appendix

Letter dated July 21, 2017 to Hon. John Thune and Hon. Bill 
  Nelson from Miguel A. Gamino Jr., Chief Technology Officer, 
  City of New York...............................................    89
Letter dated August 1, 2017 to Hon. John Thune and Hon. Bill 
  Nelson from Thomas J. Gentzel, Executive Director and Chief 
  Executive Officer, National School Boards Association..........    90
Letter dated September 29, 2017 to Hon. John Thune and Hon. Bill 
  Nelson from Mario H. Lopez, President, Hispanic Leadership Fund    90
Response to written questions submitted to Hon. Ajit Pai by:
    Hon. John Thune..............................................    91
    Hon. Roger F. Wicker.........................................    91
    Hon. Roy Blunt...............................................    92
    Hon. Ted Cruz................................................    93
    Hon. Jerry Moran.............................................    94
    Hon. Dan Sullivan............................................    95
    Hon. Dean Heller.............................................    96
    Hon. Mike Lee................................................    96
    Hon. Ron Johnson.............................................    97
    Hon. Bill Nelson.............................................    97
    Hon. Maria Cantwell..........................................    98
    Hon. Amy Klobuchar...........................................   100
    Hon. Richard Blumenthal......................................   101
    Hon. Brian Schatz............................................   103
    Hon. Edward Markey...........................................   104
    Hon. Cory Booker.............................................   104
    Hon. Tom Udall...............................................   105
    Hon. Tammy Duckworth.........................................   106
    Hon. Maggie Hassan...........................................   107
    Hon. Catherine Cortez Masto..................................   108
Response to written questions submitted to Hon. Jessica 
  Rosenworcel by:
    Hon. John Thune..............................................   109
    Hon. Roy Blunt...............................................   110
    Hon. Ted Cruz................................................   111
    Hon. Dan Sullivan............................................   115
    Hon. Deb Fischer.............................................   116
    Hon. Ron Johnson.............................................   116
    Hon. Amy Klobuchar...........................................   116
    Hon. Cory Booker.............................................   117
    Hon. Tom Udall...............................................   118
    Hon. Maggie Hassan...........................................   119
    Hon. Catherine Cortez Masto..................................   119
Response to written questions submitted to Brendan Carr by:
    Hon. John Thune..............................................   121
    Hon. Ted Cruz................................................   121
    Hon. Dan Sullivan............................................   123
    Hon. Mike Lee................................................   124
    Hon. Bill Nelson.............................................   125
    Hon. Maria Cantwell..........................................   127
    Hon. Brian Schatz............................................   127
    Hon. Edward Markey...........................................   128
    Hon. Cory Booker.............................................   128
    Hon. Tom Udall...............................................   131
    Hon. Maggie Hassan...........................................   131
    Hon. Catherine Cortez Masto..................................   132

 
                           NOMINATION TO THE 
                   FEDERAL COMMUNICATIONS COMMISSION

                              ----------                              


                        WEDNESDAY, JULY 19, 2017

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m. in room 
SD-G50, Russell Senate Office Building, Hon. John Thune, 
Chairman of the Committee, presiding.
    Present: Senators Thune [presiding], Nelson, Lee, Markey, 
Moran, Schatz, Blumenthal, Gardner, Fischer, Peters, Cortez 
Masto, Booker, Udall, Wicker, Cantwell, Baldwin, Hassan, 
Klobuchar, and Duckworth.

             OPENING STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    The Chairman. This hearing will get underway. Welcome. 
We've got an opportunity today to hear from some nominees to 
the Federal Communications Commission, a critically important 
agency with a very wide and critical jurisdiction in our 
economy. So we're going to proceed right to that. Because we 
have some time constraints that we have to deal with today, I'm 
going to forego my opening statement and ask unanimous consent 
that it be entered into the record, and we'll proceed directly 
to some of the introductions that we are going to hear and then 
hopefully to our panel.
    I think Senator Nelson wants to make an opener, and we'll 
do that right after we recognize Senator Roberts, the 
distinguished senior Senator from Kansas, who is here, and he 
is going to open things up for us this morning.
    [The prepared statement of Senator Thune follows:]

 Prepared Statement of Hon. John Thune, U.S. Senator from South Dakota
    Today we welcome three well-qualified nominees to testify before 
the Committee as we consider their nominations to serve as 
commissioners at the Federal Communications Commission (FCC). I'd also 
like to welcome the families of the nominees who are here today.
    While this is a confirmation hearing, given the issues we'll be 
discussing and the extensive experience of the nominees, it will also 
serve as this Committee's second FCC oversight hearing this year, 
fulfilling a commitment I've made to hold regular, biannual oversight 
hearings of the Commission.
    It would be hard to imagine a group of nominees more well-versed in 
the agency they've been nominated to lead.
    Ajit Pai, who has been renominated to a second term by President 
Trump, and was designated by the President to be the Chairman of the 
FCC this past January, has served as a Commissioner since 2012, when he 
was confirmed by voice vote in the Senate. Prior to becoming a 
commissioner, Chairman Pai worked on telecommunications policy in both 
the public and private sectors, notably serving here in the Senate as a 
staffer on the Judiciary Committee, as well as in the general counsel's 
office at the FCC.
    Jessica Rosenworcel, who has also been renominated by President 
Trump for a second term at the FCC, is well known to the Committee and 
has nearly two decades of experience in communications policy. She 
served as an FCC commissioner from May 2012 until January 2017, and 
before that, served as a senior staffer on the Commerce Committee for 
both Chairman Rockefeller and Chairman Inouye.
    Brendan Carr, who is currently the FCC's General Counsel, has 
worked at the Commission for a number of years, first in the office 
that he now heads and more recently as lead advisor to then-
Commissioner Pai on wireless and public safety issues. He previously 
worked in private practice for Wiley Rein in the firm's appellate, 
litigation, and telecom practices.
    In my view, the FCC will be in very good hands when all three of 
these nominees are confirmed.
    Since becoming Chairman, Mr. Pai has made much-needed reforms to 
improve transparency at the FCC and to improve the agency's processes. 
I am particularly heartened by Chairman Pai's efforts to treat fellow 
commissioners fairly by instituting the process of sharing documents 
with other commissioners before discussing them publicly, as well as 
starting a pilot project to publicly release the text of all agenda 
items in advance of Commission meetings. I frequently criticized the 
previous Chairman's hyper-partisan leadership approach on these issues 
because I believed it would lead to counter-productive outcomes over 
the long term. Chairman Pai's new approach should lead to more long-
lasting and positive results at the FCC.
    With respect to Internet regulations, I am pleased that Chairman 
Pai has sought to hit the reset button on the 2015 Title II Order, 
because, as I have previously said, the FCC should do what is necessary 
to rebalance the agency's regulatory posture under current law. I 
continue to believe, however, that the best way to provide long-term 
protections for the Internet is for Congress to pass bipartisan 
legislation. Two and a half years ago I put forward legislative 
principles and a draft bill to begin the conversation, and I stand 
ready and willing today to work toward finding a lasting legislative 
solution that will resolve the dispute over net neutrality once and for 
all.
    Thankfully, the net neutrality debate has not distracted the FCC 
from important work in other areas. For instance, the FCC's proposed 
rulemaking on robocalls is a positive step in the right direction. The 
government must do everything we can to protect consumers from those 
who are truly the bad actors, which is one reason why this committee 
has advanced Senator Nelson's anti-spoofing legislation. But we also 
need to be sure the government's rules are not unfairly punishing 
legitimate callers who are not acting maliciously. The FCC's Notice of 
Inquiry will give that conversation a much-needed jumpstart.
    Given the FCC's importance to the future of our economy and our 
society, it is important for the Commission to seek opportunities for 
common ground. As I noted last fall, the previous Chairman 
unfortunately led the Commission with unprecedented partisan zeal. I 
know that agreement is not always possible. Nevertheless, as a 
corrective to the Commission's recent history, I urge you all to treat 
each other fairly, to respect the law, to be willing to ask Congress 
for guidance, and to seek consensus whenever and wherever possible. 
Doing so will improve the agency's credibility and will result in 
actions that are more likely to endure.
    Before I close, I want to extend my thanks to Chairman Pai for 
visiting my home state of South Dakota last month, as well as the 
emphasis the agency has placed on bridging the digital divide for rural 
states like mine where many are still without broadband service. The 
actions the agency has taken to advance the long-delayed second phases 
of both the Mobility Fund and the Connect America Fund will go a long 
way to ensure millions of Americans living in rural states will have 
access to an increasingly important service. I deeply appreciate it, 
and I also want to take the opportunity to invite Ms. Rosenworcel and 
Mr. Carr to visit South Dakota as well.
    Thank you all for your willingness to serve the Nation in these 
important positions, and thanks again to your families for supporting 
your service. As I've indicated, I support all three of these nominees, 
and look forward to confirming them quickly. With that, I now turn to 
the distinguished ranking member for any remarks he would like to make.

    The Chairman. Senator Roberts.

                STATEMENT OF HON. PAT ROBERTS, 
                    U.S. SENATOR FROM KANSAS

    Senator Roberts. Well, thank you, Mr. Chairman. Thank you, 
too, Ranking Member Nelson, my statemate and fellow Senator, 
Senator Moran, and members of the Committee.
    It is a great privilege for me to introduce a friend and 
fellow Kansan, Ajit Pai, for his reappointment to the Federal 
Communications Commission. It isn't often that I find myself on 
this side of the dais, but I have to imagine, Ajit, that on 
occasions such as this I must be calmer than you are.
    [Laughter.]
    Senator Roberts. That's sort of an inside story. My staff 
wrote that. I have no idea what it means.
    [Laughter.]
    Senator Roberts. Anyway.
    Senator Nelson. You look really nervous.
    Senator Roberts. Yes. It's hard to believe more than five 
years have already passed since Jerry and I introduced Ajit for 
his first confirmation hearing to serve at the FCC. At that 
hearing in 2011, I highlighted his impressive professional 
background, both in government and the private sector, a 
background that made clear he was a talented young man capable 
of leadership at the highest levels.
    But today, having served as Commissioner and now Chairman 
at the FCC, Ajit's record of success speaks for itself. In his 
time at the FCC, he has taken on dreaded robocalls, he has 
increased transparency and accountability by releasing 
Commission documents to the public prior to agency votes, he 
has traveled the country highlighting challenges and 
opportunities for rural consumers who currently lack sufficient 
access to broadband. So more than anything, I want to thank him 
for his dedicated work on behalf of consumers across the 
country, and especially for Kansans.
    Ajit, I want to thank you for joining me in Allen, Kansas, 
last fall to highlight the importance of the work rural 
providers are doing to connect families and small businesses in 
rural communities to the broadband that is so vital to success 
in today's economy.
    As Chairman of the Agriculture Committee, I regularly hear 
from farmers and ranchers who have come to rely on broadband to 
run their operations and to connect to customers and markets 
all around the world. And I take heart in the fact that those 
constituents who feed the Nation and the world have a fearless 
advocate at the helm of the FCC who understands the great 
challenges that lie ahead in closing the digital divide between 
rural and urban communities.
    So to my colleagues on this Committee, I urge a swift 
confirmation for my friend and proud Kansan, Ajit Pai.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Roberts.
    And I always tell Senator Roberts when he talks, if you 
could close your eyes and you can kind of hear Paul Harvey. 
Doesn't he sound a little bit like Paul Harvey?
    [Laughter.]
    The Chairman. Thank you, Senator Roberts.
    I'm going to turn now to Senator Nelson for his opening 
remarks, and then we will go to some other introductions of 
some of our panelists today.
    Senator Nelson.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman. And there seems to 
be some passing interest in this subject matter today. It would 
be impossible to get all these people into our little committee 
room, so thank you all for being here. And it's because 
everybody here understands that the Commission plays such a 
vital role in protecting consumers and competition, and it's 
incumbent upon us to review the qualifications to carry out the 
role of Commissioners to this agency.
    For Jessica Rosenworcel, it has been a long and winding 
road, when in reality, she should already be well into her 
second term on the agency. I want to thank you for your 
patience, your perseverance, and your continued willingness to 
serve the public. Your expertise, your good judgment, the 
dedication to the public interest is noted and it is essential.
    Mr. Carr, congratulations on your nomination. There you 
are. It seems clear that you are well liked and well regarded 
by the communications bar. And I enjoyed my meeting with you 
yesterday. We have concerns about two consecutive terms, not 
one term, but two consecutive terms, to which the Senate is 
being asked to confirm you, and it would provide you with the 
longest single initial period of service of any nominee to the 
FCC. In addition, it's hard to recall a similar situation where 
someone was nominated to serve at the Commission alongside 
rather than to follow their current boss.
    We must have Commissioners with an independent voice at 
this critical independent regulatory agency and ones who will 
fight for consumers and the public interest. And that's why I 
will urge our colleagues to take a particularly hard look at 
the question of two consecutive terms. It seems to me that the 
wiser course would be to hold this hearing, consider the 
gentleman's qualifications, and if he's confirmed, then see how 
he does over the next couple of years before confirming him to 
an additional term on top of the original one at this agency.
    And finally let me welcome back Chairman Pai. You've been 
busy since your last appearance. I want to give you due credit 
for many of the actions the FCC took at the open meeting last 
week. They included several solid pro-consumer actions aimed at 
improving the lives of Americans.
    Many view these most recent consumer protection actions, 
however, as mere icing on what is an unwise, unpalatable cake, 
a cake constructed out of actions that would eliminate 
competitive protections that threaten dangerous industry 
consolidation that make the Internet less free and less open 
and that weaken critical consumer protections for those most 
vulnerable.
    Many of us cautioned you earlier in the year that we would 
judge your success at the agency on your ability to put the 
public interest ahead of certain special interests, and there 
are a number of us that are concerned, are you heeding that 
advice? And that advice was offered from my heart.
    Ultimately, we need Commissioners who have consumers' 
backs. We need Commissioners who are not afraid to use the 
robust statutory authority Congress has given to the FCC to 
protect consumers. And on behalf of those consumers, this 
Committee is going to be overseeing and doing our duty, as the 
oversight committee, and we will be doing that robustly.
    Mr. Chairman, thank you for the opportunity.
    The Chairman. Thank you, Senator Nelson.
    And I'm going to ask if our three nominees would come 
forward, and they are very well-qualified nominees, so Chairman 
Pai, Mr. Carr, and Ms. Rosenworcel, as we consider the 
nominations to serve as Commissioners at the Federal 
Communications Commission. And I also want to, before we go any 
further, welcome, I know there are a number of the families of 
the nominees who are here today, and thank you for being here 
and thank you for being a part of public service, which I know 
comes in many cases with a great sacrifice on behalf of the 
families.
    I'm going to flip it now to our other Senator from Kansas, 
a member of this Committee, Senator Moran, to introduce 
Chairman Pai. And then following that, I'm going to recognize 
Senator Blumenthal for 2 minutes to introduce Jessica 
Rosenworcel. And then Senator Gardner is going to introduce 
Brendan Carr. So we'll go in that order, Senator Moran, 
Blumenthal, and Gardner. And then we will get to the remarks 
from our nominees.
    So, Senator Moran.

                STATEMENT OF HON. JERRY MORAN, 
                    U.S. SENATOR FROM KANSAS

    Senator Moran. Mr. Chairman, thank you. Thank you to the 
Ranking Member. I join my colleague from Kansas in welcoming 
Ajit Pai and his family to the Commerce Committee of the U.S. 
Senate. I consider Ajit a friend, which is a word that you have 
to choose carefully around here so that it retains any meaning. 
But I also consider Ajit one of the most intelligent and hard-
working, diligent public servants that I've ever met in my time 
in Congress and as a citizen before elective office. And I've 
seen him in Kansas and I've seen him in Washington, D.C. We 
appreciate the fact that he remains a Kansan even when he's 
surrounded by the temptations and influences of the Nation's 
capital. So I consider him also a person of integrity, common 
sense, and good judgment.
    I had conversations with both Jessica Rosenworcel and Mr. 
Carr in recent days. In both instances, I asked them to hold 
Ajit accountable and to bring the FCC to a point in which it 
was a significant amount of camaraderie and cooperation. And 
the last time that Chairman Pai was in front of this Committee, 
I indicated to the other Commissioners that if he failed to do 
that, that I would call his mom and dad at home and ask them to 
intervene. And I have no doubt that that will not be necessary.
    We want an FCC Commission that works together that, even in 
differences of views and policy perspectives, takes the higher 
road that says we're going to find, when we can, common ground, 
and we're going to work together with respect and dignity for 
all Commissioners, something I think that this Committee would 
appreciate particularly based upon past circumstances.
    So I'm really here to just say, Ajit, thank you for your 
public service. I look forward to your confirmation and believe 
that you are totally worthy of the opportunity to serve 
Americans in the capacity that the President has asked you to 
serve. And I will ask my colleagues to join me in that 
confirmation.
    The Chairman. Thank you, Senator Moran.
    Senator Blumenthal.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thanks very much, Mr. Chairman. I 
couldn't be more delighted and proud to welcome Jessica 
Rosenworcel here today along with her family, Emmett and Mark. 
They come from a wonderful family in West Hartford, and she has 
really served with extraordinary distinction and dedication, 
not only at the FCC, but also with this Committee.
    And I would be remiss in letting this moment pass without 
paying tribute to two of the giants who have served on this 
Committee, Senators Jay Rockefeller and Daniel Inouye, because 
she worked with them as their counsel.
    She has been a champion of issues so very important to 
everyone on this Committee on a bipartisan basis: our schools, 
our local emergency responders, everyday consumers. I've been 
privileged to welcome her several times to Connecticut, where 
she has championed the interests of victims of cramming and 
also the homework gap, which the Hartford Courant recognized 
just a few days ago in an editorial, a term that she coined.
    She has been a tireless advocate of public safety, working 
to update the FCC's 911 rules to keep communities safe and 
protected. And she has been at the forefront of pushing the FCC 
to creatively update our spectrum policy and unlicensed use.
    I hope to continue to welcome her back to Connecticut on 
issues like the pervasive scourge of robocalls, which she 
visited Connecticut to highlight.
    And I want to thank her and again to her family, in fact, 
to all of the families who are here today, because I know that 
your service is really worthy of recognition. You are the ones 
who devote the time and effort to your spouses, your parents, 
your loved ones.
    And I look forward to Commissioner Rosenworcel's very 
prompt confirmation. It is, as Ranking Member Nelson said, 
overdue. And I look forward to working with all of the nominees 
and congratulate you on your nominations.
    Thank you.
    The Chairman. Thank you, Senator Blumenthal.
    Senator Gardner.

                STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. Thank you, Mr. Chairman.
    And welcome, Ajit Pai, Jessica Rosenworcel, and Brendan 
Carr to the Committee today. I have the great privilege and 
honor of introducing Brendan to the Committee today. Before I 
begin that, though, I would like to send a strong message to 
Ajit, as I do to all Kansans, just remember it's our water.
    [Laughter.]
    Senator Gardner. And I am not from Virginia, but because 
Brendan does not have a Virginian on the Committee, they 
selected the next best thing, and that is Colorado, at least 
part of it's in the Union today because of a Virginian, thanks 
to the Louisiana Purchase. So welcome to the Committee today, 
Brendan. It's an honor to have you here.
    Brendan has dedicated his professional life to 
telecommunications policy. After receiving his undergraduate 
degree at Georgetown University, he continued his education in 
telecommunications law at Catholic University here in 
Washington, worked as a telecom attorney before joining 
Chairman Pai's staff as his lead advisor on wireless public 
safety and international issues. He now serves as the FCC's 
General Counsel acting as the Chief Legal Advisor for the 
Commission.
    During his time at the FCC, Brendan twice had the 
opportunity to visit the great state of Colorado. I was 
fortunate enough to have him accompany me around the state on 
one of those trips. We had the opportunity to visit startups in 
Denver--of course, Colorado, a great startup state. And we met 
with local broadcasters and rural broadband providers and 
toured a 911 emergency call center. Throughout the tour, I was 
impressed with his grasp of telecommunications policy across 
the wide range of issues before the FCC, and I believe he would 
make an outstanding Commissioner. And he is certainly committed 
to the success of our urban corridors of this country, but 
equally important, the rural corridors of our Nation as well.
    It's my pleasure to introduce Brendan to the Committee. And 
I look forward to hearing him discuss what he sees is his 
potential role and opportunities ahead of him at the 
Commission.
    Thank you. And welcome to your family as well.
    The Chairman. Thank you, Senator Gardner.
    We've got a vote at 10:30, and I will inform members of the 
Committee we're going to roll through that to try and keep the 
process moving forward, and I would ask the nominees, if they 
could, to confine their oral remarks as close to five minutes 
as possible to give an optimum amount of time for members of 
the Committee to ask questions.
    So I'm going to start on my left and your right with 
Chairman Pai, and then we'll recognize Jessica Rosenworcel and 
Brendan Carr.
    Mr. Chairman.

                  STATEMENT OF HON. AJIT PAI,

                    NOMINEE TO BE A MEMBER,

       FEDERAL COMMUNICATIONS COMMISSION (REAPPOINTMENT)

    Chairman Pai. Chairman Thune, Ranking Member Nelson, 
members of the Committee, thank you for holding this hearing 
today. It has been an honor to work with you on many issues. 
With the Committee's indulgence, I would like to introduce my 
family: my wife, Janine; our children, Alexander and Annabelle, 
collectively ``the nuggets''; and my brother-in-law, Bob Van 
Lancker and his fiancee, Rachel Vistica. I'm grateful to them 
for their love and support.
    I would especially like to thank my parents, Varadaraj and 
Radha Pai, who traveled from Kansas to be here today. Forty-six 
years ago, they left India with little more than $10 and a 
transistor radio. Today, here they sit before distinguished 
members of this august body, their son having been nominated by 
the President of the United States to this important post. Only 
in America.
    I also would like to thank President Trump for nominating 
me to serve another term at the FCC, and to Senator Roberts and 
Senator Moran, for their longstanding support and their kind 
introductions this morning.
    Finally, I want to congratulate Jessica Rosenworcel and 
Brendan Carr on their nominations. If confirmed, these talented 
public servants each will serve with great distinction.
    Over the past several years you have come to know me and 
where I stand. Over the past several months, you have seen the 
FCC's work, from closing the digital divide to combatting 
illegal robocalls to making the agency more transparent. And 
I'm sure we'll discuss some of that work today.
    But I'd like to share some perspectives from outside the 
Beltway. One of my favorite poems is Walt Whitman's ``Song of 
the Open Road.'' In one passage, Whitman writes of the people 
he has met: ``I carry them, men and women, I carry them with me 
wherever I go, I swear it is impossible for me to get rid of 
them, I am fill'd with them, and I will fill them in return.''
    I can understand what Whitman meant, for I have had the 
privilege of meeting countless people during my time at the 
FCC, both in Washington and around the country. Those stories 
stay with me; I carry them wherever I go. They fuel my passion 
to help deliver digital opportunity to all Americans.
    I carry with me Steve Pourier. During my visit to the 
Rosebud Sioux Indian Reservation in Mission, South Dakota, he 
told me about a woman who was found dead in her home clutching 
her cell phone. She had dialed for help 38 times, but the call 
never went through because there was no wireless coverage.
    I carry with me Mike Roth, of Allen, Kansas. Mike runs a 
feedlot called 2i Feeders that uses broadband-based 
technologies to monitor every cow's unique intake in real time. 
That way, he can assure particular top-end buyers that his beef 
is of the highest quality.
    I carry with me Priya Narasimhan, a Carnegie Mellon 
professor. Several years ago, she founded YinzCam, a company 
that creates apps for sports teams and venues and sets up 
beacons that deliver highly localized information to fans. Its 
clients now include many sports teams, including her beloved 
Penguins. And her personal story is inspiring. Her family came 
to America via India and Zambia, and she is a great role model 
for Indian Americans and women in STEM fields.
    I carry with me Dr. Shazam Hussain, of the Cleveland 
Clinic's mobile stroke unit. A stroke patient's brain loses 2 
million brain cells every minute. Dr. Hussain explained to me 
how connectivity has allowed the unit to cut the average time 
for stabilizing a patient by 38 minutes.
    I carry with me Mike Bosch, Andy Newton, Travis Carter, and 
Marc Hudson. Respectively, they help run competitive fiber 
providers, RG Fiber in Kansas, Southern Light along the Gulf 
Coast, U.S. Internet in Minnesota, and Rocket Fiber in Detroit. 
I had seen for myself how they are building high-speed fiber 
networks in small towns and big cities. And I've even strung 
some fiber myself in the bayou outside Hammond, Louisiana, and 
on a crowded city block in Minneapolis.
    I carry with me Wayne Gilmore, who helps run my hometown 
radio station, KLKC. Wayne and others are enabling a new 
generation of Parsonians to make their own lifelong connections 
with the station and the town.
    I carry with me Alex Algard and the team at Hiya, a 
Seattle-based company which helps consumers avoid unwanted 
robocalls.
    [Cell phone sounds.]
    Chairman Pai. And speaking of----
    [Laughter.]
    Chairman Pai. I carry with me Florence Friedman of New York 
City. Florence wrote to me calling robocalls ``the Wild West, 
an area of lawlessness. . . . Hopefully, you will put this high 
on your agenda. It really is disruptive to one's life.''
    And last, but certainly not least, I carry with me my 
coworkers at the FCC. They are the strongest assets this 
agency, any agency, could have, and it is an honor to work 
alongside them.
    Senators, these are just a few of the people and just a few 
of the stories that I carry with me every day. As Whitman put 
it, I am filled with them. Should I be confirmed, I will do my 
best to ensure that the FCC fills them in return by empowering 
them to help Americans everywhere improve their lives through 
connectivity and technology.
    Chairman Thune, Ranking Member Nelson, thank you once again 
for holding this hearing. I look forward to answering your 
questions and to continuing to work with you and hopefully my 
colleagues in the time to come.
    [The prepared statement and biographical information of 
Chairman Pai follow:]

            Prepared Statement of Hon. Ajit Pai, Chairman, 
                   Federal Communications Commission
    Chairman Thune, Ranking Member Nelson, and Members of the 
Committee, thank you for giving me the opportunity to testify today. 
For over five years, it has been an honor to work with many of you on a 
wide variety of issues. And should I be fortunate enough to be 
confirmed, I look forward to continuing to do so in the years to come.
    I would like to recognize members of my family in attendance: my 
wife, Janine; our children, Alexander and Annabelle; and my brother-in-
law, Robert Van Lancker, and his fiancee, Rachel Vistica. I'm grateful 
to all of them for their love and support. I would like to give a 
special thank you to my parents, Varadaraj and Radha Pai, who have 
travelled from Kansas to be with me today. Forty-six years ago, they 
emigrated from India to the United States, bringing with them little 
more than ten dollars and a transistor radio. Without their sacrifices, 
I would not be where I am today.
    I also would like to thank President Trump for nominating me to 
serve another term at the Commission.
    Finally, I want to congratulate Jessica Rosenworcel and Brendan 
Carr for being nominated to be members of the Commission. Each has 
served at the agency with great distinction for several years. If 
confirmed, they will bring a wealth of communications expertise to our 
labors.
    Over the past several years, you have come to know me and where I 
stand. Over the past several months, you have been able to see some of 
the work the FCC has prioritized, from closing the digital divide to 
making the agency more open and transparent, from combatting illegal 
robocalls to modernizing the Commission's rules. I'm sure we will 
discuss those efforts this morning.
    But I'd like to share some perspectives from outside the Beltway. 
One of my favorite poems is Walt Whitman's ``Song of the Open Road.'' 
In one passage, Whitman writes this of the people he has met: ``I carry 
them, men and women, I carry them with me wherever I go, I swear it is 
impossible for me to get rid of them, I am fill'd with them, and I will 
fill them in return.''
    I can understand what Whitman meant. For I've had the privilege of 
meeting countless people during my time at the FCC, both in Washington 
and around the country. Their stories stay with me. I carry them with 
me wherever I go, likely more often than they know. And they fuel my 
passion to help deliver digital opportunity to all Americans and 
advance the public interest.
    I carry with me Stephen Pourier. During my visit to the Rosebud 
Sioux Indian Reservation in Mission, South Dakota, he told me about a 
woman on his reservation who was found dead in her home, clutching her 
cellphone. She had dialed for help 38 times--but never got a response 
because there was no wireless coverage.
    I carry with me Lisa Kleinhandler and Cris Young, two hardworking 
women who run Hudson Fasteners, a family-owned company that goes back 
to 1946 and is now based in Youngstown, Ohio. Up until the 1990s, it 
sold things like nuts, bolts, and screws in a bricks-and-mortar store 
and kept inventory on notecards. Today, Lisa and Cris have created an 
online sales platform that, as they say, ``put[s] the FAST in 
fasteners.''
    I carry with me Eric Hott of Kirby, West Virginia. Eric runs a 
chocolate business that is held back by the lack of broadband, which 
makes it harder for Eric to keep in touch with customers who want to be 
informed online.
    I carry with me Mike Roth of 2i Feeders. Mike runs a feedlot in 
Allen, Kansas that uses broadband-based technologies to monitor every 
cow's unique intake at all times. That way, he can assure particular, 
top-end buyers that his beef is of the highest quality.
    I carry with me Chelsea Pickner, a talented fashion entrepreneur in 
Sioux Falls, South Dakota. A few years ago, Chelsea had the foresight 
to create an online presence for her company. Today, thanks to 
broadband, she now sells her stylish wares to customers around the 
country and abroad and is creating local jobs.
    I carry with me Sanjit Biswas, an engineer who co-founded a Bay 
Area startup called Samsara. Samsara deploys sophisticated sensors that 
allow companies like Chobani and Cowgirl Creamery to monitor storage 
and distribution temperature and humidity in real-time, to save drivers 
from having to do paperwork, and to efficiently manage trucking fleets.
    I carry with me Priya Narasimhan, a professor at Carnegie Mellon 
University. Several years ago, inspired by her inability to see the 
action at a Pittsburgh Penguins game, she founded YinzCam. The company 
creates apps for sports teams and venues and sets up beacons that 
deliver highly-localized information to fans. Its clients now include 
many NFL, NBA, NCAA, and NHL teams--including her beloved Penguins. (It 
was also gratifying to me as an Indian-American to hear her story; her 
family came to America via India and Zambia, and she is a great role 
model for Indian-Americans and women in STEM fields.)
    I carry with me Gabe Hopper, who's working at a startup in Reno, 
Nevada called Ustyme. Ustyme enables users to pick an online book, 
video-call another user, and read the book interactively together--
something that appeals to me as a father of two young children.
    I carry with me Dr. Shazam Hussain of the Cleveland Clinic's mobile 
stroke unit. Dr. Hussain explained how a stroke patient's brain loses 
two million brain cells every minute and how connectivity has allowed 
the Clinic's stroke unit to cut the average time for assessment and 
stabilization of a patient by an incredible 38 minutes.
    I carry with me Dr. Rick Embrey, Chief Medical Officer at Augusta 
Health in Fishersville, Virginia. Dr. Embrey and his team showed me how 
emergency room doctors and nurses leverage connectivity and technology 
to assess patients before they arrive, and how they've developed a 
software tool for real-time patient monitoring that has cut mortality 
rates from sepsis by 34 percent.
    I carry with me Javier Pena, who was teaching an eighth grade class 
at the San Fernando Institute for Applied Media in California. He asked 
his students to research the term ``tessellation'' on their iPads 
(using the school's Wi-Fi network), to describe what they saw, and then 
outline why they thought Islamic art and architecture used tessellation 
so extensively.
    I carry with me the students and instructors at 
I&#x1E37;isa&gdot;vik College in Barrow, Alaska. In addition to sharing 
some muktuk (whale skin and blubber) with me, they shared how important 
Internet access and technology was for them to be able to learn and to 
preserve their Alaska Native heritage.
    I carry with me Mike Bosch, Andy Newton, Travis Carter, and Marc 
Hudson. Respectively, they help run competitive fiber providers RG 
Fiber in Kansas, Southern Light along the Gulf Coast, U.S. Internet in 
Minnesota, and Rocket Fiber in Detroit. I've seen for myself how they 
are building high-speed fiber networks in places as small as Baldwin 
City, Kansas and as large as the Motor City. And I've even had a chance 
to get on a rig and string some fiber in the bayou outside Hammond, 
Louisiana and on a densely-populated block in Minneapolis.
    I carry with me Gwynne Shotwell, who is literally a rocket 
scientist. At SpaceX, she and her team are pioneering commercial space 
exploration, including sending communications satellites into space and 
creating rockets that can be reused--a technical feat that was once 
thought impossible, a massive cost saving, and a portent of broadband 
innovation to come.
    I carry with me Wayne Gilmore, who helps run KLKC 1540 AM and 93.5 
FM. I grew up with this radio station, and can still hear former sports 
announcer and DJ Steve Lardy's voice calling the 1987 5A high school 
basketball championship game. Wayne and others are enabling a new 
generation of Parsonians to make their own lifelong connections with 
the station and town.
    I carry with me Danny Thomas, the President and General Manager of 
KOAM-TV in Joplin, Missouri. I grew up with this TV station, among 
others, and came to value the work of dedicated journalists like Dowe 
Quick. Danny ensures that the station reflects the best traditions of 
broadcast localism, such as round-the-clock coverage and community 
service when the deadly EF-5 tornado hit town in 2011. Oh, and Dowe is 
still reporting the news!
    I carry with me Pervis Parker, the general manager of WLOO, a 
television station in Jackson, Mississippi owned by Tougaloo College, a 
historically African-American college. Pervis told me that WLOO has 
upgraded to HD, produces its own content, carries programming created 
by and targeting African-Americans, and trains student-interns to 
become the next generation of minority broadcasters.
    I carry with me Pat Gottsch. A native of small-town Nebraska, Pat 
created Rural Free Delivery Television, or RFD-TV--the country's first 
and only 24-hour, rural-focused television network. I've been on RFD-
TV's set in Nashville, Tennessee, where reporter Janet Adkison kindly 
allowed me to interrupt the day's commodities reports in order to 
discuss my ideas for FCC-led rural development.
    I carry with me Alex Algard and the team at Hiya, a Seattle-based 
company which helps tens of millions of consumers avoid unwanted 
robocalls and tracks the origin of these calls. And speaking of 
robocalls, I carry with me Florence Friedman of New York City. She 
wrote to me, calling robocalls ``the wild west, an area of lawlessness. 
. . . Hopefully, you will put this high on your agenda. It really is 
disruptive to one's life. . . . We deserve peace and quiet--and yes, 
even security. Please do something!''
    I carry with me Gallaudet University's Dr. Christian Vogler, 
Director of the Technology Access Program, Research Associate Paula 
Tucker, and Senior Research Engineer Norman Williams. They've done 
amazing work on real-time text, which helps people with disabilities 
communicate in a much more natural way using Internet Protocol-based 
technology.
    I carry with me Ed Owens and Robby Moore, the mayors of South 
Boston, Virginia and Lobelville, Tennessee. Each explained how rural 
Internet access was critical to linking small-town residents with 
economic and educational opportunities.
    I carry with me Captain Robert Johnson, a former officer at Lee 
Correctional Institution in Bishopville, South Carolina. I had the 
honor of meeting him at a forum hosted by then-Governor Nikki Haley. In 
2010, a gunman kicked in the door of his home and shot him six times in 
the stomach and chest. Why? Inmates were upset that Captain Johnson 
repeatedly foiled their efforts to smuggle in contraband cellphones. 
Ironically, they used one to order the hit on him.
    I carry with me Hank Hunt. In 2013, Hank's daughter, Kari, and her 
three children met her estranged husband in a Marshall, Texas hotel 
room. Her husband immediately began stabbing her. Kari's nine-year-old 
daughter, who had accompanied her, tried repeatedly to dial 911 from 
the room's telephone, but the number didn't go through--because she 
first had to dial ``9.'' Hank couldn't save Kari's life, but he made it 
a mission to save others by pushing for direct access to 911. 
Legislation supported in this Committee bears Kari's name. And the FCC 
too has helped by urging hotels to update their systems to allow guests 
to immediately reach emergency personnel.
    I carry with me Denise Holcomb, the 911 Director of Clay County, 
West Virginia. During major flooding just before my visit last summer, 
she and her staff handled calls from desperate county residents--even 
as floodwaters entered the call center itself. I could still see the 
residue of mud and water on the walls. At the end of our visit, she 
observed with a matter of fact tone that they simply did what they had 
to do to help and gave me a hug.
    I carry with me Mark Mew, Chief of the Anchorage Police Department. 
He explained how communications helped his officers protect fellow 
Alaskans and patrol more efficiently.
    And last but certainly not least, I carry with me my co-workers at 
the FCC. I love this agency. I've spent most of the last decade there. 
That's largely because of its wonderful, hardworking staff. It is such 
a privilege to work alongside and get to know them. And I'm so touched 
by the messages they send me from time to time. Near my desk, I keep a 
note from Debra Jordan, a talented staffer in our Public Safety and 
Homeland Security Bureau. She wrote me, unsolicited, ``Chairman Pai, 
your comments to the FCC staff shortly after your appointment as the 
new Chairman reaffirmed your personal and professional respect for all 
peoples . . . regardless of their backgrounds or status. Thank you for 
keeping the FCC a respectful environment in which to work.''
    These are just a few of the people, and just a few of the stories, 
that I carry with me every day. As I work in my office, as Whitman put 
it, ``it is impossible for me to get rid of them.'' Indeed, ``I am 
fill'd with them.'' And should I be fortunate enough to be confirmed by 
the Senate, I will do my best to ensure that the FCC ``fill[s] them in 
return'' by empowering them to help Americans everywhere improve their 
lives through communications and technology.
    Chairman Thune, Ranking Member Nelson, and Members of the 
Committee, thank you once again for holding this hearing. I look 
forward to answering your questions and working with you to promote the 
public interest.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Ajit 
Varadaraj Pai.
    2. Position to which nominated: Member, Federal Communications 
Commission<SUP>*</SUP>
---------------------------------------------------------------------------
    \*\ President Donald J. Trump designated me Chairman of the 
Commission on January 23, 2017.
---------------------------------------------------------------------------
    3. Date of Nomination: March 7, 2017.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.
        Office: 445 12th Street, S.W. Washington, DC 20554.

    5. Date and Place of Birth: January 10, 1973; Buffalo, New York.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).
    Janine Van Lancker, Assistant Professor of Medicine, George 
Washington University Medical Faculty Associates.
    7. List all college and graduate degrees. Provide year and school 
attended.

        Harvard University, B.A. (1994)
        University of Chicago, J.D. (1997)

    8. List all post-undergraduate employment, and highlight all 
management level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        Federal Communications Commission, Chairman (January 2017 to 
        present); Commissioner (May 2012-January 2017).

        Jenner & Block LLP. Partner (April 2011-May 2012).

        Federal Communications Commission, Office of General Counsel. 
        Special Advisor to the General Counsel (March 2010-April 2011); 
        Deputy General Counsel (December 2007-February 2010); Associate 
        General Counsel (July 2007-December 2007).

        U.S. Senate Judiciary Committee, Subcommittee on the 
        Constitution, Civil Rights, and Properly Rights. Chief Counsel 
        (February 2005-June 2007).

        U.S. Department of Justice, Office of Legal Policy. Senior 
        Counsel (May 2004-February 2005).

        U.S. Senate Judiciary Committee, Subcommittee on Administrative 
        Oversight and the Courts. Deputy Chief Counsel (March 2003-May 
        2004).

        Verizon Communications Inc. Associate General Counsel (February 
        2001-March 2003).

        U.S. Department of Justice, Antitrust Division, 
        Telecommunications Task Force. Trial Attorney, Attorney 
        General's Honors Program (December 1998-February 2001).

        Hon. Martin L.C. Feldman, U.S. District Court, Eastern District 
        of Louisiana. Law Clerk (September 1997-September 1998).

        Kirkland & Ellis. Summer Associate (June 1997-September 1997).

        Latham & Watkins. Summer Associate (June 1996-September 1996).

        Lathrop & Norquist (now Lathrop & Gage LLP). Summer Associate 
        (August 1995-September 1995).

        Hon. Kathryn H. Vratil, U.S. District Court, District of 
        Kansas. Summer Law Clerk (June 1995-July 1995).

        The management-level jobs I have held include Chairman, 
        Commissioner, Deputy General Counsel, and Associate General 
        Counsel at the Federal Communications Commission; Partner at 
        Jenner & Block LLP; Chief Counsel at the U.S. Senate Judiciary 
        Committee's Subcommittee on the Constitution, Civil Rights, and 
        Property Rights; and Deputy Chief Counsel at the U.S. Senate 
        Judiciary Committee's Subcommittee on Administrative Oversight 
        and the Courts.

        The non-managerial jobs I have held which relate to the 
        position for which I have been nominated include Special 
        Advisor to the General Counsel at the Federal Communications 
        Commission; Senior Counsel at the U.S. Department of Justice, 
        Office of Legal Policy; Associate General Counsel at Verizon 
        Communications Inc.; and Trial Attorney at the U.S. Department 
        of Justice, Antitrust Division, Telecommunications Task Force.

    9. Attach a copy of your resume.
    A copy of my resume is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last ten years. None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last ten years.

        Partner, Jenner & Block LLP (April 2011-May 2012).

        Co-Trustee, Radha V. Pai Children's Trust (resigned August 
        2012).

        Co-Trustee, Varadaraj S. Pai Children's Trust (resigned August 
        2012).

    12. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Kansas Bar. Member during entire reporting period.

        District of Columbia Bar. Member during entire reporting 
        period. Member, Nominations Committee (November 2010-November 
        2011).

        Federalist Society for Law and Public Policy Studies. Member 
        during entire reporting period; Member, Executive Committee, 
        Administrative Law Practice Group (January 2011-November 2011).

        South Asian Bar Association--District of Columbia. Member 
        during entire reporting period.

        Federal Communications Bar Association. Member (2008-09).

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt. No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political pm1y or election committee during the same period.
    I contributed a total of $750 to the presidential campaign of Mitt 
Romney in 2012. I have not contributed $500 or more to any other 
individual, campaign organization, political party, political action 
committee, or similar entity over the past ten years. 1 have not held 
any offices with any state or national political party, political 
action committee, or campaign committee during the same period. Between 
November 6-8, 2006, I served as a volunteer for the Republican National 
Committee in Montana.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        2016 Freedom of Speech Award from the Media Institute.

        2015 Herbert Brownell Award from the Tech Elders.

        2015 Sports Fan Coalition Most Valuable Policymaker (along with 
        all other Commissioners).

        2015 Jerry B. Duvall Public Service Award from the Phoenix 
        Center for Advanced Legal & Economic Public Policy Studies.

        2011 Marshall Memorial Fellowship, awarded by the German 
        Marshall Fund of the United States.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
Publications
        ``Consumer Protection Month at the FCC,'' self-published on 
        Medium (June 22, 2017), available at https://medium.com/
        @AjitPaiFCC/consumer-protection-month-at-the-fcc-1dea0007d9c6.

        ``How the U.S. can win the digital future,'' Manchester Union 
        Leader (June 21, 2017), available at http://
        www.unionleader.com/Another-View-Ajit-Pai-Tech-Week-How-the-US-
        can-win-the-digital-future-06222017.

        ``Heading Together Toward the Future,'' self-published on 
        Medium (June 2, 2017), available at https://medium.com/
        @AjitPaiFCC/heading-together-toward-the-future-d0800a5e16da.

        ``Supporting Our Public Safety Heroes,'' self-published on 
        Medium (June 1, 2017), available at https://medium.com/
        @AjitPaiFCC/supporting-our-public-safety-heroes-9f9d0b5946c3.

        ``But Wait, There's More,'' self-published on Mediwn (April 27, 
        2017), available at https://medium.com/@AjitPaiFCC/but-wait-
        theres-more-d46d5c78719c.

        ``Why I'm trying to change how the FCC regulates the 
        Internet,'' Los Angeles Times (April 26, 2017), available at 
        http://www.latimes.com/opinion/op-ed/la-oe-pai-fcc-internet-
        regulation-20170426-story.html.

        ``No, Republicans didn't just strip away your Internet privacy 
        rights,'' Washington Post (April 4, 2017), available at https:/
        /www.washingtonpost.com/opinions/no-republicans-didnt-just-
        strip-away-yonr-internel-privacy-rights/20l7/04/04/73e6d500-
        18ab-11e7-9887-1a5314b56a08_story.html.

        ``Infrastructure Month at the FCC,'' self-published on Medium 
        (March 30, 2017), available at https://medium.com/@AjitPaiFCC/
        infrastructure-month-at-the-fcc-6d82a10f7033.

        ``FCC is voting to end robocalls, the `scourge of 
        civilization,' '' The Hill (March 23, 2017), available at 
        http://thehill.com/blogs/pundits-blog/technology/325352-fcc-is-
        voting-to-end-robocalls-the-scourge-of-civilization.

        ``On the Road in the Industrial Midwest,'' self-published on 
        Medium (March 20, 2017), available at https://medium.com/
        @AjitPaiFCC/on-the-road-in-the-industrial-midwest-24e430ceedc3.

        ``Springing Forward for the Public Interest: The FCC's March 
        Agenda,'' self-published on Medium (March 2, 2017), available 
        at https://medium.com/@Ajit
        PaiFCC/springing-forward-for-the-public-interest-the-fccs-
        march-agenda-337b8e
        f582bc.

        ``Setting the Record Straight on the Digital Divide,'' self-
        published on Medium (February 7, 2017), available at https://
        medium.com/@AjitPaiFCC/setting-the-record-straight-on-the-
        digital-divide-615a9da1f2d1.

        ``Closing Digital Divides, Boosting Broadcasting, and Reducing 
        Regulatory Burdens,'' self-published on Medium (February 2, 
        2017), available at https://medium.com/@AjitPaiFCC/closing-
        digital-divides-boosting-broadcasting-and-reducing-regulatory-
        burdens-cf911ee5cfl6.

        ``Closing the digital divide elevates all entrepreneurs,'' 
        Kansas City Business Journal (October 14, 2016), available 
        athttp://www.bizjournals.com/kansas
        city/news/2016/10/14/guest-column-closing-the-digital-divide-
        elevates.html.

        ``Bringing better, faster Internet access to Iowa,'' Des Moines 
        Register (October 10, 2016), available at http://
        www.desmoinesregister.com/story/opinion/columnists/2016/10/10/
        bringing-better-faster-internet-access-iowa/91855742/.

        With Senator Shelley Moore Capito, ``Bridge is a physical 
        reminder of the digital divide in West Virginia,'' Beckley 
        Register-Herald (August 2,2016), available at http://
        www.register-herald.com/opinion/columns/bridge-is-a-physical-
        remin
        der-of-the-digital-divide-in/article_28f1052f-ffee-5fc4-8e1d-
        c3473cc50c4e.html.

        With Representative Kevin Yoder, ``Passing the Kelsey Smith Act 
        Will Help Law Enforcement Save Lives,'' The Hill (May 25, 
        2016), available at http://thehill.com/blogs/congress-blog/
        technology/280741-passing-the-kelsey-smith-act-will-help-law-
        enforcement-save#.V0WfhN1fug0.

        With Governor Nikki Haley, ``Cellphones are Too Dangerous for 
        Prison,'' USA Today (April 5, 2016), available athttp://
        www.usatoday.com/story/opinion/2016/04/05/nikki-haley-ajit-pai-
        fcc-contraband-cellphones-prison-criminals-crime-bebind-bars-
        fcc-colunm/82649738/.

        ``Teaching the Marvels of Music,'' self-published on Medium 
        (March 25, 2016), available at https://medium.com/@AjitPaiFCC/
        teaching-the-marvels-of-music-e5e00a165515.

        With Representative Anna Eshoo, ``The Feds Have to Act to Get 
        America Faster Wi-Fi,'' WIRED (February 7, 2016), available at 
        http://www.wired.com/2016/02/the-feds-have-to-act-to-get-
        america-faster-wi-fi/.

        With Senator Cory Gardner, ``Promoting a Digital Future,'' 
        Grand Junction Daily Sentinel (September 11, 2015), available 
        at http://www.gjsentinel.com/opinion/articles/promoting-a-
        digital-future.

        ``The Obamaphone Program--Fix It, Don't Expand It,'' National 
        Review (June 17, 2015), available at http://
        www.nationalreview.com/article/419868/fcc-should-fix-not-
        expand-broken-obamaphone-program-ajit-pai.

        The FCC Shouldn't Enable More TCPA Lawsuits,'' The Daily Caller 
        (June 16, 2015), available at http://dailycaller.com/2015/06/
        16/the-fcc-shouldnt-enable-more-tcpa-lawsuits/.

        With FEC Commissioner Lee Goodman, ``Internet Freedom Works,'' 
        Politico (February 23, 2015), available athttp://
        www.politico.com/magazine/story/2015/02/fcc-internet-
        regulations-ajit-pai-115399.html.

        With FTC Commissioner Josh Wright, ``The Internet Isn't Broken. 
        Obama Doesn't Need to `Fix' It.'', Chicago Tribune (February 
        18, 2015), available athttp://www.chicagotribune.com/news/
        opinion/commentary/ct-internet-regulations-fcc-ftc-obama-
        broadband-perspec-0219-20150218-story.html.

        With Senator Kelly Ayotte, ``Ending Welfare for Telecom 
        Giants,'' The Wall Street Journal (February 4, 2015), available 
        at http://www.wsj.com/articles/kelly-ayotte-and-ajit-pai-
        ending-welfare-for-telecom-giants-1423095287.

        ``The Government Wants to Study `Social Pollution' on 
        Twitter,'' Washington Post (October 18, 2014), available at 
        http://www.washingtonpost.com/opinions/truthy-project-is-
        unworthy-of-tax-dollars/2014/10/17/a3274faa-531b-11e4-809b-
        8cc0a295c773story<INF><</INF>.html.

        With Representative Billy Long, ``The Case in Defense of 
        JSAs,'' Broadcasting & Cable (September 22, 2014), available at 
        http://www.broadcastingcable.com/news/washington/case-defense-
        jsas/134217.

        ``End the Sports Blackout Rule,'' Cincinnati Enquirer 
        (September 13, 2014), available at http://www.cincinnati.com/
        story/opinion/contributors/2014/09/13/opinion-end-sports-
        blackout-rule/15577783/.

        With Senator John Thune, ``Taxman, Won't You Please Spare the 
        Internet?'', The Wall Street Journal (July 17, 2014), available 
        at http://online.wsj.com/articles/john-thune-and-ajit-pai-
        taxman-wont-you please-spare-the-internet-14056
        38273.

        With Senator Jerry Moran, ``Rural Students Deserve 21'' Century 
        Education,'' The Wichita Eagle (July 4, 2014), available at 
        http://www.kansas.com/2014/07/04/3538621/jerry-moran-and-ajit-
        pai rural.html.

        ``Protecting Free Speech from FCC Regulation,'' Red State (May 
        30, 2014), available at http://www.redstate.com/2014/05/30/
        protecting-free-speech-fcc-regulation/.

        With Representative Bob Latta, ``Switching Off an Outdated 
        Cable Rule,'' Washington Times (May 15, 2014), available at 
        http://www.washingtontimes.com/news/2014/may/15/latta-pai-
        switching-off-an-outdated-cable-rule/.

        ``Giving Up the Internet: Still Risky,'' National Review (April 
        23, 2014), available at http://www.nationalreview.com/article/
        376384/giving-internet-still-ris
        ky-ajit-pai.

        With Representative Adam Kinzinger, ``Train Kids Better for 
        Digital-Age Jobs,'' Chicago Sun-Times (March 23, 2014), 
        available at https://votesmart.org/public-statement/859299/
        chicago-sun-times-train-kids-better-for-digital-age-jobs#.WM
        G5_W_yuJA.

        With Senator Ron Johnson, ``Reform Federal Program to Connect 
        Classrooms,'' Milwaukee Journal Sentinel (February 21, 2014), 
        available at http://www.json
        line.com/news/opinion/reform-federal-program-to-connect-
        classrooms-b9921072
        0z1-246624071.html.

        ``The FCC Wades Into the Newsroom,'' The Wall Street Journal 
        (February 10, 2014), available at http://online.wsj.com/news/
        articles/SB10001424052702304
        680904579366903828260732.

        With Senator Kelly Ayotte, ``Bringing the Rural Classroom into 
        the Digital Age,'' New Hampshire Union Leader (February 1, 
        2014), available at http://www.unionleader.com/article/
        20140202/0PINION02/140209958.

        ``L.A., Let Uber's Cars Share the Road,'' Los Angeles Times 
        (July 9, 2012), available at http://articles.latimes.com/2013/
        jul/09/opinion/la-oe-pai-uber-taxi-app
        -20130709.

        ``Don't Treat Consumers Like Criminals,'' The New York Times 
        (June 5, 2013), available at http://www.nytimes.com/2013/06/06/
        opinion/switching-wireless-carriers-shouldnt-be-a-
        crime.html?_r=0.

        ``Why We Need to Move Ahead on IP,'' National Journal (April 
        24, 2013), available at http://www.nationaljournal.com/tech/
        why-we-need-to-move-ahead-on-ip-20130424.

        ``Robert McDowell: Champion of Liberty, Innovation, and 
        Competition,'' Red State (March 25, 2013), available at http://
        www.redstate.com/diary/ajitpai/2013/03/25/robert-mcdowell-
        champion-of-liberty-innovation-and-competition/.

        ``Too Much Government, Too Little Spectrum,'' Red Stale 
        (January 3, 2013), available at http://www.redstate.com/diary/
        ajitpai/2013/01/03/too-much-government-too-little-spectrum/.

        ``Winning the IP Future,'' Red State (October 25, 2012), 
        available at http://www.redstate.com/diary/ajitpai/2012/10/25/
        winning-the-ip-future/.

        ``Heading Back to Kansas,'' FCC Blog (September 4, 2012), 
        available at https://www.fcc.gov/news-events/blog/2012/09/04/
        heading-back-kansas.

        Article, ``Congress and the Constitution: The Legal Tender Act 
        of 1862,'' 77 Oregon Law Review 535 (1998).

        Comment, ``Should a Grand Jury Subpoena Override a District 
        Court's Protective Order?'', 64 University of Chicago Law 
        Review 317 (1997).
Speeches
        Remarks at ``Broadband for All'' Seminar, Stockholm, Sweden 
        (June 26, 2017), available at http://transition.fcc.gov/
        Daily_Releases/Daily_Business/2017/db0
        627/DOC-345512A1.pdf.

        Remarks at the National Congress of American Indians Mid-Year 
        Conference, Uncasville, CT (June 14, 2017), available at http:/
        /transition.fcc.gov/Daily_Releases/Daily_Business/2017/db0614/
        DOC-345347A1.pdf.

        Remarks at the M-Enabling Summit, Arlington, VA (June 13, 
        2017), available at http://transition.fcc.gov/Daily_Releases/
        Daily_Business/2017/db0613/DOC-345333A1.pdf.

        Remarks at the Wyoming Association of Broadcasters Convention, 
        Casper, WY (June 10, 2017), available at http://
        transition.fcc.gov/Daily_Releases/Daily
        _Business/2017/db0612/DOC-345292A1.pdf.

        Remarks at the United States Department of Justice Blue Alerts 
        Program, Washington, D.C. (May 19, 2017), available at https://
        apps.fcc.gov/edocs_public/attachmatch/DOC-344966A1.pdf.

        Remarks at the American Enterprise Institute, ``The First 100 
        Days: Bringing the Benefits of the Digital Age to All 
        Americans,'' Washington, D.C. (May 5, 2017), available at 
        https://apps.fcc.gov/edocs_public/attachmatch/DOC-344733
        A1.pdf.

        Remarks at the Newseum, ``The Future of Internet Freedom,'' 
        Washington, D.C. (April 26, 2017), available at http://
        transition.fcc.gov/Daily_Releases/Daily_
        Business/2017/db0427/DOC-344590A1.pdf.

        Remarks at the National Association of Broadcasters Show, Las 
        Vegas, NV (April 25, 2017), available at https://apps.fcc.gov/
        edocs_public/attachmatch/DOC-344558A1.pdf.

        Remarks at the First Meeting of the Federal Communications 
        Commission's Broadband Deployment Advisory Committee, 
        Washington, D.C. (April 21, 2017), available at https://
        apps.fcc.gov/edocs_public/attachmatch/DOC-344513A1.
        pdf.

        Remarks before the World Radiocommunication Conference 2019 
        Advisory Committee, Washington, D.C. (April 18, 2017), 
        available at https://apps.fcc.gov/edocs_public/attachmatch/DOC-
        344462A1.pdf.

        Remarks at the Hudson Institute, ``The Importance of Economic 
        Analysis at the FCC,'' Washington, D.C. (April 5, 2017), 
        available at https://apps.fcc.gov/edocs_public/attachmatch/DOC-
        344248A1.pdf.

        Remarks at the FirstNet Signing Ceremony, Washington, D.C. 
        (March 30, 2017), available at https://apps.fcc.gov/
        edocs_public/attachmatch/DOC-344171A1.
        pdf.

        Remarks at the U.S.-India Business Council, Washington, D.C. 
        (March 29, 2017), available at https://apps.fcc.gov/
        edocs_public/attachmatch/DOC-344124A1.
        pdf.

        Remarks at Carnegie Mellon University's Software Engineering 
        Institute, ``Bringing the Benefits of the Digital Age to All 
        Americans,'' Pittsburgh, PA (March 15, 2017), available at 
        https://apps.fcc.gov/edocs_public/attachmatch/DOC-343903A1.pdf.

        Remarks at the Mobile World Congress, Barcelona, Spain 
        (February 28, 2017), available at http://transition.fcc.gov/
        Daily_Releases/Daily_Business/2017/db0228/DOC-343646A1.pdf.

        Remarks at the North American Broadcasters Association's Future 
        of Radio and Audio Symposium, Washington, D.C. (February 16, 
        2017), available at http://transition.fcc.gov/Daily_Releases/
        Daily_Business/2017/db0216/DOC-343529Al.
        pdf.

        Remarks to the Staff of the Federal Communications Commission, 
        Washington, D.C. (January 24, 2017), available at https://
        apps.fcc.gov/edocs_public/attach
        match/DOC-343184A1.pdf.

        Remarks at the Free State Foundation's 10th Anniversary Gala 
        Luncheon, Washington, D.C. (December 7, 2016), available at 
        https://apps.fcc.gov/edocs
        _public/attachmatch/DOC-342497A1.pdf.

        Remarks at CTIA Wireless Foundation Smart Cities Expo, 
        Washington, D.C. (November 2, 2016), available at https://
        apps.fcc.gov/edocs_public/attach
        match/DOC-342032Al.pdf.

        Remarks at the Final Meeting of the Robocall Strike Force, 
        Washington, D.C. (October 26, 2016), available at https://
        apps.fcc.gov/edocs_public/attachmatch/DOC-341999A1.pdf.

        Remarks on Receiving the Freedom of Speech Award at the Media 
        Institute's 2016 Awards Banquet, Washington, D.C. (October 19, 
        2016), available at https://apps.fcc.gov/edocs_public/
        attachmatch/DOC-341825A1.pdf.

        Remarks on the Need for a Digital Empowerment Agenda at Think 
        Big Partners, Kansas City, MO (October 11, 2016), available at 
        https://apps.fcc.gov/edocs_public/attachmatch/DOC-341689Al.pdf.

        Remarks at the 2016 Kansas Association of Broadcasters 
        Convention, Wichita, KS (October 10, 2016), available at 
        https://apps.fcc.gov/edocs_public/attach
        match/DOC-341667A1.pdf.

        Remarks at the 2016 Radio Show, Nashville, TN (September 22, 
        2016), available at https://apps.fcc.gov/edocs_public/
        attachmatch/DOC-341393A1.pdf.

        Remarks at the Competitive Carriers Association's 2016 Annual 
        Convention, Seattle, WA (September 21, 2016), available at 
        https://apps.fcc.gov/edocs_public/attachmatch/DOC-341365A1.pdf.

        Remarks at the Brandery, ``A Digital Empowerment Agenda,'' 
        Cincinnati, OH (September 13, 2016), available at https://
        apps.fcc.gov/edocs_public/attach
        match/DOC-341210A1.pdf.

        Remarks at the First Meeting of the Robocall Strike Force, 
        Washington, D.C. (August 19, 2016), available at https://
        apps.fcc.gov/edocs_ public/attachmatch/DOC-340872A1.pdf.

        Remarks at the Corrections Technology Association's Annual 
        Conference [speech delivered via remote video] (May 16, 2016), 
        available at https://apps.fcc.gov/edocs_public/attachmatch/DOC-
        339388A1.pdf.

        Opening Remarks at the NAB Show's Panel on ``Making It Back 
        Down the Mountain: Repacking Broadcasters Following a 
        Successful Incentive Auction,'' Las Vegas, NV (April 19, 2016), 
        available at http://transition.fcc.gov/Daily
        _Releases/Daily_Business/2016/db0419/DOC-338939A1.pdf.

        Remarks at Contraband Cellphone Field Hearing, Columbia, SC 
        (April 6, 2016), available at http://transition.fcc.gov/
        Daily_Releases/Daily_Business/2016/db0
        406/DOC-338760A1.pdf.

        Keynote Remarks at the Hispanic Radio Conference, Fort 
        Lauderdale, FL (March 23, 2016), available at https://
        apps.fcc.gov/edocs_public/attachmatch/DOC-338537A1.pdf.

        Remarks before the Heritage Foundation, ``The FCC and Internet 
        Regulation: A First-Year Report Card,'' Washington, D.C. 
        (February 26, 2016), available at https://apps.fcc.gov/
        edocs_public/attachmatch/DOC-337930A1.pdf.

        Remarks on Receiving the Inaugural Herbert Brownell Award at 
        the Tech Elders' First Annual Herbert Brownell Dinner, 
        Washington, D.C. (December 4, 2015), available at https://
        apps.fcc.gov/edocs_public/attachmatch/DOC-336719
        A1.pdf.

        Remarks at the PLI/FCBA 33rd Annual Institute on 
        Telecommunications Policy & Regulation, Washington, D.C. 
        (December 3, 2015), available at https://apps.fcc.gov/
        edocs_public/attachmatch/DOC-336693Al.pdf.

        Remarks on Receiving the 2015 Jerry B. Duvall Public Service 
        Award at the Phoenix Center 2015 Annual U.S. Telecoms 
        Symposium, Washington, D.C. (December 1, 2015), available at 
        https://apps.fcc.gov/edocs_public/attachmatch/DOC-336644A1.pdf.

        Remarks at NTCA's Telecom Executive Policy Summit, Washington, 
        D.C. (November 16, 2015), available at https://apps.fcc.gov/
        edocs_public/attachmatch/DOC-336397Al.pdf.

        Remarks at the Bill of Rights Institute's Kansas Public Lecture 
        ``A Free Market, If You Can Keep It: The Need For Online 
        Innovation, Not Regulation.'' Wichita, KS (November 13, 2015), 
        available at https://apps.fcc.gov/edocs_public/attachmatch/DOC-
        336380A1.pdf.

        Remarks to the National Association of Farm Broadcasting 
        Convention, Kansas City, MO (November 13, 2015), available at 
        https://apps.fcc.gov/edocs_public/attachmatch/DOC-336386A1.pdf.

        Remarks at 4G Americas' Technology Symposium: ``The Future of 
        Mobile Broadband in the Americas: LTE to 5G Network 
        Innovation,'' Washington, D.C. (November 5, 2015), available at 
        https://apps.fcc.gov/edocs_public/attach
        match/DOC-336219A1.pdf.

        Remarks lo the Policy Roundtable of the 2015 Convention of the 
        Cable and Satellite Broadcasting Association of Asia, Hong 
        Kong, China (October 26, 2015), available at https://
        apps.fcc.gov/edocs_public/attachmatch/DOC-336043A1
        .pdf.

        Remarks to the National Religious Broadcasters' President's 
        Council, Washington, D.C. (October 14, 2015), available at 
        https://apps.fcc.gov/edocs_public/attachmatch/DOC-335778A1.pdf.

        Remarks at the American Enterprise Institute's Roundtable 
        Discussion on Decline in Investment Following the FCC's Title 
        II Order, Washington, D.C. (September 9, 2015), available at 
        https://apps.fcc.gov/edocs_public/attachmatch/DOC-335190A1.pdf.

        Remarks before the Churchill Club, Palo Alto, CA (August 18, 
        2015), available at https://apps.fcc.gov/edocs_public/
        attachmatch/DOC-334437A1.pdf.

        Remarks at the Nebraska Public Service Commission's Public 
        Workshop on Accessing 911 Service From Multi-Line Telephone 
        Systems, Lincoln, NE (June 30, 2015), available at https://
        apps.fcc.gov/edocs_public/attachmatch/DOC-334168
        A1.pdf.

        Remarks at the International Institute of Communications 
        Telecommunications and Media Forum, Miami, FL (June 24, 2015), 
        available at https://apps.fcc
        .gov/edocs_public/attachmatch/DOC-333677A1.pdf.

        Remarks at the International Institute of Communications Forum, 
        London, United Kingdom (April 27, 2015), available athttps://
        apps.fcc.gov/edocs
        _public/attachmatch/DOC-333190A1.pdf.

        Remarks at the National Association of Broadcasters Show, Las 
        Vegas, NV (April l4, 2015), available at https://apps.fcc.gov/
        edocs_public/attachmatch/DOC-332987A1.pdf.

        Remarks at the 12th Annual NG9-1-1 Honor Awards Gala to 
        Celebrate Heroes and Leaders in 9-1-1, Washington, D.C. 
        (February 25, 2015), available at https://apps.fcc.gov/
        edocs_public/attachmatch/DOC-332231A1.pdf.

        Keynote Address at the North American Broadcasters 
        Association's Symposium on the Future of Radio & Audio, 
        Toronto, Canada (February 19, 2015), available athttps://
        apps.fcc.gov/edocs_public/attachmatch/DOC-332124A1.pdf.

        Remarks at the Marshall, Texas Police Department, ``On 
        Connecting Americans to Emergency Personnel Whenever They Dial 
        911,'' Marshall, TC (January 28, 2015), available at https://
        apps.fcc.gov/edocs_public/attachmatch/DOC-33166
        3A1.pdf.

        Keynote Address at the Friends & Benefactors Awards Banquet of 
        the Media Institute, Washington, D.C. (November 19, 2014), 
        available at https://apps.fcc
        .gov/edocs_public/attachmatch/DOC-330571A1.pdf.

        Remarks at the Free State Foundation's Policy Seminar, 
        Washington, D.C. (November 14, 2014), available at https://
        apps.fcc.gov/edocs_public/attachmatch/DOC-330483A1.pdf.

        Remarks at the Greater Dallas Asian American Chamber of 
        Commerce Awards Gala, Dallas, TX (October 22, 2014), available 
        at https://apps.fcc.gov/edocs
        _public/attachmatch/DOC-330088A1.pdf.

        Remarks at the Texas Forum on Internet Regulation, Texas A&M 
        University, Bush School of Government & Public Service, College 
        Station, TX (October 21, 2014), available at https://
        apps.fcc.gov/edocs_public/attachmatch/DOC-33004
        8A1.pdf.

        Remarks at WISPAPALOOZA, Las Vegas, NV (October 16, 2014), 
        available at https://apps.fcc.gov/edocs_public/attachmatch/DOC-
        329969A1.pdf.

        Remarks. at IX Taller lnternacional de Regulacion: ``Tendencias 
        Y Retos Del Sector TIC,'' Cartagena De Indias, Colombia 
        (September 2, 2014), available at https://apps.fcc.gov/
        edocs_public/attachmatch/DOC-329ll2A1.pdf.

        Opening Remarks at Ohio Association of Broadcasters' AM Radio 
        Town Hall, Columbus, OH (August 13, 2014), available at https:/
        /apps.fcc.gov/edocs
        _public/attachmatch/DOC-328834A1.pdf.

        Remarks on Sports Blackout Rule, Buffalo, NY (August 12, 2014), 
        available at https://apps.fcc.gov/edocs_public/attachmatch/DOC-
        328807A1.pdf.

        Remarks at the Citizens Against Government Waste Policy 
        Breakfast, Washington, D.C. (July 28, 2014), available at 
        https://apps.fcc.gov/edocs_public/attachmatch/DOC-328469A1.pdf.

        Remarks before the Internet Innovation Alliance, ``The IP 
        Transition: Great Expectations or Bleak House?'', Washington, 
        D.C. (July 24, 2014), available at https://apps.fcc.gov/
        edocs_public/attachmatch/DOC-328418A1.pdf.

        Remarks on ``Reforming Communications Policy in the Digital 
        Age: A View from the FCC,'' Washington, D.C. (June 25, 2014), 
        available at https://apps.fcc.gov/edocs_public/attachmatch/DOC-
        327841A1.pdf.

        Remarks before the Federal Communications Bar Association, 
        Washington, D.C. (June 18, 2014), available at https://
        apps.fcc.gov/edocs_public/attachmatch/DOC-327725A1.pdf.

        Remarks at PCIA's 2014 Wireless Infrastructure Show, Orlando, 
        FL (May 20, 2014), available at https://apps.fcc.gov/
        edocs_publiclattachmatch/DOC-327172
        A1.pdf.

        Remarks at the FCC's E-Rate Modernization Workshop, Washington, 
        D.C. (May 6, 2014), available at https://apps.fcc.gov/
        edocs_public/attachmatch/DOC-326945A1.pdf.

        Remarks before the Pennsylvania Association of Broadcasters, 
        Hershey, PA (May 5, 2014), available at https://apps.fcc.gov/
        edocs_public/attachmatch/DOC-326912A1.pdf.

        Opening Remarks at the Mobile Future Forum, ``Designing for 
        Auction Success: Lessons Learned from Around the World,'' 
        Washington, D.C. (April 24, 2014), available at https://
        apps.fcc.gov/edocs_public/attachmatch/DOC-326731A1
        .pdf.

        Remarks before the University of Pennsylvania Law School South 
        Asian Law Students Association, Philadelphia, Pennsylvania 
        (April 17, 2014), available at https://apps.fcc.gov/
        edocs_public/attachmatch/DOC-326624A1.pdf.

        Remarks before the 2014 Spring Meeting of WTA--Advocates for 
        Rural Broadband, Las Vegas, NV (April 9, 2014), available at 
        https://apps.fcc.gov/edocs_public/attachmatch/DOC-326517A1.pdf.

        Remarks at the 9-1-1 Goes to Washington Conference, Arlington, 
        VA (March 24, 2014), available at https://apps.fcc.gov/
        edocs_public/attachmatch/DOC-326214A1.pdf.

        Keynote Address at FICCI Frames 2014, Mumbai, India (March 13, 
        2014), available at https://apps.fcc.gov/edocs_public/
        attachmatch/DOC-326016A1
        .pdf.

        Remarks at the Emerging Technology Forum of APCO International, 
        ``Public Safety Communications in the Digital Age,'' Orlando, 
        FL (February 27, 2014), available at https://apps.fcc.gov/
        edocs_public/attachmatch/DOC-325815A1
        .pdf.

        Remarks Introducing the Panel on MultiLine 911 Issues of the 
        Congressional NextGen 9-1-1 Caucus, Washington, D.C. (February 
        7, 2014), available at https://apps.fcc.gov/edocs_public/
        attachmatch/DOC-325522A1.pdf.

        Remarks at TechFreedom's Forum on the 100th Anniversary of the 
        Kingsbury Commitment, Washington, D.C. (December 19, 2013), 
        available at https://apps.fcc.gov/edocs_public/attachmatch/DOC-
        324810A1.pdf.

        Remarks before the Communications and Technology Task Force of 
        the American Legislative Exchange Council, ``Promoting 
        Investment and Competition in the Several States,'' Washington, 
        D.C. (December 6, 2013), available at https://apps.fcc.gov/
        edocs_public/attachmatch/DOC-324573A1.pdf.

        Remarks to the Board of Directors of the National Religious 
        Broadcasters, National Harbor, MD (October 21, 2013), available 
        at https://apps.fcc.gov/edocs_public/attachmatch/DOC-
        323598A1.pdf.

        Remarks before the National Association of Broadcasters' Radio 
        Show Luncheon, Orlando, FL [speech delivered via remote video] 
        (September 20, 2013), available at https://apps.fcc.gov/
        edocs_public/attachmatch/DOC-323398A1
        .pdf.

        Keynote Address at the LGBT Technology Partnership's Inaugural 
        Policy Forum, Washington, D.C. (September 12, 2013), available 
        at https://apps.fcc
        .gov/edocs_public/attachmatch/DOC-323255A1.pdf.

        Remarks at Smith Micro Software/Pittsburgh Technology Council, 
        ``Looking Back and Looking Ahead: The FCC and the Path to the 
        Digital Economy,'' Pittsburgh, PA (July 25, 2013), available at 
        https://apps.fcc.gov/edocs_public/attachmatch/DOC-322384A1.pdf.

        Remarks before the Pittsburgh Radio Broadcasters' Roundtable, 
        Pittsburgh, PA (July 24, 2013), available at https://
        apps.fcc.gov/edocs_public/attachmatch/DOC-322371A1.pdf.

        Remarks at American Enterprise Institute, ``On Connecting the 
        American Classroom: A Student-Centered E-Rate Program,'' 
        Washington, D.C. (July 16, 2013), available at https://
        apps.fcc.gov/edocs_public/attachmatch/DOC-322201A1
        .pdf.

        Remarks at the Cellphone Unlocking Forum, Hosted by TechFreedom 
        and the Competitive Enterprise Institute, Washington, D.C. 
        (June 17, 2013), available at https://apps.fcc.gov/
        edocs_public/attachmatch/DOC-321641A1.pdf.

        Opening Remarks at CTIA 2013's Panel on the Spectrum Incentive 
        Auction, ``Step Right Up!'', Las Vegas, NV (May 23, 2013), 
        available at https://apps.fcc.gov/edocs_public/attachmatch/DOC-
        321172A1.pdf.

        Remarks at the NTCA 2013 Legislative and Policy Conference, 
        Arlington, VA (April 22, 2013), available at https://
        apps.fcc.gov/edocs_public/attachmatch/DOC-32033SA1.pdf.

        Opening Remarks at the NAB Show's AM Band Revitalization Panel, 
        Las Vegas, NV (April 8, 2013), available at https://
        apps.fcc.gov/edocs_publie/attachmatch/DOC-320038A1.pdf.

        Opening Remarks at First Technology Transitions Policy Task 
        Force Workshop, Washington, D.C. (March 18, 2013), available at 
        https://apps.fcc.gov/edocs_public/attachmatch/DOC-319565A1.pdf.

        Remarks at the Hudson Institute, ``Two Paths to the Internet 
        Protocol Transition,'' Washington, D.C. (March 7, 2013), 
        available at https://apps.fcc.gov/edocs_public/attachmatch/DOC-
        319334A1.pdf.

        Remarks before the Federal Communications Bar Association, 
        Washington, D.C. (February 21, 2013), available at https://
        apps.fcc.gov/edocs_public/attach
        match/DOC-319045A1.pdf.

        Remarks at the Media Institute Luncheon, ``The Video 
        Marketplace and the Internet Transformation,'' Washington, D.C. 
        (February 7, 2013), available at https://apps.fcc.gov/
        edocs_public/attachmatch/DOC-318814A1.pdf.

        Opening Remarks before the Phoenix Center for Advanced Legal & 
        Economic Public Policy Studies. 2012 Annual U.S. Telecoms 
        Symposium, Washington, D.C. (December 6, 2012), available at 
        https://apps.fcc.gov/edocs_public/attach
        match/DOC-317766A1.pdf.

        Opening Remarks before the Internet Transformation Panel of the 
        Communications Liberty and Innovation Project, Washington, D.C. 
        (October 16, 2012), available at https://apps.fcc.gov/
        edocs_public/attachmatch/DOC-316824A1
        .pdf.

        Remarks at CTIA's MobileCon, San Diego, CA (October 10, 2012), 
        available at https://apps.fcc.gov/edocs_public/attachmatch/DOC-
        316746A1.pdf.

        Remarks before the National Association of Broadcasters' Radio 
        Show, Dallas, TX (September 19, 2012), available at https://
        apps.fcc.gov/edocs_public/attachmatch/DOC-316374A1.pdf.

        Opening Remarks at the Telecommunications & E-Commerce 
        Committee Roundtable of the U.S. Chamber of Commerce, 
        Washington, D.C. (September 14, 2012), available at https://
        apps.fcc.gov/edocs_public/attachmatch/DOC-316277
        A1.pdf.

        Remarks at Carnegie Mellon University, ``Unlocking Investment 
        and Innovation in the Digital Age: The Path to a 21st-Centuty 
        FCC,'' Pittsburgh, PA (July 18, 2012), available at https://
        apps.fcc.gov/edocs_public/attachmatch/DOC-315268
        A1.pdf.

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.

        Testimony before the Subcommittee on Financial Services and 
        General Government of the United States Senate Committee on 
        Appropriations (June 20, 2017), available at http://
        transition.fcc.gov/Daily_Releases/Daily_Business/2017/db0
        620/DOC-345438A1.pdf. Subject matter: the Federal 
        Communications Commission's FY 2018 Budget.

        Testimony before the United States Senate Committee on 
        Commerce, Science, and Transportation (March 8, 2017), 
        available at http://transition.fcc.gov/Daily_Releases/
        Daily_Business/2017/db0308/DOC-343814A1.pdf. Subject matter: 
        oversight of the Federal Communications Commission.

        Testimony before the Subcommittee on Communications and 
        Technology of the United States House of Representatives 
        Committee on Energy and Commerce (July 12, 2016), available at 
        https://apps.fcc.gov/edocs_public/attachmatch/DOC-340304A1.pdf. 
        Subject matter: oversight of the Federal Communications 
        Commission.

        Testimony before the Subcommittee on Privacy, Technology and 
        the Law of the United States Senate Committee on the Judiciary 
        (May 11, 2016), available at https://apps.fcc.gov/edocs_public/
        attachmatch/DOC-339331A1.pdf. Subject matter: privacy.

        Testimony before the Subcommittee on Financial Services and 
        General Government of the United States Senate Committee on 
        Appropriations (April 5, 2016), available at http://
        transition.fcc.gov/Daily_Releases/Daily_Business/2016/db0
        415/DOC-338886A1.pdf. Subject matter: the Federal 
        Communications Commission's FY 2017 Budget.

        Testimony before the Subcommittee on Communications and 
        Technology of the United States House of Representatives 
        Committee on Energy and Commerce (March 22, 2016), available at 
        https://apps.fcc.gov/edocs_public/attachmatch/DOC-338511A1.pdf. 
        Subject matter: oversight of the Federal Communications 
        Commission.

        Testimony before the Subcommittee on Financial Services and 
        General Government of the United States House of 
        Representatives Committee on Appropriations (March 15, 2016), 
        available at https://apps.fcc.gov/edocs_public/attach
        match/DOC-338312A1.pdf. Subject matter: the Federal 
        Communications Commission's FY 2017 Budget.

        Testimony before the United States Senate Committee on 
        Commerce, Science, and Transportation (March 2, 2016), 
        available at https://apps.fcc.gov/edocs
        _pub1ic/attachmatch/DOC-338045A1.pdf. Subject matter: oversight 
        of the Federal Communications Commission.

        Testimony before the Subcommittee on Communications and 
        Technology of the United States House of Representatives 
        Committee on Energy and Commerce (November 17, 2015), available 
        at https://apps.fcc.gov/edocs_public/attach
        match/DOC-336418A1.pdf. Subject matter: oversight of the 
        Federal Communications Commission.

        Testimony before the Subcommittee on Communications and 
        Technology of the United States House of Representatives 
        Committee on Energy and Commerce (July 28, 2015), available at 
        https://apps.fcc.gov/edocs_public/attachmatch/DOC-334607A1.pdf. 
        Subject matter: oversight of the Federal Communications 
        Commission.

        Testimony before the Subcommittee on Financial Services and 
        General Government of the United States Senate Committee on 
        Appropriations (May 12, 2015), available at https://
        apps.fcc.gov/edocs_public/attachmatch/DOC-333437A1.
        pdf. Subject matter: the Federal Communications Commission's FY 
        2016 budget.

        Testimony before the United States House of Representatives 
        Committee on the Judiciary (March 25, 2015), available at 
        https://apps.fcc.gov/edocs_public/attachmatch/DOC-332696A1.pdf. 
        Subject matter: Internet regulation, antitrust, and the 
        respective roles of the Federal Communications Commission and 
        Federal Trade Commission.

        Testimony before the Subcommittee on Financial Services and 
        General Government of the United States House of 
        Representatives Committee on Appropriations (March 24, 2015), 
        available at https://apps.fcc.gov/edocs_public/attach
        match/DOC-332675A1.pdf. Subject matter: the Federal 
        Communications Commission's FY 2016 budget.

        Testimony before the Subcommittee on Communications and 
        Technology of the United States House of Representatives 
        Committee on Energy and Commerce (March 19, 2015), available at 
        https://apps.fcc.gov/edocs_public/attachmatch/DOC-332638A1.pdf. 
        Subject matter: oversight of the Federal Communications 
        Commission.

        Testimony before the United States Senate Committee on 
        Commerce, Science, and Transportation (March 18, 2015), 
        available at https://apps.fcc.gov/edocs
        _public/attachmatch/DOC-332637A1.pdf. Subject matter: oversight 
        of the Federal Communications Commission.

        Testimony before the Subcommittee on Financial Services and 
        General Government of the United States Senate Committee on 
        Appropriations (March 27, 2014), available at https://
        apps.fcc.gov/edocs_public/attachmatch/DOC-326288
        A1.pdf. Subject matter: the Federal Communications Commission's 
        FY 2015 budget.

        Testimony before the Subcommittee on Financial Services and 
        General Government of the United States House of 
        Representatives Committee on Appropriations (March 25, 2014), 
        available at https://apps.fcc.gov/edocs_public/attach
        match/DOC-326249A1.pdf. Subject matter: the Federal 
        Communications Commission's FY 2015 budget.

        Testimony before the Subcommittee on Financial Services and 
        General Government of the United States Senate Committee on 
        Appropriations (September 11, 2013), available at https://
        apps.fcc.gov/edocs_public/attachmatch/DOC-32323
        7A1.pdf. Subject matter: oversight of the Federal 
        Communications Commission.

        Testimony before the Subcommittee on Communications and 
        Technology of the United States House of Representatives 
        Committee on Energy and Commerce (March 12, 2013), available at 
        https://apps.fcc.gov/edocs_pub1ic/attachmatch/DOC-324640A1.pdf. 
        Subject matter: oversight of the Federal Communications 
        Commission.

        Testimony before the United States Senate Committee on 
        Commerce, Science, and Transportation (March 12, 2013), 
        available at https://apps.fcc.gov/edocs_public/attachmatch/DOC-
        319469A1.pdf. Subject matter: oversight of the Federal 
        Communications Commission.

        Testimony before the Subcommittee on Communications and 
        Technology of the United States House of Representatives 
        Committee on Energy and Commerce (December 12, 2012), available 
        at https://apps.fcc.gov/edocs_public/attach
        match/DOC-317900A1.pdf. Subject matter: oversight of the 
        Federal Communications Commission's implementation of the 
        Spectrum Act of 2012.

        Testimony before the Subcommittee on Communications and 
        Technology of the United States House of Representatives 
        Committee on Energy and Commerce (July 10, 2012), available at 
        https://apps.fcc.gov/edocs_public/attachmatch/DOC-315058A1.pdf. 
        Subject matter: oversight of the Federal Communications 
        Commission.

        Testimony before the United States Senate Committee on 
        Commerce, Science, and Transportation (May 16, 2012), available 
        at https://apps.fcc.gov/edocs
        _public/attachmatch/DOC-314115A1.pdf. Subject matter: oversight 
        of the Federal Communications Commission.

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I have had the privilege of serving as the Chairman and, prior to 
that, a Commissioner at the Federal Communications Commission for over 
five years. During that time, I have had the oppot1unity to study and 
vote on numerous FCC decisions in a wide variety of areas, such as 
broadcast, cable, public safety, satellite, wireless, and wireline. In 
addition, I have traveled to many pat1s of the United States, from 
south Florida to above the Arctic Circle, in order to learn how 
Americans benefit from, or could benefit from, communications services. 
I believe that experiences such as these serve as my principal 
qualifications for continuing to serve at the Commission going forward.
    19. What do you believe are your responsibilities, if continued, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    The Chairman of the FCC is the agency's chief executive officer. I 
believe that the Chairman has a responsibility to ensure the proper 
management of the agency. This includes working with the highly capable 
FCC staff on management and accounting issues; testifying before 
Congress on the FCC's budget request for any given fiscal year; and 
otherwise promoting the proper stewardship of the agency, consistent 
with all applicable laws and regulations governing the agency's 
operations.
    Other than my service as Chairman and Commissioner at the agency, 
my management experience lies primarily in helping to lead the offices 
I served in as Deputy General Counsel in the FCC's Office of General 
Counsel between 2007 and 2010 and as Chief Counsel on the Senate 
Judiciary Committee's Subcommittee on the Constitution, Civil Rights, 
and Property Rights between 2005 and 2007. In these roles, I was 
responsible for substantive decision-making as well as internal matters 
like personnel.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why I believe the top three challenges facing 
the Federal Communications Commission are as follows:

  (1)  Promoting broadband deployment. The Internet is increasingly 
        critical in the daily lives of Americans from all walks of 
        life. The Commission has an important role to play in ensuring 
        that consumers who want high-speed access to the Internet can 
        get it, wherever or whoever they are. I have outlined a 
        proactive agenda along these lines to enable all Americans to 
        be participants in, rather than spectators of, the digital 
        economy.

  (2)  Defending the public interest Across all sectors under the FCC's 
        jurisdiction, I believe the agency should focus on promoting 
        the interests of consumer welfare, competition, and innovation. 
        There is much the Commission can and should do to promote these 
        interests, such as making sure that public safety 
        communications systems are robust, helping advance technology 
        accessibility to those with disabilities, and maximizing the 
        incentives for private sector companies to invest and innovate 
        for the benefit of American consumers.

  (3)  Increasing openness and transparency. Even though the Commission 
        plays a significant role in a major sector of the economy, 
        many--from members of Congress to the American public--can find 
        it difficult to learn about the agency's operations and 
        decision-making. The Commission should strive to promote 
        openness and transparency. This would be in keeping with the 
        spirit of the digital age and would give Americans greater 
        confidence in the agency's operations and decisions. This is 
        why, for instance, I introduced an initiative during my second 
        week in office as Chairman to disclose the text of ce1iain 
        items that would be voted at an upcoming meeting. This simple 
        but significant measure has allowed anyone, anywhere to see 
        what the Commission is considering doing before the agency 
        formally votes.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    During my employment at Verizon Communications Inc., I contributed 
to a 401(k) plan (with a proportionate matching amount contributed by 
the company). That plan, over which I still have control, is managed by 
Fidelity Investments, and all funds are invested in diversified index 
funds. Neither the company nor I continue to make contributions to this 
plan.
    During my employment at Jenner & Block LLP, I participated in the 
Firm's Profit Sharing Plan (401(k)), which was and is managed by 
Fidelity Investments. All funds are invested in a diversified index 
fund. I do not have any other financial arrangements with the Firm. 
Neither the firm nor I continue to make contributions to this plan.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain. No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated. None.
    4. Describe any business relationship, dealing, or financial 
transaction which you have bad during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    During my time at Jenner & Block LLP between April 25, 2011 and May 
6, 2012, I did a limited amount of work for a few clients. Out of an 
abundance of caution, the complete list of those clients is as follows: 
AOL, Inc.; Cablevision Systems Corp.; Cerberus Capital Management, 
L.P.; Charter Communications, Inc.; General Dynamics Corp., C4 Systems; 
Guggenheim Partners, LLC; The Nielsen Company; and Securus 
Technologies, Inc. During that time: (1) I did not appear before the 
Federal Communications Commission, Executive Branch agencies, Congress, 
or any court in connection with my work for these clients; (2) my name 
did not appear on any comments, briefs, or any other written work 
submitted on their behalf; and (3) to preclude conflicts, my firm 
established a screen as appropriate to prevent my colleagues from 
discussing specific matters with me.
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy.

  <bullet> During my time at the Federal Communications Commission, I 
        and/or my staff have been asked on occasion to review 
        legislative proposals. I also have issued a number of official 
        statements supportive of the passage of particular bills. See, 
        for example, Chairman Pai Statement on Bipartisan Support for 
        the Gigabit Opportunity Act, available at http://
        transition.fcc.gov/Daily_Releases/Daily_
        Business/2017/db0621/DOC-345457Al.pdf; Statement of FCC 
        Commissioner Ajit Pai on House Passage of the FCC Process 
        Reform Act of 20l3, available at https://apps.fcc.gov/
        edocs_public/attachmatch/DOC-326018A1.pdf. Recently, I co-
        authored an op-ed with a Congressman urging passage of a public 
        safety measure. See ``Passing the Kelsey Smith Act Will Help 
        Law Enforcement Save Lives,'' The Hill (May 25, 2016), 
        available at http://thehill.com/blogs/congress-blog/technology/
        280741-passing-the-kelsey-smith-act-will-help-law-enforcement-
        save#.V0WfhNlfug0 (co-authored with Representative Kevin 
        Yoder''). Finally, I have testified many times before Congress; 
        often, I have noted favorable consideration of bills and/or 
        supported enactment of those bills. See, for example, Testimony 
        before the U.S. Senate Committee on Commerce, Science, and 
        Transportation at 1-2 (March 2, 2016), available at https://
        apps.fcc.gov/edocs_public/attachmatch/DOC-338045A1.pdf (Kari's 
        Law Act of 2016).

  <bullet> During my initial service at the Federal Communications 
        Commission, in the Office of General Counsel (between 2007 and 
        2011), I was asked very occasionally to review proposed 
        legislation. I was not asked to recommend the passage, defeat, 
        or modification of such proposals so much as to explain their 
        likely effects.

  <bullet> My employment at the U.S. Senate Judiciary Committee during 
        2003 and 2004 and again between 2005 and 2007 required frequent 
        involvement in the legislative process on issues as varied as 
        compensation for asbestos-related injuries and immigration 
        reform. I also staffed the Senators for whom I worked at 
        oversight hearings of Executive Branch agencies, such as the 
        U.S. Department of Justice and the Federal Bureau of 
        Investigation.

    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    Should I be fortunate enough to be confirmed to another term at the 
Federal Communications Commission, I would continue to resolve 
potential conflicts of interest by (1) identifying the proceeding(s) to 
which the potential conflicts pertain and gathering all relevant facts; 
(2) discussing the nature of the potential conflicts with and seeking 
guidance from the Designated Agency Ethics Official and other attorneys 
responsible for ethics issues in the Office of General Counsel; and (3) 
taking the appropriate action to ensure compliance with applicable 
ethics laws and regulations, as set forth by Congress, the agency, and 
the bar, respectively.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics, 
professional misconduct, or retaliation by, or been the subject of a 
complaint to, any court, administrative agency, the Office of Special 
Counsel, professional association, disciplinary committee, or other 
professional group? If yes:

  a.  Provide the name of agency, association, committee, or group;

  b.  Provide the date the citation, disciplinary action, complaint, or 
        personnel action was issued or initiated;

  c.  Describe the citation, disciplinary action, complaint, or 
        personnel action;

  d.  Provide the results of the citation, disciplinary action, 
        complaint, or personnel action.

    No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain. No.
    3. Have you or any business or nonprofit of which you are or were 
an officer ever been involved as a party in an administrative agency 
proceeding, criminal proceeding, or civil litigation? If so, please 
explain. No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain. No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain. No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    I am a member of the Kansas and District of Columbia bars, admitted 
on October 13, 1998 and December 3, 2001, respectively. In the late 
summer of 2003, after I became a staffer for Senator Jeff Sessions on 
the Senate Judiciary Committee, I received a notice (possibly a second 
notice) from the Kansas Bar informing me that my bar dues had not been 
paid. Thereafter, I sent the Kansas Bar a check for the requisite 
amount. Unfortunately, the check arrived several days after the 
deadline for payment had passed (per a notation made by the Kansas Bar 
on the letter that I had sent and that was returned), and on October 6, 
2003, my Kansas license was suspended. Similarly, my District of 
Columbia license was suspended for nonpayment of dues, effective 
September 30, 2003. After this time, I recall having a conversation 
with Senate Ethics staff in which I described these circumstances and 
was told that Senate staffers doing policy work exclusively were not 
required to maintain an active bar license. I also was informed by 
Senator Sessions' office that the office did not require that lawyers 
on staff maintain an active bar license.
    Nonetheless, I sought to reinstate both licenses in late 2003. 
According to the Kansas Bar's instructions for reinstatement, one 
requirement was that I submit an application tor reinstatement. 
Similarly, in order to get my District of Columbia bar license 
reinstated, I had to take and certify completion of the Course on the 
District of Columbia Rules of Professional Conduct and District of 
Columbia Practice, and I also had to submit a statement that I was not 
suspended by any disciplinary authority. See D.C. Bar Bylaws, Art. III, 
Sec. 3(a), available at www.dcbar.org/inside_the_bar/structure/bylaws/
articleO3.cfm#sec3. I took the required District of Columbia Bar 
course; submitted all necessary forms; paid all applicable fees and 
charges; and finished the remaining steps needed in order for the 
respective bars to accept my applications for reinstatement. On June 
10, 2004, my Kansas license was reinstated to active status, as was my 
District of Columbia license on June 18, 2004. I was a member in good 
standing of each bar before September 30, 2003, and without exception, 
I have been a member in good standing of each bar since June 18, 2004. 
However, I greatly regret the oversight that resulted in the 
administrative suspensions between those dates and will not allow such 
an oversight to happen again.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                         Resume of Ajit V. Pai
Experience

Federal Communications Commission. Chairman (2017-present); 
Commissioner (2012-17).

Jennet & Block, LLP. Partner (2011-12) in firm's communications 
practice.

Federal Communications Commission. Special Advisor (2010-11); Deputy 
General Counsel (2007-10); and Associate General Counsel (2007), Office 
of General Counsel.

U.S. Senate Judiciary Committee, Subcommittee on the Constitution, 
Civil Rights, and Property Rights. Chief Counsel (2005-07).

U.S. Department of Justice, Office of Legal Policy. Senior Counsel 
(2004-05).

U.S. Senate Judiciary Committee, Subcommittee on Administrative 
Oversight and the Courts. Deputy Chief Counsel (2003-04).

Verizon Communications Inc. Associate General Counsel (2001-03).

U.S. Department of Justice, Antitrust Division, Telecommunications Task 
Force, Trial Attorney, Attorney General's Honors Program (1998-2001).

Hon. Martin L.C. Feldman. U.S. District Court, Eastern District of 
Louisiana. Law Clerk (1997-98).
Education

University of Chicago Law School. J.D., 1997.

  <bullet> University of Chicago Law Review. Editor (1996-97); Staff 
        Member (1995-96).

  <bullet> Hinton Moot Court Competition. Semifinalist; winner of 
        Thomas R. Mulroy Prize (1997).

Harvard University. B.A. with honors in Social Studies, 1994.

  <bullet> Harvard Speech and Parliamentary Debate Society. Member 
        (1990-94).
Selected Publications
Op-Ed, Des Moines Register, ``Bringing Better, Faster Internet Access 
to Iowa'' (Oct. 10, 2016).

Op-Ed (with Senator Shelley Moore Capito), Beckley (WV) Register Herald 
``Bridge is a physical reminder of the digital divide in West 
Virginia'' (Aug. 2, 2016).

Op-Ed (with Representative Anna Eshoo), WIRED, ``The Feds Have to Act 
to Get America Faster Wi-Fi'' (Fed. 7, 2016).

Article, ``Congress and the Constitution: The Legal Tender Act of 
1862,'' 77 Oregon Law Review 535 (1998).

Comment, ''Should a Grand Jury Subpoena Override a District Court's 
Protective Order?'', 64 University of Chicago Law Review 317 (1997). 
Proposal adopted, In re Grand Jury Subpoena, 138 F.38 442, 445 (1st 
Cir. 1998); In re Grand Jury, 286 F.3d 153, 162-63 (3rd Cir. 2002).

    The Chairman. Thank you, Chairman Pai.
    Ms. Rosenworcel, welcome back to the Committee.

             STATEMENT OF HON. JESSICA ROSENWORCEL,

                    NOMINEE TO BE A MEMBER.

       FEDERAL COMMUNICATIONS COMMISSION (REAPPOINTMENT)

    Ms. Rosenworcel. Thank you. Good morning, Chairman Thune, 
Ranking Member Nelson, and members of the Committee. Thank you 
for the opportunity to appear here before you today. I am 
honored to have been renominated by the President to serve as 
Commissioner at the Federal Communications Commission.
    And I would like to begin by introducing my family. Sitting 
behind me is my husband of 17 years, Mark Bailen. And sitting 
next to him is our son, Emmett Joseph, who is 7 years old. His 
10-year-old sister, Caroline Frances, could not be here today. 
She sends her regrets because she's away at summer camp.
    [Laughter.]
    Ms. Rosenworcel. As you may know, I previously had the 
honor of serving as Commissioner, but I stepped down from this 
position at the start of this year, and I headed home. Since 
that time, I have had the sweet privilege of attending every 
school performance and little league game, and I've had the 
opportunity to reacquaint myself with the world through my 
children's eyes and experiences as digital natives.
    And it's trite but true, but a little distance provides 
some perspective, and in my time away, one thing has become 
abundantly clear: the future belongs to the connected. No 
matter who you are or where you live in this country, you need 
access to modern communications to have a fair shot at 21st 
century success. The choices we make today about communications 
technology, infrastructure, and access are an inheritance for 
the next generation. How we grapple now with the disrupting and 
democratizing effects of digitization will play no small role 
in determining American success in the future.
    The stakes are high, so, of course, a little humility 
helps, and that is why I believe that the work of the agency 
must emphasize what is time-tested and enduring. To this end, I 
believe the work of the Commission must be guided by four 
essential values that have informed communications policies for 
decades.
    First, public safety. We need policies that ensure that our 
networks are available when the unthinkable occurs and we need 
them most.
    Second, universal access. We need policies that foster the 
deployment of modern communications, not just in urban areas, 
but also in rural areas.
    And, third, competition, because competition, of course, is 
the best way to increase innovation and lower prices.
    And fourth, and finally, consumer protection. 
Communications services are multiplying in our economy and in 
their importance in our daily lives. So we should always be on 
guard for opportunities to help consumers make good choices. 
These values derive from the law and informed my work at the 
Commission in the past, and that includes my efforts to 
strengthen 911 service, which were based on input from visits 
with first responders all across the country. It also includes 
my efforts to increase access to broadband in our schools and 
increase opportunities for digital age education.
    Furthermore, I am proud to have worked on spectrum policies 
for both licensed and unlicensed airwaves that have made this 
country's wireless markets competitive, innovative, and strong.
    However, there is more work to be done to bring 
communications policy into the future, and that includes work 
following the world's first spectrum incentive auctions, 
managing the impact of those auctions on our nation's local 
broadcasters, and building on our wireless success with the 
next generation of mobile service, known as 5G. That's going to 
require new ideas to spur innovation, spark entrepreneurship, 
incentivize the deployment of new networks, and help bring the 
benefits of modern communications to everyone everywhere across 
the country.
    If reconfirmed, I look forward to working with the 
individuals at this table and all others at the Commission. And 
if reconfirmed, I will be guided by the fundamental values in 
the law that I discuss with you here today. And if reconfirmed, 
I will continue to respect the priorities of this Committee.
    In closing, thank you, Chairman Thune, Ranking Member 
Nelson, and members of the Committee. I appreciate the 
opportunity to appear before you today. And I look forward to 
answering any questions you might have.
    [The prepared statement and biographical information of Ms. 
Rosenworcel follow:]

Prepared Statement of Hon. Jessica Rosenworcel, Nominee to be a Member, 
           Federal Communications Commission (Reappointment)
    Good morning, Chairman Thune, Ranking Member Nelson, and Members of 
the Committee. Thank you for the opportunity to appear before you 
today. I am honored to have been re-nominated by the President to serve 
as Commissioner at the Federal Communications Commission.
    I would like to begin by introducing my family. Sitting behind me 
is my husband of seventeen years, Mark Bailen. Sitting beside him is 
our son, Emmett Joseph, who is seven years old. His ten-year-old 
sister, Caroline Frances, could not be here today and sends her regrets 
because she is away at camp.
    As you may know, I previously had the honor of serving as 
Commissioner. But I stepped down from this position at the start of the 
year--and I headed home. Since that time I have had the sweet privilege 
of attending every school performance and every little league game. I 
have had the opportunity to reacquaint myself with the world through my 
children's eyes and experience as digital natives.
    It's trite, but true, that a little distance provides perspective. 
In my time away, one thing has become abundantly clear: The future 
belongs to the connected. No matter who you are or where you live in 
this country, you need access to modern communications for a fair shot 
at 21st century success. The choices we make today about communications 
technology, infrastructure, and access are an inheritance for the next 
generation. How we grapple now with the disrupting and democratizing 
effects of digitization will play no small role in determining American 
success in the future.
    The stakes are high, so a little humility helps. That is why I 
believe that the work of the Commission must emphasize what is most 
time-tested and enduring. To this end, I believe the work of the 
Commission must be guided by four essential values that have informed 
communications law in this country for decades.
    First, public safety. Our networks must be available when the 
unthinkable occurs and we need them most.
    Second, universal access. We need policies that foster deployment 
in urban areas, rural areas, and everything in between.
    Third, competition. Competition is the best way to increase 
innovation and lower prices.
    Fourth, consumer protection. Communications services are 
multiplying in our economy and in their importance in our daily lives. 
But the marketplace can be bewildering to navigate. So we should always 
be on the lookout for ways to help consumers make good choices.
    These values derive from the law and informed my work at the 
Commission in the past. This includes my efforts to strengthen 911 
service, based on input from visits with first responders across the 
country. It also includes my efforts to increase access to broadband in 
our schools and enhance opportunities for digital age education. 
Furthermore, I am proud to have worked on spectrum policies--for 
licensed and unlicensed airwaves--that have made this country's 
wireless markets competitive, innovative, and strong.
    However, there is more work to be done--to bring communications 
policy into the future. That includes work following the world's first 
spectrum incentive auctions, managing the impact of this transition on 
local broadcasters, and building on our wireless success with the next 
generation of mobile service--known as 5G. It requires new ideas to 
spur competition, spark entrepreneurship, incentivize the deployment of 
new networks, and help bring the benefits of modern communications to 
everyone, everywhere across the country.
    If re-confirmed, I look forward to working on what lies ahead with 
the individuals here with me today and all others at the Commission.
    If re-confirmed, I will continue to be guided by the fundamental 
values in the law. If re-confirmed, I will continue to respect the 
priorities of this Committee. I also pledge to listen to you, those 
with business before the Commission--and above all the American people.
    In closing, Chairman Thune, Ranking Member Nelson, and Members of 
the Committee, thank you for the opportunity to appear before you 
today. I look forward to answering your questions.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Jessica 
Rosenworcel.
    2. Position to which nominated: Commissioner, Federal 
Communications Commission.
    3. Date of Nomination: June 15, 2017.
    4. Address (List current place of residence and office addresses):
    Residence: Information not released to the public.
    5. Date and Place of Birth: 7/12/71; Boston, Massachusetts.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).
    Spouse: Mark Bailen, Partner at Baker Hostetler.
    7. List all college and graduate degrees. Provide year and school 
attended.

        Wesleyan University, BA, 1993
        New York University School of Law, JD, 1997

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        Commissioner, Federal Communications Commission

        Senior Communications Counsel, U.S. Senate Committee on 
        Commerce, Science, and Transportation

        Senior Legal Advisor, Office of Commissioner Michael J. Copps, 
        Federal Communications Commission

        Legal Advisor to the Bureau Chief, Wireline Competition Bureau, 
        Federal Communications Commission

        Attorney, Drinker Biddle & Reath

    9. Attach a copy of your resume.
    A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last ten years. None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last ten years. None.
    12. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Federal Communications Bar Association
                Chair, Cable Practice Committee (2007-2008)
                Chair, Legislative Practice Committee (2009)

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.
    Not applicable.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period.

        $1,000--Obama for America, 2008
        $2,700--Hillary Victory Fund, 2016

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        White Prize for Excellence in Economics, Wesleyan University 
        (1993)

        Special Act Award for Contributions to Common Carrier Bureau, 
        Federal Communications Commission (1999)

        Women Who Represent Award, Alliance for Women in Media (2013)

        Leadership in Advancing Communications Policy Award, 
        Association of Public Safety Communications Officials 
        International (2013)

        Impact Award for Public Service, National Hispanic Media 
        Coalition (2013)

        Federal Policymaker Award, State Education Technology Directors 
        Association (2013)

        Award for Excellence in Public Service, Consortium for School 
        Networking (2014)

        Special Recognition Award, CEF Gala (2015)

        Award for Outstanding Achievement, Family Online Safety 
        Institute (2014)

        Broadband Hero of the Year, National Association of 
        Telecommunications Officers and Advisors (2016)

        Community Builder Award, National Coalition for Technology in 
        Education (2017)

        Advocacy Award, CUE (2017)

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
Articles
    As a Commissioner I authored and/or co-authored the following:

        ``Transforming Education Digitally,'' co-authored with Rep. 
        Anna Eshoo, Politico (June 3, 2013);

        ``High-Speed Internet Access a Classroom Necessity,'' co-
        authored with San Antonio Mayor Julian Castro, San Antonio 
        Express (June 25, 2013);

        ``A Federal Wireless Policy Built on Carrots, Not Sticks,'' The 
        Hill (June 27, 2013);

        ``Giving Our Kids a Chance to Compete in the Global Economy 
        Means High-Speed Broadband Capacity,'' co-authored with 
        Mooresville, North Carolina School Superintendent Dr. Mark 
        Edwards, Huffington Post (July 24, 2013);

        ``Bring Wireless 911 Up to Date,'' The Hill (January 14, 2014); 
        ``Growing Unlicensed Spectrum, Growing the Economy,'' Re/code 
        (February 21, 2014);

        ``Let's Upgrade Our Schools for the Digital Age,'' co-authored 
        with Rep. Doris Matsui and Sacramento Mayor Kevin Johnson, 
        Sacramento Bee (April 25, 2014);

        ``Here's How to Expand Wireless Spectrum, '' co-authored with 
        Marty Cooper, San Jose Mercury News (September 26, 2014);

        ``Sandbox Thinking,'' Democracy Journal (Fall 2014);

        ``The Spectrum Pipeline,'' Silicon Valley Leadership Group 
        Gamechangers 2015 (Fall 2014);

        ``The Race to 5G is On,'' Re/code (October 27, 2014);

        ``A New Year, a Bolder and Better E-Rate,'' Huffington Post 
        (December 3, 2014);

        ``How to Close the Homework Gap,'' Miami Herald (December 5, 
        2014);

        ``Let's Give Our Students a Chance to Compete in the Digital 
        Age,'' co-authored with Sen. Angus King, Roll Call (December 
        10, 2014);

        ``Limited Internet Access a Challenge for Detroit Kids, Detroit 
        Free Press (March 16, 2015);

        ``Falling through the Homework Gap,'' Providence Journal (April 
        25, 2015);

        ``Filling in the Homework Gap,'' Virginia Daily Press (May 30, 
        2015); ``Bridging the Homework Gap,'' Huffington Post (June 15, 
        2015);

        ``Boost the Homework Connection,'' Albany Times Union (March 
        29, 2016);

        ``Connecting Students at School and at Home,'' Principal 
        Leadership (April 2016);

        ``The Cleveland Homework Gap When There's No Internet at 
        Home,'' Cleveland Plain Dealer (April 22, 2016);

        ``We Need More Wi-Fi,'' Morning Consult (June 20, 2016);

        ``Millions of Children Can't Do Their Homework Because They 
        Don't Have Access to Broadband Internet,'' Aspen Ideas Festival 
        Blog (June 29, 2016);

        ``Action Needed to Advance the Next Generation 911,'' co-
        authored with Betty Wafer, Manager, Dallas Police Department, 
        The Hill (June 30, 2016);

        ``Moving Next Generation 911 Forward,'' co-authored with Lance 
        Terry, Communications Manager of Norman, Oklahoma, The 
        Oklahoman (September 24, 2016); and

        ``Homework Gap Hurts Poor, Rural Students,'' co-authored with 
        Sen. Tom Udall, Las Cruces Sun News (October 22, 2016).

    As Legal Counsel to the Wireline Competition Bureau I co-authored 
the following:

        ``Assessing the Effectiveness of Section 271 Five Years After 
        the Telecommunications Act of 1996,'' co-authored with Daniel 
        Shiman, Chapter 7, Communications Policy and Information 
        Technology: Promises, Problems, Prospects, MIT Press (2002).
Speeches
    As a Commissioner, I spoke at a variety of events, including, but 
not limited to the following:

        August 21, 2012--Speech at Association for Public Safety 
        Communications Officials International 78th Annual Conference, 
        held in Minneapolis, MN;

        November 13, 2012--Speech on The Next Ten Years of Spectrum 
        Policy, Silicon Flatirons Conference sponsored by the 
        University of Colorado, held in Washington, D.C.;

        November 15, 2012--Speech at The Media Institute Awards, held 
        in Washington, D.C.;

        December 13, 2012--Speech at Practising Law Institute, 30th 
        Annual Telecommunications Policy and Regulation Institute, held 
        in Washington, D.C.;

        February 4, 2013--Speech at Rural Telecom Industry Meeting & 
        Expo, held in Orlando, FL;

        April 11, 2013--Speech at Washington Education Technology 
        Policy Summit, held in Washington, D.C.;

        May 14, 2013--Speech at Association for Public Safety 
        Communications Officials International Policy Awards Dinner, 
        held in Washington, D.C.;

        May 22, 2013--Speech at CTIA--The Mobile Marketplace, held in 
        Las Vegas, NV;

        July 1, 2013--Speech at American Telemedicine Association 
        Policy Summit, held in Washington, D.C.;

        September 19, 2013--Speech at It Can Wait Campaign's Drive 4 
        Pledges Day to Prevent Texting While Driving, held in 
        Washington, D.C.;

        October 25, 2013--Speech at Women in Science Awards Ceremony, 
        held in New York, NY;

        October 29, 2013--Speech at Future of Music Summit, held in 
        Washington, D.C.;

        November 4, 2013--Speech at West Virginia Broadband Summit, 
        held in Morgantown, WV;

        November 4, 2013--Speech at State Education Technology 
        Directors Association Federal Policymaker Award Ceremony, held 
        in Washington, D.C.;

        November 14, 2013--Speech at Women Who Represent Awards, held 
        in Washington, D.C.;

        November 21, 2013--Speech at White House Champions of Change 
        Event, held in Washington, D.C.;

        December 4, 2013--Speech at Association of Public Safety 
        Communications Officials International Emerging Tech Conference 
        held in Boston, MA;

        December 12, 2013--Speech at Institute of Electrical and 
        Electronics Engineers Globecom Conference, held in Atlanta, GA;

        January 24, 2014--Speech on Families Educational Media Use in 
        America at The Joan Ganz Cooney Center at Sesame Workshop, held 
        in New York, NY;

        March 17, 2014--Speech at Satellite Industry Association 
        Leadership Dinner, held in Washington, D.C.;

        March 7, 2014--Speech on Wi-Fi in the 5 GHz Fast Lane at the 
        National Press Club in Washington, D.C.;

        March 7, 2014--Speech at South by Southwest Education 
        Conference, held in Austin, TX;

        March 20, 2014--Speech at Consortium for School Networking 
        Award for Excellence in Public Service, held in Washington, 
        D.C.;

        May 6, 2014--Speech on Moving Wi-Fi Forward at The Newseum, 
        held in Washington, D.C.;

        May 7, 2014--Speech at Chief Officers of State Library Agencies 
        Meeting, held in Washington, D.C.;

        June 19, 2014--Speech at Workshop on Prevention of Mobile 
        Device Theft, held in Washington, D.C.;

        August 6, 2014--Speech at Association of Public Safety 
        Communications Officials International Conference, held in New 
        Orleans, LA;

        September 11, 2014--Speech on The Future of Unlicensed Spectrum 
        at the Computer History Museum, held in Mountain View, CA;

        September 16, 2014--Speech on Latino 2.0: Latinos in Tech 
        Innovation & Social Media, held in New York, NY;

        September 22, 2014--Speech at GSMA Mobile 360, held in Atlanta, 
        GA;

        September 30, 2014--Speech on Sandbox Thinking at the Democracy 
        Symposium, held in Washington, D.C.;

        October 2, 2014--Speech at the Marconi Society Symposium, the 
        National Academy of Sciences, held in Washington, D.C.;

        October 14, 2014--Speech at 4G Americas Technology Briefing, 
        held in Washington, D.C.;

        October 29, 2014--Speech at W3C 20th Anniversary Symposium: The 
        Future of the Web, held in Santa Clara, CA;

        November 13, 2014--Speech at Family Online Safety Institute 
        Award for Outstanding Achievement, held in Washington, D.C.;

        January 27, 2015--Speech at State of the Net Conference, held 
        in Washington, D.C.;

        February 4, 2015--Speech at Texas Computer Education 
        Association, held in Austin, TX;

        March 16, 2015--Speech on Supersizing Wi-Fi at South by 
        Southwest Interactive, held in Austin, TX;

        April 29, 2014--Speech on Taking the Pulse of the High School 
        Student Experience in America at Hispanic Heritage Foundation, 
        held in Washington, D.C.;

        June 29, 2015--Speech on Women in Consumer Electronics, held in 
        New York, NY;

        September 3, 2015--Speech on Montana Veterans, Tele-Acute & 
        Rural Health Financing, held in Kalispell, MT;

        October 7, 2015--Speech at Committee for Education Funding 
        Gala, held in Washington, D.C.;

        January 12, 2016--Speech on The Road to Gigabit Wi-Fi at New 
        America, held in Washington, D.C.;

        February 2, 2016--Speech on Spectrum Policy at Forum Global 
        Americas Spectrum Management Conference, held in Washington, 
        D.C.;

        February 9, 2016--Speech on Five Ideas for the Road to 5G at 
        Leadership Forum on 5G: The Next Generation of Wireless, held 
        in Washington, D.C.;

        February 22, 2016--Speech on Spectrum Policy at Mobile World 
        Congress, held in Barcelona, Spain;

        March 17, 2016--Speech on Closing the Homework Gap at CUE16, 
        held in Palm Springs, CA;

        May 16, 2016--Speech on 911 at APCO Broadband Summit, held in 
        Washington, D.C.;

        June 8, 2016--Speech on the Wireless Network of the Future, 
        held in Dallas, TX;

        September 8, 2016--Speech on the Broadband Imperative and the 
        Homework Gap at State Education Technology Directors 
        Association, held in Washington, D.C.; and

        October 26, 2016--Speech on Robocall Strike Force, held in 
        Washington, D.C.

    As Senior Communications Counsel at the U.S. Senate Committee on 
Commerce, Science and Transportation, I spoke at a variety of events, 
including, but not limited to the following:

        June 8, 2007--Panel on communications issues at Pike and 
        Fisher's Broadband Policy Summit, held in Arlington, VA;

        September 17, 2007--Panel on congressional issues at Future of 
        Music Policy Summit, held in Washington, D.C.;

        January 28, 2008--Panel on congressional issues at Alaska 
        Telephone Association Winter Convention, held in Lihue, HI;

        March 5, 2008--Panel on emergency communications at policy 
        conference sponsored by the E-911 Institute, held in Arlington, 
        VA;

        March 13, 2008--Panel on communications issues at policy 
        conference sponsored by Association for Maximum Service 
        Television, held in Washington, D.C.;

        January 5, 2009--Panel on Implementing the Broadband Stimulus: 
        Maximizing Benefits and Monitoring Performance sponsored by 
        Columbia Institute for Tele-Information and Georgetown 
        University McDonough Business School, held in Washington, D.C.;

        April 2, 2009--Panel on congressional issues at The Cable Show, 
        held in Washington, D.C.;

        March 31, 2009--Panel on legislative issues at the National 
        Association of Broadcasters State Leadership Conference, held 
        in Washington, D.C.;

        May 14, 2009--Panel on Changing Media: Thinking Across the 
        Issues, Part 2, James L. Knight Foundation, held in Washington, 
        D.C.; and

        March 2, 2010--Panel on the FCC's Authority, sponsored by the 
        Berkman Center for Internet & Society and the Wharton School, 
        held in Washington, D.C.

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.

        November 30, 2011--Nomination Hearing, U.S. Senate Committee on 
        Commerce, Science, and Transportation (with Ajit Pai);

        May 16, 2012--Federal Communications Commission Oversight 
        Hearing, U.S. Senate Committee on Commerce, Science, and 
        Transportation;

        July 10, 2012--Federal Communications Commission Oversight 
        Hearing, U.S. House of Representatives Committee on Energy and 
        Commerce;

        December 12, 2012--Hearing on keeping the New Broadband 
        Spectrum Law on Track, U.S. House of Representatives Committee 
        on Energy and Commerce;

        March 12, 2013--Federal Communications Commission Oversight 
        Hearing, U.S. Senate Committee on Commerce, Science, and 
        Transportation;

        August 19, 2013--Field Hearing on the State of Rural 
        Communications, U.S. Senate Committee on Commerce, Science, and 
        Transportation;

        December 12, 2013--Federal Communications Commission Oversight 
        Hearing, U.S. House of Representatives Committee on Energy and 
        Commerce;

        March 18, 2015--Federal Communications Commission Oversight 
        Hearing, U.S. Senate Committee on Commerce, Science, and 
        Transportation;

        March 19, 2015--Federal Communications Commission Oversight 
        Hearing, U.S. House of Representatives Energy & Commerce 
        Committee;

        July 29, 2015--Hearing on Wireless Broadband and the Future of 
        Spectrum Policy, U.S. Senate Committee on Commerce, Science, 
        and Transportation;

        October 28, 2015--Nomination Hearing, U.S. Senate Committee on 
        Commerce, Science, and Transportation;

        November 17, 2015--Federal Communications Commission Oversight 
        Hearing, U.S. House of Representatives Energy and Commerce 
        Committee;

        March 2, 2016--Federal Communications Commission Oversight 
        Hearing, U.S. Senate Committee on Commerce, Science, and 
        Transportation;

        March 22, 2016--Federal Communications Commission Oversight 
        Hearing, U.S. House of Representatives Energy and Commerce 
        Committee;

        July 12, 2016--Federal Communications Commission Oversight 
        Hearing, U.S. House of Representatives Energy and Commerce 
        Committee; and

        September 15, 2016--Federal Communications Commission Oversight 
        Hearing, U.S. Senate Committee on Commerce, Science, and 
        Transportation.

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I have two decades of experience in communications policy. I have 
worked on communications and technology matters from a wide variety of 
positions--both in the private and public sector. This includes 
positions in a law firm, as a Commissioner at the Federal 
Communications Commission, and as Senior Communications Counsel at the 
Senate Committee on Commerce, Science, and Transportation.
    I believe that I have used this background to make a positive 
contribution to communications policy--and hope to be able to continue 
to do so by protecting consumers, promoting access to new services, and 
fostering investment and innovation.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    All government officials operate in positions of trust and have a 
duty to ensure that the organization where they work has proper 
management and accounting controls.
    I have experience managing an office at the agency; managing 
policies involving communications at the Senate Committee on Commerce, 
Science and Transportation; and managing client matters at a private 
law firm.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    Protecting consumers. As technologies evolve, one thing is 
paramount--consumers should be the ultimate beneficiaries of policy 
choices by the Federal Communications Commission.
    Securing access. As technologies evolve, it is imperative that all 
people in this country, no matter who they are or where they live, have 
access to the communications services that are necessary for 21st 
century opportunity, safety, and economic security.
    Growing economy. Digital services are now a vital feature of our 
economy, providing certainty to companies is an essential part of 
promoting investment, fostering innovation, and creating jobs.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    None. My financial interests are disclosed on my SF-278.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain. None.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    None. My husband is a partner at Baker Hostetler. His practice 
involves commercial litigation and does not include advocacy before the 
Federal Communications Commission.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated. None.
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy.
    I previously served as a Commissioner at the Federal Communications 
Commission. In this position, from time to time, I am asked my thoughts 
on legislative matters pending before the Congress.
    I also previously served as Senior Communications Counsel at the 
Senate Committee on Commerce, Science and Transportation. In this 
capacity I regularly advised Senate offices on communications policy 
and legislation.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    Not applicable.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics, 
professional misconduct, or retaliation by, or been the subject of a 
complaint to, any court, administrative agency, the Office of Special 
Counsel, professional association, disciplinary committee, or other 
professional group? If yes:

  a.  Provide the name of agency, association, committee, or group;

  b.  Provide the date the citation, disciplinary action, complaint, or 
        personnel action was issued or initiated;

  c.  Describe the citation, disciplinary action, complaint, or 
        personnel action;

  d.  Provide the results of the citation, disciplinary action, 
        complaint, or personnel action.

    No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain. No.
    3. Have you or any business or nonprofit of which you are or were 
an officer ever been involved as a party in an administrative agency 
proceeding, criminal proceeding, or civil litigation? If so, please 
explain. No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain. No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain. No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination. None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                     Resume of Jessica Rosenworcel
Legal and Policy Experience
Federal Communications Commission, Washington, DC 2012-2017
Commissioner
Developed and implemented communications policy involving radio, 
television, wire, satellite and cable services as a member of the 
United States' primary authority for communications law, regulation and 
technological innovation.

United States Senate
Committee on Commerce, Science, and Transportation, Washington, DC
Senior Communications Counsel 2009-2012
Developed and implemented communications policy agenda for the 
Democratic members of the Committee on Commerce, Science, and 
Transportation, under the leadership of Senator Jay Rockefeller (D-West 
Virginia). Organize hearings regarding the National Broadband Plan, 
universal service and rural communications, Children's Television Act, 
future of journalism, wireless service, communications accessibility 
for the disabled, retransmission consent for video programming, 
satellite television, public safety spectrum and oversight of the 
Federal Communications Commission and National Telecommunications and 
Information Administration. Develop and work to secure passage of 
legislation, including the Broadband Technology Opportunities Program 
in the American Recovery and Reinvestment Act, DTV Delay Act, Satellite 
Television Extension and Localism Act, 21st Century Communications and 
Video Accessibility Act and Public Safety Spectrum and Wireless 
Innovation Act.

Senior Communications Counsel 2007-2008
Developed and implemented communications policy agenda for the 
Democratic members of the Committee on Commerce, Science, and 
Transportation, under the leadership of Senator Daniel K. Inouye (D-
Hawaii). Organized hearings regarding the digital television 
transition, broadband deployment and adoption, universal service, media 
ownership, media violence and indecency, network neutrality, online 
privacy and oversight of the Federal Communications Commission and 
National Telecommunications and Information Administration. Developed 
and worked to secure passage of legislation, including the Broadband 
Data Improvement Act, DTV Transition Assistance Act, Child Safe Viewing 
Act, and New and Emerging Technologies 911 Improvement Act.

Federal Communications Commission, Washington, DC
Senior Legal Advisor to Commissioner Michael J. Copps 2006-2007
Advised Senior Democratic Commissioner on television, radio and cable 
policy issues arising under the Communications Act and Cable Television 
and Consumer Protection Act. Developed office positions and strategy 
for advancing telecommunications, Internet, wireless and media policy 
priorities. Managed office staff. Provided legal analysis and voting 
recommendations for Commission decisions. Drafted speeches, editorials 
and press statements. Coordinated policy decisions with Congressional 
offices, state and local officials and industry representatives.

Legal Advisor to Commissioner Michael J. Copps 2003-2006
Advised Senior Democratic Commissioner on competition policy and 
universal service issues arising under the Telecommunications Act. 
Developed policy positions on broadband deployment, Internet access, 
rural communications, public safety networks, E-Rate and VoIP. Provided 
legal analysis and voting recommendations for Commission decisions. 
Drafted Senate testimony, speeches and press statements. Coordinated 
policy decisions with Congressional offices and state regulatory 
authorities.

Legal Counsel to Bureau Chief, Wireline Competition Bureau 2002-2003
Advised Bureau Chief on universal service and broadband policy. 
Coordinated wireline policy with Wireless Telecommunications Bureau, 
Cable Services Bureau and International Bureau. Taught World Bank 
telecommunications workshops for the Economic Ministry of Latvia.

Attorney Advisor, Policy Division, Common Carrier Bureau 1999-2002
Managed teams drafting decisions concerning broadband deployment and 
competitive entry into local and long distance markets. Recipient of 
Special Act Award for policy contributions to the Common Carrier Bureau 
in 2000.

Drinker Biddle & Reath, Washington, DC
Communications Associate 1997-1999
Drafted merger documents for privatization of state-owned telephone 
company. Prepared Bureau of Export Administration license application 
for cable modem encryption technology.

Reboul, MacMurray, Hewitt, Maynard & Kristol, New York, NY
Summer Associate 1996
Drafted securities purchase agreements for venture capital and buyout 
firm transactions.

United States Attorney's Office, Brooklyn, NY
Summer Fellow, Criminal Division 1995
Researched and drafted motions on issues of evidence, criminal law and 
criminal procedure.

Skadden, Arps, Slate, Meagher & Flom, New York, NY
Legal Assistant 1993-1994
Managed litigation documents.

Education
New York University School of Law, New York, NY JD, 1997
Honors: Annual Survey of American Law, Editor

Wesleyan University, Middletown, CT BA, Economics and English, 1993
Honors: White Prize for Excellence in Economics

Publications

        ``Homework Gap Hurts Poor, Rural Students,'' co-authored with 
        Senator Tom Udall, Las Cruces Sun-News, October 22, 2016.

        ``Moving Next Generation 911 Forward,'' co-authored with Lance 
        Terry, The Oklahoman, September 24, 2016.

        ``Action Needed to Advance Next Generation 911,'' co-authored 
        with Betty Wafer, The Hill, June 30, 2016.

        ``We Need More Wi-Fi,'' Morning Consult, June 20, 2016.

        ``The Cleveland Homework Gap When There's No Internet at 
        Home,'' Cleveland Plain Dealer, April 22, 2016.

        ``Boost the Homework Connection,'' Albany Times Union, March 
        29, 2016.

        ``Limited Internet Access a Challenge for Detroit Kids,'' 
        Detroit Free Press, March 16, 2015. ``How to Close the Homework 
        Gap,'' Miami Herald, December 5, 2014.

        ``A New Year, a Bolder and Better E-Rate,'' Huffington Post, 
        December 3, 2014.

        ``The Race to 5G is On,'' Re/code, October 27, 2014.

        ``The Spectrum Pipeline,'' Silicon Valley Leadership Group 
        Gamechangers 2015, Fall 2014.

        ``Sandbox Thinking,'' Democracy Journal, Fall 2014.

        ``Here's How to Expand Wireless Spectrum,'' co-authored with 
        Marty Cooper, San Jose Mercury News, September 26, 2014.

        ``Let's Upgrade Our Schools for the Digital Age,'' co-authored 
        with Rep. Doris Matsui and Sacramento Mayor Kevin Johnson, 
        Sacramento Bee, April 25, 2014.

        ``Growing Unlicensed Spectrum, Growing the Economy,'' Re/code, 
        February 21, 2014.

        ``Bring Wireless 911 Up to Date,'' The Hill, January 14, 2014.

        ``A Federal Wireless Policy Built on Carrots, Not Sticks,'' The 
        Hill, July 27, 2013.

        ``Transforming Education Digitally,'' co-authored with Rep. 
        Anna Eshoo, Politico, June 3, 2013.

        ``Assessing the Effectiveness of Section 271 Five Years After 
        the Telecommunications Act of 1996,'' Jessica Rosenworcel & 
        Daniel R. Shiman, Chapter 7, Communications Policy and 
        Information Technology: Promises, Problems, Prospects, MIT 
        Press, 2002.

    The Chairman. Thank you, Ms. Rosenworcel.
    Mr. Carr, welcome to the Committee.

  STATEMENT OF BRENDAN CARR, NOMINEE TO BE A MEMBER, FEDERAL 
                   COMMUNICATIONS COMMISSION

    Mr. Carr. Chairman Thune, Ranking Member Nelson, 
distinguished members of the Committee, it's a privilege to 
appear before you today. I am humbled by President Trump's 
decision to nominate me to serve as a Commissioner at the FCC, 
and I'm honored to have this Committee consider that 
nomination.
    I want to start by thanking you and your staffs for the 
courtesies you've shown me over the past few weeks. The chance 
to meet with you has given me the opportunity to learn more 
about the telecom and communications issues that are important 
to you and to your states.
    These meetings have only underscored the important role the 
FCC plays in the lives of all Americans, whether it's promoting 
broadband deployment, protecting consumers, or advancing public 
safety.
    And with the Committee's indulgence, I would like to take a 
moment to introduce my family. My wonderful wife, Machalagh, 
our two terrific boys, Quinn, who is three, and Emmet, who is 
six months. We're just blessed to be their parents. I also want 
to introduce my parents, Tom Carr and Barbara Carr. I know that 
for my dad this is a bit of a homecoming. His first job during 
college in D.C. was to work as a Mail Sorter in the Post Office 
here in Dirksen, so he's really glad to get the chance to come 
back.
    I also want to congratulate Chairman Pai and Commissioner 
Rosenworcel on their renominations. I've worked with both of 
them, as well as Commissioners Clyburn and O'Rielly, at the FCC 
for a number of years now. I can say that they are all 
exceptionally thoughtful and dedicated public servants.
    I currently have the privilege of serving as the general 
counsel of the FCC. It's not the first job I've had at the 
agency, however. I joined the Commission over five years ago 
now as a staffer during the Obama administration. I worked in 
the Office of General Counsel providing advice to the Wireless 
Bureau, Public Safety Bureau, and International Bureau. I then 
had the chance to work on some of the same issues for then 
Commissioner Pai.
    My passion for technology, however, started well before I 
joined the agency. In fact, I went to law school over 15 years 
ago now specifically for the purpose of studying 
telecommunications law and policy. After graduating, I worked 
at a law firm where I gained broad experience in this area, and 
I later accepted a clerkship with a judge on the Fourth 
Circuit, which helped spark my interest in public service.
    Looking back, I've learned a lot in the past dozen years 
working in communications. I've come to know and admire the 
FCC's terrific staff. They are passionate about delivering for 
the public interest. I've come to understand the importance of 
bipartisan consensus and working toward common ground, and if 
confirmed, I will certainly work in that spirit as a 
Commissioner.
    I want to talk briefly about the focus I bring to the 
Commission, if confirmed.
    First, we have a tremendous opportunity in the telecom 
space to create jobs, to spur investment and to grow the 
economy for the benefit of all Americans, and I believe the 
FCC's policies should do just that.
    Broadband is certainly going to play a key role, whether 
it's the app economy that runs over high-speed connections, the 
workers that manufacture network infrastructure and deploy it, 
or the businesses that use those connections to reach customers 
around the world. Broadband can harness the talents of all 
Americans, it can create good-paying jobs, and it can help 
drive our nation's economic growth.
    Second, we must maintain the United States' leadership in 
wireless. As 5G and other advanced and competitive networks 
come online, spectrum and infrastructure are going to be two 
key pieces of that, whether that's in connecting every American 
or the expanding Internet of Things.
    And, finally, the FCC must always promote public safety. 
This includes speeding the transition to Next-Generation 911 
and ensuring that our first responders have the communications 
technologies they need to do their jobs.
    So in closing, I want to thank the Committee again for 
taking the time to consider my nomination. I look forward to 
answering your questions.
    [The prepared statement and biographical information of Mr. 
Carr follow:]

      Prepared Statement of Brendan Carr, Nominee to be a Member, 
                   Federal Communications Commission
    Chairman Thune, Ranking Member Nelson, and distinguished Members of 
the Committee, it is a privilege to appear before you today. I am 
humbled by President Trump's decision to nominate me to serve as a 
Commissioner of the Federal Communications Commission, and I am honored 
to have this Committee consider that nomination.
    I want to start by thanking you and your staffs for the courtesies 
you have shown me over the past few weeks and for giving me the 
opportunity to learn more about the technology and communications 
issues that are important to you and your states. These meetings have 
only underscored the important role the FCC plays in the lives of all 
Americans--whether it is promoting broadband deployment, protecting 
consumers, or advancing public safety. If I am fortunate enough to be 
confirmed, I would welcome the opportunity to work with all of you on 
ways the FCC can continue to advance the public interest.
    With the Committee's indulgence, I would like to take a moment to 
introduce my family--my wonderful wife Machalagh and our two terrific 
boys: Quinn, who is three years old, and Emmet, who is six months. We 
are just blessed to be their parents. I also want to introduce my 
parents, Thomas Carr and Barbara Carr, as well as my sister Courtney 
Carr, and thank them for the support they have always shown me.
    I also want to extend my congratulations to Chairman Pai and 
Commissioner Rosenworcel on their renominations. I have had the chance 
to work with both of them, as well as Commissioner Clyburn and 
Commissioner O'Rielly, for a number of years at the FCC, and I know 
they are all exceptionally thoughtful and dedicated public servants.
    I currently have the privilege of serving as the FCC's General 
Counsel. It is an honor and a tremendously rewarding experience to lead 
the talented lawyers and other professionals that work in the Office of 
General Counsel.
    But this is not the first job I have had at the FCC. I joined the 
Commission as a staffer over five years ago. I worked initially as an 
attorney in the Administrative Law Division of the Office of General 
Counsel. My job was to provide advice to the policymakers in the 
agency's Wireless Telecommunications Bureau, Public Safety and Homeland 
Security Bureau, and International Bureau. Later, I had the chance to 
work on those same issues as an advisor to then Commissioner Pai.
    My passion for technology and communications started well before I 
joined the agency, however. In fact, I went to law school over fifteen 
years ago for the purpose of studying telecommunications law and 
policy. I obtained a certificate in communications law studies in 
addition to my J.D.
    During law school, I took the opportunity to intern twice at the 
FCC and once with the U.S. House of Representatives, Committee on 
Energy and Commerce, Subcommittee on Communications, Technology, and 
the Internet. Those experiences only confirmed that I made the right 
decision to study communications law, and they solidified my interest 
in spending my career working as a lawyer on communications issues.
    After graduating, I accepted a job at a law firm where I could gain 
broad experience working on various telecommunications issues. Later, I 
accepted a clerkship with a judge on the U.S. Court of Appeals for the 
Fourth Circuit, which helped spark my interest in public service and 
instilled in me the importance of considering all sides of any debate.
    I have learned a lot over the past dozen years working on 
communications law and policy. I have come to know and admire the FCC's 
terrific staff. They are passionate about delivering for the public 
interest, and they truly are the agency's best asset.
    My time at the Commission has also instilled in me an appreciation 
for the importance of bipartisan consensus and working towards common 
ground. I believe that focusing on our shared goals produces the best 
and lasting results for the public. I hope that my work at the FCC and 
my interactions with all stakeholders over the years have reflected my 
commitment to that approach. I can assure you that, if confirmed, I 
would work in that spirit as a Commissioner.
    I can also assure this Committee that, if confirmed, I would 
approach the job with an appreciation for the challenges we face and a 
determination to help solve them. In terms of my regulatory philosophy, 
I believe that the public interest is best served by vigorous 
competition in the marketplace. But when there are marketplace failures 
that harm consumers, the agency must take action consistent with the 
scope of our authority and the direction provided by Congress.
    We must always be willing to take a fresh look at any barriers to 
entry or competition that we can remove, and we must ensure that our 
regulatory framework supports innovation and entrepreneurship, reflects 
the realities of today's dynamic marketplace, and always promotes the 
public interest.
    With that in mind, I want to talk briefly about the focus I would 
bring to the Commission, if confirmed.
    We have a tremendous opportunity in the technology and 
communications space to create jobs, spur investment, and grow the 
economy for the benefit all Americans. If confirmed, I would work to 
ensure that the FCC's policies do just that.
    Broadband is certainly going to play a key role. Whether it is the 
app economy that runs over high-speed networks, the workers who deploy 
and make network infrastructure, or the businesses that use these 
connections to reach customers around the world, broadband can harness 
the talents of all Americans, create good-paying jobs, and help drive 
our nation's economic growth. So it is critical that we have policies 
in place that promote the construction and expansion of broadband 
networks in all parts of our country.
    I also believe it is important to maintain the United States' 
leadership in wireless. The wireless market in the United States has 
been a tremendous success story. The policies the FCC put in place a 
decade ago resulted in this country leading the world in the deployment 
of 4G wireless technologies. The current challenge is to ensure that we 
maintain that leadership as 5G and other advanced and competitive 
wireless networks (terrestrial and satellite alike) come online.
    Spectrum and infrastructure are going to play key roles in 
determining whether we meet that challenge. On the spectrum front, the 
FCC must continue to pursue an all-of-the-above approach. We need a 
spectrum pipeline that can deliver a mix of low-, mid-, and high-band 
spectrum into the commercial marketplace. And we need to ensure that 
providers can choose from a mix of licensed, unlicensed, and shared 
spectrum bands to meet consumer demand, whether to connect people or 
the burgeoning Internet of Things. On the infrastructure side, the FCC 
must make certain that its policies are tailored to facilitating next-
generation deployments.
    Finally, while technology continues to evolve, one constant is the 
FCC's obligation to promote public safety. This includes taking steps 
to facilitate the transition to Next-Generation 911 (or NG911), which 
can bring life-saving advances to those in need of emergency services 
and innovative solutions to our public safety community. It also means 
that the FCC must play its part in ensuring that public safety 
officials and first responders have access to the advanced 
communications technologies that will allow them to do their jobs 
safely and effectively. I believe that all stakeholders must work 
together to ensure that the agency is fulfilling its public safety 
obligations.
    Chairman Thune, Ranking Member Nelson, and Members of the 
Committee, I want to thank you again for considering my nomination. I 
look forward to answering your questions.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Brendan 
Thomas Carr.
    2. Position to which nominated: Commissioner, Federal 
Communications Commission.
    3. Date of Nomination: June 29, 2017.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.
        Office: Federal Communications Commission, 445 12th Street SW, 
        Washington, D.C. 20554.

    5. Date and Place of Birth: January 5, 1979; Washington, D.C.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).
    Spouse: Machalagh Carr, Oversight Staff Director, Committee on Ways 
and Means, U.S. House of Representatives.
    7. List all college and graduate degrees. Provide year and school 
attended.

        B.A., Georgetown University, Georgetown College (2001)
        J.D., and Certificate, Institute for Communications Law 
        Studies, Catholic University of America, Columbus School of Law 
        (2005)

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

  <bullet> Federal Communications Commission
    <ctr-circle> General Counsel (4/2017-Present)*

    <ctr-circle> Acting General Counsel (1/2017-4/2017)*

    <ctr-circle> Legal Advisor for Wireless, International, and Public 
            Safety, Office of Commissioner Ajit Pai (2/2014-1/
            2017)<dagger>

    <ctr-circle> Attorney-Advisor, Wireless, International, and Public 
            Safety Team, Administrative Law Division, Office of General 
            Counsel (6/2012-2/2014)<dagger>

    <ctr-circle> Legal Intern, Office of Commissioner Kathleen 
            Abernathy (9/2003-12/2003)<dagger>

    <ctr-circle> Law Clerk, Spectrum Enforcement Division, Enforcement 
            Bureau (6/2003-
            8/2003)<dagger>

  <bullet> Wiley Rein LLP
    <ctr-circle> Associate (9/2005-8/2008 and 8/2009-5/2012)<dagger>

  <bullet> Judge Dennis W. Shedd, U.S. Court of Appeals for the Fourth 
        Circuit
    <ctr-circle> Law Clerk (8/2008-7/2009)<dagger>

  <bullet> U.S. House of Representatives, Committee on Energy and 
        Commerce, Subcommittee on Communications, Technology, and the 
        Internet
    <ctr-circle> Legal Intern (2/2004-4/2004)<dagger>

  <bullet> Venable, Baetjer, Howard & Civiletti LLP
    <ctr-circle> Paralegal (9/2001-8/2002)

  <bullet> Credit Debt Solutions
    <ctr-circle> Sales (6/2001-8/2001)

    *Denotes management-level job that is relevant to the position for 
which I have been nominated.
    <dagger>Denotes non-managerial job that is relevant to the position 
for which I have been nominated.
    9. Attach a copy of your resume.
    A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last ten years. None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last ten years.
    As indicated below, I am a member of the Federal Communications Bar 
Association (FCBA). While I served a three-year, uncompensated term as 
a Member of the FCBA's Executive Committee, I was not an officer of the 
FCBA. Moreover, my three-year term on the FCBA's Executive Committee 
expired at the end of June 2017.
    12. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

  <bullet> American Bar Association
    <ctr-circle> I was a member of the ABA from August 2013 until 
            February 2015. During my time as a member, I served as 
            Vice-Chair (from August 2013 to approximately February 
            2014) and then as Co-Chair (from approximately February 
            2014 to February 2015) of the Communications Committee of 
            the ABA's Administrative Law and Regulatory Practice 
            Section.

  <bullet> Cathedral of St. Matthew the Apostle
    <ctr-circle> I have been a member of this Catholic church in 
            Washington, D.C. from 2006 to the present.

  <bullet> District of Columbia Bar
    <ctr-circle> As a lawyer, I have been a member in active standing 
            of the D.C. bar from 2006 to present.

  <bullet> Federalist Society
    <ctr-circle> I have been a member from 2007 to present.

  <bullet> Federal Communications Bar Association
    <ctr-circle> I have been a member of the FCBA from approximately 
            2005 to present. In that time, I have held several 
            positions with the FCBA--specifically: (1) Member, FCBA 
            Charity Auction Committee (2011); (2) Co-Chair, FCBA Young 
            Lawyers Committee (2011-13); (3) Chair, FCBA Charity 
            Auction Committee (2012); (4) Member, FCBA Nominations 
            Committee (2013); (5) Young Lawyers Representative to the 
            FCBA Executive Committee (2013, and (6) Member, FCBA 
            Executive Committee (2014-2017).

  <bullet> Maryland Bar
    <ctr-circle> As a lawyer, I have been a member in active standing 
            of the Maryland Bar from 2005 to present.

  <bullet> Maryland State Bar Association
    <ctr-circle> I was an active member of this voluntary bar 
            association from 2005 to around 2010.

  <bullet> University Club of Washington D.C.
    <ctr-circle> I have been a member of this social/athletic club 
            since 2006.

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt. No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period.
    In 2011, I donated $500 to Marco Rubio's 2010 campaign for Senate 
in connection with the retirement of debt. However, the FEC website 
identifies this as a donation to ``Rubio, Marco via Marco Rubio for 
President.''
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

  <bullet> Dean's Award in Appreciation for Dedicated Service to the 
        Communications Law Student Association, Catholic University of 
        America, Columbus School of Law (2005)

  <bullet> Bishop Scholarship, Catholic University of America, Columbus 
        School of Law (2002-2005)

  <bullet> Note and Comment Editor, Catholic University Law Review 
        (2004-2005)

  <bullet> Member, Catholic University Law Review (2003-2004)

  <bullet> Second Honors, Georgetown University (Fall 1999)

  <bullet> Dean's List, Georgetown University (Spring 2000)

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    Based on my recollection and research, I have identified the 
following:

  <bullet> Panel Discussion, Modernizing Europe's Digital Rules, 
        European Internet Forum and GSMA Mobile World Congress 2017, 
        Barcelona, Spain (February 26, 2017)

  <bullet> Panel Discussion, Meet the 8th Floor International Legal 
        Advisors, Federal Communications Bar Association, Washington, 
        D.C. (October 24, 2016)

  <bullet> Panel Discussion, Hot Policy Topics, Competitive Carrier 
        Association 2016 Annual Convention, Seattle, Washington 
        (September 21, 2016)

  <bullet> Panel Discussion, Emerging Issues in Wireless: The FCC and 
        NTIA Perspective, CTIA Super Mobility 2016, Las Vegas, Nevada 
        (September 7, 2016)

  <bullet> Remarks at New Direction's Digital Single Market Summit, 
        Brussels, Belgium (October 14, 2015)

  <bullet> Panel Discussion, Washington Goes Mobile--FCC & NTIA Experts 
        on the Issues, CTIA Super Mobility 2015, Las Vegas, Nevada 
        (September 9, 2015)

  <bullet> Panel Discussion, The Regulatory Landscape: Updates and Hot 
        Issues in Washington, Competitive Carrier Association 2014 
        Annual Convention, Las Vegas, Nevada (September 9, 2014)

  <bullet> Panel Discussion, A View from Washington, PCIA's 2014 
        Wireless Infrastructure Show, Orlando, Florida (May 20, 2014)

  <bullet> Panel Discussion, Meet the Wireless Advisors, Federal 
        Communications Bar Association, Washington, D.C. (March 20, 
        2014)

  <bullet> Co-Author, Developments in Administrative Law and Regulatory 
        Practice 2013 (Communications), ABA Section of Administrative 
        Law and Regulatory Practice (2013)

  <bullet> Co-Author, ``Fifth Circuit Upholds FCC's Shot Clock/Tower 
        Siting Ruling,'' Wiley Rein LLP (Winter 2012)

  <bullet> Co-Author, ``FCC Provides Guidance on Net Neutrality 
        Rules,'' Wiley Rein LLP (Summer 2011)

  <bullet> Co-Author, ``FCC Adopts Net Neutrality Rules,'' Wiley Rein 
        LLP (Winter 2010)

  <bullet> Speaker, ``Regulatory Year In Review,'' 37th Annual ACUTA 
        Conference, Las Vegas (Summer 2008)

  <bullet> Speaker, ``Regulatory Update From Washington,'' 36th Annual 
        ACUTA Conference, Miami (Summer 2007)

  <bullet> Speaker, ``E-Discovery: What Your Lawyer Wants From You,'' 
        Voice Report Podcast (Spring 2007)

  <bullet> Speaker, ``2006 Legislative & Regulatory Wrap-up,'' ACUTA 
        Seminar, Washington (Winter 2007)

  <bullet> Co-Author, ``How Federal Preemption Helps Tower Owners,'' 
        Above Ground Level Magazine (Fall 2006)

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony. None.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I believe my background and experience qualifies me to serve as a 
Commissioner at the FCC. I went to law school fifteen years ago to 
study communications law and policy, and I ultimately obtained a 
certificate in communications law studies in addition to my J.D.
    During law school, I interned twice at the FCC and once with the 
U.S. House of Representatives, Committee on Energy and Commerce, 
Subcommittee on Communications, Technology, and the Internet. Those 
experiences provided me with valuable insights, and many of the 
professionals I met during those internships continue to be my mentors 
and friends. Those experiences also confirmed that I made the right 
decision to study communications law, and they solidified my interest 
in spending my career working as a lawyer on telecom issues.
    After graduating law school, I accepted a job at a law firm where I 
could gain broad experience working on various telecom issues.
    The law firm experience also helped sharpen my legal research and 
writing skills. I later accepted an appellate clerkship, which gave me 
the chance to learn how judges make decisions. It also provided me with 
exposure to many different areas of law and improved my analytical 
skills.
    Given my interest in telecom, I applied over five years ago for a 
GS position with the FCC's Office of General Counsel. It was an honor 
to get the chance to work at the FCC. In that job, I focused on 
providing legal advice to FCC staff in the agency's wireless, public 
safety, and international bureaus, and I learned a lot about the 
agency's processes and procedures. Following that experience, I served 
for nearly three years as an advisor to FCC Commissioner Ajit Pai on 
wireless, public safety, and international issues. Since then, I have 
been serving as the FCC's General Counsel, where I provide legal advice 
to the Commission and FCC staff on all matters within the agency's 
jurisdiction.
    I believe these experiences show that I am qualified to serve as a 
Commissioner.
    Turning to the second part of the question, I wish to serve as a 
Commissioner because I believe in public service and in the FCC's 
mission. The American public has much to gain from telecom policies 
that promote their interests, that create good-paying jobs, that grow 
the economy, and that help unleash new innovations. I want to work on 
putting those policies in place. Whether it is promoting broadband 
infrastructure deployment, facilitating the roll out of 5G 
technologies, protecting consumers, or advancing public safety, the 
agency and its talented staff make a real difference in the lives of 
all Americans. It would be an honor and a privilege to work as an FCC 
Commissioner and, alongside the many skilled professionals at the 
agency, help put telecom policies in place that will advance the public 
interest.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    The Commission has an obligation to ensure that there are proper 
management and accounting controls in place so that the American public 
knows that their government is operating in an effective and efficient 
manner. If confirmed, I would work to ensure that the agency follows 
strong internal controls, and I would want to take as active a role as 
possible in ensuring that the agency is properly managed.
    With respect to my own management experience, I have served as the 
FCC's General Counsel, which includes overseeing a staff of about 80 
people. The Office of General Counsel reviews nearly every major action 
the FCC takes and is responsible for advising all Commissioners, the 
heads of the agency's bureaus and offices, and all FCC staff on matters 
before the agency. The Office of General Counsel consists primarily of 
an Administrative Law Division, which provides FCC leadership and staff 
with legal advice on a broad range of communications and general 
administrative law issues, and a Litigation Division, which represents 
the Commission in Federal court when parties challenge an agency 
action. As the General Counsel, my job is to supervise and support this 
team. I have done my best to accomplish this by being proactive, 
meeting formally and informally with the professionals in the group, 
timely reviewing, drafting, and providing feedback on matters, and 
actively helping the team to identify and implement practical solutions 
to the many questions that are presented to the Office of General 
Counsel for review.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?

  1.  Promoting Broadband Deployment. One of the key challenges the FCC 
        faces is ensuring that every American has access to broadband. 
        In the five years that I have worked at the FCC, I have had the 
        chance to meet consumers, innovators, and entrepreneurs from 
        across the Nation that depend on broadband access for jobs and 
        opportunity. So the FCC must continue to promote policies that 
        will spur broadband deployment and competition throughout the 
        country. Getting this right is important because the 
        connectivity and opportunity broadband deployment enables can 
        harness the talents of all Americans, create good-paying jobs, 
        and help promote our Nation's economic recovery. If confirmed, 
        I would work to ensure that the FCC pursues policies that will 
        promote broadband deployment and competition.

  2.  Maintaining U.S. Leadership in Wireless. The wireless market in 
        the United States has been the envy of the world. The policies 
        the FCC put in place a decade ago resulted in this country 
        becoming the leader in the deployment of 4G wireless 
        technologies. The challenge is to ensure that we maintain that 
        leadership as 5G and other advanced and competitive wireless 
        networks (terrestrial and satellite alike) come online. 
        Spectrum and infrastructure are going to play key roles in 
        determining whether we meet that challenge. On the spectrum 
        front, the FCC must continue to pursue an all-of-the-above 
        approach. We need a spectrum pipeline that can deliver a mix of 
        low-, mid-, and high-band spectrum into the market. And we need 
        to ensure that providers can choose from a mix of licensed, 
        unlicensed, and shared spectrum bands to meet consumer demand. 
        On the infrastructure side, the FCC must take a fresh look at 
        its approach and ensure that its policies are tailored to 
        promoting next-generation deployments. If confirmed, I would 
        work to ensure that the U.S. maintains its leadership in 
        wireless.

  3.  Promoting Public Safety: While technology continues to evolve, 
        one constant is the FCC's obligation to promote public safety. 
        This includes taking steps to facilitate the transition to 
        Next-Generation 911 (or NG911), which can bring innovative 
        solutions to our public safety community and life-saving 
        advances to those in need of emergency services. It also means 
        that the FCC must play its part in ensuring that public safety 
        officials and first responders have access to the advanced 
        communications technologies that will allow them to do their 
        jobs safely and effectively. If confirmed, I would work with 
        all stakeholders to ensure that the agency is fulfilling its 
        public safety obligations.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    During my time working at Wiley Rein LLP, I contributed to and 
participated in the firm's 401(k) plan, which included a matching 
contribution from the firm. That plan is with Fidelity Investments. 
Neither I nor my former employer have made any further contributions to 
the defined contribution plan, which is a diversified holding, after I 
left my former employer in 2012.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain. No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the FCC's Alternate Designated 
Agency Ethics Official to identify any potential conflicts of interest. 
Any potential conflicts of interest that might arise will be resolved 
in accordance with the terms of my ethics agreement with FCC's 
Alternate Designated Agency Ethics Official. I understand that my 
ethics agreement has been provided to the Committee. I am not aware of 
any potential conflicts of interest other than any that are the subject 
of my ethics agreement.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the FCC's Alternate Designated 
Agency Ethics Official to identify any potential conflicts of interest. 
Any potential conflicts of interest that might arise will be resolved 
in accordance with the terms of my ethics agreement with FCC's 
Alternate Designated Agency Ethics Official. I understand that my 
ethics agreement has been provided to the Committee. I am not aware of 
any potential conflicts of interest other than any that are the subject 
of my ethics agreement.
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy.
    For the past five years, I have worked at the FCC and been involved 
in various public policy debates on a wide-range of communications law 
issues. In my time at the agency, I have also been asked on occasion to 
review or discuss legislative proposals. Prior to joining the FCC, I 
was an associate at a law firm where I worked on a broad spectrum of 
communications and other issues. At no time in my career, however, have 
I been a registered lobbyist.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    Any potential conflicts of interest will be resolved in accordance 
with the terms of my ethics agreement with the FCC's Alternate 
Designated Agency Ethics Official, which I understand has been provided 
to the Committee.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics, 
professional misconduct, or retaliation by, or been the subject of a 
complaint to, any court, administrative agency, the Office of Special 
Counsel, professional association, disciplinary committee, or other 
professional group? If yes:

  a.  Provide the name of agency, association, committee, or group;

  b.  Provide the date the citation, disciplinary action, complaint, or 
        personnel action was issued or initiated;

  c.  Describe the citation, disciplinary action, complaint, or 
        personnel action;

  d.  Provide the results of the citation, disciplinary action, 
        complaint, or personnel action.
    No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain. No.
    3. Have you or any business or nonprofit of which you are or were 
an officer ever been involved as a party in an administrative agency 
proceeding, criminal proceeding, or civil litigation? If so, please 
explain. No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain. No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain. No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination. None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                         Resume of Brendan Carr
Experience
Federal Communications Commission, Washington, DC
General Counsel, Office of General Counsel (April 2017-Present)
Acting General Counsel, Office of General Counsel (Jan. 2017-April 
2017)
  <bullet> Chief legal advisor to the Commission and FCC staff on all 
        matters within the agency's jurisdiction, including broadband, 
        wireless, wireline, media, consumer protection, public safety, 
        enforcement, and competition matters
  <bullet> Manage staff of about 80 lawyers and other professionals
  <bullet> Advise all FCC personnel on compliance with ethics laws and 
        serve as the agency's head ethics official

Federal Communications Commission, Washington, DC
Legal Advisor, Office of Commissioner Ajit Pai (Feb. 2014-Jan. 2017)
  <bullet> Served as legal advisor on wireless, public safety, and 
        international issues
  <bullet> Developed policies that promote broadband deployment
  <bullet> Worked with FCC staff across the agency to implement key 
        policy priorities

Federal Communications Commission, Washington, DC
Attorney, Office of General Counsel, Administrative Law Division (July 
2012-Feb. 2014)
  <bullet> Provided legal and strategic advice on a broad range of 
        wireless, public safety, and international matters
  <bullet> Advised the Commission on its legal authority to achieve 
        various competition and spectrum policy goals

Wiley Rein LLP, Washington, DC
Associate, Communications, Litigation, and Appellate Groups (Sept. 
2005-Aug. 2008 & Aug. 2009-June 2012)
  <bullet> Researched and drafted appellate briefs in cases involving 
        appeals of FCC orders and other matters
  <bullet> Advised clients regarding compliance with the Communications 
        Act and other Federal and state laws

U.S. Court of Appeals for the Fourth Circuit, Columbia, SC
Law Clerk, Judge Dennis W. Shedd (Aug. 2008-July 2009)

U.S. House of Representatives, Committee on Energy and Commerce, 
Washington, DC
Legal Intern, Subcommittee on Communications, Technology, and the 
Internet (Jan. 2004-May 2004)

Federal Communications Commission, Washington, DC
Legal Intern, Office of Commissioner Kathleen Abernathy (Sept. 2003-
Dec. 2003)

Federal Communications Commission, Washington, DC
Law Clerk, Enforcement Bureau, Spectrum Enforcement Division (May 2003-
Aug. 2003)
Education
Catholic University of America, Columbus School of Law, Washington, DC
        J.D. Magna Cum Laude and Certificate, Institute for 
        Communications Law Studies (May 2005)
        Catholic University Law Review, Note and Comment Editor Vol. 
        54; Staff Member Vol. 53; President, Communications Law Student 
        Association; Recipient, Dean's Award; Bishop Scholar

Georgetown University, Georgetown College, Washington, DC
        B.A. in Government with minors in History and Anthropology (May 
        2001)
        Second Honors; Dean's List; Presented research paper at the 
        Inter-disciplinary Student Conference

    The Chairman. Thank you, Mr. Carr.
    I'm going to start off, and I'm going to ask, because we're 
going to have a vote coming here quickly, and then the 
Republicans are all invited to the White House for a noon 
meeting. So we're going to have to try and wrap this up by that 
time. So if everybody can be respectful of everybody else's 
time, we'll try and move this along.
    Chairman Pai, Ms. Rosenworcel, and, Mr. Carr, I know each 
of you appreciates the importance of cooperation between the 
FCC and Congress. Nevertheless, these nomination hearings give 
us an opportunity to underscore that point. If confirmed, will 
you pledge to work collaboratively with this Committee and its 
members to provide solid, thorough, and timely responses to our 
requests for information?
    Chairman Pai. Yes.
    Ms. Rosenworcel. Yes.
    Mr. Carr. Yes.
    The Chairman. And to the panel, in every broadband report 
since the FCC adopted its USF reforms in 2011, the Commission 
has stated that broadband is not being deployed to all 
Americans in a reasonable and timely fashion while also noting 
the disparity of broadband between urban and rural areas. 
Nonetheless, many of the small providers deploying broadband in 
the hardest to serve parts of America have seen USF funding for 
their project cut repeatedly and in increasing amounts. The law 
requires the FCC to ensure broadband is made available in rural 
areas in a manner that's reasonably comparable to services in 
urban areas, but by its own account, the FCC has failed to do 
so.
    To each of you I would ask, will you commit to conducting a 
thorough economic analysis of the impact of these cuts on 
broadband deployment in rural areas before allowing any further 
reduction in the percentage of recovery for high-cost areas?
    Chairman Pai. Yes.
    Ms. Rosenworcel. Yes.
    Mr. Carr. Yes.
    The Chairman. Thank you.
    Chairman Pai, you have proposed an FCC inquiry to evaluate 
new uses for mid-band spectrum, something that I called for in 
a letter to you last month. How can Congress support the FCC's 
efforts to bring mid-band spectrum forward for commercial use 
in a timely fashion? And what key issues does the FCC think 
will need to be addressed to make this happen?
    Chairman Pai. Thank you for the question, Chairman. I think 
you highlighted in your letter one of the key areas of action 
that has long been dormant to the FCC. We traditionally have 
focused on bands below 3.7 gigahertz and above 24 gigahertz. 
And pursuant to your letter, we took a look at the lay of the 
land and thought this is ripe for a Notice of Inquiry. And so 
recently I proposed to my colleagues, and we'll be voting on 
soon, a Notice of Inquiry that would tee up a variety of bands 
between 3.7 and 24 gigahertz, in particular, the 3.7 band, the 
5.9 band, and the 6.4 gigahertz bands. We are hopeful that 
these bands in particular will generate substantial public 
comment and that we will be able to maintain U.S. leadership in 
spectrum policy by figuring out which areas are possible for 
licensed and unlicensed innovation going forward.
    In terms of the Committee's efforts, we would certainly 
want to keep you informed every step of the way. And if you 
have particular views on bands that you think the FCC should be 
focusing on, we would certainly welcome that input.
    The Chairman. Thank you.
    Commissioner Rosenworcel, in a hearing earlier this year on 
broadband infrastructure, we looked at how a number of states 
have passed legislation aimed at reducing barriers to broadband 
deployment. Some states and municipalities have streamlined 
their processes to foster private investment in new commercial 
services while others have not. To help address existing 
barriers, we are also exploring potential legislative 
solutions.
    So the question is, apart from direct investment, what do 
you think can be done at the Federal level to speed broadband 
infrastructure and deployment?
    Ms. Rosenworcel. Thank you, Senator, for the question. I 
think there are a variety of things that can be done, some of 
which have been discussed before this Committee, including 
``dig once'' policies and ensuring that all Federal actors use 
the same contracts to facilitate deployment on Federal 
property.
    Furthermore, I think it would be useful for the FCC going 
forward to contact other Federal actors in this country, like 
the Department of Transportation, the Department of the 
Interior, the Bureau of Indian Affairs, that have facilities 
all across the country and see if through a Memorandum of 
Understanding we can't reach a commitment that any efforts to 
deploy or collocate on those facilities could be accomplished 
in a short period of time.
    With one-third of the Nation's lands being Federal lands, I 
think we can set a good example and hopefully export that 
example to municipalities across the country.
    The Chairman. Thank you.
    Chairman Pai, the National Legal and Policy Center reports 
that 1.3 million comments filed in the net neutrality 
proceeding are from international filers, with more than 
300,000 coming from the same address in Russia in support of 
the 2015 Title II rules. And there have been many other stories 
of fake or abusive comments being filed.
    So the question is, how do you weigh these kinds of 
suspicious comments with those comments that are more 
substantive and based on sound policy arguments?
    Chairman Pai. Thank you for the question, Chairman. This is 
a key issue. Obviously, the FCC, in undertaking this Notice of 
Proposed Rulemaking, wanted to establish an open process where 
anyone who had an interest in the issue could voice his or her 
views. And to my understanding, there have been concerns on all 
sides about the veracity of some of these comments.
    At the end of the day, once the comment period closes and 
the FCC's talented staff takes stock of the facts in the 
record, we are ultimately guided by the Substantial Evidence 
Test, which is outlined in Section 706 of the Administrative 
Procedure Act and was expounded by the Supreme Court in the 
Consolo case in 1966. Essentially the question is, has the 
agency collected evidence that a reasonable person would agree 
would be adequate to support whatever conclusions were 
ultimately made? That has long been our lodestar on this and 
any other issue that we contemplate. And so that's eventually 
the standard that we will apply, and we will figure out what 
the appropriate judgment is based on those facts that are in 
the record.
    The Chairman. Thank you.
    Senator Nelson.
    Senator Nelson. Mr. Chairman, isn't it interesting that we 
have to be concerned about comments being filed from Russia? 
It's a new day.
    Mr. Carr, I want to follow up a policy question, that it's 
hard to recall a similar situation where someone was nominated 
to serve at the FCC alongside rather than what has been 
typical, to follow their current boss. And, of course, it 
raises a question of independence. And it's necessary that this 
Committee raise this question of independence.
    How independent can you be of Chairman Pai? Can you name 
for the Committee a time at which you substantively disagreed 
with Chairman Pai on an FCC matter or proceeding?
    Mr. Carr. Senator, thank you very much for the question. I 
think it's a good one. Independence is critically important for 
the agency and for the decisionmakers at the agency. I've been 
at the Commission for over 5 years in a variety of roles. I've 
had various clients in those jobs, and I hope that I've always 
served their interests.
    When I had the chance to work for the Commissioner, I gave 
him my best candid advice. Sometimes he took it, sometimes he 
didn't take it. What I can commit to you going forward is I'll 
make my own decisions, I'll call it the way I see it based on 
the facts, the record, and what I think serves the public 
interest independent of where other people come out. At the 
same time, I would hope that, if confirmed, all five 
Commissioners can find common ground far more often than not.
    Senator Nelson. OK. But that's not the question. The 
question is, can you name an instance, substantive 
disagreement, as we evaluate your independence?
    Mr. Carr. Senator, thank you. As I noted, I gave him my 
best advice I could on a variety of issues. He didn't always 
agree with me on those, but given the importance of having sort 
of a candid and free exchange with staff, and I think I want to 
leave it at that for now, that I can commit to you going 
forward that I'm going to be independent in my decisionmaking.
    Senator Nelson. Well, we appreciate that commitment, but 
we've got to evaluate your independence. So you simply will not 
name an incidence for the Committee's evaluation where you 
might have disagreed with him.
    Mr. Carr. Having been sort of a lawyer at the time for then 
Commissioner Pai, I think I just want to leave those 
discussions.
    Senator Nelson. Well, let me ask you this: do you see any 
instances in the future that you would disagree with him?
    Mr. Carr. I certainly have no interest in agreeing with him 
when I don't believe that that's the right outcome. As I've 
noted, my hope is the agency works best when we work in a 
bipartisan basis. I think the vast majority of what we do 
should be consensus based. I would look to work with all 
Commissioners if confirmed, but there is no one individual that 
once I make my mind up is going to move me off that position. I 
think my record over the years shows that I'm not a shrinking 
violet and I'm confident standing on my own feet and making 
these decisions.
    Senator Nelson. Mr. Carr, that is not confidence building 
of those of us who are wondering about your future independence 
from the boss that you have so ably served in the last number 
of years.
    Well, let me ask you about the E-rate program. It's a great 
success story of the 1996 Telecom Act. As you know, students 
have access that they never had before. Just in my state alone, 
libraries have received over $160 million in E-rate funds in 
2015, and this program, it's making a real difference in the 
lives of citizens in our state.
    The Nation's students and the teachers and the libraries 
are going to hold us accountable for any changes if we roll 
back the E-rate program, a bipartisan program I might say, that 
has been bringing Internet connectivity and broadband to 
schools and libraries.
    So I asked the Chairman on previous occasions, and I will 
ask you now, will you commit to wait--and I will remind you the 
FCC previously said it would wait until at least next year 
before attempting to make changes to this critical program. We 
need to see how the FCC's previous E-rate modernization efforts 
are working in order to guarantee that the Nation, and, in 
particular, our students, can realize the benefits from the 
reform efforts. Can you make that commitment?
    Mr. Carr. Senator, thank you for the question and thank you 
for the work that you've done on E-rate. I agree with you that 
this is a critically important program that is serving 
important needs. What I can commit to you is that I approach 
this issue with an open mind as to timing, as to outcome, and I 
don't have sort of a preordained view of the approach here.
    Senator Nelson. So you cannot commit to waiting before we 
get those reports on evaluating the E-rate program?
    Mr. Carr. Senator, I think it's important that before 
making any changes to a program, we know that if it's working 
or if it's not working, if it needs a tweak or if it in fact 
does not need a tweak.
    Senator Nelson. Can you commit to waiting to see the 
evaluation before you start making changes to the E-rate 
program?
    Mr. Carr. Senator, I'm not familiar with the specifics in 
terms of what that evaluation would be or what timeframe it 
would be, but I can commit to you that I would not be making or 
casting a vote to change a program until we had information 
about whether it was working or not working.
    The Chairman. Thank you, Senator Nelson.
    Next up is Senator Lee.

                  STATEMENT OF HON. MIKE LEE, 
                     U.S. SENATOR FROM UTAH

    Senator Lee. Thank you very much, Mr. Chairman.
    Thanks to all of you for being here.
    This hearing gives us a really good opportunity to talk 
about how the American people can best take advantage of 
emerging technologies that give people access to more 
information.
    We're currently facing a lot of problems in this area, 
challenges I guess one could say. Some of those challenges are 
physical and logistical. Other challenges relate to and are the 
product of government interference, legal and regulatory 
problems that the Federal Government itself has created.
    The Federal Communications Commission's 2015 Open Internet 
Order is the perfect example of the intrusive, heavy-handed 
government regulation causing delay in industry, causing 
uncertainty in the industry, and, in effect, in the long run, I 
believe, limiting access by the American people to this 
technology that has the ability to benefit so many people.
    A recent New York Times article claimed that total 
investment by publicly traded broadband companies increased by 
5.3 percent as compared to the two-year period immediately 
before the issuance of the 2015 Order, that is, during the two-
year period encompassing 2013 and 2014, to the end of the two-
year period immediately following it, that is, 2015 and 2016.
    But this claim highlights a couple of major problems that 
result from overregulation, and I'll address each of them in 
turn.
    First, it fails to disclose what the actual investment in 
infrastructure is. This 5.3 percent figure that I cited from 
the New York Times study refers to total top-line investment, 
not to capital investment in the United States, not to 
expenditure in this type of infrastructure here at home.
    More accurately, domestic investment in broadband actually 
plummeted, it fell, after the 2015 Order, with some analysts 
finding reductions as large as 5.6 percent. So they're saying, 
in fact, that the relevant number actually went down, went down 
to an even greater degree than the New York Times article was 
suggesting it went up.
    So first dealing with this issue, Mr. Pai, while it may not 
be possible to prove causation here definitively, would you 
agree that the FCC's 2015 Open Internet Order has discouraged 
companies from investing in broadband infrastructure, 
especially in rural areas and among smaller ISPs in the United 
States?
    Chairman Pai. Senator, that is one of the concerns that we 
have raised, and that's part of the reason why we're testing 
that proposition in the context of the current Notice of 
Proposed Rulemaking.
    Senator Lee. Now, I want to follow up on that with my 
second point, the second concern I have, with the point raised 
by the New York Times article. The second one is a little more 
abstract. If the Internet Service Providers are not investing 
in broadband infrastructure, then where is their money going? 
You know, they might conserve cash or pay dividends, but in 
many cases, Internet service providers choose simply to invest 
elsewhere, either overseas or in other industries.
    For example, AT&T announced shortly after the 2015 Order 
was issued that it would spend over $3 billion in Mexico to 
expand access to 100 million potential subscribers by 2018. 
Just as in countless other industries, overwhelming regulation 
of the Internet in the United States promotes consolidation 
instead of competition and helps incumbents instead of 
disruptors, competitors. And one thing we know about 
competition is when we have more of it, prices go down and 
quality goes up, and the opposite happens when we have less of 
it.
    So, Mr. Pai, if our goal is to encourage domestic 
investment by and promote competition between Internet Service 
Providers in the United States, shouldn't we return to the 
Clinton era light-touch approach to the Internet?
    Chairman Pai. Senator, that is what the FCC has proposed. 
And our goals here, of course, are to preserve the free and 
open Internet that all of us cherish, and to promote the 
massive infrastructure investment that is necessary to connect 
rural and urban Americans alike with digital opportunity. And 
that's what we're exploring in the context of the current 
proceeding.
    Senator Lee. Thank you very much.
    Mr. Chairman, I see my time is expired.
    The Chairman. Thank you, Senator Lee.
    Senator Markey.

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman.
    Chairman Pai, in 2016, almost half of all venture capital 
funds invested in this country went toward Internet-specific 
and software companies. That's $25 billion worth of investment. 
At the same time, to meet Americans' insatiable demand for the 
Internet, U.S. broadband, and telecommunications industry 
invested more than $87 billion in capital expenditures in 2015, 
and that's the highest rate of annual investment in the last 10 
years.
    We've hit a sweet spot. The investment in broadband and 
wireless technology is high. Job creation is high. The venture 
capital investment in online startups is high. So these net 
neutrality protections are a problem. It doesn't need any 
fixing. The system is working. Yet, Mr. Chairman, you're 
proposing to undo the Open Internet Order. What is the problem, 
Mr. Chairman, that you are trying to fix?
    Chairman Pai. Thank you for the question, Senator. I think 
one of the concerns that we have raised is that these 
regulations might be dampening infrastructure investment----
    Senator Markey. They might be, but there is no evidence of 
it.
    Chairman Pai. Well, there has been evidence raised, and 
that's part of the reason why we are testing this proposition 
in the context of the Notice of Proposed Rulemaking. Some have 
suggested the FCC should simply issue a declaratory ruling 
saying that the facts in the law are so, and that's the way 
it's going to be, but we wanted to test this proposition in an 
open and public process.
    Senator Markey. Well, you know, publicly traded companies 
are required by law to provide investors accurate financial 
information, including reporting any risks or financial 
burdens. However, I have found no publicly traded ISP that has 
reported to its investors by law that Title II has negatively 
impacted investment in their networks. Many, in fact, have 
increased deployment and investment.
    So what is the evidence that you're relying upon that you 
proceed with toward a potential repeal of these net neutrality 
protections?
    Chairman Pai. Senator, in the Notice of Proposed 
Rulemaking, we cited some evidence that among the top 12 
Internet service providers in terms of size, that investment 
was down. Also, a number of smaller providers, including 
municipal broadband providers, fixed wireless providers, small 
cable companies, and other submitted evidence. But we want to 
hear that perspective as well, that you just outlined.
    And so we want to make sure, what are the facts in this 
context? And, again, this is part of the reason why we have a 
notice-and-comment process as opposed to simply the 
administering of decree that we find that these rules are in 
fact harming them or going to get rid of them immediately.
    Senator Markey. Yes. Well, since these net neutrality rules 
have been in place, the Internet has thrived. We've seen 
tremendous job creation. It's the spot where younger people, 
newer companies, go. It's an entrepreneurial engine of growth, 
the greatest that we've had in generations in the country's 
history. And so from my perspective, as you look at this, I 
feel that the evidence right now is not there. And if it was, 
the companies, the broadband companies themselves, would have 
been in fact providing that evidence to their investors in 
their filings, and they have not done so.
    So anecdotal evidence is not evidence. OK? There is no 
factual basis for that change, and I just think it's going to 
go right to the heart of the Internet's growth and job creation 
in the coming generations.
    Now, if I could, just moving on to the E-rate, I was the 
House author of the E-rate when it passed in 1996 into law. Is 
there any question in your mind, Mr. Chairman, that this 
program is working and that the funding levels are at a level 
that meet the needs of our country?
    Chairman Pai. Senator, for years I've said that E-rate is a 
program worth fighting for, and that is not an abstraction to 
me. I visited an Alaska Native school in Fort Yukon, Alaska. I 
visited libraries in Sioux Falls, South Dakota. I've seen how 
the program is working, and we want to extend that to every 
student and every library patron in the country.
    Senator Markey. So you will commit to us that you will 
preserve the success of this bipartisan program and not 
decrease its funding level or the programmatic changes that 
undermine or weaken the E-rate?
    Chairman Pai. Senator, we have not made any decisions on 
that score. We're trying at this point to make sure that the 
program works----
    Senator Markey. So you won't make a commitment that you 
won't reduce the funding?
    Chairman Pai. Well, Senator, we're studying obviously ways 
to improve the program, if there's any way to make it better--
--
    Senator Markey. Ms. Rosenworcel, will you commit that you 
won't reduce the funding?
    Ms. Rosenworcel. E-rate is our Nation's largest education 
technology program, and it is a successful one, and I believe 
that the changes that were put in place in 2015 have been 
successful. They have reached schools and students in every 
state across this country.
    Senator Markey. Mr. Carr, will you commit that you won't 
reduce the funding?
    Mr. Carr. Senator, thank you. I have an open mind as to 
what the budget and the numbers should be, and I'm happy to 
make a decision when the record is developed on it.
    Senator Markey. Yes. Well, I haven't heard clear 
commitments, and I think that's very troubling, to be honest 
with you, because this is the democratizing force within our 
society. As each of you made clear, you believe that it's key 
for our future. Reducing the funding, of course, is not going 
to help to make sure that every child in our country has access 
to the technology they're going to need in order to compete not 
only in our own country, but globally in the 21st century. So I 
have not been satisfied with the answers which I've heard.
    Again, Ms. Rosenworcel, are you saying that you will not 
reduce the funding?
    Ms. Rosenworcel. I will not reduce the funding.
    Senator Markey. Thank you.
    So, Mr. Carr, Mr. Pai, I wish that I heard the same 
commitment from you as well.
    Thank you, Mr. Chairman.
    Senator Moran [presiding]. Thank you, Senator Markey.
    I arrived at the appropriate time in which it's my turn to 
talk and also hold the gavel.
    [Laughter.]
    Senator Moran. Let me start with all three of our nominees. 
We're following the repack issue closely. Last week, the FCC 
announced that the total reported reimbursement costs received 
from broadcasters who are required to repack as a result of the 
spectrum auction was over $2.1 billion. We know that the TV 
Broadcaster Relocation Fund, is only authorized to $1.75 
billion. If that $2.1 billion is a correct number, then there 
is a significant funding shortfall.
    Any requests or suggestions that the Commission and 
Congress need to act to provide additional resources to prevent 
broadcasters from going dark? And do you believe that the 39-
month repack deadline is sufficient?
    Chairman Pai. Senator, thank you for the question. As you 
pointed out, the estimates have come in a little bit above $2.1 
billion. Our fund administrator, as well as the FCC's career 
staff, will have to evaluate those cost estimates and determine 
whether they are appropriate or not. That number of 2.1 could 
go down, it could go up. But I am in a position to say at this 
point that we expect, our anticipation is, that the required 
expenses to reimburse these broadcasters will be above $1.75 
billion. And so I would expect that it would be necessary, if 
broadcasters are to be held harmless in this repack, that 
Congress would have to provide additional funding.
    Senator Moran. Either of the other nominees want to add 
anything? Let me follow up, if not, about the time deadline.
    Chairman Pai. Oh, yes, Senator. So we are obviously--this 
is a very complex process. We have a number of different phases 
to which broadcasters have been assigned. We have also given 
broadcasters the opportunity to seek placement in a different 
phase, and some of them have taken advantage of that. So I'm 
not in a position at this point to say whether the 39-month 
period is not going to be sufficient, but if we get any 
semblance of the record that would suggest that it isn't going 
to be sufficient, then we will certainly notify the Committee 
promptly.
    Senator Moran. Thank you. Let me turn to 5G. We're the 
world leader in 4G. I'm worried that we're not taking the 
necessary steps to maintain that leadership as we attempt to 
deploy 5G. I'm told by carriers that the regulatory barriers to 
deploy small cell networks are outdated, hampering investment 
and economic growth. Would you agree that 5G deployment is 
critical for our economy? And what steps, if so, is the FCC 
taking to eliminate barriers and cost to deployment?
    Chairman Pai. Senator, I do believe it is absolutely 
essential for 5G to develop quickly. And our goal is to make 
sure that the U.S. is at the forefront of innovation and 5G.
    There are two basic building blocks in terms of a 
successful 5G economy in my view, one is spectrum and one is 
infrastructure. With respect to spectrum, I think the agency 
has spoken for several years now with a unified voice, that we 
want to be as inclusive as we can in terms of low-, mid-, and 
high-band spectrum. We want to tee up as much spectrum as we 
can for commercial use and for 5G innovators to experiment 
with, and that's part of the reason why, as I pointed out to 
Chairman Thune, that we have teed up this mid-band Notice of 
Inquiry that we'll be voting on, on August 3.
    In terms of infrastructure, you pointed out one of the key 
problems is that there's a lot of infrastructure that's 
required for 5G networks. Instead of large cell towers, we're 
talking about thousands, tens of thousands, of small cells and 
other small infrastructure. But we need to make sure that our 
regulatory review is tailored to the nature of the deployment 
and to make sure that we work cooperatively with all 
stakeholders, including governments, in order to make sure that 
our 5G economy thrives consistent with the public interest.
    Senator Moran. Commissioner Rosenworcel or Mr. Carr?
    Ms. Rosenworcel. Thank you for the question. On a going-
forward basis, the network topology of 5G is going to be very 
different than what it was in 4G. We're going to have small 
cells dotting our landscape. And so we're going to need to make 
sure that not just FCC policies, but national environmental 
policy and national historic preservation policies are adjusted 
to reflect the realities of those facilities, which are very 
different than traditional large cell towers or macrocells.
    Senator Moran. Thank you.
    Mr. Carr. I would echo those same points. You know, 5G 
deployment is going to look very different, and I tend to view 
it through not just innovations, but jobs and economy. If we 
get the framework right, it could be $275 billion in investment 
over the next decade to deploy 5G. That could be 3 million new 
jobs, and when you combine it with IoT, you're looking at a 
trillion dollar boost to the economy. So we need to get this 
piece of it right.
    Senator Moran. Thank you all three. Let me ask Chairman Pai 
a final question. When do you expect to have the proceedings 
finalized and begin to make spectrum available? What is the 
status of the spectrum frontier proceedings?
    Chairman Pai. Senator, we don't have a particular timeframe 
that I can report to the Committee at this point, but we are 
actively studying it and we are working with stakeholders to 
figure out those parts of the spectrum frontier bands that were 
teed up where we can take action, and if there are other areas 
where more deliberation is needed, we will obviously put those 
on hold. So I can't give you a specific timeframe, but I can 
tell you that it's the top priority in terms of spectrum policy 
at the Commission.
    Senator Moran. Thank you all three.
    Senator Schatz.

                STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Thank you, Mr. Chairman.
    Thank you to all the nominees and their families. 
Congratulations. I wanted to follow up on a question.
    Mr. Carr, I wanted to ask you the first question. Whether 
it's 7, 8, 9, 10 million comments, is it fair to say this is a 
record number of comments?
    Mr. Carr. I believe that's right, Senator, yes.
    Senator Schatz. So my question for you is, what weight does 
that get in the process? I understand you have a legal standard 
when considering this matter, but what weight does the fact 
that millions of people have expressed themselves with the FCC, 
a historic number, what weight does that get?
    Mr. Carr. I think it's very important. I think it shows the 
level of interest and the passion in this issue, and that's 
something that we need to be taking into account.
    Senator Schatz. Thank you.
    Commissioner Pai, during your confirmation hearing, I asked 
if you agreed with the President's comments calling the media 
the enemy of the state? At the time, you didn't answer the 
question totally on point, and I understand. You're a Trump 
appointee, and you're trying to strike that right balance in 
terms of being an independent agency, but still understanding 
that you're a Trump appointee, and not wading into either 
Presidential politics or partisan politics, but since then, the 
President has made a number of additional comments about the 
media. He consistently refers to the media as ``fake news 
media,'' ``garbage media,'' and made unsubstantiated claims 
about various networks and newspapers. For example, on July 2, 
the President posted a video of himself wrestling CNN with the 
hashtag ``FraudNewsCNN.'' On June 28, the President tweeted, 
``The AmazonWashingtonPost, sometimes referred to as the 
guardian of Amazon not paying Internet taxes, which they 
should, is fake news.''
    So the question I have for you, Chairman Pai, is since we 
last heard from you, and given that context, have there been 
any direct or indirect communications about the media between 
you, your office, and the White House that this Committee 
should be aware of?
    Chairman Pai. Senator, thank you for the question. I have 
consistently stated that I believe, and I dare say my 
colleagues at the FCC believe, that First Amendment freedoms, 
including the freedom of the press are critical, that we value 
what broadcasters, newspapers, and others do to keep people 
informed, and I have consistently stood up for that value 
throughout my time at the Commission. And if I were ever asked 
by anyone in the administration to take retaliatory action, for 
instance, in a media regulatory proceeding, I would not do so.
    Senator Schatz. OK. So have there been any communications 
about the media between you, your office, and the White House 
that the Committee should be aware of?
    Chairman Pai. Senator, I have been aware of the comments 
that the President has made and----
    Senator Schatz. Right, but has there been any communication 
that this Committee should be aware of in light of the exchange 
that you've had with members of the Committee during the 
confirmation hearing? I understand your position, and I 
understand that you're saying were you to ever be asked to do 
anything inappropriate, you would decline to do anything 
inappropriate. My question is, have there been any overtures or 
communications, direct or indirect, that we ought to be aware 
of in light of the sort of unsatisfactory resolution of this 
issue in the first hearing?
    Chairman Pai. Senator, I don't believe so, but if that ever 
changes, I commit to the Committee and to you that I will make 
sure that you are informed.
    Senator Schatz. Thank you.
    Mr. Carr, in 2014, when President Obama expressed his 
support for net neutrality rules, the Department of Commerce 
submitted an ex parte notice with the FCC officially putting 
the President's statement in the record. Did the White House, 
this White House, file an ex parte with the FCC yesterday when 
it announced its support for the current proceeding to unravel 
the Open Internet Order?
    Mr. Carr. I personally am not aware of any filing at this 
time.
    Senator Schatz. Is one required? As GC of the Commission, 
do you believe one is required?
    Mr. Carr. There is sort of a reticulated standard under the 
ex parte rules----
    Senator Schatz. A what standard?
    Mr. Carr. A reticulated detailed standard in the ex parte 
rules. And I would have to refresh my recollection of how those 
rules work and whether that would be implicated----
    Senator Schatz. Can you follow up with the Committee on 
this issue?
    Mr. Carr. I'm happy to.
    Senator Schatz. Commissioner Rosenworcel, I have no 
questions for you except to say thank you for your public 
service and your patience. Thank you to your family. What 
happened to you is unfair. We have to move expeditiously on 
your nomination.
    And a quick question for each of the nominees. On E-rate, 
Hawaii is one of the Nation's leaders in school broadband 
thanks to E-rate modernization. Do you commit to keeping the 
current E-rate program intact to ensure that all of our 
country's students can get the connectivity that they need?
    Chairman Pai. Senator, absolutely. I believe in a strong E-
rate program, and that is my commitment going forward.
    Senator Schatz. Thank you.
    Ms. Rosenworcel. Yes, absolutely.
    Mr. Carr. Yes, I agree.
    Senator Schatz. Thank you.
    Senator Moran. Senator Blumenthal is recognized.
    Senator Blumenthal. Thanks, Senator Moran.
    Chairman Pai, thank you for the conversation we had 
yesterday. I want to pursue just very quickly the questions 
that my colleague Senator Schatz asked regarding contacts with 
the White House. Are you aware of any contacts or intervention 
by the White House in any past or pending merger, including the 
AT&T/Time Warner merger?
    Chairman Pai. Senator, I am not. No one at the White House 
has ever weighed in with me and indirectly with the staff, as 
far as I know, on any pending transaction.
    Senator Blumenthal. Those kinds of contacts would be 
absolutely improper and probably illegal, correct?
    Chairman Pai. Well, Senator, I would defer to others as to 
legality, but I'll simply say that as a leader of an 
independent agency, it is our goal to be an independent actor 
reviewing the facts in the law as we see them and not as others 
might see them.
    Senator Blumenthal. I've been alarmed by reports, and I've 
written to the nominee by the Trump administration for 
Assistant Attorney General for Antitrust expressing my concern 
about those reports that indicated that the White House might 
try to use the merger as a way to impede or intimidate the 
exercise of First Amendment rights, and you would be troubled 
as well, I would assume.
    Chairman Pai. Senator, absolutely. As I suggested to you 
yesterday, I'm an antitrust lawyer by training. I look at the 
facts in the law and I don't allow extraneous political 
considerations to intrude on that inquiry.
    Senator Blumenthal. Thank you. Are you familiar with the 
lawsuit brought by state attorneys general against broadband 
providers for advertising or offering speeds that they have 
failed to deliver?
    Chairman Pai. I've seen press reports of one. I'm not aware 
if there's a class action of some sort that I should be aware 
of.
    Senator Blumenthal. As a former attorney general, the 
allegations in the complaint certainly seem to me like fraud. 
They're charging customers for Internet speeds they fail to 
provide, which seems a little bit like theft, stealing. Would 
you agree?
    Chairman Pai. Well, Senator, I'm not aware of those 
particular allegations, but obviously I believe, as we made 
clear last week when we took action on slamming and cramming, 
that a consumer should get what they pay for, and they should 
not have to pay for what they did not ask for.
    Senator Blumenthal. As you know, Section 706 of the 
Telecommunications Act requires the FCC to report annually on 
whether broadband Internet is being deployed to, quote, ``all 
Americans in a responsible and timely fashion,'' end quote, and 
to take immediate action if it is not. So I would assume that 
it would be important to you in fulfilling that obligation, 
conducting that review, that companies lying to you about what 
the speeds they're delivering to their customers would prompt 
some action by the FCC, correct?
    Chairman Pai. Well, Senator, I am not familiar with that 
interpretation of Section 706. Traditionally, it has been 
focused more on deployment, but I'll be happy to take a look at 
that or any other legal authority that the FCC might have to 
vindicate consumer interests.
    Senator Blumenthal. Would you commit to reviewing the 
lawsuit that has been brought by 35 states and taking action, 
if appropriate?
    Chairman Pai. Senator, absolutely. If you wouldn't mind, I 
will follow up with your staff and give you the answers that 
you need.
    Senator Blumenthal. I want to talk briefly about the cost 
of wired broadband. Are prices for broadband Internet going up 
or down?
    Chairman Pai. Senator, it depends on the marketplace. I 
think that in some places it is prohibitively expensive, in 
some places where there is more competition, the prices are 
lower. And our goal is obviously both ubiquitous access and 
broad competition in all markets so that every consumer has a 
fair chance to enjoy the benefits of the digital revolution.
    Senator Blumenthal. I think that the FCC has a 
responsibility to know what's happening with broadband prices, 
does it not?
    Chairman Pai. It does, but again it depends on the 
particular marketplace. Every marketplace is different. And so 
overall we want to make sure that we have rules in place that 
promote competition in every single jurisdiction.
    Senator Blumenthal. Do you have an overall assessment of 
whether broadband prices are going up or down?
    Chairman Pai. I don't currently. That's part of the reason 
why we've initiated a Section 706 inquiry that I proposed to my 
colleagues back in June. And so that's one of the reasons why 
we teed that up, is to figure out, what are the facts in the 
marketplace as of 2017? The most recent one was done a couple 
of years ago.
    Senator Blumenthal. I would like to invite comments by any 
of the other nominees.
    Ms. Rosenworcel. Thank you for the question, Senator 
Blumenthal. This is purely anecdotal. In my house, the cost is 
going up. I believe that the agency has a responsibility to 
assess the deployment of broadband pursuant to Section 706, as 
the Chairman mentioned. And I think on a going-forward basis, 
it would be useful if price was a consideration in that 
assessment. I think consumers would benefit from that.
    Senator Blumenthal. Mr. Carr?
    Mr. Carr. Senator, thank you for the question. I agree. I 
think we need to be taking full stock of the market when we're 
deciding whether it is competitive or not.
    Senator Blumenthal. Thank you.
    My time is expired. So there are a lot of other questions, 
including going into this one in greater depth, and I look 
forward to working with you on them.
    Thank you.
    Senator Wicker [presiding]. Senator Gardner.
    Senator Gardner. Thank you, Mr. Chairman. And thank you 
again to our nominees today.
    Chairman Pai, always great to see you, and thank you for 
appearing today in this nomination hearing. As we've discussed 
many times before, we have an orphan county issue in Southwest 
Colorado preventing Coloradans from receiving Colorado TV, an 
issue that Commissioner Rosenworcel, I believe, saw firsthand 
during her last tenure at the Commission.
    While the FCC approved La Plata County's decision in 
Southwestern Colorado, their initial market modification 
application, out-of-state broadcasters lodged opposition 
against it. And we've had back-and-forth comments now. It's my 
understanding that the FCC record is complete, and the 
Commission may either reaffirm or reverse their original 
approval decision.
    It's my hope that the Commission will act swiftly to make a 
decision on this issue, and I would just like to have your 
commitment that the Commission will review the La Plata County 
application and make a decision on review of the comments 
submitted.
    Chairman Pai. Absolutely, Senator, I will.
    Senator Gardner. Thank you.
    The rest of the Commissioners, if you would like to follow 
up on that.
    Ms. Rosenworcel. If confirmed, yes.
    Senator Gardner. Thank you.
    Mr. Carr. Yes.
    Senator Gardner. Thank you.
    Mr. Carr, we're facing a spectrum crunch in the United 
States as more and more consumers opt to stream video and use 
other intensive applications over their mobile wireless and Wi-
Fi devices. The economy benefits from billions of dollars 
annually being invested in expanding access to commercial 
spectrum and seeing platforms and devices develop over the 
airwaves. And I think we have to have a mix of low-band, mid-
band, and high-band spectrum to continue this incredible 
economic progress.
    And so, Mr. Carr, do you believe it's important for 
Congress to promote the benefits of establishing a spectrum 
pipeline to highlight the need for continuing to free up 
spectrum for commercial use through relocation and better 
coordination among incumbents?
    Mr. Carr. Thank you, Senator. Yes, I do. And when you look 
at data traffic from 2010 to 2016, some estimates say it's 
grown 35 times over that period of time. So I think we need an 
all-of-the-above approach. And I think your efforts and those 
of Congress on the spectrum pipeline would be very welcome.
    Senator Gardner. If other nominees would like to comment on 
that.
    Ms. Rosenworcel. The answer is yes.
    Senator Gardner. Thank you.
    Chairman Pai. Yes, Senator.
    Senator Gardner. Very good. Thank you.
    Chairman Pai, I want to commend the Commission for 
releasing a draft order on Mobility Fund Phase II that 
recognizes the existing Form 477 data is not adequate for 
determining accurate mobile coverage across the country. And I 
would hope to get your commitment at the Commission that the 
Commission will continue to work to ensure that mapping data 
used at the FCC represents an accurate on-the-ground account of 
mobile coverage.
    Chairman Pai. Absolutely, Senator. We're going to be voting 
on August 3 on some steps that make sure that the data we take 
into the Commission is accurate so that our output is similarly 
worthy of the American people's trust.
    Senator Gardner. Thank you. Because obviously in the 
Western Slope of Colorado, where you have significant 
mountains, valleys, and peaks, and the Eastern Plains, we have 
vast expanses of land what appears to have cell phone coverage 
on the map, I can tell you the mile marker where the map is not 
true.
    [Laughter.]
    Senator Gardner. Commissioner Rosenworcel, if confirmed, 
will you also work to ensure the Commission's mapping is 
accurate? Mr. Carr? Do both of you want to answer that?
    Ms. Rosenworcel. Yes.
    Mr. Carr. Yes.
    Senator Gardner. Thank you.
    Chairman Pai, the United States obviously being an 
incredible leader in 5G technology, and I think you and Senator 
Moran had a discussion about that, but I would just reiterate 
the importance of 5G, the opportunities that it poses for this 
country, the challenges it poses, and how we can work together 
to address it. So I know you've already covered that, but thank 
you.
    And I know a number of members wait to question, and I'll 
yield back my time.
    Senator Wicker. Thank you. Thank you.
    And Senator Fischer is next.

                STATEMENT OF HON. DEB FISCHER, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Fischer. Thank you, Senator Wicker.
    Thank you, Chairman Pai, for visiting Nebraska. A couple of 
years ago we had some good meetings with stakeholders, a couple 
different meetings. I understand you took a road trip recently, 
and you bypassed our state.
    [Laughter.]
    Senator Fischer. So we hope to get you back there soon.
    As you know, Senator Klobuchar and I, along with more than 
50 of our Senate colleagues, sent you a letter in April, and we 
urged the FCC to take steps to ensure that rural consumers can 
purchase standalone broadband. And I want to thank you for your 
response and for your acknowledgement that this is a problem 
and it's not yet fixed.
    Will you commit to continue working with your colleagues 
and with Congress to solve this problem so that our rural 
consumers can have that in a timely way?
    Chairman Pai. I will, Senator, absolutely.
    Senator Fischer. And I would ask Commissioner Rosenworcel 
the same question.
    Ms. Rosenworcel. If confirmed, yes.
    Senator Fischer. And, Mr. Carr.
    Mr. Carr. Yes, Senator.
    Senator Fischer. Thank you.
    Chairman Pai, in Nebraska, we have several counties that 
are considered orphan counties, and Senator Gardner just spoke 
about some of them, and that means they're in a designated 
market area for a state other than Nebraska, and I think it's 
26 of our counties out of 93 that are affected by this.
    In 2015, following the directions set by Congress in the 
Satellite Reauthorization bill, the FCC adopted rules to make 
it easier for people living in those orphan counties to access 
in-state programming. And while these modifications are a good 
step, I still am concerned that they really are too burdensome, 
and they're really complicated for small communities to be able 
to undertake those. What's your opinion of them?
    Chairman Pai. Senator, we want to make the process easier, 
and that's part of the reason why we have adopted some reforms. 
If there are others that are worth considering, please let us 
know, and we will be happy to take that into account so long as 
the constituents you're referring to are not Denver Bronco 
fans.
    [Laughter.]
    Senator Fischer. Mm-hmm. You know, just a minute.
    [Laughter.]
    Senator Fischer. We have, you know, Western Nebraska, we 
don't have sports--a pro sports team. In Nebraska, we're all 
Husker fans, so I'll clarify that for you.
    [Laughter.]
    Senator Fischer. The FCC, though. Are there any actions 
that you can take proactively that would be helpful?
    Chairman Pai. I think part of it involves making sure that 
we process these applications efficiently. Part of it is also 
encouraging others who might be stakeholders, local government 
entities, for instance, or individual consumers, to be able to 
put into place any of the facts that they think are necessary 
for us to make an informed judgment, and for them to be able to 
tell us, ``Look, we want to hear what the local weather is in 
Western Nebraska, but we're getting information from outside 
the state that's not relevant to us,'' that's very helpful to 
us because the core value of the entire broadcast business 
after all is localism. And that's one of the things that I 
think is important for constituents in Western Nebraska and 
around the country, to know that when they tune on TV, they 
will be able to get information that is relevant to them.
    Senator Fischer. I would be interested in visiting with you 
more about options that you believe the Commission would take, 
and with the other Commissioners as well, or if you believe 
there are actions that Congress should take in order to have 
that localism truly be effective.
    And, Commissioner Rosenworcel, I am sure that you recall 
that as he was about to end his term, Chairman Wheeler asked 
the FCC's Wireless Bureau to initiate an eleventh hour 
investigation of whether certain carriers, zero-rating 
services, violated the net neutrality rules. And I was glad 
when Chairman Pai rescinded that report and stated that the FCC 
would not focus on denying Americans free data. And these plans 
are very popular, and they provide innovated benefits to 
consumers.
    I also find it concerning that Chairman Wheeler issued a 
report on his way out the door, after Congress had already 
requested that he refrain from issuing controversial items 
after the 2016 election.
    So, Commissioner, what is your view of zero-rating 
services? Do you believe that they provide a tangible consumer 
benefit, or do you believe or do you agree with Chairman 
Wheeler's report?
    Ms. Rosenworcel. Thank you for the question, Senator. To be 
clear, I believe that that investigation and those reports were 
issued after my departure from the agency. I understand that 
with zero net rating, there is the possibility of free 
services, and I understand the allure of free services for some 
consumers, but I also think, at its extremes, some types of 
zero net rating can undermine network neutrality, and that 
leads me to be concerned. I think it's an area that merits more 
study, but to be candid with you, I do have concerns.
    Senator Fischer. Thank you.
    Mr. Carr, do you have any comments on that?
    Mr. Carr. Thank you, Senator. I think, you know, as an 
agency, the FCC should be trying to promote competition, 
innovation, that includes across different types of service 
plans and pricing plans, so I think we need to promote those 
types of innovations.
    Senator Fischer. And thank you very much to all of you.
    Thank you, Mr. Chairman.
    The Chairman [presiding]. Thank you, Senator Fischer.
    Senator Peters.

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Thank you, Mr. Chairman.
    And to our nominees, thank you for your willingness to 
serve the public in this very important position, and thank you 
for being here today.
    Ms. Rosenworcel, I certainly appreciate your strong 
commitment as a Commissioner to maintaining a free, open, and 
fair Internet. If confirmed, I hope that you're going to 
continue with this commitment to broadband Internet as an 
essential tool for millions of Americans and also for small 
businesses and fast-growing startups in Michigan as well as all 
across the country.
    Allowing established corporations to prioritize their 
services or slow down their competitors I believe would put the 
small businesses at a competitive disadvantage and could very 
well stifle innovation that's so important for our country.
    Would you agree that net neutrality under FCC's 2015 Open 
Internet rules helps level the playing field for small 
businesses and startups, allowing them to compete fairly 
against large established players?
    Ms. Rosenworcel. Yes, Senator, I agree.
    Senator Peters. Great. Thank you.
    Chairman Pai, an issue that I've talked about many times, 
including with you yesterday in my office, I appreciate the 
opportunity to spend some time with you, is the 5.9 gigahertz 
band, which is vitally important to automotive safety systems, 
which will dramatically decrease highway deaths when fully 
deployed. Given the fact that we have nearly 40,000 people 
dying on our highways every year, this will be truly lifesaving 
technologies deployed by auto companies. And for the past 2 
years, this Committee has engaged with the FCC, the Department 
of Transportation, NTIA, as agencies conduct joint testing of 
two proposals for the 5.9 spectrum sharing.
    I certainly appreciate our meeting again and your 
commitment to keep the members of this Committee informed of 
any developments on the 5.9 docket I think is extremely 
important to ensure that any decision made for spectrum sharing 
are based on data that is both rigorous as well as fully 
transparent. So could you please provide this Committee a 
status update as to where the testing process is now and the 
timeline for making any decisions in that area, please?
    Chairman Pai. Thank you for the question, Senator, and I 
appreciate your concern, and I'm grateful to the courtesies you 
extended to me yesterday as well.
    As you know, this is an area where testing has been 
exceptionally important. In January, a new round of testing 
began, and it became clear that supplemental testing was 
appropriate. The agency targeted nine different devices that I 
believe are currently being evaluated at the FCC Lab in 
Columbia. We are studying the variety of data points that are 
coming out of those tests. And we haven't yet reached the point 
where we can draw any definitive conclusions, and, therefore, I 
can't give you a specific timeframe, but if and when that 
testing does conclude, we will keep the Committee apprised, and 
in particular you because I know you have a great interest in 
this issue.
    Senator Peters. Well, I appreciate that. And also just a 
follow-up question. How would you characterize the coordination 
that you're seeing between those three agencies? And have you 
run into any roadblocks in that coordination? And is there 
anything that these agencies or players can do that would allow 
for a more transparent and smooth process in your mind?
    Chairman Pai. Thank you for the question. I think thus far 
we have worked very cooperatively with our sister agencies on 
this issue, as on many other issues. And so we're all trying to 
figure out the best answer here, and so, thus far at least, it 
has been a very fruitful and productive relationship.
    Senator Peters. Great. Also in follow-up again, Chairman, I 
understand that one of your biggest priorities at the FCC is 
expanding broadband coverage, closing the digital divide. We 
had a long discussion about that yesterday. And as you know, 
one of the most important aspects of this is accurate data 
collection. As we've heard from Senator Gardner, as well as I 
think Senator Fischer brought up the issue as well, so that we 
can understand which areas truly have Internet access and 
target our efforts to those that do not. And I know you've been 
working on this through the Mobility Fund Phase II and the Form 
477 reform process.
    I'm proud to be a cosponsor of the Rural Wireless Act of 
2017 with both Senator Manchin and Senator Wicker--I appreciate 
Senator Wicker's leadership on this issue--which would require 
the FCC to maintain more up-to-date and accurate data on 
wireless coverage, particularly rural areas, but the 
legislation would also direct the FCC to establish methodology 
within 6 months to improve the validity and reliability of 
wireless coverage data and to ensure that coverage data is 
collected in a consistent, robust, and efficient way. I would 
like to hear more about your plan to reform Form 477 data, and 
particularly, would your plan contribute to the type of 
methodology that we have outlined in our bill?
    Chairman Pai. I appreciate that perspective, Senator. So 
with respect to Mobility Fund Phase II, obviously we are not 
relying on the Form 477 data as such, given some of the 
concerns that have been expressed. We have a tailor-made 
significant data collection to ensure that we are able to 
proceed with the Mobility Fund auction in a timely way while we 
consider the broader issues relating to Form 477.
    With respect to Form 477, we have undertaken a 
comprehensive review. And at a high level, essentially the goal 
here is to make sure that the agency has a very clear picture 
of where coverage is and where it is not because the 
substantial distorting effects that can result from us 
operating on the basis of bad data are tremendous. I mean, 
obviously we're diverting subsidies to areas that might not 
need the help, we are disincentivizing companies from building 
out in areas that are unserved. And if you're in the Upper 
Peninsula of Michigan or in Detroit, you need to be able to 
have coverage if the FCC says, according to its data, you have 
coverage.
    And so I'll be happy to work with you on that effort, and I 
certainly commend you for your work on that legislation, which 
would help us establish some of these standards along the way.
    Senator Peters. All right. I appreciate it. I appreciate 
your efforts. Thank you.
    Chairman Pai. Thank you.
    The Chairman. Thank you, Senator Peters.
    Next up is Senator Cortez Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you, Mr. Chair.
    Welcome and thank you for your willingness to serve. And 
thank you for the opportunity to meet with all of you. And 
welcome to your family, a very exciting day for all of you.
    I will have to say I am a little partial to Mr. Carr 
because his wife is a native Nevadan I found out. Fantastic.
    [Laughter.]
    Senator Cortez Masto. Mrs. Rosenworcel, let me start with 
you. In the conversation we had, as you well know, we talked a 
little bit about the intersection of innovation and 
transportation, which obviously is of interest, not just to me, 
but to the state of Nevada as well. Where do you see the 
constructive place for the FCC to work toward the safe and 
reliable advancement of autonomous connected vehicles, unmanned 
aircrafts, and smart communities?
    Ms. Rosenworcel. Thank you for the question, Senator. Lots 
of interesting things are happening with drones and with 
autonomous vehicles. A lot of them involve tests, and those 
tests are going to require spectrum. I think the FCC should 
develop Part 5 experimental license practices that make those 
tests easier for industries, research institutions, and 
universities. We can do a lot more with these new facilities if 
we can test them and have the spectrum necessary to facilitate 
those tests, and then get those services in the marketplace.
    Senator Cortez Masto. Thank you. I appreciate that. And I 
also appreciate the comments with respect to E-rate. I hear 
this in Nevada as well. Not only did five of our school 
superintendents come to visit me here, but I've had the 
opportunity to sit down with our public libraries, and it is a 
benefit not just to our urban but our rural communities, and 
connecting many people that would not have access to education, 
to information that is necessary for workforce development, 
applications, so many things. So I'm a big supporter. So thank 
you for those comments.
    Mr. Carr, when we were together, we talked a little bit 
about a concern about cybersecurity and what we need to do in 
this space. In the last FCC hearing, I had asked Commissioner 
O'Rielly about FCC's place in the challenging cybersecurity 
sphere, including the Commission's Cybersecurity and 
Communications Reliability Division, that works with the 
communications industries to develop and implement improvements 
that help ensure the reliability, redundancy, and security of 
the Nation's communications infrastructure.
    What specifically can the FCC be doing to aid in the 
concern and challenge of cybersecurity?
    Mr. Carr. Senator, thank you for the question. 
Cybersecurity is an important issue, whether it's IoT or just 
traditional networks. The FCC, as you note, has a group called 
CSRIC that works to develop best practices that the agency can 
help push into the marketplace.
    The FCC also has network-based expertise, and in this 
space, DHS has considered the sector-specific agency in charge 
of sort of communications in this area. And so I think we 
should be taking our network-based expertise and experts 
working with the DHS and trying to sort of consolidate the 
efforts there so we don't have an alphabet soup of agencies 
potentially working at cross-purposes in the area of cyber.
    Senator Cortez Masto. Thank you. I appreciate those 
comments.
    And then, Chairman Pai, a couple of questions for you, but 
let me follow up with one that Senator Blumenthal started with. 
And just for clarification, as you sit here today, you are not 
aware that USTelecom and NCTA have asked the FCC for a ruling 
confirming ISPs are following Federal transparency rules by 
posting online their average performance during times of peak 
usage, is that correct?
    Chairman Pai. Oh, Senator, I'm sorry, I thought Senator 
Blumenthal was referring to a lawsuit brought by state 
attorneys general. I wasn't aware of that particular lawsuit 
that he was referring to.
    Senator Cortez Masto. OK. Are you aware that USTelecom and 
NCTA have asked the FCC for a ruling confirming the ISP's role 
there?
    Chairman Pai. Yes, I am aware of that.
    Senator Cortez Masto. OK. So I am aware that the various 
AGs are concerned that that industry petition to the FCC on 
cost transparency represents nothing more than the industry's 
effort to shield itself from state law enforcement. What is the 
current status of the ruling? And can you speak to your 
perspective on whether this is a fair consumer protection issue 
to be concerned about?
    Chairman Pai. Thank you, Senator. We are actively studying 
that issue. We haven't made any determinations yet. We've 
obviously been focused on a lot of things at the Commission, 
but I can assure you and assure the Committee that we'll keep 
you posted before any decision is made, and we'll make sure 
that we take the appropriate steps to keep you up to date.
    Senator Cortez Masto. Is there a timeline that you can give 
us?
    Chairman Pai. We have no particular timeline on that 
petition.
    Senator Cortez Masto. OK. Thank you. And then I appreciate 
your response to my QFR from the last FCC hearing when we were 
talking a little bit about Federal siting for telecom services 
on public and tribal lands.
    Chairman Pai. Yes.
    Senator Cortez Masto. And in the QFR, you mentioned that 
your Broadband Deployment Advisory Committee would be providing 
recommendations on how to reduce or eliminate barriers. You 
also noted your intention to invite Federal representatives 
from key agencies, such as the Department of Interior, to 
participate. When can we expect to see the recommendations? And 
will they be made public?
    Chairman Pai. They will be made public, Senator. The 
working groups of the Broadband Deployment Advisory Committee 
have been very actively working. We don't have a specific time-
frame on when they are going to report back to us, but the 
general ask I gave of them when I initiated the first meeting 
was to give us a sense of with respect to the model state code 
and the model local codes for deployment at least by the end of 
the year, sometime by the fall ideally, if they could give us 
some preliminary recommendations at least on where we could 
move productively there.
    On the other recommendations, they haven't given us a 
timeframe. They're obviously working really hard, and we want 
to encourage that in a full and transparent way without pushing 
them before they're ready to make a decision.
    Senator Cortez Masto. Thank you.
    And I notice my time is up. Thank you very much. I 
appreciate the conversation today.
    The Chairman. Thank you, Senator Cortez Masto.
    Senator Booker.

                STATEMENT OF HON. CORY BOOKER, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Booker. Thank you very much, Mr. Chairman.
    Mr. Carr, are you aware that in the United States of 
America, of all the human beings on the planet Earth, one-third 
of the incarcerated women are--of all the incarcerated women on 
the planet Earth, that one-third of them are in American 
prisons?
    Mr. Carr. I was not previously aware of that statistic.
    Senator Booker. OK. Are you aware that the majority of them 
are parents of children under 18?
    Mr. Carr. I am now.
    Senator Booker. OK. Are you aware that these women don't 
get adequate sanitary products and often have to scrape 
together dollars to buy tampons and pads? Are you aware of 
that, sir?
    Mr. Carr. Senator, I am now, yes.
    Senator Booker. So do you know that in social science data, 
that women who are able and in power to communicate with their 
children, that it benefits society in multiple ways, lowers 
recidivism rates, lowers the rates of those children themselves 
being disciplined at school, lowers the rates at which those 
children are expelled from school, lowers the rates in which 
those children are incarcerated themselves? Do you know that?
    Mr. Carr. Yes, Senator.
    Senator Booker. OK. So help me understand how in the United 
States of America, if--have you been to a female prison, sir?
    Mr. Carr. I've been to a number of prisons.
    Senator Booker. Have you been to a female prison, sir?
    Mr. Carr. No, I don't believe I have.
    Senator Booker. Have you sat with formerly incarcerated 
women?
    Mr. Carr. I can't recall.
    Senator Booker. You can't recall if you've sat down with 
women who have been incarcerated to listen to their experiences 
in prison?
    Mr. Carr. I can certainly say I've never sat down where 
that has been the topic of discussion.
    Senator Booker. OK. Well, I have, sir, and when you hear 
that women have to make incredibly difficult decisions whether 
they buy tampons or call their kids at home because of the 
usury rates with which these charges they face just trying to 
communicate with their children. So can you help me understand 
what the logic is behind the FCC abandoning its defense of 
capping the cost of these calls, which often are dollars for 
minutes? Help me understand that decision.
    Mr. Carr. Senator, thank you for the question, and thank 
you for your advocacy on this issue. It's a critically 
important one, as you pointed out. There is a market failure 
when it comes to the rates and the services for inmate calling. 
I don't think there is any doubt about that. The question is, 
how do we go about solving that?
    The FCC, through a number of good faith efforts, 2013, 
2015, 2016, took steps to try to address it. Unfortunately, 
when those decisions were appealed to the courts, the D.C. 
Circuit on four separate occasions entered stays finding it was 
more likely than not that the FCC's decision was unlawful.
    So to your question, when the administration turned over, 
and there was one piece of one of those appeals that was coming 
up quickly on oral argument, there was a majority at the FCC 
that did not support the FCC's position there. So the question 
was, do we abandon the appeal altogether, or do we try to work 
to see what portions of that decision we can cobble a majority 
together to defend and then go to the court and strenuously 
defend them? I'm glad that it was that latter choice that we 
did. And the court's decision ultimately did uphold the FCC's 
jurisdiction to cap interstate rates and some of the 
significant reforms it did with ancillary fees.
    There is certainly more work to be done here, and I would 
commit to you to working with you and your staff to find lawful 
ways that we can address this issue.
    Senator Booker. But we abandoned our defense of the 
authority of the FCC to cap intrastate prison calling rates.
    Mr. Carr. That's correct.
    Senator Booker. And your feelings on that abandonment?
    Mr. Carr. I wish that we had the authority to do it. It's a 
problem. The Communications Act, as set up by Congress, did 
not, in my judgment, give the FCC authority to take that step. 
But I would welcome specific grants of authority that would 
give the FCC the jurisdiction to act here.
    Senator Booker. Well, I patently disagree with you about 
the authority of the FCC, the urgency of the problem, and the 
harm that that failure to defend has caused.
    I have other questions, Mr. Chairman, but unfortunately my 
time has expired, and out of respect for my fellow colleagues, 
I'll conclude.
    The Chairman. Thank you, Senator Booker.
    Senator Udall is up next.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Chairman Thune. Thank you very 
much.
    Chairman Pai, the last time you were before this Committee, 
you were hesitant to answer direct questions about the 
President's attacks against FCC-regulated media companies that 
have reported stories critical of the administration. And I 
appreciate that you were more clear and direct in your written 
responses on March 17.
    However, President Trump has continued his unprecedented 
and dangerous attacks on media organizations that report 
stories he does not like. On June 28, President Trump tweeted, 
and I quote here, ``The AmazonWashingtonPost, sometimes 
referred to as the guardian of Amazon not paying Internet taxes 
(which they should) is fake news.'' Many people viewed this 
tweet as a threat by the President of the United States to 
pursue higher taxes against a company in retaliation for 
negative news coverage, and I believe that's outrageous.
    On July 5, the New York Times reported this about the White 
House and CNN, and I quote here, ``White House advisers have 
discussed a potential point of leverage over their adversary, a 
senior administration official said: a pending merger between 
CNN's parent company, Time Warner, and AT&T.''
    Consistent with this reporting, the President himself was 
clear on this topic in an October 2016 speech just before the 
election. I quote then Candidate Trump. ``As an example--,'' 
this is a quote direct, ``As an example of the power structure 
I'm fighting, AT&T is buying Time Warner, and thus CNN, a deal 
we will not approve in my administration because it's too much 
concentration of power in the hands of too few,'' end quote.
    Speaking of concentration of power, there is another major 
media merger pending before the FCC, the proposed acquisition 
of the Tribune Company by Sinclair Broadcasting. There are real 
concerns that this merger would violate media ownership rules, 
but the FCC has already helped pave the way for this merger by 
reinstating the so-called UHF discount that enables TV 
companies to get bigger. Sinclair now requires all their local 
stations to air video commentary pieces by a former Trump 
administration staffer who generally supports the Trump 
administration. Sinclair's CEO has also been quite 
complimentary of you personally.
    The contrasting approach here creates the very real 
perception that the Trump administration would act to reward 
friendly coverage and punish negative coverage. So in light of 
the developments since March, I would like to seek renewed 
answers from you on two questions I posed in March.
    First, will you reassure us that you will exercise your 
authority as Chairman of the FCC to regulate the media in an 
impartial manner?
    Chairman Pai. Yes, Senator.
    Senator Udall. Thank you. Have you had any communications 
with the White House directly or through an intermediary 
regarding any media regulatory issues since March?
    Chairman Pai. Senator, I have not directly had any 
conversations with anyone in the administration with respect to 
media regulatory proceedings. To the best of my knowledge, no 
one on my staff or in the FCC has indirectly had any such 
conversations as well.
    Senator Udall. Thank you. Finally, do you believe it is 
appropriate for any Federal official with power over media 
organizations to attack or threaten them with legal or 
regulatory retaliation over negative news coverage, media 
coverage?
    Chairman Pai. Senator, I certainly have never done so, and 
I commit to you that I will not do so, so long as I have the 
privilege of serving at the agency.
    Senator Udall. Thank you very much for that answer. I'm 
going to follow up with Mr. Carr and Ms. Rosenworcel.
    Mr. Pai responded on March 17 to a letter from every 
Democratic member of this Committee that posed six questions 
along these lines. Will you both commit to answer these same 
six questions for the record prior to a Committee vote on your 
nominations?
    Ms. Rosenworcel. Yes, Senator.
    Senator Udall. Mr. Carr?
    Mr. Carr. Yes, Senator.
    Senator Udall. Mr. Chairman, I would like to take this 
opportunity to note that Senator Hassan and I have requested a 
hearing in this Committee on the current state of the U.S. 
media landscape. We have not had a hearing on that topic in 
over 8 years, and I think it's a very timely one, and I hope 
you could reconsider that.
    One quick question here, and this should be quick, because 
I think it's a yes or no.
    Recently, there has been a spike in violence and 
intimidation against individual journalists. A Republican 
Congressman famously body-slammed Ben Jacobs, a reporter for 
the Guardian, after being asked about his position on the House 
health care bill 1 day before his special election. A West 
Virginia reporter was arrested while asking HHS Secretary Price 
about the health care bill as well. Trump White House staff 
reportedly have threatened to keep files of dirt on White House 
reporters. FCC security also manhandled CQ reporter John 
Donnelly and pinned him against a wall after he sought to ask 
questions of Commissioner O'Rielly.
    Will each of you commit to speak out against violence and 
intimidation against reporters and commit that you personally 
will set a good example for press access in your own public 
activities?
    Chairman Pai. Yes.
    Ms. Rosenworcel. Yes, absolutely.
    Mr. Carr. Yes, Senator.
    Senator Udall. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Udall.
    What I'm going to do, I intend to stay at least through the 
entire first round for everybody. But Senator Wicker does have 
to go. I'm going to recognize him next, and then we'll continue 
to move down the list that we have here.
    So Senator Wicker.

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Thank you, Mr. Chairman.
    And, Chairman Pai, as you know, accelerating broadband 
development in rural areas is a priority for many members on 
both sides of the dais. I've worked closely with you and the 
Commission to ensure that the agency's data collection methods 
regarding mobile broadband coverage are standardized. 
Standardized data is necessary to ensure that funds used to 
expand broadband deployment are targeted to truly underserved 
and unserved communities in rural America and in my state of 
Mississippi.
    Would you agree that standardizing data collection is 
important to target funds accurately to deploy the broadband in 
underserved and unserved areas? And will you commit to ensuring 
that the baseline coverage data collected from carriers for the 
Mobility Fund Phase II Challenge Process be standardized? And 
please discuss how the draft order circulated last week on the 
Mobility Fund Challenge Process achieves that objective.
    Chairman Pai. Thank you, Senator. And this is one of the 
reasons why we broke with longstanding practice in my second 
week in office and instituted a policy of publishing every 
single proposal in order that the FCC was considering at least 
three weeks in advance.
    Nowhere is the thicket more complicated than this one. We 
want to make sure that we get it right for America's wireless 
consumers, and that requires us getting the data right. And so 
last week, as you pointed out, we published the proposal that 
we're going to be voting on, on August 3 to ensure that this 
data is accurate.
    And I understand that standardized data collection is one 
of the issues that has been flagged. We would love to work with 
you and your staff, any interested stakeholders frankly, to 
make sure that on August 3 we ensure that we have a process 
that makes the input accurate so that the output can be worthy.
    Senator Wicker. Will this be a one-time data collection?
    Chairman Pai. With respect to Mobility Fund Phase II, 
currently that is our expectation, but obviously we are always 
open to suggestions on ways to improve our overall data 
collection or to broaden----
    Senator Wicker. Well, what I would like to mention to all 
three of you then, there is a serious question as to how the 
Mobility Fund Challenge Process will ensure that recipients of 
the funds are meeting build-out commitments over the 10-year 
period. Would you like to comment on that?
    Chairman Pai. I'd be happy to, Senator. Every dollar that 
is spent by the FCC that is ultimately collected from the 
taxpayers has to be deployed, it cannot be simply poured down 
the drain, and that requires build-out. And so we have 
instituted aggressive reporting obligations and build-out 
obligations as well to ensure that that money actually goes to 
building out 4G LTE in unserved parts of the country. We do not 
want that money to be wasted. America's wireless consumers 
simply don't have time to wait.
    Senator Wicker. Let's have a further discussion on that 
with members of the Commission.
    While the draft order specifies that cell edge probability 
and the cell loading factor will be used by carriers when 
creating rural coverage maps, some people remain concerned that 
additional factors, such as the assumed signal strength, also 
need to be standardized or disclosed in order for the data you 
receive to be reliable. Will you commit to working with me and 
those stakeholders to address these concerns before the order 
is finalized?
    Chairman Pai. I would be happy to, Senator.
    Senator Wicker. Thank you. And I look forward to you 
briefing me and my staff about your efforts in this regard.
    Chairman Pai. Thank you.
    Senator Wicker. Now let's talk about the Federal permitting 
process. And I'll go back to you, Mr. Chairman. I understand 
the FCC is working on a proceeding to modernize the 
Commission's approach to the National Environmental Protection 
Act and the National Historic Protection Act to accelerate the 
deployment of wireless infrastructure. There are many onerous 
rules in place today that prevent or delay deployment, 
including the implementation of antenna sites that are critical 
to wireless network build-out.
    Please discuss how an update to the Commission's approach 
toward environmental and historic reviews may accelerate the 
deployment of mobile broadband and the proliferation of 5G 
networks to both urban and rural areas, particularly in 
existing public right-of-ways that have already undergone 
environmental and historic reviews where broadband 
infrastructure has already been deployed. And do you think 
Congress needs to act on this issue?
    Chairman Pai. All great points. Obviously, the regulatory 
review, including environmental and historic preservation 
review, that applied traditionally to 100-foot cell towers may 
not be as relevant when you're talking about a small cell that 
could be as small as a pizza box or that you could hold in your 
hand. And so we want to make sure for these less obtrusive, 
lower power deployments that we tailor the regulatory burden to 
the nature of the deployment, as Commissioner Rosenworcel has 
pointed out. And so that's one of the things we're looking to 
work with all interested stakeholders on, to figure out what is 
the appropriate calibration of those rules with respect to 
small cells, and distribute antenna systems, and the like.
    In terms of additional authority, it may be helpful in some 
cases for Congress to give us that authority with respect to 
5G, for example. The FCC's jurisdiction over pole attachments 
is somewhat circumscribed. And so we would be happy to work 
with you, any members of the Committee who are interested, to 
find creative solutions that would help us secure the benefits 
of the wireless revolution to come.
    Senator Wicker. Mr. Carr, do you think Congress needs to 
act in this space, or do you have the authority you need?
    Mr. Carr. Senator, thank you for the question. There are 
certainly some actions that the FCC can take in terms of 
streamlining. Congress's help here would certainly be welcome, 
whether it's ``dig once'' legislation or work with respect to 
Federal lands, where the FCC might have more limited authority.
    Senator Wicker. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Wicker.
    Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. And thank you 
for this hearing.
    I wanted to ask Chairman Pai, we had a town hall on net 
neutrality, and I know the Chairman mentioned comments that may 
be, you know, artificial and coming into the FCC in regards to 
the possible change to net neutrality laws. I know that that's 
not--my constituents have very real stories, and we have a very 
big Internet economy and app economy and want to continue to 
grow that with a very high concentration of software engineers 
and great schools like the University of Washington.
    So I hope that you will be pulling out of that kind of data 
entered into the FCC real examination of business models and 
challenges that any change--and obviously we're against any 
change to this rule at this point in time--that you are really 
going to look at the details that individual businesses and 
consumers in my state are filing with the FCC as it relates to 
this and not just push out saying, oh, it was just a bunch of 
bots or a bunch of Russians.
    Chairman Pai. We definitely will, Senator. And when I say 
we will make a full and fair review of the record, it means 
exactly that: that we don't exclude points of view for any 
ideological or political reasons. We take an accurate 
assessment of what is in the record, and that includes the 
perspectives from startups and consumers of the types who made 
their voices heard at the town hall that you held.
    Senator Cantwell. Thank you. Well, we certainly hope you 
will do that because it's very, very important to us that we 
continue that economy.
    Second, when I look at this issue in general about 
cybersecurity and the FCC, and I look at the numbers, 
Department of Homeland statistics, of 209 cyber attacks on 
critical infrastructure in 2016, you know, a big increase, 
don't you think that the FCC should be doing more to look at 
the communication risks of the communications sector 
specifically, not just advocating that to Homeland Security?
    We're certainly pushing legislation here on the critical 
infrastructure side with the DOE to make sure like on pipelines 
and the electricity grid, but why not you take more 
responsibility at your post in looking at the potential hacking 
and cybersecurity risks of our communications systems?
    Chairman Pai. Senator, this is a critical issue, and in 
this capacity as Chairman, I have had the ability to be briefed 
in a classified setting in a secure facility at the FCC on 
these issues. I can assure you that I take a firsthand 
appreciation of how serious it is.
    At the end of the day, we are guided by the rule of law, 
and Congress has, for better or worse, given us relatively 
circumscribed authority in this area. Within the limits of that 
authority, I have certainly tried to engage as best we can with 
our sister agencies to provide them information about some of 
the threats to the networks that we see and to keep myself 
apprised on some of the threats as they materialize. If 
Congress gives us additional authority, I can assure you that I 
would faithfully administer it to ensure that businesses and 
consumers everywhere are protected.
    Senator Cantwell. Ms. Rosenworcel, is there more that we 
could be doing at the FCC now in giving direction to the 
communication industry on security?
    Ms. Rosenworcel. Yes, Senator. You know, the very first 
sentence of the Communications Act speaks about the use of 
communications for the safety and life and property. I think 
Congress was very clear that they intended the FCC to have a 
role. So I would disagree with my past colleague sitting here 
to my right.
    Senator Cantwell. Well, I'm just--you know, maybe this is 
something for the future, since we did have, Mr. Chairman, a 
good cybersecurity hearing earlier in the year. I just think 
that everyone's devices, now that everything is networked, now 
that everything is together, they are the entry point 
obviously, and I'm very concerned after the Washington Post 
issued this story about how the Russian government hacking of 
our energy infrastructure at a nuclear power plant, I'm just 
thinking it's time to take all of this serious, as so many 
devices are the most vulnerable entry point to a network that 
now is controlled by people in remote situations. So hopefully 
we could follow on, on our last cyber hearing and get more 
input.
    But thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cantwell. That is an issue 
that I think will be an ongoing concern for this Committee and 
for all the people across this country. Yes.
    Next up is Senator Baldwin.

               STATEMENT OF HON. TAMMY BALDWIN, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Baldwin. Thank you, Mr. Chair.
    Recently, in Wisconsin, I held roundtables on rural 
broadband access in two communities, Eagle River, in Vilas 
County, which is near the northern border in our state with the 
Upper Peninsula of Michigan, and Monticello, which is in Green 
County near the Illinois border, southern border, of our state.
    And they're very diverse communities, but there were 
certainly some very similar themes that I heard in both 
communities about their lack of broadband access and how it 
harms their economic development, how it affects their ability 
to attract new families to live there or vacation there, how it 
affects local health care providers to fully utilize the 
promise of health IT and electronic medical records, an example 
of which is in Green County, the southern county I visited. The 
local hospital does have a sophisticated health IT system, but 
patients can't access their electronic medical records at home 
without access to broadband or do something simple like 
uploading a photo of a healing wound to avoid a travel to a 
clinic or a hospital if there's no need. And so these were 
themes I know you're well familiar with.
    I also heard intense frustration of those people on the 
ground who just want to fix this problem, who want to deploy 
the fiber or whatever means, the disconnect between the needs 
of these communities and the Federal programs that they know 
exist to help get broadband to places like theirs. And so I 
know, Mr. Carr, we talked a little bit about this in our 
earlier meeting. How would you respond to the folks of Eagle 
River or Monticello, Wisconsin, who ask, What is the FCC going 
to do to make sure that people like them have access to this 
critical resource?
    Mr. Carr. Thank you, Senator, for the question and for your 
advocacy on these important issues. There is a lot that the FCC 
can and should be doing. One is we need to reduce the cost of 
getting services, networks, out to these parts of the country. 
The agency right now has some infrastructure proceedings that 
are teed up on that.
    Spectrum is going to be a key resource as well. There is 
more we can be doing to push spectrum out into the marketplace. 
And obviously at the end of the day, universal service support 
is going to be critical to many parts of the country. We need 
to be making sure that we're targeting those funds to these 
areas that need it.
    Senator Baldwin. I want to continue to focus on rural 
broadband deployment and mention--and this is for the whole 
panel. I have a two-part question.
    One is there has been some confusion or at least lack of 
clarity as to whether the President's infrastructure proposal 
would include broadband or not. His initial proposal that was 
unveiled did not mention broadband, but it was reported that 
last month in Iowa he told an audience there that broadband 
would absolutely be a part of his $1 trillion package.
    Because I'm concerned about the lack of clarity, I guess 
we'll start with you, Mr. Carr, and then Ms. Rosenworcel, and 
then Mr. Pai, I want to know where you stand with regard to 
whether broadband should be a part of this infrastructure 
program.
    But the follow-up question is, if we indeed successfully 
advocate for these resources in an infrastructure package, 
would you advocate for those resources to be deployed through 
existing FCC programs, through new FCC programs, or programs 
outside of the FCC's orbit?
    Mr. Carr, why don't we start with you and then Ms. 
Rosenworcel.
    Mr. Carr. Senator, thank you for the question. Obviously, 
with the usual caveat that I defer to Congress and the 
administration working out how to put together an 
infrastructure package, I believe the Secretary of 
Transportation has recently also said that she believes that 
broadband should be part of it. I think that would be a good 
idea. The FCC does have an existing mechanism, USF, which could 
be one potential avenue for distributing those funds.
    Ms. Rosenworcel. Thank you, Senator, for the question. This 
may come as no surprise, but the administration has not spoken 
to me about exactly what is going to be in that infrastructure 
proposal with respect to rural broadband, so I have no special 
knowledge about it. But I do know this, that if we wind up 
having additional programs for broadband, whether it's at the 
FCC or somewhere else, we need to make sure that the right hand 
and the left hand are talking to one another. We have had many 
programs in the past at the Department of Commerce, the 
Department of Agriculture, in addition to the FCC, and the one 
thing I have been struck by is the lack of conversation about 
how those programs work together.
    Chairman Pai. Senator, in March, in my first major speech 
as Chairman, I said that if there were to be an infrastructure 
plan, I would urge strongly that digital infrastructure, that 
broadband, be a part of it.
    And I also urged, with respect to your second question, in 
that same speech, that those funds be channeled to the FCC's 
existing mechanisms, which are tried and true. We have measures 
for fiscal responsibility and accountability, and at the end of 
the day, if you approve that package, then you can go to your 
constituents and say the tax dollars that you have sent to the 
FCC were wisely spent.
    I would also add with respect to coordination, there is a 
Rural Prosperity working group that I'm privileged to be a part 
of. It's convened by the Secretary of Agriculture. And so I've 
spoken to him, the Secretary of Energy, the Secretary of 
Housing and Urban Development, and others to figure out ways to 
synthesize our efforts so that it's not a bunch of cooks 
cooking a bunch of different meals, we're all focused on the 
one prize here, which is delivering rural broadband in a 
consistent and clear way.
    The Chairman. Thank you, Senator Baldwin.
    Senator Hassan.

               STATEMENT OF HON. MAGGIE HASSAN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Hassan. Thank you, Mr. Chair and Ranking Member, 
especially for allowing this hearing to go on this long so we 
all get a chance to ask questions. I really appreciate it.
    I also really appreciate the three of you. Congratulations 
on your nominations. And also congratulations to your family, 
and particularly an incredibly well-behaved group of children 
who are sitting through this hearing.
    Mr. Carr. I don't see mine, so----
    [Laughter.]
    Senator Hassan. You know, everybody has their tolerances, 
but I think they're all doing extremely well.
    I wanted to touch for just a minute on a topic that Senator 
Udall raised, and I think others have, too. Obviously there is 
a link between the strength of our democracy and a free press. 
And the First Amendment in our Constitution enshrines this 
national value by guaranteeing freedoms for the press and 
guards against censorship. And I share many of my colleagues' 
concern that this administration has very little regard for 
this value.
    To Senator Udall's point, he and I have asked for a hearing 
kind of on the state of the media and press since there hasn't 
been a hearing on this issue since I think it's about 2009, 
because of the hostility we're seeing directed at the free 
press and because of the increase in consolidation and the 
prospect of even more. So I'll reiterate that request as well.
    But my question for each of you is, if confirmed, will you 
commit to upholding the values of the United States 
Constitution throughout your duties, including those shrined in 
the First Amendment protecting the free press?
    Mr. Pai.
    Chairman Pai. Yes, Senator.
    Ms. Rosenworcel. Yes, Senator.
    Senator Hassan. Thank you.
    Mr. Carr. Yes.
    Senator Hassan. Thank you very much. I wanted to come back 
to the E-rate program. And, Ms. Rosenworcel, you have really 
worked diligently on these policies, and I really enjoyed our 
conversation about your work to help close the so-called 
homework gap. I am really grateful for your efforts because 
you're really working to ensure that all across the country our 
students have access to quality broadband so that they can 
complete their studies and ultimately compete in a global 
marketplace.
    When I was Governor, I started the New Hampshire School of 
Connectivity Initiative, a cross-agency partnership to bring 
high-speed Internet access to all of our schools. Since that 
initiative began in 2015, more than 25,000 of our students have 
received broadband access at school. The program would not be 
possible without E-rate.
    I am really pleased that the current Governor of New 
Hampshire has continued my administration's initiatives on 
broadband, including following through with setting aside state 
matching funds for the proposal for broadband.
    In order to truly reap the educational benefits of a 
connected classroom, we are seeing more and more that simply 
having connection is not enough, right? We need greater 
broadband speeds and higher capacity to meet the needs of our 
students. Fiber certainly holds a promise for connecting in 
this regard. But we are still in a situation in my state, the 
Granite State, where nearly 16 percent of our schools lack 
service providers who will be able to build out fiber 
connections for them.
    So what is your response to these communities? And how can 
we help them succeed in getting access to fiber? Will E-rate 
continue to be a top priority for you? I've heard from Chairman 
Pai it will be from him. But just how can we help these folks 
who still don't have the level of connectivity we need to 
really help those students succeed?
    Ms. Rosenworcel. Thank you, Senator, for the question. E-
rate is absolutely vital. It is the best tool we have to reach 
every school and every student in this country with the 
broadband they need for modern education. To the extent that 
the program hasn't reached some corners of New Hampshire, that 
is something that certainly I would be happy to talk to you 
about. I think it has that potential.
    Reforms were put in place in 2015, and promises were made 
to every school and library in this country that E-rate dollars 
would be available to them, and I want to make sure that that 
promise is kept.
    Senator Hassan. Thank you very much.
    To Chairman Pai and Ms. Rosenworcel, I applaud your 
efforts, truly a bipartisan initiative, to advance balanced 
spectrum policy, which is clearly hard to say fast, in the 
United States. With the rapid expansion of wireless-dependent 
services woven into our daily lives, which many of us have 
referenced, we need to make sure we're doing everything we can 
to avoid a spectrum crunch and provide greater access to this 
fundamental finite resource.
    New Hampshire is a home to many innovators, entrepreneurs, 
creative businesses, as well as companies that provide 
manufacturing support for the Internet of Things. Identifying 
licensed and unlicensed spectrum for greater use will not only 
ensure that we have the reliable services we are accustomed to, 
but it will also spur innovation and create new market 
opportunities for our economy to thrive.
    So I realize that my time is about to expire, but, 
Commissioner Rosenworcel, can you discuss the role of 
unlicensed spectrum in providing services to Americans as well 
as fostering wide-scale wireless innovation?
    And, Chairman Pai, just briefly, with the emerging 
prevalence of the Internet of Things and driverless cars, et 
cetera, do you believe we're postured to meet the increasing 
demand given current policies for unlicensed spectrum?
    So, Ms. Rosenworcel, and then the Chairman.
    Ms. Rosenworcel. Yes. Thank you for the question. If you 
have ever used a television remote control or a garage door 
opener or gone on Wi-Fi, you have used unlicensed spectrum. It 
powers our lives. And as we connect more things, more people, 
more places, and more devices, we are going to need more of it 
because unlicensed spectrum has low barriers to entry, and that 
means it's where innovation can happen, and innovation without 
permission. And I think a good spectrum and wireless economy 
requires both licensed spectrum and unlicensed.
    Senator Hassan. Thank you.
    The Chairman. Thank you.
    Chairman Pai. Senator, I agree with Commissioner 
Rosenworcel, and I think one of the great things about our 
unlicensed economy is that our innovators exemplify the spirit 
that Winston Churchill brought to the table in 1941 when he 
said, urging for the U.S. to give them more material to fight 
the war, ``Give us the tools and we will finish the job.'' If 
we give these unlicensed innovators wide swaths of spectrum, 
low-, mid-, and high-band, there's no telling what kinds of 
innovations they may be able to pioneer, and we want our 
American innovators to be at the forefront of that. And so 
that's one area where, as I mentioned earlier in response to a 
question of Senator Moran, I believe, that the FCC has spoken 
with a unified voice, and hopefully with Congress's support, 
we'll be able to continue to do that going forward.
    Senator Hassan. Thank you.
    And thank you, Mr. Chair, for letting me go so far over 
time.
    The Chairman. Thank you, Senator Hassan.
    Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chairman.
    Thank you to all of you. I am thinking I'm the last person 
here to ask questions, and so Senator Thune can go off to the 
White House. One more. OK.
    [Laughter.]
    Senator Klobuchar. All right. So I know that many of my 
colleagues have asked about net neutrality, so I will simply 
say that it's very important to our country and innovation and 
everything else.
    The second thing that's very important is broadband 
deployment. And as you know, I have worked very hard on this 
``dig once'' policy. And Senator Fischer and I and others have 
been pushing on Universal Service Fund funding and trying to 
figure out how we can get more funding into rural areas, and I 
know we did some standalone work here, and the FCC came up with 
a compromised position, but it still is an issue, as you know, 
in rural areas' deployment. And I just wondered if I could get 
each of your thoughts about what you think we could do on this 
end and what you could do on your end to really get this moving 
so that we don't have this digital divide, which is getting 
tougher and tougher for rural states.
    Mr. Pai.
    Chairman Pai. It's so important, Senator. Thank you for 
your interest in this issue. And I've seen these challenges for 
myself, as I mentioned in my opening remarks, when I helped lay 
some fiber in Minneapolis, and I held a roundtable in Madelia, 
where some rural broadband companies talked about some of these 
challenges.
    I think there are a lot of tools in the toolbox that 
Congress could give the FCC. I have publicly endorsed Senator 
Capito and Senator Coons' Gigabit Opportunity Act, which would 
provide tax incentives to Internet service providers to provide 
some of those digital connections in hard-to-serve rural and 
urban locations alike.
    I also think it would be helpful for ``dig once'' and other 
similar policies to be the law of the land. It would be helpful 
for the FCC to have additional authority over things like pole 
attachments, so some of those critical cost elements that go 
into building a broadband network.
    In the meantime, I can assure you that, as my colleagues 
have pointed out during this hearing, that we are committed to 
using every tool in the toolbox that we currently have to make 
that deployment proposition an easy one. Whether it's making 
wireless infrastructure siting easier, promoting more 
competition in urban areas, this is the front and center for 
us, as I imagine it is for you.
    Senator Klobuchar. OK. Thank you.
    Ms. Rosenworcel.
    Ms. Rosenworcel. Sure. The agency working with local 
jurisdictions should try to come up with a model code, one that 
includes policies like ``dig once'' and has a series of shot 
clocks for response, and then hopefully with that model code, 
the agency can build into its policies incentives for 
communities to adopt it. And if it does that, I think that 
could help expedite deployment nationwide.
    Senator Klobuchar. Thank you. And, of course, getting some 
funding on our end with the infrastructure bill would be----
    Ms. Rosenworcel. That would always----
    Senator Klobuchar.--also helpful.
    Mr. Carr.
    Mr. Carr. Thank you, Senator. I agree with many of the 
points that have been made. I think your ``dig once'' work will 
be very helpful. As you know, the cost of adding conduit on the 
front end is relatively small compared to the cost of trying to 
dig up the streets and deploy it down the road. I think that 
would be helpful.
    There are other steps that the agency has teed up on the 
infrastructure side to help streamline that. And, of course, on 
the USF side, continue to target our subsidies to the right 
places.
    Senator Klobuchar. Very good. And you and I talked about 
rural call completion. What do you think we could do to get 
even more transparency to get the better completion rates?
    Mr. Carr. Thank you, Senator. It's an important issue. 
Rural call completion has been an issue for a number of years. 
The FCC has recently began a proceeding to see how they can 
potentially take more action to fix that. I know there is some 
legislation that's been introduced as well that might get at 
intermediary providers that could also help make sure that 
those calls are always going through.
    Senator Klobuchar. OK. Thank you.
    Ms. Rosenworcel, I worked with Senator Thune on the Rural 
Health Care Connectivity Act to make skilled nursing facilities 
eligible for funding through the Universal Service Fund's Rural 
Health Care Program. The bill was signed into law last year. 
And the $400 million cap on the program was exceeded for the 
2016 funding year, and I'm concerned that the current funding 
shortfall could cutoff vital telemedicine services. How can the 
FCC address the funding needs of rural health care facilities 
providing vital telemedicine services?
    Ms. Rosenworcel. Thank you for the question. The agency's 
Rural Health Care Program has historically been 
undersubscribed, but a few years ago was adjusted and new 
opportunities were made available, including skilled nursing, 
and as a result of that success, demand has increased 
considerably. So now the agency going forward is going to have 
to wrestle with how to prioritize that demand. From my part, I 
don't think it should be the first application in the door, but 
we should put some priority on truly rural areas because I 
think that's what Congress intended when it laid down this law.
    Senator Klobuchar. All right. Thank you very much. I have a 
few other questions I'll ask on the record. But thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Klobuchar. And a very good 
piece of legislation I might add.
    [Laughter.]
    The Chairman. Next up is Senator Duckworth.

              STATEMENT OF HON. TAMMY DUCKWORTH, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Duckworth. Thank you. I want to thank the Chair and 
Ranking Member for convening today's hearing and I want to 
thank the nominees who are participating in this important 
conversation.
    Chairman Pai, I want to thank you for offering to meet with 
me yesterday, but as you can tell, I had a really terrible 
cold, and yesterday I sounded like Chewbacca.
    [Laughter.]
    Senator Duckworth. We would not have had a good 
conversation. I'm hoping I head into Kathleen Turner territory 
here soon, but I'm transitioning.
    [Laughter.]
    Senator Duckworth. Chairman Pai, last month a Federal court 
struck down regulations that cap the soaring cost of phone 
calls made by prison inmates. And I know that my colleague 
Senator Booker has asked a question about this as well. In that 
2-to-1 decision, the U.S. Court of Appeals for the D.C. Circuit 
stated that while rates charged for in-state prison calls could 
be extraordinarily high, the FCC exceeded its legal authority 
in 2015 when it created rate caps for such calls. The FCC 
initially prepared a legal defense of its decision, but 
abandoned it earlier this year after you became Chairman, and 
in a June 13 article in the New York Times, they attribute this 
decision to you.
    Chairman Pai, am I correct that in opposing the 
Commission's efforts to protect families and inmates from 
outrageously high rates for calling services, you are not 
endorsing astronomically expensive prices, rather, you simply 
believe that Congress has not provided FCC with the authority 
to impose rate caps on intrastate prison calls?
    Chairman Pai. Correct, Senator. That is a purely legal 
position that we took, and I would welcome additional authority 
should Congress see fit to provide it.
    Senator Duckworth. Thank you. So looking ahead, I plan to 
work with my colleagues to help address that issue. And, in 
fact, I plan to introduce a Video Visitation and Inmate Calling 
in Prisons Act to rein in the often ridiculous prices prisoners 
and their families are forced to pay to communicate. The bill 
would provide the FCC with clear authority to institute 
commonsense rules for video visitation and inmate calling 
services, including capping outrageously high rates, and would 
require the Bureau of Prisons to institute long overdue rules 
to make sure video visitation service contracts are effectively 
managed and overseen.
    If enacted, this good government consumer-oriented 
legislation will help establish video visitation as a 
supplement to, and not a replacement of, in-person visitation, 
with the ultimate goal of reducing recidivism through increased 
family contact and regular communications.
    I believe that this legislation would address your concerns 
about clarifying FCC authority when it comes to prison calling 
services. Will you commit to working with me to pass this 
legislation during the 115th Congress?
    Chairman Pai. I will, Senator. I look forward to working 
with you on it.
    Senator Duckworth. Thank you.
    And I believe, Mr. Carr, you had previously committed to 
this as well. And I would like to give Commissioner 
Rosenworcel, both of you, the opportunity as well.
    Ms. Rosenworcel. Absolutely I would commit to working with 
you. I mean, the number that sticks with me here is there are 
2.7 million children in this country who have a parent in 
prison, and we know that recidivism is affected by the ability 
to stay in close contact with family. So I think it is 
imperative that the FCC continue its work here, and I would 
work with you in any way to make sure that that legislation is 
successful.
    Senator Duckworth. Thank you.
    Mr. Carr.
    Mr. Carr. Yes, Senator, I agree. I would welcome the chance 
to work with you on this issue.
    Senator Duckworth. Thank you.
    Ms. Rosenworcel, on June 22, President Trump announced that 
his infrastructure proposal will promote and foster and enhance 
broadband access for rural America. According to the FCC's 2016 
Broadband Progress Report, 56 percent of rural Illinoisans lack 
adequate broadband service as opposed to only four percent of 
urban communities in Illinois. Ensuring that every Illinoisan 
has reliable Internet access to find a job, improve their 
businesses, or educate their children is a top priority. And, 
in fact, many of our kids can't do their homework because they 
don't have broadband.
    While we still haven't seen any actual details on the 
administration's infrastructure package, several accounts 
suggest it will rely heavily on various forms of tax incentives 
to encourage providers to deploy and upgrade broadband in rural 
areas. And some have expressed support for using Connect 
America Fund as a mechanism for distributing potential 
infrastructure funding.
    Is this an appropriate mechanism, the Connect America Fund? 
And how would you modify the program to accommodate this role 
to ensure that funding injected into the system supplements 
industry investments and does not actually take over?
    Ms. Rosenworcel. Thank you, Senator, for the question. It's 
an important one, and also complicated, so let me try to give 
you a quick answer. I think what is most important to me here 
is something I mentioned to one of your colleagues earlier, 
that if there are additional programs as a result of an 
infrastructure package, it is absolutely imperative that we 
think about how they work in conjunction with the FCC's annual 
$4.5 billion fund for universal service. I think it's 
imperative that the right hand talks to the left, and we don't 
duplicate efforts, or somehow wind up with policies that crowd 
out private investment that would have occurred without that 
spending.
    Senator Duckworth. Thank you.
    Now, Chairman Pai, along with your fellow Commissioners, 
you've highlighted the importance of consensus-based 
decisionmaking at the FCC and expressed frustration about 
delegated authority. Is that a fair statement?
    Chairman Pai. Yes, Senator.
    Senator Duckworth. Thank you. You issued a press release in 
December 2014 with Commissioner O'Rielly about these concerns, 
and similarly Commissioner Clyburn expressed frustration 
earlier this month about learning that the FCC approval of the 
Sinclair-Benton deal--about learning about that through a press 
release.
    Mr. Chairman, I ask unanimous consent to enter into the 
record a 2014 press release from Chairman Pai and a July 2017 
tweet from Commissioner Clyburn.
    The Chairman. Without objection.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                 ______
                                 
                    Tweet from Commissioner Clyburn
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 

    Senator Duckworth. Thank you.
    In August of last year, the FCC voted 3-to-2 to adopt new 
disclosure requirements for shared service agreements. Is that 
correct?
    Chairman Pai. I believe that data is correct, yes.
    Senator Duckworth. So subject to approval by OMB, each 
broadcasting station that is party to a shared service 
agreement, whether in the same or different television markets, 
would be required to file a copy of the SSA in its online 
public inspection file.
    Chairman Pai, did FCC withdraw its request to OMB to 
approve the collection of SSA information on January 27, 2017? 
And if so, why? And does the FCC plan to resubmit its request 
to OMB?
    Chairman Pai. Senator, I confess I am not familiar with 
that particular information collection at this point, but I'm 
happy to get back to you with a status report on where that 
information collection stands.
    Senator Duckworth. Thank you.
    Commissioner Rosenworcel and Mr. Carr, were you aware of 
that development?
    Ms. Rosenworcel. Because I no longer serve at the agency 
right now, I don't have up-to-date details on that, but, you 
know, were I confirmed, I would be perfectly happy to follow up 
with you and provide you with more information.
    Senator Duckworth. Thank you.
    Mr. Carr. I think, Senator, similarly, I don't recall right 
now the specifics of that one.
    Senator Duckworth. OK. Well, thank you all for being very 
kind.
    And again, Chairman Pai, I apologize for having to cancel 
our meeting yesterday.
    You've been very generous, Mr. Chairman. I yield back.
    The Chairman. Thank you, Senator Duckworth.
    And I think that exhausts the questions for today. So again 
I want to thank all of our nominees for being here, for your 
testimony, for your responses to our questions. As was pointed 
out earlier, some of the most exciting things that are 
happening in the digital economy fall under this Committee's 
jurisdiction and under the regulatory authority of the FCC. And 
so we want to make sure that we're doing everything we can to 
advance the new technologies and make sure that people all 
across the country, no matter where they live, have access to 
high-speed Internet and all the advantages that come with that 
that are available to people in populated areas around the 
country as well.
    So we're looking forward to moving this process along. And 
again thank you for your willingness to serve, for your 
families, for their dedication and commitment to the worthy 
cause of public service. And we'll look forward to hopefully 
being able to get the nomination process--confirmation process 
I should say, moving quickly.
    I want to enter into the record on behalf of Senator Nelson 
four letters of support for Jessica Rosenworcel's nomination to 
the FCC.
    [The letters referred to follow:]

       National Association of Elementary School Principals
                                      Alexandria, VA, July 17, 2017

Hon. John Thune,
United States Senate,
Washington, DC.
Hon. Bill Nelson,
United States Senate,
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson:

    The National Association of Elementary School Principals (NAESP) 
strongly supports President Trump's nomination of Jessica Rosenworcel 
to serve on the Federal Communications Commission (FCC). We appreciate 
your decision to schedule her confirmation hearing this week and 
encourage the Committee and the full Senate to approve her nomination 
without delay.
    Ms. Rosenworcel understands that the FCC's longstanding efforts to 
ensure all Americans have access to high capacity broadband is 
especially important to the Nation's students, teachers and principals. 
Broadband connectivity enables digital learning opportunities, expands 
access to resources, research and data, and promotes valuable 
collaboration and engagement among students, families, and educators. 
These advantages are often particularly important in the isolated rural 
and high cost communities that are most likely to depend on outside 
assistance to acquire broadband connectivity. Thanks to the E-rate, and 
other Federal communications initiatives, broadband connectivity is 
expanding, but the Nation needs continued strong and effective 
leadership at the FCC to help the families, schools, and communities 
that have not yet leaped across the digital divide.
    Ms. Rosenworcel's prior service demonstrates that she will 
contribute to the agency's broadband leadership and work. Her 
understanding of schools' and students' broadband needs, technical 
expertise, and collaborative style, make her an excellent choice for 
this vitally important leadership position. If confirmed, we are 
confident she will help the agency address the Nation's most difficult 
broadband challenges and ensure more students and educators have access 
to the tools and resources they need to succeed academically and 
professionally.
            Sincerely,
                                L. Earl Franks, Ed.D., CAE,
                                                Executive Director.
                                 ______
                                 
                                                       AASA
                                      Alexandria, VA, July 17, 2017

Hon. John Thune,
United State Senate,
Washington, DC.
Hon. Bill Nelson,
United States Senate,
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson,

    On behalf of AASA, The School Superintendents Association, 
representing more than 10,000 school superintendents and system leaders 
across the country, I write to express our strong support for the 
nomination of Jessica Rosenworcel to serve on the Federal 
Communications Commission (FCC).
    The work of the FCC is unique in that the connectivity demands and 
needs of the future are nearly impossible to predict. The FCC's track 
record of success depends on having commissioners with an unwavering 
commitment to addressing these unknown demands, including supports for 
communities facing geographic and/or economic obstacles.
    Ms. Rosenworcel has a long history as a champion of connectivity 
and equity, ensuring all communities have access to the type of 
connectivity that is essential to opportunity and success in today's 
increasingly digital world. She is a disciplined and principled public 
servant, committed to the FCC's work to regulate interstate and 
international communications via radio, television, wire, satellite and 
cable across the Nation. Specific to the schools our members run and 
the 50 million students they serve, Ms. Rosenworcel has supported the E 
Rate program since its inception and was a driving force in the 2014 
modernization that helped transform E Rate to better support all 
schools and communities with access to broadband. She is able to 
balance the connectivity needs of the Nation with policy and 
implementation opportunities and constraints, and to do so in a manner 
that brings communities together. We look forward to further 
opportunities to collaborate with the FCC and Ms. Rosenworcel as they 
work to better connect those communities that remain un(der)served.
    AASA supports the nomination of Ms. Rosenworcel to the FCC and 
strongly urges the Committee and full Senate to approve her nomination. 
Thank you for considering our endorsement, and please do not hesitate 
to contact me with any questions about our support for the nomination, 
our support for E-Rate, or a broader conversation about the importance 
of education technology and broadband access for today's 24-hour 
learners.
            Sincerely,
                                        Daniel A. Domenech,
                                                Executive Director.
                                 ______
                                 
             National Association of School Superintendents
                                      Burlingame, CA, July 18, 2017

Hon. John Thune,
United States Senate,
Washington, DC.
Hon. Bill Nelson,
United States Senate,
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson:

    The National Association of School Superintendents (NASS) 
encourages you and your colleagues to approve President Trump's 
nomination of Jessica Rosenworcel to serve on the Federal 
Communications Commission (``FCC''). During her prior FCC service, Ms. 
Rosenworcel distinguished herself as knowledgeable, creative and 
effective decision maker and our members welcome the president's 
decision to reappoint her.
    Ensuring school and community access to high capacity broadband 
must be a steadfast national priority. Equipping students, educators, 
and families with cutting-edge broadband services creates innovative 
learning opportunities and rich forums for professional and family 
collaboration and engagement. Unfortunately, despite significant 
broadband expansion, these opportunities are not universal. Many rural, 
high-cost, and low-income communities lack access to affordable and 
robust broadband networks. This lack of critical telecommunications 
infrastructure compounds educational inequities in our poorest 
communities and hampers schools' efforts to prepare all students for 
success after graduation.
    Ms. Rosenworcel recognizes broadband's potential to expand and 
improve educational opportunities and to fundamentally transform 
struggling communities. Our members deeply appreciated her efforts to 
strengthen the E-rate for schools and update the Lifeline program to 
address the ``homework gap.'' As Congress and the new Administration 
pursues new infrastructure investments and takes other steps to build 
on this work, we believe Ms. Rosenworcel would provide an impactful and 
valuable perspective at the FCC.
    Thank you for carefully considering our perspective. We appreciate 
your leadership on this important matter and would be pleased to tell 
you more our membership's work to strengthen the Nation's school 
districts and improve academic and life outcomes for kids.
            Sincerely,
                                              Tom Armelino,
                                                Executive Director,
                                                                  NASS.
                                 ______
                                 
                       California School Boards Association
            Association of California School Administrators

Hon. John Thune,
United States Senate,
Washington, DC.
Hon. Bill Nelson,
United States Senate,
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson:

    The Association of California School Administrators (ACSA) and 
California School Boards Association (CSBA) strongly support President 
Trump's nomination of Jessica Rosenworcel to serve on the Federal 
Communications Commission (FCC). On behalf of ACSA's more than 17,000 
school leader members and CSBA's over 5,000 locally elected school 
board members, we urge you to lend your support to her nomination and 
move it promptly through committee for the full Senate's consideration 
before the August recess.
    California's students and teachers increasingly depend on high 
capacity broadband access--in and out of school--to support teaching 
and learning. Similar to other states, California's digital transition 
has been uneven. Far too many rural, low-income, and other hard to 
serve communities lack access to the robust telecommunication networks 
that open doors to additional educational, workforce and other 
opportunities. Given this problem, our members strongly support federal 
initiatives, like the E-rate and Lifeline programs--that are designed 
to help states and localities address connectivity challenges.
    Ms. Rosenworcel has demonstrated a clear understanding of 
broadband's inherent educational, economic, and social value. She also 
developed a strong track record for problem solving and bipartisanship 
that will serve the FCC well as the agency works to build on the 
Nation's progress toward universal, high capacity broadband access.

Erika K. Hoffman,
Legislative Advocate,
California School Boards Association.
  
Adonai Mack,
Director of Political Affairs and Strategy,
Association of California School Administrators.
cc: California Delegation

    The Chairman. And I would also say that we're going to keep 
the hearing record open until Friday, July 21, and during that 
time, Senators are asked to submit any other questions that 
they might have for the record. Upon receipt, we would ask our 
witnesses to submit their written answers to the Committee by 
July 31 so that we can get you all scheduled for a markup real 
soon.
    With that, this hearing is adjourned. Thank you.
    [Whereupon, at 12:21 p.m., the hearing was adjourned.]

                            A P P E N D I X

                                       The City of New York
                                        New York, NY, July 21, 2017

Hon. John Thune,
Chairman,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.
Hon. Bill Nelson,
Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Chairman John Thune, and Ranking Member Bill Nelson:

    I write in support of the Honorable Jessica Rosenworcel's 
confirmation for a second term as commissioner at the Federal 
Communications Commission (FCC). As Chief Technology Officer for the 
City of New York, and having served in technology leadership roles for 
two other municipalities and in the private sector as a two-time 
technology startup founder, I have witnessed Commissioner Rosenworcel's 
leadership in shaping America's digital future, and empowering 
children, families, and businesses with new ideas. While serving on the 
Intergovernmental Advisory Committee (IAC) for the FCC gave me direct 
experience with the important role Commissioner Rosenworcel had in 
shaping the future and her tireless dedication to the work.
    In New York City, home of the second largest tech sector in the 
country, we have relied on Commissioner Rosenworcel to help protect New 
Yorker's access to the Internet, and digital privacy. Since joining the 
Commission in 2012, Commissioner Rosenworcel helped it focus on 
policies to protect consumers, promote innovation, expand spectrum 
access, and support first responders. She has been a leading advocate 
for kids, focusing on the ``homework gap'' and access to the tools they 
need to succeed at school in the digital age. Commissioner 
Rosenworcel's leadership has inspired cities like New York City and 
others to take bold steps to address this issue, and in turn, inform 
the FCC's work.
    Commissioner Rosenworcel's tenure as an FCC commissioner has not 
only helped children and families access the Internet, but has helped 
communities like ours to build stronger schools, improve city services, 
and unleash more entrepreneurial and creative potential. I know she 
will continue to fight for these policies, and be guided by the values 
of opportunity, equality, competition, and innovation. Therefore, New 
York City proudly and strongly supports Commissioner Rosenworcel's 
nomination, and I urge Congress to approve her confirmation.
            Sincerely,
                                      Miguel A. Gamino Jr.,
                                          Chief Technology Officer,
                                                      City of New York.
                                 ______
                                 
                         National School Boards Association
                                     Alexandria, VA, August 1, 2017

Hon. John Thune,
Chairman,
Committee on Commerce, Science, and Transportation,
U.S. Senate,
Washington, DC.
Hon. Bill Nelson,
Ranking Member,
Committee on Commerce, Science, and Transportation,
U.S. Senate,
Washington, DC.

Re: Nomination of Jessica Rosenworcel, Esquire to Federal 
            Communications Commission

Dear Chairman Thune and Ranking Member Nelson:

    On behalf of our state associations and the 90,000 school board 
members who govern our country's 14,000 local school districts, the 
National School Boards Association (NSBA) urges your support and 
confirmation of Jessica Rosenworcel, Esquire as a Commissioner of the 
Federal Communications Commission (FCC).
    During Ms. Rosenworcel's first term at the FCC, she passionately 
advocated policy positions that help to ensure all our Nation's 
students have access to the high-quality education that they deserve.
    Specifically, Ms. Rosenworcel worked to close the ``homework gap'' 
by highlighting the disparities in broadband service that often make it 
difficult for students in rural areas and underserved communities to 
complete their school work. NSBA also applauds Ms. Rosenworcel's 
commitment to ensuring the integrity and success of the Universal 
Service Fund and E-Rate program, a critical component to ensuring 
equity and access to schools and libraries for telecommunications 
services that support 21st Century skills and learning.
    As our Nation's public schools need the leader ship and advocacy 
efforts of Ms. Rosenworcel, NSBA strongly supports her reappointment to 
the FCC. Thank you for your consideration.
            Sincerely,
                                         Thomas J. Gentzel,
                    Executive Director and Chief Executive Officer.
                                 ______
                                 
                                   Hispanic Leadership Fund
                                 Washington, DC, September 29, 2017

Hon. John Thune, Chairman,
U.S. Senate Committee on Commerce, Science, and Transportation,
Washington, DC.
Hon. Bill Nelson, Ranking Member,
U.S. Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson:

    The Hispanic Leadership Fund supports the reconfirmation of Federal 
Communications Chairman Ajit Pai. Throughout his tenure at the FCC--
both as a Commissioner and now as Chairman--he has repeatedly proven 
himself to be a public official who is rooted in equality and 
transparency. The Hispanic Leadership Fund (HLF) fully endorses his 
continued role as Chairman and urges the U.S. Senate to reconfirm him.
    HLF is a non-partisan organization that has advocated since 2008 
for public policy frameworks that ensure the American Dream is within 
reach for everyone. This includes the kind of common sense regulatory 
policies that Chairman Pai has advocated for since his first day at the 
FCC. From addressing robocalls to publishing proposals and orders 
before they're voted on, the Chairman has brought a sensible approach 
to the FCC that prioritizes consumer interests above all.
    Challenging the status quo is not always easy, and Chairman Pai has 
faced pushback from special interest groups who fundraise off divisive 
issues, most notably `net neutrality'. As we stated back in April when 
the Chairman announced his intension to ``reverse the mistake of Title 
II'' reclassification of the internet, HLF believes that a primary 
reason the internet has flourished is because it operated in a light-
touch regulatory environment. This approach worked well under the 
presidencies of both Democrat Bill Clinton and Republican George W. 
Bush, and we believe it should be restored. In doing so, the flow of 
investment and innovation will pick up to the benefit of working 
families across the country.
    Beyond his commitment to sensible regulatory policy, Chairman Pai 
is dedicated to diversity and inclusion. He is the first Indian-
American to Chair the FCC and is unequivocally committed to ensuring 
that all Americans--regardless of race, gender, religion, ethnicity, or 
sexual orientation--have the opportunity to participate and thrive in 
the digital era rather than finding themselves on the wrong side of the 
digital divide.
    In less than a year as Chairman, he has already catapulted the 
issue of America's digital divide into the spotlight. Chairman Pai took 
initiative to reinstate the Advisory Committee on Diversity and Digital 
Empowerment (ACDDE) in which 31 appointees, including myself, provide 
counsel to the Commission regarding how best to empower disadvantaged 
communities and accelerate the entry of small businesses into the 
media, digital news and information, and audio and video programming 
industries. Additionally, the Committee will provide recommendations on 
how to ensure disadvantaged communities are not denied the wide range 
of opportunities made possible by next-generation networks. 
Unfortunately, in recent years, the activity of the ACDDE had been 
minimized at the FCC under previous chairmen.
    Finally, we believe strongly that the reconfirmation of Chairman 
Pai should not fall victim to today's tumultuous political games and an 
environment that too often places blind partisanship above the public 
interest. The U.S. Senate should recognize that before them is a highly 
qualified, committed, and fair nominee whose reconfirmation will 
continue to put the interests of real, everyday Americans at the helm 
of the FCC. We respectfully urge all Senators to vote to reconfirm Ajit 
Pai as Chairman of the Federal Communications Commission.
            Sincerely,
                                            Mario H. Lopez,
                                                         President.
                                 ______
                                 
     Response to Written Question Submitted by Hon. John Thune to 
                             Hon. Ajit Pai
    Question. Millions of rural Americans lack access to broadband, and 
bridging the digital divide is a priority for me and the Committee. As 
traditional fiber, cable, and 4G broadband is deployed throughout the 
country, policymakers must nevertheless be creative and open-minded 
when exploring all options to achieving universal service. What role do 
you see for unlicensed spectrum (Wi-Fi, TV White Spaces, millimeter 
wave, etc.) in connecting unserved rural households with broadband 
Internet access?
    Answer. I strongly believe that unlicensed spectrum should play an 
important role in providing broadband service to rural areas, and I am 
committed to moving ahead expeditiously to achieve this goal. We can 
and should build on earlier successes in this area. For instance, 
Wireless Internet Service Providers (WISPs) already are providing 
broadband service in many rural areas using unlicensed spectrum, 
particularly in the 2.4 GHz and 5 GHz ``Wi-Fi'' bands.
    Also, several years ago, the FCC developed rules for providing 
broadband service on an unlicensed basis in the TV white spaces. I 
supported the Commission's decision in 2015 to revise the TV white 
space rules to facilitate deployments in rural areas by allowing for 
higher power to serve longer distances. And last year, we provided 
additional spectrum for unlicensed in the millimeter wave bands, 
doubling the available spectrum to cover 57-71 GHz.
    It is essential that we move ahead with a renewed sense of purpose 
to bring broadband to every American. That's why the Commission is 
actively considering different methods for expanding access to 
spectrum, including unlicensed spectrum. For instance, we teed up a 
Notice of Inquiry on mid-band spectrum for Commission consideration at 
our August open meeting that, among other things, explores how we can 
make more mid-band spectrum available for unlicensed use.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                             Hon. Ajit Pai
    Question 1. Chairman Pai, there has been a lot of discussion 
recently about using TV white spaces to help deliver rural broadband. 
Can you comment on the challenges and opportunities of potentially 
using TV white spaces to deliver broadband to rural areas?
    Answer. The Commission's rules provide for unlicensed operation in 
TV white spaces, including in rural areas. In 2015, we revised the TV 
white space rules to facilitate deployments in rural areas, such as by 
allowing for higher power to serve longer distances. This spectrum 
offers excellent properties for delivering broadband over the distances 
typically needed to serve rural areas. For example, the signals travel 
long distances and overcome obstacles such as trees and rolling 
terrain.
    One challenge is that the Commission must balance wider deployment 
of white space broadband services and the availability of channels for 
low power TV stations and translators that are displaced by the TV 
incentive auction. Moreover, as is the case for many nascent services, 
the early equipment involving TV white spaces is costly.

    Question 2. Within the USF Program, the annual budget for the high 
cost program is $4.5 billion, the annual budget for the E-Rate program 
is $3.99 billion, and the annual budget for the low-income program is 
$2.25 billion, increasing to $2.28 billion for 2018. In light of these 
funding levels, and the Nation's challenges in managing the cost and 
quality of health care, the FCC's rural health care annual budget of 
$400 million, minus USAC administrative expenses, which has not been 
changed in nearly 20 years, appears woefully inadequate. Will you work 
to ensure that rural health care support is adequate to meet the needs 
of the nation?
    Answer. The rural healthcare program provides important funding to 
eligible health care providers (HCPs) for telecommunications and 
broadband services necessary for the provision of health care. I deeply 
appreciate the importance of these HCPs serving rural communities and 
the need for universal service funding in making sure all Americans 
have access to state-of-the-art healthcare. As the son of a doctor in 
Kansas who often travelled many miles to see his patients, I am well 
aware of the difficulty so many in rural America have in getting 
adequate healthcare.
    I have long made ensuring the viability of the RHC program for 
rural participants a priority. When the FCC created the Healthcare 
Connect Fund in 2012, I pushed the Commission to make sure that the 
majority of the funds were targeted at rural healthcare providers. And 
last December, I pushed the agency to crack down on waste, fraud, and 
abuse in the program to ensure sufficient funding for the many good 
actors that need it. I have asked Commission staff to look closely at 
the RHC program and to consider ways to strengthen it.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Roy Blunt to 
                             Hon. Ajit Pai
    Question 1. Are you considering major changes to the E-Rate program 
and, if so, can you elaborate how any changes may impact rural schools 
and libraries that depend on the program for connectivity?
    Answer. I am deeply committed to doing everything within the FCC's 
power to close the digital divide. I believe an effective E-rate 
program--one that promotes better connectivity for students and library 
patrons alike--can be a powerful tool to help bridge that divide. That 
is why, four years ago, I said that ``E-rate is a program worth 
fighting for.''
    Unfortunately, there have been serious flaws in the administration 
of the E-rate program, specifically related to the process by which 
schools and libraries apply for E-rate funding, that are preventing 
many schools and libraries from receiving that funding. I have asked 
USAC, which administers the program on the FCC's behalf, to provide a 
detailed report on plans to fix existing problems so that the program 
is in full compliance with our rules and works for applicants and 
participants. And in general, I believe that we must focus on cutting 
unnecessary red tape and making the E-rate application process easier 
for schools and libraries.

    Question 2. Will you commit to ensuring the E-Rate program remains 
strong in rural Missouri?
    Answer. Yes.

    Question 3. During the broadcast television incentive auction, the 
FCC paid 28 UHF television stations more than $984 million to relocate 
to a VHF channel. Is the UHF discount is still necessary?
    Answer. In April, the Commission voted to reinstate the UHF 
discount until it could review in a more holistic proceeding later this 
year both the discount and the FCC's national television multiple 
ownership rule. This action returned the marketplace to the status quo 
that existed before October 2016. As you know, last year, the previous 
Commission voted to eliminate the UHF discount. However, it did so 
without simultaneously considering whether the national ownership cap 
should be modified. As the UHF discount and national television cap are 
inextricably linked, this decision was made in error. The national cap 
establishes a national ownership limit, and the discount is used to 
calculate whether the limit has been reached. Because of this 
connection, eliminating the UHF discount substantially tightened the 
national cap without any analysis of whether this tightening was in the 
public interest given current marketplace conditions.
    Later this year, the Commission will launch a new proceeding that 
will broadly consider both whether the national ownership cap should be 
modified and whether the UHF discount should be retained. Any decision 
on whether the UHF discount remains necessary will be based on the 
facts compiled in that proceeding along with the relevant law.
                                 ______
                                 
      Response to Written Questions Submitted by Hon. Ted Cruz to 
                             Hon. Ajit Pai
Net Neutrality
    So called ``net neutrality'' as implemented in former FCC Chairman 
Tom Wheeler's Open Internet Order was a bureaucratic power grab that 
took the Internet which has long been a transformational tool that has 
allowed innovation and creativity and created new economic 
opportunities for all Americans and turned the Internet into a 
regulated public utility under Title II of the Communications Act. 
Title II gives the government new authority over the Internet which 
could be used to determine pricing and terms of service.
    What's concerning about the Title II debate is the influence that 
edge providers such as Google, Facebook and Netflix had with the Obama 
White House. For example, The Intercept has reported that between 
January 2009 and October 2015, Google staffers gathered at the White 
House on 427 separate occasions. The Intercept further notes that the 
frequency of the meetings increased from 32 in 2009 to 97 in 2014. This 
is concerning given that President Obama released a video on November 
10, 2014 weighing into the net neutrality debate and advocated that the 
FCC regulate the Internet as a public utility. Not only did the 
Commission move forward and implement Title II but edge providers like 
Google were exempted from Title II.

    Question 1. Were you concerned with the influence that the Obama 
White House had with the FCC in advocating for Title II?
    Answer. Yes.

    Question 2. Building off the previous question, as you know, the 
FCC is funded by fees paid by those it regulates. Google, Microsoft, 
Facebook, and Amazon collectively have a market capitalization in 
excess of two trillion dollars. Are you troubled by the fact that not 
only did these companies have a cozy relationship with the Obama White 
House but that they use the regulatory process to seek the regulation 
of their competition-broadband providers, yet they contribute very 
little if anything towards offsetting the cost of the FCC's operations? 
Do you have thoughts on how we might remedy this inequity?
    Answer. Unfortunately, it is a common practice for companies to 
lobby government officials to either seek regulatory largesse and/or 
impose burdensome regulations on their competitors so that they can 
gain a competitive advantage. I have seen this practice during my time 
at the Commission and am troubled by it. In my view, the best way to 
remedy this problem is for the Commission to embrace a philosophy of 
regulatory parity and not use the regulatory process to reward favored 
industries and punish disfavored industries.
5G Wireless Technology Deployment
    We are on the cusp of the wireless industry introducing the next 
generation of technology--5G. That upgrade to our existing networks is 
expected to bring us higher data speeds, lower latency, and the ability 
to support breakthrough innovations in transportation, healthcare, 
energy and other sectors. And as recent studies have shown, 5G is 
expected to provide significant benefits to state and local 
governments, allowing them to become smart cities. However, those 
networks will also require many more antenna sites than we have today--
they will increasingly rely on small cell technologies. To recognize 
these benefits, a study performed by Deloitte shows that several steps 
are necessary to remove impediments to antenna siting. Texas is leading 
the way, as evidenced by recent legislation (Texas Senate Bill 1004) 
signed into law just last month that streamlines the deployment of 
next-generation 5G networks. It's also my understanding that the 
Commission has initiated a proceeding designed to evaluate whether some 
of those obstacles can be removed.

    Question 3. Can you tell me what you hope to achieve in the ongoing 
proceeding and when it might be concluded?
    Answer. The Wireless Infrastructure Notice of Proposed Rulemaking 
(NPRM) and Notice of Inquiry (NOI), adopted on April 20, 2017, was 
intended to take a comprehensive look at the federal, state, and local 
regulatory requirements that affect the speed with which, and cost at 
which, wireless networks can be deployed and modernized. The Commission 
also adopted the same day a Wireline Infrastructure NPRM seeking 
comment on barriers to the deployment of wireline infrastructure 
(including the fiber that is critical to carrying wireless traffic).
    In the wireless item, the Commission sought comment on regulatory 
impediments to wireless network infrastructure investment and 
deployment and on how to remove or reduce such impediments, consistent 
with the law and the public interest. The NPRM/NOI seeks comment on 
measures to streamline state and local government review of proposed 
infrastructure deployments and asks, for instance, about the timelines 
for local zoning reviews, the remedies available to applicants for 
missed deadlines, and the reasonableness of fees. In addition, the 
proceeding is examining how we might revise the Commission's rules and 
procedures for complying with the National Historic Preservation Act 
and the National Environmental Policy Act in ways that might help 
reduce the costs and delays associated with those review processes, 
while still satisfying our legal obligations and protecting important 
resources. Our objective is to facilitate and accelerate the deployment 
of the infrastructure needed to meet the country's needs for advanced 
wireless service and to make next-generation technologies available to 
all Americans. The comment cycle in this proceeding closed on July 17, 
2017, and we are in the process of reviewing the record that's been 
compiled.
FCC Priorities
    Question 4. My top priority is regulatory reform. Please identify 
three meaningful regulations that you are interested in repealing 
during your tenure at the FCC.
    Answer. (1) I am interested in repealing the copper retirement 
rules that the Commission adopted in 2015 so that carriers can spend 
less money maintaining the fading copper networks of yesterday and more 
money building and expanding the next-generation networks of tomorrow.
    (2) I am interested in repealing the main studio rule, which 
appears to be an outdated regulation that imposes unnecessary costs on 
radio and television broadcasters.
    (3) I am interested in repealing the outdated requirement that 
carriers completing payphone calls conduct annual audits of their 
payphone call tracking systems and file annual audit reports with the 
Commission, since these audits often cost more than the amount of the 
compensation being reviewed.
ICANN
    Question 5. Last year the previous administration allowed the 
Federal Government's contract with ICANN to expire. Do you think that 
was a wise and prudent decision?
    Answer. I spoke out against that decision at the time. For 
instance, over three years ago, I wrote about my ``serious doubts'' in 
National Review, arguing that ``[t]he current model of Internet 
governance has seen a tremendous success. It's allowed the Internet to 
remain free and operate reliably. If America steps back, foreign 
governments will be all too eager to step forward. . . . [T]he United 
States should not apologize for its leadership in promoting a free 
Internet.'' See ``Giving Up the Internet: Still Risky,'' National 
Review (Apr. 23, 2014), available at http://www.nationalreview.com/
article/376384/giving-internet-still-risky-ajit-pai.

    Question 6. Microsoft and Facebook and YouTube, which is owned by 
Google, all of whom supported President Obama's Internet transition, 
have signed a code of conduct with the European Union to remove so-
called hate speech from European countries in less than 24 hours. Do 
you think these global technology companies have a good record of 
protecting free speech? And what can be done to protect the First 
Amendment rights of American citizens?
    Answer. I am always concerned by the impulse to censor unpopular 
speech, whether at home or abroad. During my tenure at the Commission, 
I have consistently spoken out about the importance of protecting free 
speech. If I am fortunate enough to be confirmed, I will continue to do 
whatever I can to safeguard the First Amendment rights of the American 
people.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Jerry Moran to 
                             Hon. Ajit Pai
    Question. The Government Accountability Office (GAO) recently made 
a recommendation in a May 2017 report that the Universal Service Fund 
should be moved from a private bank into the U.S. Treasury. What are 
your thoughts on this proposal? Do you foresee such action having an 
impact the long-term solvency of the fund as it relates to the Federal 
Government's future efforts to reduce the national deficit?
    Answer. I agree with this recommendation, and the Universal Service 
Administrative Company is actively working in coordination with the FCC 
and the Treasury to transfer the USF funds as recommended by GAO. I 
have not seen any evidence that moving the funds to the U.S. Treasury 
would affect the long-term solvency of the USF, nor am I aware of 
potential, specific impacts on the national deficit. Indeed, moving 
these funds to the U.S. Treasury will give the Federal Government the 
greatest ability to protect these funds from improper use and safeguard 
their important role in ensuring that every American gets connected.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Dan Sullivan to 
                             Hon. Ajit Pai
    I want to thank you and the current FCC Commissioners for working 
with my staff to help alleviate some of the burden that the reduction 
in reimbursement from the Rural Health Care program placed on Alaskan 
health care providers.
    In my state, the price of telecommunications services is so 
expensive that many rural health care providers cannot afford them 
without support from the Rural Health Care program. Telemedicine 
services in Alaska are essential for many of our villages, and they are 
only possible if a health facility has connectivity.
    In enacting the Telecommunications Act of 1996, Congress 
specifically directed the FCC to ensure that rural health care 
providers have access to telecommunications services at rates that are 
reasonably comparable to those for similar services in urban areas of 
the State. As you are aware, for the first time the demand for funding 
from the Rural Health Care program exceeded the $400 million cap.

    Question 1. Will you work to ensure the sustainability of the Rural 
Health Care Program as the FCC moves forward to review further reforms 
to universal service programs?
    Answer. Yes.

    Question 2. If confirmed, what steps would you take to address this 
funding issue?
    Answer. The rural healthcare program provides important funding to 
eligible health care providers (HCPs) for telecommunications and 
broadband services necessary for the provision of health care. I deeply 
appreciate the importance of these HCPs serving rural communities and 
the need for universal service funding in making sure all Americans 
have access to state-of-the-art healthcare. As the son of a doctor in 
Kansas who often travelled many miles to see his patients, and as a 
regulator who has seen firsthand the healthcare challenges in Alaska, I 
am well aware of the difficulties so many Americans have in getting 
adequate healthcare.
    I have long made ensuring the viability of the RHC program for 
rural participants a priority. When the FCC created the Healthcare 
Connect Fund in 2012, I pushed the Commission to make sure that the 
majority of the funds were targeted at rural healthcare providers. And 
last December, I pushed the agency to crack down on waste, fraud, and 
abuse in the program to ensure sufficient funding for the many good 
actors that need it. I have asked Commission staff to look closely at 
the RHC program and to consider ways to strengthen it.

    Question 3. Will you consider beginning a rulemaking proceeding to 
evaluate the changes necessary to ensure that the program budget is 
sufficient to fulfill the purposes of the program?
    Answer. Yes, as noted above, I have asked Commission staff to look 
closely at the RHC program and to consider ways to strengthen the 
program.

    Question 4. What steps do you plan to take to increase the 
transparency and accountability of USAC?
    Answer. I agree with you that USAC must be more transparent and 
accountable than it's been in the past. That's why in my first week on 
the job, my office directed the Office of the Managing Director and the 
Wireline Competition Bureau to more actively oversee how USAC conducts 
its duties.
    And I myself have directly intervened when necessary. For example, 
serious flaws in the administration of the E-rate program have 
prevented many schools and libraries from getting that funding. I have 
asked USAC to provide a detailed report on plans to fix the existing 
problems so it can administer the E-rate program in a manner that is 
fully compliant with our rules and that works for applicants and 
participants.
    Similarly, after the Government Accountability Office (GAO) 
recently released a report confirming that waste, fraud, and abuse are 
still all too prevalent in the Lifeline program, I directed USAC to 
take immediate action to stop this abuse of the program and establish 
procedures for ongoing vigilance to protect the Fund.
    Last Congress, I questioned the previous Chairman, Chairman 
Wheeler, about a constituent of mine who had license renewal 
applications pending at the FCC for more than 13 years, which I find 
unacceptable. At my urging, the FCC acted on some of those pending 
applications, but requested more information which my constituent 
submitted and continues to wait for an answer.

    Question 5. What type of action do you plan to take, or have you 
taken, to improve the timeliness of FCC action on items submitted for 
approval or for review?
    Answer. I agree that it is important for the FCC to act on matters 
in a timely manner. That's why, for instance, I have made clear that 
section 7 of the Communications Act will be enforced during my tenure 
as Chairman. That provision states that the Commission will decide 
within one year whether any petition for a new technology or service is 
in the public interest. Unfortunately, the Commission has failed to 
abide by this deadline in the past. I have placed the Commission's 
Office of Engineering and Technology in charge of enforcing compliance 
with section 7.
    I also believe that the Commission should consider establishing 
deadlines for resolving applications for review, petitions for 
reconsideration, and waiver requests.

    Question 6. Will you commit to acting on the applications pending 
at the FCC for Peninsula Communications, Inc. as soon as possible?
    Answer. Yes.
    It is my understanding that environmental assessments (EAs), when 
required under the FCC's rules, are currently not subject to any 
processing timelines or dispute resolution procedures. As a result, 
environmental assessments for new facilities can languish for an 
extended period of time--sometimes years. This is an unfortunate 
barrier to feeding our Nation's hunger for expanded wireless broadband. 
Given my seat on this committee and on EPW, I have a particular 
interest in finding ways to streamline these procedures.

    Question 7. Will you commit to finding ways to streamline the FCC's 
review of environmental assessments, including through the adoption of 
``shot clocks'' to resolve environmental delays and disputes, in 
addition to working on additional infrastructure reforms?
    Answer. Yes, I commit to seeking ways to streamline the 
Commission's environmental review process consistent with the public 
interest and our obligations under the National Environmental Policy 
Act and other environmental statutes. The Commission opened a 
rulemaking proceeding in April of this year seeking comment broadly on 
how we can improve and streamline our environmental review, in the 
context of a broader examination of regulatory impediments to wireless 
infrastructure deployment. The record in that proceeding closed in 
July, and staff are currently reviewing comments.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Dean Heller to 
                             Hon. Ajit Pai
    Question. Chairman Pai, some incumbent spectrum users have made 
private capital investments--hundreds of billions of dollars over 
decades--because of the certainty of and their reliance on existing 
spectrum usage rules. Will you ensure that these incumbent users are 
treated fairly should you consider changing existing spectrum usage 
rules?
    Answer. Yes. The Commission is committed to policies that promote 
investment, encourage innovation, and foster next generation networks. 
Our work toward such policies includes a commitment to fair treatment 
of incumbent licensees that have already built out their networks.
                                 ______
                                 
      Response to Written Questions Submitted by Hon. Mike Lee to 
                             Hon. Ajit Pai
    Question 1. I've heard from concerned constituents that some of the 
FCC's proposals in its AM radio proceeding could cause them to lose 
access to certain stations. I know FEMA has also raised concerns that 
these proposals could even impact the reception of Presidential alerts 
in times of crisis. As the Commission noted earlier in this proceeding, 
the issues surrounding AM radio interference protections are highly 
technical and necessitated additional study, yet in the Further Notice 
of Proposed Rulemaking, the Commission tentatively proposed rule 
changes to reduce interference protections for AM stations. Could you 
tell me what studies the Commission has done during the proceeding to 
support the Commission's tentative conclusions to reduce interference 
protections, or are more studies required? We want to be sure that the 
proposals do not harm but rather revitalize AM radio.
    Answer. The Commission's tentative conclusions were premised on the 
goal of improving AM facilities. The Commission did not undertake its 
own studies prior to seeking input on the proposals. As part of the 
record, commenters have provided studies, and other commenters have 
provided comments about those studies. The Commission will continue to 
analyze the docket, including these studies, as it considers whether to 
craft final rules regarding this proposal. We have not yet reached any 
determination as to whether additional studies are required.

    Question 2. There is currently a 180-day ``shot clock'' that limits 
the length of time the FCC has to review a transaction. Unfortunately, 
the FCC's review in several high-profile transactions in recent years 
have taken longer than 180 days. The AT&T/DirecTV deal took 412 days; 
Comcast/Time Warner took 381 days; Sinclair/Allbritton took 361 days; 
and Charter/Time Warner Cable took 314 days. In each of those cases, 
the FCC was able to ``pause'' its shot clock--although in a few of 
those deals, the FCC still exceeded 180 days, even taking account of 
the paused shot clock. Those deals were ultimately approved. But if the 
FCC waits too long to complete its review, it may effectively kill a 
deal. Do you agree it's concerning that a deal could die because FCC 
exceeds the 180-day limit on its review?
    Answer. Yes, I do.

    Question 3. Would you support legislation that required the FCC to 
complete review within 180 days or else seek an extension in court, and 
do you commit to working with my staff as they develop this type of 
legislation?
    Answer. I have supported codifying the 180-day shot clock in the 
Commission's rules, and I would be happy to work with you on 
legislation to enshrine it in a statute.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Ron Johnson to 
                             Hon. Ajit Pai
    Question 1. As the expert agency, rather than have 50 different 
standards for measuring broadband speeds, isn't the FCC in the best 
position to determine how broadband speeds should be measured in the 
United States?
    Answer. Yes, I believe the FCC has the most technical expertise in 
that area.

    Question 2. Doesn't the Commission already do this through its 
annual Measuring Broadband America Report?
    Answer. Yes, although I should note that not all Internet service 
providers participate in that program.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                             Hon. Ajit Pai
    Question 1. Past members of the FCC have sought out the guidance of 
state and local elected officials on matters pending before the agency. 
What role does consultation with state and local governments play in 
your decision making?
    Answer. I believe that it is important for the Commission to 
consult with state and local governments. Indeed, during my time at the 
Commission, I have personally met or spoken by phone with the Governors 
(at the time) of Iowa, Kansas, Louisiana, Massachusetts, Nebraska, New 
Hampshire, New York, and South Carolina. I have also met with a wide 
range of local government officials, from mayors to school 
superintendents to sheriffs, to discuss issues of concern in their 
communities.

    Question 2. I applaud the FCC's ongoing efforts in the incentive 
auction. However, applications of many rural service providers and 
small businesses have yet to be processed. Can you please commit to 
ensuring that the Commission will make processing of the remaining 
license applications a priority?
    Answer. Yes.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                             Hon. Ajit Pai
    Question 1. The FCC's 2018 budget states that the mission of the 
FCC includes ``promoting safety of life and property through the use of 
wire and radio communication.''
    Does ensuring that our communications networks are hardened against 
cyber-attacks, fall into the definition of ``promoting safety of life 
and property through the use of wire and radio communication''?
    If not why not?
    Answer. Under the Communications Act of 1934, as amended, part of 
the FCC's mission is to promote ``safety of life and property through 
the use of wire and radio communications.'' Communications Act Sec. 1. 
And reliable, resilient, and secure commercial communications networks 
allow for access to critical network services like 911, emergency 
alerting, and National Security/Emergency Preparedness (NS/EP) 
communications. Such networks therefore promote the safety of life and 
property.

    Question 2. Does ensuring that our communications networks are 
hardened against cyber-attacks fall into the public safety mission of 
the FCC?
    Answer. Promoting reliable, resilient, and secure communications 
networks falls within the public safety mission of the FCC.

    Question 3. Will you commit to using all of the tools available to 
you as the Chairman of the principal agency in the Federal Government 
with expertise and regulatory authority over our communications 
networks, to make sure those networks are resilient and hardened 
against cyber threats?
    Answer. The FCC will do whatever we can, in consultation with other 
stakeholders and within the confines of our statutory authority, to 
promote network resiliency, reliability, and security.

    Question 4. According to Department of Homeland Security 
statistics, of the 290 cyber-attacks on critical infrastructure in 
2016, 62 or just over 20 percent were on communications networks.
    For each of the 62 attacks on communications critical 
infrastructure in 2016, please detail what the FCC involvement was and 
what actions the FCC took to assist in recovery and remediation.
    Please include:

  a.  coordination is with other Federal agencies and the 
        Administration; and

  b.  oversight the FCC performed over carriers' that experienced cyber 
        breaches including reporting requirements and enforcement 
        actions; and

  c.  outreach or notice required or facilitated to consumers impacted 
        by any cyber breach.

    Answer. We do not have sufficient information to confirm FCC 
involvement following the 2016 attacks cited by DHS, all of which took 
place before I became the Chairman. Providers submit cyber incident 
information directly to the Industrial Control System Cyber Emergency 
Response Team (ICS-CERT) within DHS. ICS-CERT maintains this 
information as confidential pursuant to the Protected Critical 
Infrastructure Information (PCII) Program. As such, this information is 
not shared with the FCC. Providers are obligated to report network 
outages to the Commission, but because the Commission lacks access to 
ICS-CERT's cyber incident information, we are unable to cross-reference 
any action we may have taken with respect to the above-referenced 
incidents.

    Question 5. Please detail what provisions in the Communications Act 
or any other legal authority you believe limit the FCC responsibility 
and ability to act with regard to cybersecurity policy and cyber-
attacks on communications networks. Please provide legal analysis to 
support your assertion.
    Answer. It has long been the law that ``an agency literally has no 
power to act . . . unless and until Congress confers power upon it.'' 
Louisiana Public Service Commission v. FCC, 476 U.S. 355, 374 (1986). 
With respect to cybersecurity, Congress has only given the Commission 
authority to engage in informal coordination with the Department of 
Homeland Security and other Federal agencies. See, e.g., Cybersecurity 
Act of 2015, 6 U.S.C. Sec. 1501 et seq.; Critical Infrastructure 
Information Act of 2002, 6 U.S.C. Sec. 131 et seq. and 6 U.S.C. 
Sec. 148(c)(1).
    However, the FCC does not have an express statutory mandate to 
regulate cybersecurity as a general matter. To be sure, Section 1 of 
the Communications Act includes a policy statement that national 
defense and public safety are among the agency's purposes. 
Communications Act Sec. 1. But the courts have explained that ``policy 
statements alone cannot provide the basis for the Commission's 
exercise'' of authority. See, e.g., Comcast v. FCC, 600 F.3d 642, 654 
(D.C. Cir. 2010).

    Question 6. Please detail what language would have to appear in the 
Communications Act and/or other legal authorizing texts that would 
create a statutory mandate for the FCC to have authority over 
cybersecurity in the context of the Nation's communications networks.
    Answer. There are a variety of ways in which this could be done. 
For example, section 2(a) of the Cybersecurity Responsibility Act of 
2017, which was introduced earlier this year by Congresswoman Yvette 
Clarke, would give the FCC the explicit authority to promulgate rules 
in this area.
Media Ownership
    Question 7. In 2016, the Court of Appeals chastised the FCC for 
making changes to media ownership rules without the benefit of having 
completed statutorily mandated reviews of the media marketplace and 
media ownership rules that were required in 2010 and 2014. Basically 
the court was saying that the FCC's policy making needed to be based on 
data and analysis.
    Given the court's guidance that any FCC changes to media ownership 
rules should be grounded in the type of up-to-date data and analysis 
required by the quadrennial review process, will you commit to 
completing the next quadrennial review before leading the FCC in any 
process that changes the existing media ownership rules?
    Answer. Because there were petitions for reconsideration filed of 
the Commission's 2016 media ownership order, the current quadrennial 
review is not yet complete. And in my view, the Commission should 
complete the current quadrennial review before starting the next one. I 
believe that this is quite consistent with the Third Circuit's view on 
the importance of the Commission completing its statutorily mandated 
reviews of the media ownership rules.

    Question 8. Has the Commission done data collection and analysis 
that would support changing or eliminating the duopoly rule, joint 
sales agreement rules or broadcast cross ownership rules?
    If so please summarize the data and analysis here.
    Will you commit to collecting data about the current media 
marketplace and conducting the analysis of the current media 
marketplace and making those findings available to the public in the 
context of the quadrennial review and/or report to Congress before you 
lead the Commission to make any changes to FCC rules that will impact 
the constellation of media ownership rules including: duopoly rules, 
joint sales agreement rules and broadcast cross ownership rules?
    Answer. I commit that the draft text of any order that would change 
the Commission's media ownership rules in the context of the 
quadrennial review will be made public three weeks before any 
Commission vote. That draft text would include analysis and data on 
which the Commission would be relying to justify any changes to the 
rules. This step would bring unprecedented transparency to the 
Commission's quadrennial review process; it has never been done before 
in any quadrennial review. The record in the Commission's current 
quadrennial review proceeding contains substantial data and analysis 
submitted by commenters with a variety of views on whether the current 
rules should be changed. Should I determine that this data and analysis 
supports changing the current media ownership rules, the explanation 
for that determination will be made public three weeks before any 
Commission vote in the draft text of the order.

    Question 9. Senator Shaheen and I sent a letter to the Commission 
in June 2016 asking that the FCC commit to providing an assessment of 
whether the $1.75 billion budget and 39 month timeline for the 
incentive auction repack are sufficient for a successful repack of the 
broadcasters.
    Then Chairman Wheeler wrote back to us later in the year committing 
to provide the information to us in a timely fashion after the 
completion of the forward auction.
    In response to QFRs after the FCC oversight hearing earlier this 
year you agreed to send us the information at the close of the forward 
auction.
    I understand that the forward portion of the incentive auction is 
now completed and that the FCC believes that there will be a shortfall 
for the repack.
    When can we expect a written response to our inquiry?
    Answer. Our fund administrator (EY, formerly Ernst & Young) and its 
team of engineers are currently reviewing each cost estimate submitted 
to the Commission by broadcasters and MVPDs and communicating with 
filers to gather more information and/or cost justification to 
determine whether the submitted costs are reasonable in accordance with 
the Spectrum Act. Once that review is complete in the fall, we will 
provide you with a full written response to your and Senator Shaheen's 
inquiries. Below, however, is a snapshot on where things currently 
stand.
    The Commission has now received cost estimates from all but eight 
of the reimbursement-eligible broadcasters and some eligible MVPDs. On 
July 14, 2017, we publicly announced that the preliminary aggregate 
cost estimates received as of that date was approximately $2.115 
billion. Estimates continue to be submitted and, in the course of 
review, revised, and when I testified in the House of Representatives 
on July 19, the aggregate total was $2.139 billion. While the estimates 
will continue to change as we proceed with the post-incentive auction 
transition process, we expect the final number to be above the $1.75 
billion that Congress has provided the Commission to reimburse impacted 
broadcast stations and MVPDs.
    As a result, unless Congress acts to raise the $1.75 billion cap, 
the substantial likelihood is that local broadcasters will be required 
to pay some portion of their repacking costs out of their own pockets. 
The Commission is prepared to work with Congress to address this issue.
    At this time, we do not have reason to believe that the 39-month 
timeline will be insufficient. But there are a variety of tools at the 
Commission's disposal to assist stations should unforeseen 
circumstances prevent them from completing the repack on time.

  <bullet> Six-month construction permit extensions for stations that 
        for reasons beyond their control cannot complete the 
        modifications to their facilities during their construction 
        period;

  <bullet> Special temporary authority (STA) to operate using a 
        temporary facility or at lower power while they complete their 
        tower modifications or other necessary construction; and

  <bullet> An STA to operate on a channel in the TV band that is 
        available because it was relinquished by a winning bidder in 
        the auction.

    Of course, should the facts as they develop lead us to the 
conclusion that the post-incentive auction transition process generally 
cannot be completed in 39 months, we reserve the right to extend that 
deadline.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Amy Klobuchar to 
                             Hon. Ajit Pai
    Question. A provision based on my Rural Spectrum Accessibility 
Act--that I introduced last Congress with Senator Fischer--was included 
in the MOBILE NOW Act that passed the Senate Commerce Committee in 
January. This provision would require the Federal Communications 
Commission to explore ways to provide incentives for wireless carriers 
to lease unused spectrum to rural or smaller carriers in order to 
expand wireless coverage in rural communities. Chairman Pai, what 
incentives could be useful to encourage large carriers to lease 
spectrum to smaller, rural carriers?
    Answer. The Commission's spectrum licensing rules, including its 
rules for leasing spectrum, are intended to lower regulatory barriers 
to spectrum leasing for small and rural carriers. Our rules also 
provide parties with great flexibility in the partitioning and 
disaggregation of licensed spectrum. We will continue to explore ways 
to eliminate unnecessary rules and regulatory barriers and to provide 
incentives to expand wireless coverage in rural communities to deliver 
mobile broadband to all Americans.
    In addition, because deployment by rural carriers on leased 
spectrum counts toward the primary licensee's construction benchmark, 
adopting and enforcing meaningful construction requirements that 
require licensees to build out in rural parts of their license area in 
order to keep their license at the end of the license term incentivizes 
carriers to lease spectrum to rural carriers in order to satisfy their 
build-out requirements.
    Again, I think that we need to continue to think about further 
steps that we can take to encourage rural buildout. For instance, in my 
September 2016 speech outlining my Digital Empowerment Agenda, I 
proposed to substantially increase the buildout obligations associated 
with initial licenses and extend license terms from 10 to 15 years. 
This would both increase rural coverage and also make build out more 
economically feasible for carriers by providing an additional five 
years of certainty.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                             Hon. Ajit Pai.
    Question 1. It has been reported that the FCC may vote in September 
on an order on reconsideration that would roll back many media 
ownership regulations.
    As you know, the FCC has an obligation to promote diversity and 
localism, and its duty to ensure that broadcasters are responsive to 
the needs and interests of the local community is enshrined in the 
Communications Act. In fact, local broadcasters tout their local news 
and other local services as their differentiating factor and value in 
the marketplace.
    The Third Circuit's opinions in the Prometheus v. FCC line of cases 
have repeatedly admonished the Commission for failing to provide 
adequate notice of its media ownership decisions. Even more troubling, 
the court has repeatedly overturned the FCC when the agency has claimed 
that rule changes promote these important goals of localism and 
diversity, yet failed to consider adequately the impacts of any such 
rule changes. For example, in its 2011 decision the court ruled that 
the FCC had not yet ``gathered the information required to address 
these challenges,'' and thus ``failed to provide reasoned analysis to 
support'' changes to the FCC's cross-ownership rules and other local 
ownership limits.
    Accordingly, I am shocked you would consider going forward with 
such a vote affecting media ownership regulations without a full, up-
to-date Quadrennial Review. And I am even more shocked that you appear 
to have abandoned your own views on this subject, espoused before you 
became Chairman and took control over such process decisions, when you 
seemed to have more regard for those processes designed to ensure full 
and fair consideration of such questions. In your dissent from the 
prior Commission's joint sales agreement attribution decision, for 
example, you said that ``the Commission abdicates its legal obligation 
to review our media ownership regulations every four years'' when 
``[i]t arbitrarily singles out one aspect of those regulations . . . 
and changes our policies in a way that ignores the realities of the 
modern media marketplace, [and] will harm localism and diversity[.]''
    While you may contend that the record from the last Quadrennial 
Review would be sufficient for action on reconsideration, the reality 
is that with the incentive auction, proposed broadcast TV mergers, and 
other changes in the broadcasting landscape much has changed since that 
record was developed. Any revision of media ownership regulations 
should go through a fully transparent and robust notice and comment 
process, as you have long stated, and be based on an accurate, current 
picture of the broadcasting landscape.
    Do you commit to conducting a new, full, and open Quadrennial 
Review of the Commission's broadcast ownership rules before proceeding 
with any action that would affect the FCC's current media ownership 
rules?
    How would you make sure that any changes would not hurt localism, 
diversity, or competition in broadcast television?
    Answer. Because there were petitions for reconsideration filed of 
the Commission's 2016 media ownership order, the current quadrennial 
review is not yet complete. And in my view, the Commission should 
complete the current quadrennial review before starting the next one.
    I commit that the draft text of any order that would change the 
Commission's media ownership rules in the context of the quadrennial 
review will be made public three weeks before any Commission vote. That 
draft text would include analysis and data on which the Commission 
would be relying to justify any changes to the rules. This step would 
bring unprecedented transparency to the Commission's quadrennial review 
process; it has never been done before in any quadrennial review.
    Before deciding to change any of its media ownership rules, the 
Commission will assess the impact of that change on the values that the 
rule in question is designed to advance, whether it be localism, 
diversity, and/or competition.

    Question 2. Chairman Pai, during your recent visit with me, we had 
a good conversation about what localism means. As you know, the FCC's 
obligation to promote diversity, localism, and ensure that broadcasters 
are responsive to the needs and interests of the local community is 
enshrined in the Communications Act. What do you believe are the 
attributes of localism? How do you define localism?
    Answer. A broadcast station advances localism when it airs 
programming that is responsive to the needs and interests of the 
community which it is licensed to serve.

    Question 3. As I recall, in our recent conversation, you stressed 
the importance of broadcasters being able to determine news important 
to the local community.
    If a company with broadcast properties required local affiliated 
stations to air content during its news programming unconnected to the 
local community, would you agree that such practices undermine 
localism?
    Would you agree that any such content should be clearly identified 
as national ``must-run'' content? Would a company's failure to do so 
implicate any FCC rules?
    If such a company were to endeavor to acquire additional broadcast 
properties, would you consider such practices requiring certain ``must-
run'' content relevant to the FCC's review of that merger under your 
obligations to protect and promote localism?
    Answer. The FCC's rules do not require local affiliates to identify 
national ``must-run'' content, and I am not aware any proposal 
currently under consideration to mandate such identification.
    Local television newscasts generally feature a mix of local and 
national news, so I do not believe that any news content focusing on 
national issues by definition undermines localism. I do agree, however, 
that there could come a point at which the amount of nationally-focused 
content in a local newscast could undermine localism.
    Any broadcast licensee is required to air programming that is 
responsive to the needs and interests of the community to which it is 
licensed, and a licensee's failure to comply with that requirement 
would be relevant to the Commission's review of a transaction.

    Question 4. During this nominations hearing, you said you were not 
familiar with an interpretation of Section 706 requiring the FCC to 
know Internet speeds being deployed by companies.
    In fact, Section 706 of the Telecommunications Act of 1996 requires 
the FCC to report annually on whether ``advanced telecommunication 
capability is being deployed . . .'' and ``advanced telecommunications 
capability'' is defined as ``high-speed [emphasis added], switched, 
broadband telecommunications capability . . .'' Accordingly, to 
accurately conduct such a report, the FCC must know whether companies 
are indeed offering telecommunication capability that qualifies as 
``high-speed.''
    How is the FCC able to fulfill its obligation to conduct its review 
pursuant to Section 706 if we cannot trust companies to tell the truth 
about the Internet speeds that they are being deployed?
    Answer. The Commission's Section 706 proceedings for many years 
have relied on data collected in our Form 477, as well as other data 
sources. Form 477 data provides a wealth of information on the types 
and speeds of broadband connections deployed by virtually all Internet 
service providers in the United States. This information is certified 
as accurate in accordance with our rules by officials in each company 
and anyone making willful false statements in a Form 477 can be 
punished by fine or imprisonment under the Communications Act. Going 
forward, I anticipate the Commission will continue to rely heavily on 
Form 477 data as part of our statutory duty under Section 706. And on 
August 3, the Commission will be voting on proposals to improve the 
accuracy of the Form 477 data we collect.

    Question 5. Chairman Pai, in your April 2017 statement on the 
Business Data Services Market, you describe a new ``competitive market 
test'' that considers a particular county competitive if ``50 percent 
of the locations with BDS demand in that county are within a half-mile 
of a location served by a competitive provider or 75 percent of the 
census blocks in that county have a cable provider present.''
    Essentially, that means if a church in Hartford has only one 
choice, but there's another provider a few miles away, there's nothing 
for the Commission to do. Potential competition isn't competition.
    Can you explain your competition philosophy? Is it your position 
that the agency should not protect consumers even when there is a 
monopoly? Do you believe a duopoly is sufficient?
    Answer. My competition philosophy is informed by a few simple 
principles. Consumers benefit most from competition, not preemptive 
regulation. Free markets have delivered more value to American 
consumers than highly regulated ones. No regulatory system should 
indulge arbitrage; regulators should be skeptical of pleas to regulate 
rivals, dispense favors, or otherwise afford special treatment. 
Particularly given how rapidly the communications sector is changing, 
the FCC should do everything it can to ensure that its rules reflect 
the realities of the current marketplace and basic principles of 
economics. Rules that reflect these principles will result in more 
innovation, more investment, better products and services, lower 
prices, more job creation, and faster economic growth.
    Where a market lacks competition, I do believe the Commission 
should intervene in appropriate circumstances. The record in the 
Business Data Services Market showed many providers are willing to 
build out at least by a half-mile, with some going further. What's 
more, there's strong competition well within the half-mile threshold; 
about half of buildings with demand are within 88 feet of competitive 
fiber facilities, and 75 percent are within 456 feet. Those facts, in 
addition to millions of observations from one of the largest data 
collections the Commission has ever conducted, are why the Commission 
concluded that sufficient facilities-based competition near a location 
serve to discipline prices. And to ensure that every consumer is 
protected, the Commission maintained a tried-and-true safety valve in 
markets deemed competitive. Sections 201 and 202, along with the 
section 208 complaint process, will continue to serve as safeguards 
against any attempts by incumbents to charge unjust or unreasonable 
rates for common-carriage DS1 and DS3 services.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Brian Schatz to 
                             Hon. Ajit Pai
    Question 1. Last week the FCC announced that the estimated cost to 
repack the TV band would be approximately $2.11 billion dollars, which 
is approximately $365 million more than the $1.75 billion Congress 
included in the Television Broadcaster Relocation Fund. Given this 
shortfall, is additional funding necessary to ensure that repacked 
television stations are not forced to go out of pocket or cover their 
costs?
    Answer. We have begun our careful examination of the submissions 
received to date. The initial aggregate estimate is subject to change 
due to factors such as the agency's review, as well as the fund 
administrator's review, of estimates and revisions made by eligible 
entities, but the agency expects the final number to be above the $1.75 
billion that Congress has provided the Commission to reimburse impacted 
broadcast stations and MVPDs. As a result, unless Congress acts to 
raise the $1.75 billion cap, the substantial likelihood is that local 
broadcasters will be required to pay some portion of their repacking 
costs out of their own pockets. I am prepared to work with Congress to 
address this issue.

    Question 2. Could you explain what happens to a broadcaster if, 
through no fault of their own, it cannot complete channel relocation in 
the time allotted during the repacking process following the incentive 
auction?
    Answer. I do not believe that any broadcaster should be forced off 
the airwaves through no fault of its own during the post-incentive 
auction transition process. And we have a number of tools at our 
disposal to prevent this from happening.

  <bullet> Six-month construction permit extensions for stations that 
        for reasons beyond their control cannot complete the 
        modifications to their facilities during their construction 
        period;

  <bullet> Special temporary authority (STA) to operate using a 
        temporary facility or at lower power while they complete their 
        tower modifications or other necessary construction; and

  <bullet> An STA to operate on a channel in the TV band that is 
        available because it was relinquished by a winning bidder in 
        the auction.

    The STA process worked well during the DTV transition and should 
allow stations to continue to serve their communities if unforeseen 
circumstances arise.
    Of course, should the facts as they develop lead us to the 
conclusion that the post-incentive auction transition process generally 
cannot be completed in 39 months, we reserve the right to extend that 
deadline. However, given current facts, we have reached no such 
conclusion.

    Question 3. When do you expect to have the final analysis of the 
reimbursement request?
    Answer. The review of initial cost estimates involves a multi-step 
process that balances the Commission's need to ensure responsible 
stewardship of public funds with ensuring the timely availability of 
funds for entities incurring relocation costs. We expect that the fund 
administrator's review of initial cost estimates will be completed in 
mid-September, after which time we will analyze the data to calculate 
an initial allocation. We expect to begin making reimbursement payments 
early in the fourth quarter of this calendar year. Additional cost 
estimates and changes to estimates will continue to be submitted 
throughout the transition period and we will conduct a similar review 
of such changes. We will also review invoices for actual costs 
incurred. It is therefore not possible to know the precise amount of 
the aggregate total costs until the last invoice is submitted and 
approved at the end of the transition.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Edward Markey to 
                             Hon. Ajit Pai
    Question. Earlier this year, the majority of the Commission 
indicated that a market is competitive where only one provider has 
service, and potentially a second provider may enter the market. Do you 
take the position that the agency should not regulate when there is a 
monopoly? What is your view on duopoly and what actions should the 
agency take? What is your plan to evaluate, on an ongoing basis, 
conditions in business data services?
    Answer. Where a market lacks competition, I do believe the 
Commission should intervene in appropriate circumstances. The record in 
the Business Data Services Market showed many providers are willing to 
build out at least by a half-mile, with some going further. What's 
more, there's strong competition well within the half-mile threshold; 
about half of buildings with demand are within 88 feet of competitive 
fiber facilities, and 75 percent are within 456 feet. Those facts, in 
addition to millions of observations from one of the largest data 
collections the Commission has ever conducted, are why the Commission 
concluded that sufficient facilities-based competition near a location 
serve to discipline prices. And to ensure that every consumer is 
protected, the Commission maintained a tried-and-true safety valve in 
markets deemed competitive. Sections 201 and 202, along with the 
section 208 complaint process, will continue to serve as safeguards 
against any attempts by incumbents to charge unjust or unreasonable 
rates for common-carriage DS1 and DS3 services.
    Going forward, the Commission plans to evaluate conditions in the 
business data services market at least every three years.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Cory Booker to 
                             Hon. Ajit Pai
    Question 1. WJLP, northern New Jersey's only VHF television 
broadcast station, has been ordered by the FCC to identify itself as 
channel 33 instead of its real channel, channel 3. Applications for 
review of numerous rulings related to this issue have been submitted 
with no action for up to three years. It is my understanding that 
contested cases can take up to seven years to reach a determination. 
What actions have you taken, and what actions will you take if re-
confirmed, to reach a final determination on this case?
    Answer. The two Applications for Review filed regarding the issues 
related to WJLP are restricted proceedings. However, I can say that 
Commission staff are actively reviewing the issues raised, and the 
Commission will reach a final determination in these cases as soon as 
feasible.

    Question 2. E-Rate is an important Universal Service Fund program 
that helps underserved schools and libraries connect to high-speed 
Internet. I cannot overstate the value of broadband access for these 
learning centers. To remain competitive in the 21st century, our 
children must learn how to interact with the digital world.
    In 2016, my home state of New Jersey received $90 million for E-
Rate, which it used to connect 181,652 students to high-speed Internet 
in underserved schools.\1\ For these students, especially those who do 
not have access to broadband at home, this a potentially life-changing 
advance in educational opportunity. This program is critical to closing 
the digital divide.
---------------------------------------------------------------------------
    \1\ Education Superhighway, July 2017.
---------------------------------------------------------------------------
    Nationally, since the E-Rate Modernization Order in 2014, 30.9 
million unserved students have been connected to the high-speed 
broadband that they need to build our Nation's future.
    Will you commit to support the E-rate modernization order in its 
current form with need-based prioritized funding for underserved 
schools and libraries?
    Answer. I am deeply committed to doing everything within the FCC's 
power to close the digital divide. I believe an effective E-rate 
program--one that promotes better connectivity for students and library 
patrons alike--can be a powerful tool to help bridge that divide. This 
is why, four years ago, I said that ``E-rate is a program worth 
fighting for.''
    Unfortunately, there have been serious flaws in the administration 
of the E-rate program, specifically related to the process by which 
schools and libraries to apply for E-rate funding, that are preventing 
many schools and libraries from getting that funding. I have asked USAC 
to provide a detailed report on plans to fix the existing problems so 
it can administer the E-rate program in a manner that is fully 
compliant with our rules and that works for applicants and 
participants.
    At this point, I believe that our focus should be on cutting 
unnecessary red tape and making it easier for schools and libraries to 
participate in the E-rate program.

    Question 3. The New Jersey Division of the Deaf and Hard of Hearing 
(DDHH) estimates that there are approximately 850,000 New Jersey 
residents who experience hearing loss. Many of these individuals rely 
on Video Relay Service (VRS) and Internet Protocol Captioned Telephone 
Service (IP CTS) to communicate with family, friends, emergency 
services, and other important people. How will you ensure that the FCC 
continues to administer these programs consistent with the requirements 
of the Americans with Disabilities Act?
    Answer. Since day one of my Chairmanship, I've said the Commission 
has no higher calling than extending digital opportunity to all 
Americans. Every citizen who wants to participate in our digital 
economy and society should be able to do so--no matter who you are.
    Communications technology has awe-inspiring power to open doors 
that have too-long been closed to Americans with disabilities. Last 
week marked the 27th anniversary of the ADA becoming the law of the 
land. This landmark legislation gave the FCC a mandate to ensure access 
to telecommunications by Americans with hearing and speech 
disabilities. It's critical that the Commission fulfill its legal 
obligation under Title IV of the ADA to ensure that nationwide 
telecommunications relay services are available to people who are deaf, 
hard of hearing, deaf-blind, or who have a speech disability.
    That's why the FCC is seeking to improve video relay services 
(VRS), which can be critical to allowing people who are deaf, hard-of-
hearing, or speech-disabled to make calls over broadband using American 
Sign Language and a videophone. For example, we have authorized a trial 
that will allow VRS users to request interpreters that are skilled in 
specialized vocabulary, such as legal, medical, and technical computer 
matters, to make communication on their relay calls more effective 
(something I had pushed for since 2013). In addition, we are in the 
process of establishing performance goals and metrics to ensure the 
high quality of the relay services we support. I'm committed to making 
sure that technological inclusion is the norm, rather than the 
exception. I look forward to working with my colleagues on further 
steps to ensure that deaf and hard-of-hearing individuals are provided 
with functionally equivalent communications services.

    Question 4. Expanding access to broadband connectivity is an 
incredibly important part of investing in the future of our Nation and 
closing the digital divide. This is especially true in rural areas. How 
do you view the role of TV White Spaces in expanding connectivity to 
hard-to-reach rural areas?
    Answer. The Commission's rules provide for unlicensed operation in 
the TV white space, including in rural areas. In 2015, we revised the 
TV white space rules to facilitate deployments in rural areas such as 
by allowing for higher power to serve longer distances. And earlier 
this month, I had the opportunity to visit South Boston, Virginia, to 
learn about how the TV white space is being used to provide 
connectivity to families in that community. This is an issue that I am 
following closely as we need to look at creative ways to provide 
connectivity in hard-to-reach rural areas.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                             Hon. Ajit Pai
    Question 1. The FCC and this Committee have been talking about the 
need to build out rural broadband for many years. Progress is 
happening, but much too slowly. The free market did not deliver rural 
electricity--FDR, the New Deal, and the rural electric coops did it 
with major USDA support. The free market will not deliver rural 
broadband on its own either. We need the government to act. If there is 
going to be an infrastructure package, rural broadband must be in it in 
a very big way. Will you work with both parties in Congress, and the 
White House, to advance a consensus, bipartisan proposal to provide 
rural broadband to every part of America that is bold--and provides the 
necessary funding to achieve this goal?
    Answer. Yes.

    Question 2. Chairman Pai, Internet service providers and consumer 
advocacy groups have been weighing in on the Commission's proposal to 
eliminate the Open Internet Order and reclassify broadband as an 
information service. Can you tell me if the Commission is considering 
any other proposals that would provide similar legal and regulatory net 
neutrality protections?
    Answer. In the Restoring Internet Freedom Notice of Proposed 
Rulemaking, the Commission sought comment on any sources of legal 
authority for rules in this area other than Title II. Once the comment 
cycle closes, we will carefully review the proposals along these lines 
that are submitted into the record.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Tammy Duckworth to 
                             Hon. Ajit Pai
    Question 1. Chairman Pai, in a presentation to investors about its 
Bonten and Tribune transactions, Sinclair stated that the transactions 
would give it ``72 percent household coverage across 108 markets.'' In 
2004, Congress enacted the Consolidated Appropriations Act (P.L. 108-
199) that directed the FCC to adopt rules that would cap the reach of a 
single company's television stations to 39 percent of U.S. television 
households. Last April, the FCC reinstated the UHF discount regulation, 
which, for purposes of this national ownership cap, discounts the reach 
of UHF stations by 50 percent. In September of last year, the FCC under 
then-Chairman Wheeler eliminated this discount. What authority does the 
FCC have to change the national ownership cap and UHF cap either 
separately or in conjunction with one another?
    Answer. I believe that the Commission is required to review the 
national ownership cap and the UHF discount in a holistic manner since 
they are inextricably linked. In the prior Administration, the 
Commission concluded that it had the authority to modify the national 
ownership cap and eliminate the UHF discount. The Commission will be 
seeking comment on both of those conclusions later this year when we 
initiate a rulemaking proceeding about the national ownership cap.

    Question 2. In August 2016, the FCC adopted new disclosure 
requirements for all joint operating agreements, broadly encompassed by 
the term ``shared services agreements'' (SSAs) among broadcast 
television stations. Subject to approval by the Office of Management 
and Budget (OMB), each station that is a party to an SSA, whether in 
the same or different television markets, would have been required to 
file a copy of the SSA in its online public inspection file. Did the 
FCC withdraw its request to OMB to approve the collection of 
information regarding SSAs on January 27, 2017, and if so, why? Does 
the FCC plan to resubmit its request to OMB?
    Answer. Yes, the FCC withdrew its request to OMB to approve the 
collection of information regarding SSAs so that the Commission could 
consider a Petition for Reconsideration regarding that collection. 
Depending on the decision that the Commission makes regarding that 
Petition for Reconsideration, the OMB approval process may be 
restarted.

    Question 3. In March 2014, the FCC's Media Bureau issued a public 
notice stating that it will closely scrutinize any proposed transaction 
that includes ``sidecar'' agreements. In such agreements, two (or more) 
broadcast stations in the same market enter into an arrangement to 
share facilities, employees, and/or services, or to jointly acquire 
programming or sell advertising and enter into an option, right of 
first refusal, put/call arrangement, or other similar contingent 
interest, or a loan guarantee. In February 2017, the FCC's Media Bureau 
rescinded this guidance. Among the 10 markets in which Sinclair states 
in its FCC merger application it would need to divest stations in order 
to comply with the FCC's media ownership rules, is the St. Louis 
television market, which includes more than a dozen Illinois counties. 
Would the FCC approve a divestiture to a ``sidecar'' station?
    Answer. It would not be appropriate for me to speculate at this 
time about a transaction pending in front of the Commission.

    Question 4. More than eight million comments were filed during the 
initial comment period for the 2017 Open Internet proceeding. During 
the 2017 Open Internet comment period, the FCC's electronic comment 
filing system was subjected to multiple distributed denial-of-service 
attacks. Do you believe these attacks may have kept some portion of 
comments from being recorded? In light of these attacks, do you believe 
that the FCC's information technology and cybersecurity practices are 
adequate? If not, what actions would you recommend to improve them?
    Answer. We have had more than 13 million comments filed in the 
Restoring Internet Freedom docket at this juncture, and I am confident 
that the American people are being provided with ample opportunity to 
participate in this proceeding. Following the disruption on May 7-8, 
the Commission's career IT professionals have taken a number of steps 
to minimize the chances of a similar disruption occurring in the 
future, and the Commission's electronic comment filing system has been 
working well. We will continue to monitor the situation closely and 
effectuate upgrades as necessary going forward to maintain and improve 
the resiliency of our systems. It is important to recognize, however, 
that the disruption that occurred on May 7-8 did not involve a breach 
of the Commission's systems and that our security systems functioned 
appropriately on those days.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maggie Hassan to 
                             Hon. Ajit Pai
    Question 1. The E-Rate program is critical to achieving our goals 
in regards to connectivity in schools and libraries, and the expansion 
has helped advance those goals. I have heard concerns from educators in 
my state that if confirmed you may take aim at this critical program 
which has been successful in connecting numerous students in New 
Hampshire and across the country. Will you commit to maintaining the E-
Rate Program at least its current funding levels? Can you commit to 
waiting an adequate amount of time so that the Commission can see how 
effective the latest changes to the program have been?
    Answer. I am deeply committed to doing everything within the FCC's 
power to close the digital divide. I believe an effective E-rate 
program--one that promotes better connectivity for students and library 
patrons alike--can be a powerful tool to help bridge that divide. This 
is why, four years ago, I said that ``E-rate is a program worth 
fighting for.''
    Unfortunately, there have been serious flaws in the administration 
of the E-rate program, specifically related to the process by which 
schools and libraries apply for E-rate funding, that are preventing 
many schools and libraries from getting that funding. I have asked USAC 
to provide a detailed report on plans to fix the existing problems so 
it can administer the E-rate program in a manner that is fully 
compliant with our rules and that works for applicants and 
participants.
    Currently, my focus is on reducing unnecessary red tape and making 
it easier for schools and libraries to apply for the program and 
receive funding.

    Question 2. A robust emergency alert system is incredibly important 
in reaching our Nation's citizens in time of a crises or natural 
disaster. I have heard from our local broadcasters that there is great 
potential enhanced information delivery capabilities ATSC 3.0 (Next Gen 
TV) will be able to provide to the public, during an emergency 
situation such as a major flood or hurricane. Could you provide an 
update on timing for completion of this proceeding?
    Answer. The record in this proceeding recently closed. We are 
reviewing that record currently. Our goal is to issue rules in this 
proceeding by the end of the year.

    Question 3. As you know, pursuant to the Americans with 
Disabilities Act, the FCC has an important mandate to ensure that deaf 
and hearing-impaired individuals have ``functionally equivalent'' 
access to telecom services. How will you work to ensure that the 
commission fulfils its obligation to individuals with hearing 
impairments under the ADA?
    Answer. Since day one of my Chairmanship, I've said the Commission 
has no higher calling than extending digital opportunity to all 
Americans. Every citizen who wants to participate in our digital 
economy and society should be able to do so--no matter who you are.
    Communications technology has awe-inspiring power to open doors 
that have too-long been closed to Americans with disabilities. Last 
week marked the 27th anniversary of the ADA becoming the law of the 
land. This landmark legislation gave the FCC a mandate to ensure access 
to telecommunications by Americans with hearing and speech 
disabilities. It's critical that the Commission fulfill its legal 
obligation under Title IV of the ADA to ensure that nationwide 
telecommunications relay services are available to people who are deaf, 
hard of hearing, deaf-blind, or who have a speech disability.
    That's why the FCC is seeking to improve video relay services 
(VRS), which can be critical for people who are deaf, hard-of-hearing, 
or speech-disabled to make calls over broadband using American Sign 
Language and a videophone. For example, we have authorized a trial that 
will allow VRS users to request interpreters that are skilled in 
specialized vocabulary, such as legal, medical, and technical computer 
matters, to make communication on their relay calls more effective 
(something I had pushed for since 2013). In addition, we are in the 
process of establishing performance goals and metrics to ensure the 
high quality of the relay services we support. I'm committed to making 
sure that technological inclusion is the norm, rather than the 
exception. I look forward to working with my colleagues on further 
steps to ensure that deaf and hard-of-hearing individuals are provided 
with functionally equivalent communications services.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                            to Hon. Ajit Pai
    Question 1. Federal Siting for Telecom Services on Public and 
Tribal Lands
    While we discussed Federal siting issues in relations to your 
Broadband Deployment Advisory Committee in the hearing, I just wanted 
to follow-up on confirming some specific details.
    Can you please commit to setting a date for public display of these 
recommendations for Federal siting improvements?
    Have you invited the Interior Department to these meetings, and 
have they been participating?
    What other Federal agencies have you specifically invited to 
participate in your advisory committee's activities?
    Answer. The Broadband Deployment Advisory Committee (BDAC) is a 
crucial component in the FCC's efforts to close the digital divide. The 
mission of the BDAC includes making recommendations that would 
accelerate the deployment of high-speed Internet access in communities 
across the country. The BDAC is comprised of a distinguished group of 
30 innovators and leaders who have been working to bring broadband and 
next-generation networks to all parts of our Nation. The BDAC is on 
pace to deliver an initial set of recommendations by the end of the 
year, and we expect more recommendations to follow in 2018. Like the 
recommendations of our other Federal advisory committees, we expect 
these recommendations to be available to the public.
    As you mention, one important area of focus for the BDAC is Federal 
siting issues. We just recently got confirmation that the Department of 
the Interior, the Department of Agriculture, and the Bureau of Land 
Management will participate in the BDAC working group on Federal siting 
issues, and we will launch it as soon as possible.

    Question 2. Chairman Pai's Proposal for an FCC Office of Economics 
and Data: As we discussed in our meeting, I have interest in the Office 
of Economics and Data (OED) you've proposed for the Commission.
    While I have written to you with additional questions about this 
proposal, I know you've committed to providing Congressional 
Appropriators your plan, and I would request that you respectfully 
provide the plan to myself and the members of the Senate Commerce 
Committee.
    And specifically, in regards to this new office, can you explain 
how this OED office will work in coordination with the public interest 
standard statutorily required of the FCC that reviews transactions on a 
basis beyond ``purely economic outcomes''?
    Answer. You have my commitment to provide a final reorganization 
plan to the Committee and otherwise notify the Committee of our 
progress. I have not yet received the final recommendations from the 
working group that is studying the issue of how to structure the Office 
of Economics and Data. But I hope that the proposed OED will be on par 
with the Office of Engineering and Technology (OET) and coordinate with 
other bureaus and offices within the Commission's organizational 
structure. One of my goals is for the reorganization to elevate the 
importance of economic analysis within the Commission. The existence of 
this office, however, will not in any way change our emphasis on a 
broad range of issues that inform our overall analyses, from consumer 
protection to sound engineering analysis. Economics is one tool in the 
analytic toolbox; it is not the only tool.

    Question 3. Diversity in Telecom: After our last hearing, I asked 
you in writing about concerns with diversity in the telecom industry, 
from gender, to ethnicity. You mentioned that you did not have the 
statutory authority to impose equal employment opportunity rules on 
Silicon Valley tech firms, as you have at your disposal for 
broadcasters and cable operators.
    Have you utilized this authority for broadcasters and cable 
operators during your tenure as Chairman, or your entire time at the 
FCC?
    And two, would you support having that kind of authority to ensure 
we can create a wider exposure of those jobs, opportunities, and 
thought to such an important industry?
    Answer. With respect to your first question, the answer is yes. For 
example, the Media Bureau this year has already sent out two sets of 
Equal Employment Opportunity (EEO) audit letters covering over 300 
broadcast stations to examine whether these broadcasters are complying 
with the Commission's EEO rules. With respect to your second question, 
I would defer to Congress on whether the FCC should have this statutory 
authority. However, I do believe that FCC's Advisory Committee on 
Diversity and Digital Empowerment could study why many companies in 
Silicon Valley appear to have a less diverse workforce than 
broadcasters and cable operators.

    Question 4. Working to Bridge the Divide: In relation to the FCC, 
we've all heard from the Senate Commerce Chairman, as well as you 
yourself, concerns related to the repeated, or all too common, party 
line votes that take place at the Commission.
    Would you agree it would serve us all better if we could get to 
more consensus and work together in the messages and policies you put 
forth at the FCC?
    If reconfirmed, how will you bridge this apparent divide at the 
FCC?
    How will you work with ALL of your fellow Commissioners to find 
common ground, to get 4-1 or 5-0 votes on the Commissions actions?
    Answer. The answer to your first question is yes. With respect to 
your second and third questions, I plan to continue working with my 
colleagues whenever possible to find common ground. Unfortunately, 
there will always be some issues where it is not possible to reach 
unanimity. But I firmly believe that with respect to the substantial 
majority of the issues we face, it is possible to find common ground so 
long as Commissioners are willing to engage in good faith and make 
reasonable compromises so that the perfect does not become the enemy of 
the good.
    I'm pleased to report that this approach appears to be working this 
year. For example, under the prior Chairman, only 48 percent of meeting 
items were adopted with no dissenting votes. But since I have become 
Chairman, 76 percent of meeting items have been adopted with no 
dissenting votes.

    Question 5. E-Rate: I'm deeply concerned about your noncommittal 
stance towards e-rate and any future plans you have for the program.
    Are you considering reducing funding for E-rate?
    And, are you considering major changes to E-rate?
    Answer. I am very committed to doing everything within the FCC's 
power to close the digital divide. I believe an effective E-rate 
program--one that promotes better connectivity for students and library 
patrons alike--can be a powerful tool to help bridge that divide. This 
is why, four years ago, I said that ``E-rate is a program worth 
fighting for.''
    Unfortunately, there have been serious flaws in the administration 
of the E-rate program, specifically related to the process by which 
schools and libraries apply for E-rate funding, that are preventing 
many schools and libraries from getting that funding. I have asked USAC 
to provide a detailed report on plans to fix the existing problems so 
it can administer the E-rate program in a manner that is fully 
compliant with our rules and that works for applicants and 
participants.
    My immediate focus is on trying to reduce unnecessary red tape and 
make it easier for schools and libraries to apply for the program, not 
on examining the program's funding level.
                                 ______
                                 
     Response to Written Question Submitted by Hon. John Thune to 
                        Hon. Jessica Rosenworcel
    Question. Millions of rural Americans lack access to broadband, and 
bridging the digital divide is a priority for me and the Committee. As 
traditional fiber, cable, and 4G broadband is deployed throughout the 
country, policymakers must nevertheless be creative and open-minded 
when exploring all options to achieving universal service. What role do 
you see for unlicensed spectrum (Wi-Fi, TV White Spaces, millimeter 
wave, etc.) in connecting unserved rural households with broadband 
Internet access?
    Answer. Broadband is more than a technology--it is a platform for 
opportunity. No matter who you are or where you live, you need access 
to broadband communications for a fair shot at 21st century success. 
This is true in urban America, rural America, and everything in 
between.
    However, access in rural communities can present a real challenge. 
Often the cost of financing, constructing, and operating broadband 
networks in remote areas is high while the number of households and 
businesses over which that cost is spread is low. As a result, the 
Commission has had a series of policies designed to boost deployment in 
the Nation's most difficult to serve rural areas. The most prominent of 
these is the high-cost universal service fund, which provides roughly 
$4.5 billion in annual support to wired and wireless providers serving 
some of our most remote communities. Other policies, however, also 
assist with universal service, including build-out requirements for 
spectrum licensees providing wireless service that help ensure 
deployment covers both urban and rural populations.
    Nonetheless, the data suggests that despite these efforts too many 
rural areas are still at risk of being consigned to the wrong side of 
the digital divide. In fact, in 2016 the Commission found that more 
than 23 million Americans in rural areas lack access to broadband. By 
any measure, this number is too high.
    For this reason, I agree that policymakers must be willing to look 
at all options to achieve true universal service. As a result, I 
believe the Commission should always be on the hunt for good ideas that 
will extend the opportunities of broadband to rural communities at low 
cost.
    The use of unlicensed spectrum in the 600 MHz band--or TV White 
Spaces--is one such opportunity. The use of TV White Spaces was first 
approved by the Commission in 2010. At that time, it updated its Part 
15 rules to allow for unlicensed fixed and portable devices to operate 
in the broadcast television spectrum at locations where that spectrum 
was not in use by licensed services. In order to prevent interference 
to other services operating in the band--namely television--the 
Commission relied on geolocation capabilities in white space devices as 
well as databases to identify vacant channels.
    In the aftermath of the 600 MHz band spectrum incentive auction 
there will be new opportunities to explore the use of TV White Spaces 
to expand broadband access. I believe the Commission can seek to 
develop these opportunities while also protecting incumbent services 
from harmful interference.
    There also may be opportunities to expand the use of unlicensed 
spectrum in the upper portion of the 5 GHz band. At present, the 
Commission is working with the National Telecommunications and 
Information Administration and Department of Transportation on a series 
of tests to examine the compatibility of unlicensed devices and 
dedicated short range communications systems in this band. I am hopeful 
that this testing will result in new opportunities for unlicensed Wi-Fi 
services in this band--while also ensuring that automotive safety 
efforts using dedicated short range communications can continue.
    In addition, the Commission has sought to increase the availability 
of unlicensed spectrum in millimeter wave bands. To this end, last year 
the agency established a new unlicensed band at 64-71 GHz, making a 14 
gigahertz unlicensed band from 57-71 GHz. While the propagation 
characteristics of these airwaves present real challenges, I am 
confident there will be new developments in the use of millimeter wave 
bands that may eventually have applications in rural communities.
    I support these efforts because it is essential that the Commission 
is, as you suggest, creative and open-minded with respect to policies 
designed to improve universal service and bring broadband to our 
Nation's most rural communities. If re-confirmed, I pledge to continue 
to do so.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Roy Blunt to 
                        Hon. Jessica Rosenworcel
    Question 1. AT&T's Twitter feed was mysteriously blocked when AT&T 
announced that it would participate in the so-called Internet Day of 
Action.
    While the network neutrality debate has seemingly focused on ISPs, 
large social media platforms such as Twitter serve as a gatekeeper for 
information distributed to millions of Internet users.
    Should large social media platforms such as Twitter be prohibited 
from blocking access to content that Twitter or its employees may find 
objectionable?
    Answer. I share your concern that this content was not available. 
This is not, however, a platform subject to the Communications Act. 
Moreover, I believe that however well intended, a new, government-based 
requirement on such platforms could result in an updated version of the 
Fairness Doctrine. Because I believe that this policy had a chilling 
effect on speech, I would not support such an approach.

    Question 2. Does it seem intellectually inconsistent for ISPs to be 
prohibited from blocking lawful content, but large social media 
platforms should be permitted to do so?
    Answer. To the extent there is incongruity here, it is largely a 
function of law. Companies that do not provide telecommunications are 
not offering services subject to the Communications Act nor the 
jurisdiction of the Commission more generally.

    Question 3. If confirmed, do you intend to vigorously enforce laws 
prohibiting the broadcast of indecent material outside of the safe-
harbor, when children are likely to be in the viewing audience?
    Answer. Yes.

    Question 4. What will you do to ensure television ratings 
accurately reflect the content on screen, and that there is greater 
accountability to parents and families in the application and review of 
TV ratings?
    Answer. Television has the power to enlighten and entertain. But 
not all programming is enriching or appropriate for children. 
Recognizing this fact, in the Telecommunications Act of 1996 Congress 
called on the entertainment industry to establish a voluntary 
television rating system to help provide parents with the tools to 
block programming that is inappropriate for younger viewers. As a 
result of this effort, a voluntary ratings system, known as the TV 
Parental Guidelines, was adopted by television broadcasters and 
networks, cable networks and systems, and television programming 
producers. To help implement these guidelines accurately and 
consistently, an Oversight Monitoring Board was established. This board 
includes up to 24 members, including industry leaders and public 
interest representatives.
    More than two decades hence, I believe it reasonable for the 
Commission to review this program and if necessary, encourage 
improvements. If re-confirmed, I would support such a re-assessment in 
order to ensure that this approach remains consistent with the law and 
ultimately useful for parents and families.

    Question 5. The Americans with Disabilities Act (ADA) provides that 
deaf and hearing-impaired individuals have access to telecommunications 
services in the same way as those without hearing impairments.
    If you are confirmed, will you pledge to honor this ADA requirement 
and ensure access for those of all ages, including our growing senior 
citizen population?
    Answer. Yes. More than a quarter of a century ago, the Americans 
with Disabilities Act paved the way for the meaningful inclusion of 54 
million Americans with disabilities in modern civic and commercial 
life. The direction in this law to ensure functionally equivalent 
access to communications remains the cornerstone of Commission efforts 
to ensure that individuals with hearing impairments have the ability to 
pick up the phone; connect with family, friends, and business 
associates; and participate fully in the world. It is especially 
important for senior citizens, with nearly half of the population over 
75 reporting hearing difficulties.
    Pursuant to the Americans with Disabilities Act, as updated by the 
Twenty-First Century Communications and Video Accessibility Act, the 
Commission has made strides in its policies to expand access to modern 
communications to the hearing-impaired. These efforts include continued 
support for telecommunications relay service, including Video Relay 
Service and Internet Protocol Captioned Telephone Service. It also 
includes the exploration of new forms of service, including Real-Time 
Text. In addition, the Commission has expanded the number of wireless 
handset models that are hearing-aid compatible, established the 
National Deaf-Blind Equipment Distribution Program in order to increase 
access to essential equipment for low-income individuals who are deaf-
blind, and promoted increased access to emergency communications 
through the availability of texting-to-911. The Commission also has 
updated its policies regarding closed captioning, in order to improve 
the accuracy and completeness of captions.
    I support these efforts because I believe they are essential for 
functionally equivalent access to communications services. But I also 
believe that as time and technology advance, it is incumbent on the 
Commission to review these policies in order to ensure that they are up 
to date. If re-confirmed, I pledge to work with my colleagues to do so.
                                 ______
                                 
      Response to Written Questions Submitted by Hon. Ted Cruz to 
                        Hon. Jessica Rosenworcel
Net Neutrality
    So called ``net neutrality'' as implemented in former FCC Chairman 
Tom Wheeler's Open Internet Order was a bureaucratic power grab that 
took the Internet which has long been a transformational tool that has 
allowed innovation and creativity and created new economic 
opportunities for all Americans and turned the Internet into a 
regulated public utility under Title II of the Communications Act. 
Title II gives the government new authority over the Internet which 
could be used to determine pricing and terms of service.
    What's concerning about the Title II debate is the influence that 
edge providers such as Google, Facebook and Netflix had with the Obama 
White House. For example, The Intercept has reported that between 
January 2009 and October 2015, Google staffers gathered at the White 
House on 427 separate occasions. The Intercept further notes that the 
frequency of the meetings increased from 32 in 2009 to 97 in 2014.
    This is concerning given that President Obama released a video on 
November 10, 2014 weighing into the net neutrality debate and advocated 
that the FCC regulate the Internet as a public utility. Not only did 
the Commission move forward and implement Title II but edge providers 
like Google were exempted from Title II.

    Question 1. As you know, last week tech companies were involved in 
a so called, ``Internet Day of Action'' that was meant to support 
keeping Title II reclassification. I found it interesting that AT&T's 
Twitter feed was mysteriously blocked when AT&T announced that it would 
participate in the Internet Day of Action. While the network neutrality 
debate has seemingly focused on Internet Service Providers (ISPs), 
large social media platforms such as Twitter serve as a gatekeeper for 
information distributed to millions of Internet users. Should large 
social media platforms such as Twitter be prohibited from blocking 
access to content that Twitter or its employees may find objectionable? 
Does it seem intellectually inconsistent for ISPs to be prohibited from 
blocking lawful content, but large social media platforms should be 
permitted to do so?
    Answer. I share your concern that this content was not available. 
However, to the extent there is incongruity here, it is largely a 
function of law. Companies that do not provide telecommunications are 
not offering services subject to the Communications Act nor the 
jurisdiction of the Commission more generally.
Federal Spectrum
    FCC Commissioner Michael O'Rielly stated in a 2015 blog post that, 
``By some accounts, the Federal Government currently occupies-either 
exclusively or on a primary basis-between 60 and 70 percent of all 
spectrum in the commercially most valuable range between 225 megahertz 
and 3.7 gigahertz, which comes to approximately 2,417 megahertz.''

    Question 2. What steps can this Committee take to incentive Federal 
users, especially the Department of Defense, to make more spectrum 
available for commercial use? Should Congress consider allowing Federal 
agencies to keep more of the proceeds from FCC incentive auctions?
    Answer. I agree with the need to develop incentives to encourage 
Federal authorities with substantial spectrum holdings to make more of 
their spectrum available for new commercial use. In fact, I testified 
on this subject before the Committee on Commerce, Science and 
Transportation on July 29, 2015.
    Today, Federal authorities have substantial spectrum assignments. 
Many critical missions throughout the government are dependent on 
wireless service. This includes systems that help defend us from 
attack, manage our air traffic, and monitor our water supplies. We 
should recognize that these are important tasks. However, we also 
should be willing to re-assess the airwaves used in service of these 
missions if there are opportunities to re-purpose them for new 
commercial use without sacrificing important Federal objectives.
    Under our current system, efforts to re-purpose these airwaves can 
take years. These efforts typically involve a lot of legislative 
pressure and regulatory coaxing because existing government users 
rarely respond with enthusiasm when facing the reclamation of airwaves 
they presently use. But when these efforts to reclaim spectrum are 
successful, a three-part process follows. First, the government users 
are cleared out of a portion of their airwaves. Second, the government 
users are relocated. Third, the freed spectrum is auctioned for new 
commercial use. This is a slow and cumbersome process. It's not the 
steady spectrum pipeline the modern mobile economy needs.
    A better system would be built on carrots rather than sticks. If we 
want a robust and reliable spectrum pipeline, it is essential that 
Federal authorities see gain--and not just loss--when their airwaves 
are reallocated for new mobile broadband use.
    The best way to do this is to develop a series of incentives to 
serve as the catalyst for freeing more spectrum for commercial markets. 
This could include, as you suggest, expanding incentive auctions to 
Federal spectrum users. Such auctions could be modeled on the recent 
incentive auction in the 600 MHz band. Participating Federal 
authorities could receive a cut of the revenue from the commercial 
auction of the airwaves they clear--and could then use these funds to 
support relocation or other initiatives approved by Congress, including 
some that may have been lost to sequestration. This is a complex 
undertaking, because Federal authorities are subject to annual budget 
allocations and therefore do not operate in a strictly market 
environment.
    Nonetheless, I believe it is an idea worth pursuing with discrete 
spectrum bands or agencies.
    In addition, Congress could choose to update the Spectrum 
Relocation Fund. Today this fund assists Federal authorities with 
relocating their wireless functions when their spectrum is being 
repurposed for commercial use. But this fund also could be structured 
to provide incentives for government sharing by rewarding Federal users 
when they share their spectrum with agencies that are being relocated.
    There are also laws that create perverse incentives that need 
review. This includes the Miscellaneous Receipts Act. This law can 
prevent negotiations between Federal agencies and winning bidders in 
wireless auctions. But with changes, it could lead to the auction of 
imperfect rights that would permit winning bidders to negotiate 
directly with Federal authorities remaining in the band in order to 
help meet their wireless needs. This could speed repurposing of our 
airwaves and also provide commercial carriers with incentives to help 
update Federal systems that are past their prime.
    On the flip side, a slightly different approach to incentivizing 
the relinquishment of underutilized Federal spectrum would be the 
enactment of spectrum fees. Brent Skorup at the Mercatus Center has 
written that, ``Some countries have applied spectrum fees to government 
users, which generally attempt to approximate the opportunity cost of 
the spectrum so that users internalize the social value of the spectrum 
they occupy. If the opportunity cost fees are high, a user will be 
induced to use less spectrum to reduce its fees or leave the space 
completely and sell the cleared spectrum for higher-valued uses.''

    Question 3. Should Congress implement a spectrum fee to incentive 
Federal users to consider relinquishing underutilized spectrum?
    Answer. I am concerned that Federal users are not required to 
internalize the cost of their spectrum holdings. There is no budgetary 
system to account for these holdings, nor uniform method to enumerate 
the value of these assets. One way to ensure that government use is 
efficient involves the introduction of spectrum fees, as has been done 
by some countries to approximate the opportunity cost of continued 
noncommercial use of certain airwaves. However, in the near term I 
believe Congress should focus on the intermediate step of having the 
Office of Management and Budget develop a uniform system of valuation 
of Federal spectrum assignments. Such a system could eventually be used 
to develop incentives to promote the efficient use of airwaves and 
assist with the repurposing of Federal airwaves for new commercial use.
5G Wireless Technology Deployment
    We are on the cusp of the wireless industry introducing the next 
generation of technology--5G. That upgrade to our existing networks is 
expected to bring us higher data speeds, lower latency, and the ability 
to support breakthrough innovations in transportation, healthcare, 
energy and other sectors. And as recent studies have shown, 5G is 
expected to provide significant benefits to state and local 
governments, allowing them to become smart cities. However, those 
networks will also require many more antenna sites than we have today--
they will increasingly rely on small cell technologies. To recognize 
these benefits, a study performed by Deloitte shows that several steps 
are necessary to remove impediments to antenna siting. Texas is leading 
the way, as evidenced by recent legislation (Texas Senate Bill 1004) 
signed into law just last month that streamlines the deployment of 
next-generation 5G networks. It's also my understanding that the 
Commission has initiated a proceeding designed to evaluate whether some 
of those obstacles can be removed.

    Question 4. Do you support the Commission's efforts in this area? 
Do you think that the Commission's proposals are achievable, 
particularly considering state and local government interests in this 
area?
    Answer. Yes. I am optimistic that the Broadband Deployment Advisory 
Committee, recently established by Chairman Pai, can be a useful forum 
for discussing these matters and improving the prospects for deployment 
of next-generation 5G infrastructure. In particular, I am hopeful that 
this group will be able to develop a streamlined, model code for state 
and local authorities to use for facilities siting. Then I believe the 
Commission should study its own policies to identify ways to 
incentivize officials to implement this code in order to expedite 
deployment further.
    I also believe it is important for the Federal Government to lead 
by example. By some measures nearly one-third of all property in the 
United States is Federal land. The Commission should work with the 
Federal authorities with facilities on this land--including the 
Department of Interior, Department of Agriculture, and Department of 
Transportation--to develop a Memorandum of Understanding that would 
streamline the siting of network infrastructure.
FCC Priorities
    Question 5. My top priority is regulatory reform. Please identify 
three meaningful regulations that you are interested in repealing 
during your tenure at the FCC.
    Answer. I believe the Commission should eliminate the reporting 
obligation associated with the Open-Market Reorganization for the 
Betterment of International Telecommunications Act. The analysis in 
this report provides little to no benefit to the satellite industry, in 
light of the fact that the essential purposes of this law were 
fulfilled by the privatization of INTELSAT and Inmarsat more than a 
decade ago. To the extent that the Commission is unable to do this 
under existing law, it should seek assistance from Congress to 
eliminate this obligation.
    I believe the Commission should reduce the filing obligations that 
remain on carriers completing payphone calls. There has been a sharp 
decline the number of payphones and the volume of calls completed on 
these facilities. It is time for the Commission to update its policies 
to reflect this reality--and it can begin by removing the costly 
requirement for providers to file an annual audit of their payphone 
call tracking systems.
    I believe the Commission should eliminate the requirement that 
providers of international telecommunications services report annually 
on their traffic and revenue for international voice services, 
international miscellaneous services, and international common carrier 
lines. These requirements were put in place to help the Commission 
monitor settlement rates as part of its international benchmark policy. 
But with the growth in competition and liberalization of international 
services, this set of filings is no longer necessary nor useful.
ICANN
    Question 6. Last year the previous administration allowed the 
Federal Government's contract with ICANN to expire. Do you think that 
was a wise and prudent decision?
    Answer. During my prior tenure at the Commission I did not 
participate in domestic or international meetings concerning the 
expiration of the Internet Corporation for Assigned Names and Numbers 
(ICANN) contract. I also did not write or publish any material relating 
to this subject. Nonetheless, I am aware that the Department of 
Commerce chose to allow its contract with ICANN concerning the Internet 
Assigned Numbers Authority to expire on September 30, 2016.
    I do not, however, believe that it is prudent or wise for the 
United States to sit back and disengage from this process. Too much is 
at stake. The United States must remain vigilant in order to ensure 
that essential ICANN functions are not at risk of transfer to another 
government or intergovernmental organization. To this end, I believe 
the Department of Commerce must periodically re-assess this transition 
in order to ensure that the principles of accountability, transparency, 
security, and stability of the Internet that informed the transition 
continue with management of ICANN duties today. I believe the Federal 
Communications Commission, to the extent useful for the Department of 
Commerce, could contribute to this review.

    Question 7. Microsoft and Facebook and YouTube, which is owned by 
Google, all of whom supported President Obama's Internet transition, 
have signed a code of conduct with the European Union to remove so-
called hate speech from European countries in less than 24 hours. Do 
you think these global technology companies have a good record of 
protecting free speech? And what can be done to protect the First 
Amendment rights of American citizens?
    Answer. On June 1, 2016, the European Commission and four large 
technology companies--Facebook, Twitter, YouTube, and Microsoft--
announced a code of conduct designed to counter online hate speech in 
Europe. These companies pledged to review the majority of requests for 
removal of certain hate speech in less than 24 hours. They also 
committed to remove or disable access to the content if necessary and 
to promote counter narratives to hate speech.
    I appreciate the efforts by these private companies to reduce 
hateful conduct online. I also am aware that this code was put into 
place just months after terror attacks in Paris and Brussels. 
Nonetheless, I am concerned when United States companies with global 
presence operate in a manner at odds with our domestic free speech 
tradition. I believe it is appropriate to ask if commitment to this 
code implicates the First Amendment rights of American citizens. To 
answer this question in a comprehensive fashion, I believe a report 
reviewing this issue, and the implications of this code for American 
citizens, could be both timely and useful.
    There is precedent for this approach. In 1993 the National 
Telecommunications and Information Administration at the Department of 
Commerce produced a report entitled ``The Role of Telecommunications in 
Hate Crimes.'' This report, which was directed by Congress, described 
the relationship between electronic communications media and hate 
speech. It included a discussion of First Amendment principles--and 
their application to expressions of hate or bigotry. However, this 
report is dated. With so many communications platforms that have their 
origins in the United States now capable of global reach, the efforts 
of other jurisdictions to control and even dictate speech on these 
platforms is an issue that deserves careful attention and review. 
Should Congress direct the National Telecommunications and Information 
Administration to produce an updated version of its prior report, the 
Federal Communications Commission and Department of Justice should 
stand ready to assist.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Dan Sullivan to 
                        Hon. Jessica Rosenworcel
    I want to thank you and the current FCC Commissioners for working 
with my staff to help alleviate some of the burden that the reduction 
in reimbursement from the Rural Health Care program placed on Alaskan 
health care providers.
    In my state, the price of telecommunications services is so 
expensive that many rural health care providers cannot afford them 
without support from the Rural Health Care program. Telemedicine 
services in Alaska are essential for many of our villages, and they are 
only possible if a health facility has connectivity.
    In enacting the Telecommunications Act of 1996, Congress 
specifically directed the FCC to ensure that rural health care 
providers have access to telecommunications services at rates that are 
reasonably comparable to those for similar services in urban areas of 
the State. As you are aware, for the first time the demand for funding 
from the Rural Health Care program exceeded the $400 million cap.

    Question 1. Will you work to ensure the sustainability of the Rural 
Health Care Program as the FCC moves forward to review further reforms 
to universal service programs?
    Answer. Yes.

    Question 2. If confirmed, what steps would you take to address this 
funding issue?
    Answer. I have seen first-hand village clinics in Alaska that use 
broadband to provide first-class care to patients in some our most 
remote communities. So I know that telemedicine has a transformative 
power in rural areas. Moreover, I know that the provision of this kind 
of care is often dependent on support from the Commission's rural 
health care program.
    The Commission's rural health care program was last substantially 
updated in 2012. In critical part, this modernization expanded the 
program from supporting rural health care providers with communications 
costs that exceed comparable service in urban areas to supporting 
broadband connectivity through health care networks. As a result of 
this effort, demand for the program has grown. To date, the Commission 
has managed this growth by pro-rating support, so that all applicants 
are subject to a uniform cut. I am not sure this is a sustainable 
approach.
    Consequently, if re-confirmed, I would support a rulemaking to 
reconsider prioritization in this program, which could, among other 
things, take into account how rural the area is where support is 
provided.

    Question 3. Will you consider beginning a rulemaking proceeding to 
evaluate the changes necessary to ensure that the program budget is 
sufficient to fulfill the purposes of the program?
    Answer. Yes.
    It is my understanding that environmental assessments (EAs), when 
required under the FCC's rules, are currently not subject to any 
processing timelines or dispute resolution procedures. As a result, 
environmental assessments for new facilities can languish for an 
extended period of time--sometimes years. This is an unfortunate 
barrier to feeding our Nation's hunger for expanded wireless broadband.
    Given my seat on this committee and on EPW, I have a particular 
interest in finding ways to streamline these procedures.

    Question 4. Will you commit to finding ways to streamline the FCC's 
review of environmental assessments, including through the adoption of 
``shot clocks'' to resolve environmental delays and disputes, in 
addition to working on additional infrastructure reforms?
    Answer. Yes. In light of the changing nature of wireless 
infrastructure, I think the Commission should streamline its siting 
policies, to the extent feasible under the National Environmental 
Policy Act. This law requires Federal Government agencies, including 
the Commission, to identify and evaluate the environmental impact of 
actions ``significantly affecting the quality of the human 
environment.'' The Commission has an outstanding rulemaking concerning 
wireless infrastructure that, among other things, seeks comment on the 
policies it has adopted under this law. If re-confirmed, I pledge to 
carefully review the law and the record in order to update and 
modernize these policies.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Deb Fischer to 
                        Hon. Jessica Rosenworcel
    Question. In recent years, there have been incredible technological 
advancements in telecommunication services that aid the deaf and 
hearing disabled. With respect to any future rulemaking--do you commit 
to ensuring that these technologies continue to be made available 
unencumbered by heavy handed regulation that could stifle innovation 
and impede access to these services?
    Answer. Yes. Under the Americans with Disabilities Act, functional 
equivalency has long been the foundation of Commission policies 
designed to provide access to modern communications services for the 
deaf and hearing disabled. While this may sound like regulatory lingo, 
for individuals with these disabilities it means the right and ability 
to pick up the phone, reach out and connect, and participate more fully 
in the world.
    Pursuant to the Americans with Disabilities Act, the Commission has 
adopted telecommunications relay service policies that support a 
variety of technologies designed for the deaf and hearing disabled, 
including Video Relay Service and Internet Protocol Captioned Service. 
I believe the continued success of these programs depends on the 
Commission both ensuring fair compensation for providers of these 
services and taking action to prevent waste, fraud, and abuse. 
Moreover, I believe that as communication technologies advance, it is 
incumbent on the Commission to periodically reassess these programs in 
order to continue to honor both the spirit and substance of functional 
equivalency. If re-confirmed, I pledge to do so mindful of the need to 
prevent policies that stifle innovation and impede access to new 
services
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Ron Johnson to 
                        Hon. Jessica Rosenworcel
    Question 1. If confirmed, will you commit to looking at the costs 
and benefits of regulations and consider all of the economic data in 
the record?
    Answer. Yes.

    Question 2. Are you aware that DHS is the sector specific agency 
for communications critical infrastructure and works with other 
agencies to enhance resiliency?
    Answer. Yes.

    Question 3. Given the role of DHS, I am concerned that any further 
FCC action would be duplicative and overlapping. As Chairman of the 
Senate Committee on Homeland Security and Governmental Affairs, I have 
highlighted duplicative cyber regulations across the government and am 
working with my colleague to harmonize these regulations. If confirmed, 
will you commit to work with me on cyber harmonization and defer to 
assigned sector specific agencies when it comes to cybersecurity?
    Answer. Yes. I agree that effective efforts to manage cybersecurity 
risk require harmonization across government authorities.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Amy Klobuchar to 
                        Hon. Jessica Rosenworcel
    Question. As Chairman and Ranking Member of the Senate Judiciary's 
Antitrust Subcommittee, Senator Lee and I have developed a strong 
bipartisan working relationship to promote competition, including in 
the cable and broadcast industries. Ms. Rosenworcel, you expressed 
concerns that unconditional most favored nation provisions ``can make 
it tough for new and independent programming to get on the channel 
line-up of satellite and cable systems and online, as well.'' Ms. 
Rosenworcel, is this an issue that the Federal Communications 
Commission should continue to consider?
    Answer. Yes. Today we have a dizzying array of channels available 
to consumers. We expect programming to be available at anytime, 
anywhere--and on any screen. On top of that, novel platforms for 
content are cropping up here, there, and everywhere. But despite all of 
this change, some old problems linger. This is clear from the record in 
response to the Commission's February 18, 2016 Notice of Inquiry and 
September 29, 2016 Notice of Proposed Rulemaking in MB Docket No. 16-
41, Promoting the Availability of Diverse and Independent Sources of 
Video Programming, which suggests that independent programmers continue 
to have a difficult time securing carriage on multichannel video 
programming distributors. Moreover, commenters in these proceedings 
describe how restrictive contract provisions can limit consumer access 
to new programming and slow the development of innovative ways to view 
content on non-traditional video platforms. As a result, I believe this 
issue merits continued Commission attention.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Cory Booker to 
                        Hon. Jessica Rosenworcel
    Question 1. WJLP, northern New Jersey's only VHF television 
broadcast station, has been ordered by the FCC to identify itself as 
channel 33 instead of its real channel, channel 3. Applications for 
review of numerous rulings related to this issue have been submitted 
with no action for up to three years. It is my understanding that 
contested cases can take up to seven years to reach a determination. 
What actions have you taken, and what actions will you take if re-
confirmed, to reach a final determination on this case?
    Answer. I believe that the timely disposition of matters before the 
Commission is critical. As a Commissioner, however, I did not 
participate in the decisions involved in this dispute because the 
resolution of substantive issues took place in the agency's Media 
Bureau. Nonetheless, if re-confirmed, I pledge to carefully review the 
facts and law involved in this situation and work expeditiously with my 
colleagues to resolve any matter before my office.

    Question 2. E-Rate is an important Universal Service Fund program 
that helps underserved schools and libraries connect to high-speed 
Internet. I cannot overstate the value of broadband access for these 
learning centers. To remain competitive in the 21st century, our 
children must learn how to interact with the digital world.
    In 2016, my home state of New Jersey received $90 million for E-
Rate, which it used to connect 181,652 students to high-speed Internet 
in underserved schools.\1\ For these students, especially those who do 
not have access to broadband at home, this a potentially life-changing 
advance in educational opportunity. This program is critical to closing 
the digital divide.
---------------------------------------------------------------------------
    \1\ Education Superhighway, July 2017.
---------------------------------------------------------------------------
    Nationally, since the E-Rate Modernization Order in 2014, 30.9 
million unserved students have been connected to the high-speed 
broadband that they need to build our Nation's future.
    Will you commit to support the E-rate modernization order in its 
current form with need-based prioritized funding for underserved 
schools and libraries?
    Answer. Yes. Absolutely.

    Question 3. The New Jersey Division of the Deaf and Hard of Hearing 
(DDHH) estimates that there are approximately 850,000 New Jersey 
residents who experience hearing loss. Many of these individuals rely 
on Video Relay Service (VRS) and Internet Protocol Captioned Telephone 
Service (IP CTS) to communicate with family, friends, emergency 
services, and other important people. How will you ensure that the FCC 
continues to administer these programs consistent with the requirements 
of the Americans with Disabilities Act?
    Answer. Under the Americans with Disabilities Act, functional 
equivalency has been the foundation of telecommunications relay service 
policies for more than a quarter of a century. While functional 
equivalency may sound like regulatory lingo, for the 850,000 New Jersey 
residents you reference and millions of others across the country it 
means that they have the right and ability to pick up the phone, reach 
out and connect, and participate more fully in the world.
    The Commission's telecommunications relay service policies, adopted 
pursuant to the Americans with Disabilities Act, support a variety of 
programs, including Video Relay Service and Internet Protocol Captioned 
Service. I believe the continued success of these programs depends on 
the Commission both ensuring fair compensation for providers of these 
services and taking action to prevent waste, fraud, and abuse. 
Moreover, I believe that as communication technologies advance, it is 
incumbent on the Commission to periodically reassess these programs in 
order to continue to honor both the spirit and substance of functional 
equivalency.

    Question 4. Expanding access to broadband connectivity is an 
incredibly important part of investing in the future of our Nation and 
closing the digital divide. This is especially true in rural areas. How 
do you view the role of TV White Spaces in expanding connectivity to 
hard-to-reach rural areas?
    Answer. Broadband is more than a technology--it is a platform for 
opportunity. No matter who you are or where you live, you need access 
to broadband communications for a fair shot at 21st century success. 
This is true in urban America, rural America, and everything in 
between.
    However, access in rural communities can present a real challenge. 
Often the cost of financing, constructing, and operating broadband 
networks in remote areas is high while the number of households and 
businesses over which that cost is spread is low. As a result, the 
Commission has had a series of policies designed to boost deployment in 
the Nation's most difficult to serve rural areas. The most prominent of 
these is the high-cost universal service fund, which provides roughly 
$4.5 billion in annual support to wired and wireless providers serving 
some of our most remote communities. Other policies, however, also 
assist with universal service, including build-out requirements for 
spectrum licensees that help ensure deployment covers both urban and 
rural populations.
    Nonetheless, the data suggests that despite these efforts too many 
rural areas are still at risk of being consigned to the wrong side of 
the digital divide. In fact, in 2016 the Commission found that more 
than 23 million Americans in rural areas lack access to broadband. By 
any measure, this number is too high.
    For this reason, I believe the Commission should always be on the 
hunt for good ideas that will extend the opportunities of broadband to 
rural communities at low cost. The use of unlicensed spectrum in the 
600 MHz band--or TV White Spaces--is one such opportunity.
    The use of TV White Spaces was first approved by the Commission in 
2010. At that time, it updated its Part 15 rules to allow for 
unlicensed fixed and portable devices to operate in the broadcast 
television spectrum at locations where that spectrum was not in use by 
licensed services. In order to prevent interference to other services 
operating in the band--namely television--the Commission relied on 
geolocation capabilities in white space devices as well as databases to 
identify vacant channels.
    In the aftermath of the 600 MHz band spectrum incentive auction 
there will be new opportunities to explore the use of TV White Spaces 
to expand broadband access. I believe the Commission can help develop 
these opportunities while also protecting incumbent services from 
harmful interference. Moreover, I believe that if the Commission is 
successful in doing so it will be able to make real progress in closing 
the digital divide and bringing broadband to our Nation's most rural 
communities.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                        Hon. Jessica Rosenworcel
    Question 1. As a commissioner of the Federal Communications 
Commission, you have direct authority over the Nation's broadcast and 
media marketplace. The FCC as an independent agency controls whether 
broadcast stations are allowed access to the U.S. airwaves, oversees 
elements of the contractual relationships between media outlets and 
their distribution partners, renders judgements on mergers and 
acquisitions of media properties, and issues regulations that can 
affect the financial future of major media companies. And ultimately, 
the decisions that you, your fellow commissioners, and the agency staff 
make affect the viability and sustainability of news media.
    Accordingly, please respond directly, fully, and individually to 
the questions below, which will inform my ongoing consideration of your 
nomination to serve on the FCC Commission.
    Do you believe the media is the ``enemy'' of the American people?
    Answer. No. I believe a free and independent press is essential in 
a fully-functioning democracy.

    Question 2. Can you assure us that you will exercise your authority 
as an FCC Commissioner to regulate the media in an impartial manner?
    Answer. Yes.

    Question 3. Will you commit to us that the FCC will not act in a 
manner that violates the First Amendment and stifles or penalizes free 
speech by electronic media, directly or indirectly, even if requested 
by the administration?
    Answer. Yes.

    Question 4. Did you commit to the administration, as a condition of 
your nomination, to take any action against a specific media entity or 
generally against broadcast entities, cable network owners or other 
media outlets?
    Answer. No.

    Question 5. Will you commit to us that you will exercise your 
authority as an FCC Commissioner in a manner that fully respects the 
absolute independence of the agency from the Executive Branch?
    Answer. Yes.

    Question 6. Finally, will you commit to inform us and the public of 
any attempt by the White House or by any Executive Branch official to 
influence your decision-making or direct you to take or not take any 
action with respect to media interests within your jurisdiction, 
including the license renewal applications for broadcasters (whether or 
not such contacts fall under the ex parte rules or other legal or 
ethical rules applicable to the FCC)?
    Answer. Yes.

    Question 7. The FCC and this Committee have been talking about the 
need to build out rural broadband for many years. Progress is 
happening, but much too slowly. The free market did not deliver rural 
electricity--FDR, the New Deal, and the rural electric coops did it 
with major USDA support. The free market will not deliver rural 
broadband on its own either. We need the government to act. If there is 
going to be an infrastructure package, rural broadband must be in it in 
a very big way. Will you work with both parties in Congress, and the 
White House, to advance a consensus, bipartisan proposal to provide 
rural broadband to every part of America that is bold--and provides the 
necessary funding to achieve this goal?
    Answer. Yes.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Maggie Hassan to 
                        Hon. Jessica Rosenworcel
    Question. As you know, pursuant to the Americans with Disabilities 
Act, the FCC has an important mandate to ensure that deaf and hearing-
impaired individuals have ``functionally equivalent'' access to telecom 
services. How will you work to ensure that the commission fulfills its 
obligation to individuals with hearing impairments under the ADA?
    Answer. More than a quarter of a century ago, the Americans with 
Disabilities Act paved the way for the meaningful inclusion of 54 
million Americans with disabilities in modern civic and commercial 
life. The direction in this law to ensure functionally equivalent 
access to communications remains the cornerstone of Commission efforts 
to ensure that individuals with hearing impairments have the ability to 
pick up the phone; connect with family, friends, and business 
associates; and participate fully in the world.
    Pursuant to this law, as updated by the Twenty-First Century 
Communications and Video Accessibility Act, the Commission has made 
strides in its policies to expand access to modern communications to 
the hearing-impaired. These efforts include continued support for 
telecommunications relay service, including Video Relay Service and 
Internet Protocol Captioned Telephone Service. It also includes the 
exploration of new forms of service, including Real-Time Text. In 
addition, the Commission has expanded the number of wireless handset 
models that are hearing-aid compatible, established the National Deaf-
Blind Equipment Distribution Program in order to increase access to 
essential equipment for low-income individuals who are deaf-blind, and 
promoted increased access to emergency communications through the 
availability of texting-to-911. The Commission also has updated its 
policies regarding closed captioning, in order to improve the accuracy 
and completeness of captions.
    I support these efforts because I believe they are essential for 
functionally equivalent access to communications services. But I also 
believe that as time and technology advance, it is incumbent on the 
Commission to review these policies in order to ensure that they are up 
to date. If re-confirmed, I pledge to work with my colleagues to do so.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                      to Hon. Jessica Rosenworcel
    Question 1. Diversity in Telecom: In reviewing the Federal Equal 
Employment Opportunity Commission's (EEOC) 2016 report on ``Diversity 
in High Tech,'' and it contains some frustrating and concerning 
observations regarding minority and female employment and leadership 
representation. Namely:

  <bullet> ``Compared to overall private industry, the high tech sector 
        employed a smaller share of African Americans (14.4 percent to 
        7.4 percent), Hispanics (13.9 percent to 8 percent), and women 
        (48 percent to 36 percent).''

  <bullet> ``Of those in the Executives category in high tech, about 80 
        percent are men and 20 percent are women. Within the overall 
        private sector, 71 percent of Executive positions are men and 
        about 29 percent are women.''

  <bullet> 2014 data of the labor force participation rate at select 
        leading ``Silicon Valley tech firms,'' with similarly upsetting 
        trends: ``Among Executives, 1.6 percent were Hispanic and less 
        than 1 percent were African American.''

    If you were to be confirmed to the FCC, what do you think we could 
do to establish a more inviting sector to diversity of staff and 
leadership at the FCC, and the tech sector more broadly?
    Answer. I know personally that the lack of diversity in the 
technology sector in this country is a tough and persistent problem. 
During my prior tenure at the Commission, I traveled across the country 
to discuss everything from spectrum policy to broadband networking and 
no matter where I went I encountered too few women and minorities in 
technical and leadership roles. This is a problem. It needs to be 
addressed.
    I believe that talent is equally distributed, but opportunity is 
not. That is why I think the Commission should set up an honors 
engineering program to encourage a diverse group of people to work in 
government service in technical roles early in their careers. It would 
help diversify the ranks of the agency's own engineering workforce and 
provide a boost for recent engineering school graduates interested in 
working on communications technology as they launch their professional 
lives. This program could easily be modeled on the Commission's 
existing honors attorney program, which has helped recruit a wide range 
of talented, young, legal professionals to Federal service. Moreover, 
it would help the agency set a much-needed example for the technology 
sector. Over time it also could help multiply the pathways to 
leadership for those who are underrepresented in technical fields 
today.

    Question 2. Chairman Pai has expressed that there is authority the 
FCC has to address this issue with broadcasters and cable operators, so 
is there additional authority you could use to aid in this pursuit of 
more diversity in the overall tech sector?
    Answer. There are several key sections in the Communications Act 
that address diversity matters.
    As you indicate that Chairman Pai has suggested, Sections 334 and 
634 of the Communications Act specifically authorize the Commission to 
take steps to promote equality of employment opportunity with respect 
to broadcast stations and cable operators. The Commission should 
periodically review these policies to ensure that they are effective 
and that they reflect current law.
    In addition, Section 309(j) of the Communications Act grants the 
Commission the authority to distribute spectrum licenses through a 
competitive bidding process. As part of this directive, Congress tasked 
the agency with both ``avoiding excessive concentration of licenses'' 
and ``disseminating licenses among a wide variety of applicants, 
including small businesses owned by members of minority groups and 
women.'' To do so, Congress encouraged the agency to ``consider the use 
of tax certificates, bidding preference, and other procedures.'' To 
this end, in 2015, the Commission updated its designated entity 
policies, which are designed to encourage a diverse range of small 
businesses to participate in its spectrum auctions. These updated 
policies were used in the forward portion of the recent 600 MHz 
auction. In the aftermath of a major wireless auction like this the 
Commission should review its designated entity policies to ensure both 
that they were effective and that they did not inadvertently benefit 
entities for whom they were not intended.
    As a related matter, Section 257 of the Communications Act requires 
the Commission to periodically report on market entry barriers for 
entrepreneurs and other small businesses in the provision of 
telecommunications services and information services and in the 
provision of parts or services to providers of telecommunications 
services and information services. The Commission should consider 
including in this report a review of data regarding diversity in the 
communications sector, in order to gauge changes over time. By doing 
so, the agency could help increase transparency by encouraging 
companies, institutions, and organizations to account for their 
demographics and measure year over year gains, failures, and trends.
    Finally, it is important to note that the single most effective 
tool that the Commission had for increasing diversity was the Minority 
Tax Certificate policy. This policy permitted sellers of certain media 
properties to defer capital gains taxes if the properties were sold to 
entities that increased ownership diversity in the sector. Over the 
course of its 17-year existence, it resulted in a five-fold increase in 
the number of broadcast licenses held by minority owners. In 1995, 
however, Congress repealed this policy, largely due to the restoration 
of an unrelated tax deduction. However, Congress may wish to revisit 
and reinstate this policy in updated form, with additional protections 
to prevent misuse of the deduction.

    Question 3. Broadband Internet Speed Honesty: I asked Chairman Pai 
about a reported FCC filing from USTelecom and NCTA that is asking the 
FCC for a ruling confirming that ISPs are following Federal 
transparency rules by posting online their average performance during 
times of peak usage. But I know a bipartisan group of Attorneys General 
are concerned such an industry petition to the FCC on cost transparency 
``represents nothing more than the industry's effort to shield itself 
from state law enforcement.''
    Do you believe that an FCC ruling would circumvent the ability of 
the states to protect consumers?
    Answer. I am concerned that an overbroad Commission ruling could 
circumvent the ability of the states to protect consumers. There is a 
long history of concurrent Federal and state authority regarding 
consumer protection matters. I believe the Commission has a duty to 
respect this history and the authority of its state counterparts.

    Question 4. How can you best ensure that ISPs are truthful with 
consumers, given that prices and advertised speeds often influence 
consumer decisions about the service that is right for them?
    Answer. In order to ensure that advertised speeds are truly 
accurate, the Commission should review its Measuring Broadband America 
program. This program was put in place several years ago to assess the 
accuracy of speeds advertised and offered by broadband providers. For 
wired services, the program uses special routers in thousands of 
households in order to determine if there are any gaps between speeds 
that are advertised by providers and those that are experienced by 
their consumers. For wireless services, a similar test is accomplished 
through a software application available for iOS and Android operating 
systems. The agency releases annual reports summarizing both its wired 
and wireless findings. In light of increased interest in the gap 
between what is advertised by providers and what is experienced by 
consumers, the agency should expand this report and offer more detail 
regarding its findings. Then, in turn, it should use this detail to 
inform its Form 477 broadband deployment data-gathering process, and 
Broadband Progress Report pursuant to Section 706.
                                 ______
                                 
     Response to Written Question Submitted by Hon. John Thune to 
                              Brendan Carr
    Question. Millions of rural Americans lack access to broadband, and 
bridging the digital divide is a priority for me and the Committee. As 
traditional fiber, cable, and 4G broadband is deployed throughout the 
country, policymakers must nevertheless be creative and open-minded 
when exploring all options to achieving universal service. What role do 
you see for unlicensed spectrum (Wi-Fi, TV White Spaces, millimeter 
wave, etc.) in connecting unserved rural households with broadband 
Internet access?
    Answer. I agree that policymakers must be creative and open-minded 
when it comes to achieving universal service. And I believe that 
unlicensed spectrum should continue to play an important role in 
connecting unserved rural households with broadband Internet access. If 
confirmed, I would work to ensure that the FCC takes an all-of-the-
above approach to spectrum, including by opening up and enabling the 
use of unlicensed spectrum.
                                 ______
                                 
      Response to Written Questions Submitted by Hon. Ted Cruz to 
                              Brendan Carr
Federal Spectrum
    FCC Commissioner Michael O'Rielly stated in a 2015 blog post that, 
``By some accounts, the Federal Government currently occupies-either 
exclusively or on a primary basis-between 60 and 70 percent of all 
spectrum in the commercially most valuable range between 225 megahertz 
and 3.7 gigahertz, which comes to approximately 2,417 megahertz.''
    Question 1. What steps can this Committee take to incentive Federal 
users, especially the Department of Defense, to make more spectrum 
available for commercial use? Should Congress consider allowing Federal 
agencies to keep more of the proceeds from FCC incentive auctions?
    Answer. There are a number of steps the Committee could take to 
incentivize Federal users to make more spectrum available for 
commercial use, while also ensuring that those users can continue to 
carry out their important missions. I will highlight three steps here.
    First, the Committee could facilitate, or consider legislation that 
would require, the consolidation of various Federal use cases. Federal 
radar systems may be one example. Federal users are known to operate 
separate systems pursuant to separate spectrum allocations that perform 
identical or similar functions. So it is worth exploring opportunities 
to consolidate those systems and spectrum allocations, which could 
create efficiencies, ensure that Federal users can continue to carry 
out their missions, and free up additional spectrum for commercial use.
    Second, the Committee could convene stakeholder meetings to help 
identify candidate bands and map out the timeline and process for 
freeing those bands up for commercial use, while continuing to protect 
the interests of Federal users.
    Third, the Committee could consider legislation that would require 
Federal users to free up a certain amount of spectrum (or specific 
spectrum bands) by a date certain, while ensuring that adequate 
spectrum resources remain available to Federal users to carry out their 
missions.
    With respect to the second part of the question, I defer to 
Congress' ultimate judgment on this issue, but I do believe that 
Congress should consider allowing Federal agencies to keep some portion 
of the proceeds of an FCC auction of Federal spectrum as a means of 
incentivizing incumbents to free up spectrum.
    On the flip side, a slightly different approach to incentivizing 
the relinquishment of underutilized Federal spectrum would be the 
enactment of spectrum fees. Brent Skorup at the Mercatus Center has 
written that, ``Some countries have applied spectrum fees to government 
users, which generally attempt to approximate the opportunity cost of 
the spectrum so that users internalize the social value of the spectrum 
they occupy. If the opportunity cost fees are high, a user will be 
induced to use less spectrum to reduce its fees or leave the space 
completely and sell the cleared spectrum for higher-valued uses.''

    Question 2. Should Congress implement a spectrum fee to incentive 
Federal users to consider relinquishing underutilized spectrum?
    Answer. While I defer to Congress' ultimate judgment on whether to 
implement spectrum fees, I believe that this type of incentive system 
certainly merits consideration.
5G Wireless Technology Deployment
    We are on the cusp of the wireless industry introducing the next 
generation of technology--5G. That upgrade to our existing networks is 
expected to bring us higher data speeds, lower latency, and the ability 
to support breakthrough innovations in transportation, healthcare, 
energy and other sectors. And as recent studies have shown, 5G is 
expected to provide significant benefits to state and local 
governments, allowing them to become smart cities. However, those 
networks will also require many more antenna sites than we have today--
they will increasingly rely on small cell technologies. To recognize 
these benefits, a study performed by Deloitte shows that several steps 
are necessary to remove impediments to antenna siting. Texas is leading 
the way, as evidenced by recent legislation (Texas Senate Bill 1004) 
signed into law just last month that streamlines the deployment of 
next-generation 5G networks. It's also my understanding that the 
Commission has initiated a proceeding designed to evaluate whether some 
of those obstacles can be removed.

    Question 3. Do you support the Commission's efforts in this area? 
Do you think that the Commission's proposals are achievable, 
particularly considering state and local government interests in this 
area?
    Answer. As your question indicates, 5G is expected to support 
breakthrough innovations. In doing so, it can create jobs, spur 
investment, and grow the economy for the benefit of all Americans. 5G 
deployments may look very different than traditional 4G deployments, as 
your question notes, and this is due in part to the fact that 5G 
deployments should involve a significantly greater number of small 
cells.
    In April 2017, the FCC released a Notice of Proposed Rulemaking and 
Notice of Inquiry that seeks public comment on a number of ways that 
the FCC could help streamline the deployment of 5G and other wireless 
technologies. While I have an open mind about the FCC's proceeding, I 
support the Commission's effort to seek comment on these issues, and I 
believe that the agency can achieve results consistent with the long-
standing and important role that state and local governments play in 
this area. Indeed, as your question notes, many state and local 
governments are adopting ordinances that are designed to promote 5G and 
small cell deployments.
FCC Priorities
    Question 4. My top priority is regulatory reform. Please identify 
three meaningful regulations that you are interested in repealing 
during your tenure at the FCC.
    Answer. I agree with you on the importance and need for regulatory 
reform. If confirmed, I would work to repeal FCC regulations that are 
unnecessarily limiting innovation, investment, and deployment.
    First, the FCC must take action to ensure that Federal regulations 
are not needlessly deterring the deployment of wireless infrastructure, 
including infrastructure that can be used for 5G. In particular, the 
FCC has asked for public comment on whether it should eliminate Federal 
rules that could be slowing down small cell deployments. I support that 
inquiry. If confirmed, I would welcome the opportunity to examine the 
record and eliminate any Federal regulations that are only serving to 
slow the deployment of innovative and advanced wireless technologies.
    Second, the FCC has opened a proceeding that aims to identify and 
eliminate rules that might be slowing the deployment of wireline 
infrastructure. In particular, the FCC's proceeding asks about 
eliminating requirements in Part 51 of the FCC's rules. Stakeholders 
have argued that these requirements are needlessly increasing the costs 
of deploying next-generation networks and slowing the roll out of new 
wireline services. If confirmed, I would welcome the opportunity to 
examine these requirements and eliminate any unnecessary ones.
    Third, the FCC's Part 22 rules contain paperwork requirements that 
apply solely to one set of wireless licensees. Commenters have argued 
that these requirements impose burdensome and outdated regulations that 
are ripe for elimination. If confirmed, I would welcome the chance to 
examine the record and determine whether any such rules can be 
repealed.
ICANN
    Question 5. Last year the previous administration allowed the 
Federal Government's contract with ICANN to expire. Do you think that 
was a wise and prudent decision?
    Answer. No, I do not think it was a wise and prudent decision.

    Question 6. Microsoft and Facebook and YouTube, which is owned by 
Google, all of whom supported President Obama's Internet transition, 
have signed a code of conduct with the European Union to remove so-
called hate speech from European countries in less than 24 hours. Do 
you think these global technology companies have a good record of 
protecting free speech? And what can be done to protect the First 
Amendment rights of American citizens?
    Answer. The First Amendment operates to prevent the government from 
abridging the freedom of speech, and Supreme Court case law is clear 
that there is no exception for so-called hate speech. The First 
Amendment thus embodies the idea that we should respond with more 
speech--not less and certainly not government censorship--when 
confronted with disfavored speech that is protected by the 
Constitution. To the extent companies are cooperating with governmental 
bodies to censor disfavored speech under a claim of removing so-called 
hate speech, then that activity is not consistent with those First 
Amendment principles. To protect the First Amendment rights of American 
citizens, it is important that the government not engage in censoring 
protected speech. I am committed to upholding and protecting the First 
Amendment rights of all Americans.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Dan Sullivan to 
                              Brendan Carr
    I want to thank you and the current FCC Commissioners for working 
with my staff to help alleviate some of the burden that the reduction 
in reimbursement from the Rural Health Care program placed on Alaskan 
health care providers.
    In my state, the price of telecommunications services is so 
expensive that many rural health care providers cannot afford them 
without support from the Rural Health Care program. Telemedicine 
services in Alaska are essential for many of our villages, and they are 
only possible if a health facility has connectivity.
    In enacting the Telecommunications Act of 1996, Congress 
specifically directed the FCC to ensure that rural health care 
providers have access to telecommunications services at rates that are 
reasonably comparable to those for similar services in urban areas of 
the State. As you are aware, for the first time the demand for funding 
from the Rural Health Care program exceeded the $400 million cap.

    Question 1. Will you work to ensure the sustainability of the Rural 
Health Care Program as the FCC moves forward to review further reforms 
to universal service programs?
    Answer. As your question indicates, the Rural Health Care program 
serves important purposes, particularly in Alaska where the state's 
size, remote areas, and varied terrain can translate into high costs of 
service, including for healthcare-related communications services. The 
Rural Health Care program helps reduce the cost of those services. If 
confirmed, I would look forward to working with my colleagues to ensure 
the sustainability of the Rural Health Care program.

    Question 2. If confirmed, what steps would you take to address this 
funding issue?
    Answer. If confirmed, I would look forward to working with all 
stakeholders to help ensure the Rural Health Care program continues to 
perform its important purposes. I can assure you that I would approach 
the issue of funding with an open mind.

    Question 3. Will you consider beginning a rulemaking proceeding to 
evaluate the changes necessary to ensure that the program budget is 
sufficient to fulfill the purposes of the program?
    Answer. If confirmed to serve as a Commissioner, I would not set 
the agenda at the agency--meaning, I would not have the authority to 
begin a rulemaking proceeding by circulating a Notice of Proposed 
Rulemaking. Only the FCC's Chairman can circulate items for the 
Commission's consideration. However, if confirmed, I would welcome the 
opportunity to work with my colleagues to ensure that the program's 
budget is sufficient to fulfill the purposes it serves.
    Mr. Carr, you seem to have extensive knowledge of the FCC and an 
idea of what you hope to focus on if confirmed. I agree with you that 
the technology and communications space will significantly help grow 
the economy, and working to grow the economy is an issue I am very 
focused on in Congress.
    In Alaska, many places do not have any connectivity, and those same 
places many times are not connected by road. It is costly to deploy 
telecommunications infrastructure, and while these communities are 
extremely innovative, a lack of connectivity is a hindrance in growing 
their businesses and increasing their economic activity.
    The carriers in my state are doing great work to bring 
telecommunications to communities that don't have it, as well has to 
upgrade existing networks to increase speeds to their urban 
counterparts. Much of this is due to the great dialogue that has 
occurred between the FCC, Alaskan carriers, and our Alaska delegation.

    Question 4. Will you work with my office to continue exploring ways 
to improve broadband access in Alaska?
    Answer. Yes, I would welcome the chance to work with your office on 
ways to improve broadband access in Alaska.
    It is my understanding that environmental assessments (EAs), when 
required under the FCC's rules, are currently not subject to any 
processing timelines or dispute resolution procedures. As a result, 
environmental assessments for new facilities can languish for an 
extended period of time--sometimes years. This is an unfortunate 
barrier to feeding our Nation's hunger for expanded wireless broadband.
    Given my seat on this committee and on EPW, I have a particular 
interest in finding ways to streamline these procedures.

    Question 5. Will you commit to finding ways to streamline the FCC's 
review of environmental assessments, including through the adoption of 
``shot clocks'' to resolve environmental delays and disputes, in 
addition to working on additional infrastructure reforms?
    Answer. Yes, I am committed to identifying ways to streamline these 
procedures and working on additional infrastructure reforms. I would 
welcome the chance to work with your office on these issues.
                                 ______
                                 
      Response to Written Questions Submitted by Hon. Mike Lee to 
                              Brendan Carr
    Question 1. My understanding is that as of today almost 200 
carriers still receive over $500 million annually in USF funds under 
the legacy high-cost support program in order to provide voice service 
in areas where multiple wireless carriers already offer mobile voice 
and broadband services without USF funding. Of this $500 million, what 
percentage actually goes to an area where the USF funding recipient is 
the only wireless provider in that area?
    Answer. In 2011, the FCC established an annual budget for Mobility 
Fund Phase II (MF-II) of up to $500 million for ongoing support for 
mobile services, with up to $100 million reserved for support to Tribal 
lands. In the MF-II Order the FCC released in March 2017, the FCC 
stated that ``a conservative estimate is that three-quarters of support 
currently distributed to mobile providers is being directed to areas 
where it is not needed. In other words, carriers are receiving 
approximately $300 million or more each year in subsidies to provide 
service even though such subsidies are unnecessary and may deter 
investment by unsubsidized competitors from increasing competition in 
those areas.''
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                              Brendan Carr
    Question 1. The evolution of our 9-1-1 infrastructure to Next 
Generation 9-1-1 is a national imperative. That is why Senator 
Klobuchar and I have developed our Next Generation 9-1-1 Act of 2017, 
which is designed to give states and localities the Federal resources 
and support they need to upgrade their existing 9-1-1 systems to 
benefit our citizens and first responders who put their lives on the 
line every day.
    Do you agree that the Nation's transition to Next Generation 9-1-1 
systems is a national imperative, and that additional Federal support 
would help speed up that transition?
    Answer. Yes, I agree that the Nation's transition to Next 
Generation 9-1-1 systems is a national imperative, and I agree that 
additional Federal support could help speed up that transition.

    Question 2. Do I have your commitment, if you are confirmed, that 
you will work with Senator Klobuchar and me to make sure that we can 
make Next Generation 9-1-1 a reality?
    Answer. Yes, if confirmed, I would welcome the opportunity to work 
with you and Senator Klobuchar to make sure that we can make Next 
Generation 9-1-1 a reality.

    Question 3. I want to follow up on my question to you about E-Rate. 
Your response did not give me confidence that you would fully protect 
this program and the success of these recent reforms. Again, will you 
commit, if confirmed, to wait--as the FCC previously concluded that it 
would wait until at least next year--before attempting to make changes 
to this critical program?
    Answer. The E-Rate program plays a critical role in the lives of 
students and communities across the country, including in Florida. If 
confirmed, I would welcome the chance to work with you, my colleagues 
at the FCC, and all stakeholders to ensure that the program continues 
to serve its important purposes and has the funding necessary to do so.
    In terms of the timing of any FCC action, if confirmed to serve as 
a Commissioner, I would not set the agenda at the agency--meaning, I 
would not decide whether or when a Notice of Proposed Rulemaking or 
other item is circulated for the Commission's consideration. Only the 
FCC's Chairman can circulate items for the Commission's consideration. 
If confirmed, and if any item relating to E-Rate is put before the 
Commission for consideration, I would approach the issue with an open 
mind and cast any vote based on the facts, the record, and the public 
interest.

    Question 4. An independent and free press is what distinguishes the 
United States from so much of the rest of the world. It is a cherished 
tenant of our democracy--and remains critical in holding power 
accountable. If confirmed, will you commit that you will exercise your 
authority as an FCC Commissioner in a manner that fully respects the 
absolute independence of the media?
    Answer. Yes, if confirmed, I would exercise any authority in a 
manner that fully respects the First Amendment rights and independence 
of the media.

    Question 5. Will you commit, if confirmed, to inform this committee 
of any attempt by the White House or Executive Branch to influence your 
decision-making or direct you to take or not take any action with 
respect to media outlets in the United States or abroad, including the 
license renewal applications for broadcasters?
    Answer. Yes.

    Question 6. Will you commit, if confirmed, that you will not act in 
a manner that violates the First Amendment and stifles or penalizes 
speech by electronic media, directly or indirectly (through the 
``raised eyebrow'' or negative action on transactions affecting 
licensees), even if requested by the administration?
    Answer. Yes.

    Question 7. I serve as ranking member on the Armed Services 
Committee's Subcommittee on Cybersecurity. We live in a nation, in a 
world, where so much of what we do relies on connections to IP-based 
communications networks--and that means bad actors, anywhere in the 
world--with a keyboard--can potentially hack into those networks and 
exploit the underlying data. And it happens all day, every day.
    The FCC is the expert agency overseeing our Nation's communications 
networks. Yet Chairman Pai apparently does not believe the FCC has a 
role in our cyber defenses. Everyone agrees that we need to be doing 
more, not less, to protect our Nation's communications networks against 
cyberattack. Frankly, in my mind, if you are keeping the FCC from being 
part of the solution, you are making it part of the problem.
    During your confirmation hearing, you were asked about the FCC's 
role in protecting the Nation's networks from cyberattacks, and you 
indicated that the FCC has network expertise, but that DHS are the 
experts in this area and that the FCC's authority is circumscribed. 
However, Congress gave the FCC the authority in Section 1 of the 
Communications Act specifically to ensure that nation-wide 
communications services are available, for the purpose of national 
defense and for the purpose of promoting safety of life and property.
    Is it tenable for the FCC, as the expert agency over our 
communications networks, to sit on the sidelines in the battle to 
protect our Nation from cyberattack?
    Answer. No, it is not. The FCC has an important role to play when 
it comes to protecting our Nation from cyberattacks.

    Question 8. If confirmed as a Commissioner, would you have the FCC 
sit idly by and do nothing while foreign adversaries repeatedly attack 
our country's communications networks based on a narrow reading of the 
Communications Act?
    Answer. No, I would not. The FCC has an important role to play with 
respect to cybersecurity.

    Question 9. As the FCC General Counsel, you are the ultimate 
arbiter of what is an official Federal record for the agency. Earlier 
this year, the House Oversight Committee sent a bipartisan request to 
all agencies, including the FCC, about their information practices.
    Have you ever worked on FCC business on a personal or other non-
governmental e-mail account?
    Answer. The March 2017 bipartisan letter asked the Commission to 
identify any senior agency officials that have used an alias e-mail 
account to conduct official business since January 1, 2016. I do not 
have and I have never used an alias e-mail account. I conduct official 
business and create Federal records through the official e-mail account 
that the FCC provided me when I joined the agency in 2012.

    Question 10. Did you, Chairman Pai and other members of his staff 
during your tenure working at the commission discuss FCC matters or 
business using your personal or other non-governmental e-mail?
    Answer. As indicated in response to question 9 above, I conduct 
official business and create Federal records through my official e-mail 
account that the FCC provided me when I joined the agency in 2012.

    Question 11. Have you ever used any other form of personal or other 
non-governmental digital communication--including text messages, social 
media platforms, or similar services--to discuss FCC matters or 
business?
    Answer. I have a Twitter account that I set up in July 2014, which 
is @BrendanCarrFCC, that I have used to tweet publicly about FCC 
matters or business. I also have a LinkedIn profile that identifies my 
position and work at the FCC.

    Question 12. Past members of the FCC have sought out the guidance 
of state and local elected officials on matters pending before the 
agency. If you are confirmed, what role will consultation with state 
and local governments play in your decision making?
    Answer. If confirmed, I would welcome the chance to receive 
guidance from state and local governments and elected officials on 
matters pending before the agency. Getting the opportunity to hear 
their perspectives and learn from their experiences can only improve 
the FCC's decision-making.

    Question 13. I appreciate the information you provided regarding 
your use of ``alias'' e-mails utilizing the FCC.gov domain and the 
creation of Federal records. The questions posed to you, however, 
addressed separate, broader questions about the use of non-governmental 
e-mail or other digital communications to discuss FCC business or 
discuss FCC matters. Your responses did not appear to address the 
broader questions. Nor did your responses indicate whether you had used 
other forms of digital communications, other than Twitter and LinkedIn, 
to discuss FCC matters or business.
    As a result, I ask that you provide additional clarifying responses 
regarding the following specific questions posed to you:

  <bullet> Have you ever worked on FCC business on a personal or other 
        non-governmental e-mail account [not including alias e-mail 
        accounts utilizing the FCC.gov domain]?

  <bullet> Did you, Chairman Pai and other members of his staff during 
        your tenure working at the commission discuss FCC matters or 
        business using your personal or other non-governmental e-mail 
        [not including alias e-mail accounts utilizing the FCC.gov 
        domain]?

  <bullet> Have you ever used any other form of personal or other non-
        governmental digital communication--including text messages, 
        social media platforms, or similar services--to discuss FCC 
        matters or business?

    Answer. With respect to whether I have discussed ``FCC matters'' on 
non-governmental e-mail or other digital forms of communications, it is 
not clear to me how ``FCC matters'' is defined in this context, but I 
do believe I can provide some additional information.
    For instance, as disclosed in the Senate questionnaire that I 
submitted, I have held various positions with the Federal 
Communications Bar Association (FCBA). I have used my personal e-mail 
for communications relating to my FCBA activities, and in that context 
those e-mails would include discussions about FCC-related events, such 
as lunches that the FCBA hosted that would feature FCC staffers talking 
about FCC matters. So in that context, I have e-mails relating to the 
FCBA putting on those events and other e-mails relating to FCBA 
activities in this space.
    Similarly, as you note in your e-mail, I have a LinkedIn profile. 
That profile sends updates to my personal e-mail when connections, 
including those that work in telecom or on FCC matters, change jobs or 
view my profile.
    With respect to the use of non-governmental e-mail for the creation 
of Federal records, FCC policy, which is consistent with the Federal 
Records Act, provides that any such communications should be captured 
in an FCC record keeping system (such as my work account on the fcc.gov 
domain) within 20 days. The e-mail should then be removed from the non-
official e-mail account. So, for instance, when I received an e-mail on 
my personal account that relates to official FCC business, I forwarded 
it to my fcc.gov e-mail account and deleted it from my personal e-mail.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                              Brendan Carr
    Question 1. Do you agree that the FCC has a statutory mandate to 
make sure networks are safe and resilient?
    Answer. The FCC has a statutorily-mandated role to play in helping 
to ensure that networks are safe and resilient. This is especially true 
in the context of 911 networks. In this context, in particular, the FCC 
must work to improve the resilience and reliability of the 
communications networks.

    Question 2. The FCC's 2018 budget states that the mission of the 
FCC includes ``promoting safety of life and property through the use of 
wire and radio communication.''
    Does ensuring that our communications networks are hardened against 
cyber-attacks, fall into the definition of ``promoting safety of life 
and property through the use of wire and radio communication''.
    If not why not?
    Answer. Yes, I believe it does.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Brian Schatz to 
                              Brendan Carr
    Question 1. In 2014, when President Obama expressed his support for 
strong net neutrality rules, the Department of Commerce submitted an ex 
parte notice with the FCC officially putting the President's statement 
in the record. Did the White House file an ex parte with the FCC when 
it announced its support for the current proceeding to unravel the Open 
Internet Order?
    Answer. During the July 19, 2017 hearing, you asked whether the 
FCC's ex parte rules require the filing of a letter concerning the 
Administration's July 18, 2017 statement regarding net neutrality.
    I believe that the relevant statement was issued by the Principal 
Deputy Press Secretary, Sarah Huckabee Sanders, during a press briefing 
with reporters. That statement is as follows:

        [Y]esterday Sean [Spicer] was asked about the administration's 
        position on the concept of net neutrality, and he said we'd get 
        back to you. The administration believes that rules of the road 
        are important for everyone--website providers, Internet service 
        providers, and consumers alike.

        With that said, the previous administration went about this the 
        wrong way by imposing rules on ISPs through the FCC's Title II 
        rulemaking power. We support the FCC chair's efforts to review 
        and consider rolling back these rules, and believe that the 
        best way to get fair rules for everyone is for Congress to take 
        action and create regulatory and economic certainty.

    This does not constitute an ex parte presentation within the 
meaning of the FCC's rules. See, e.g., 47 C.F.R. Sec. 1.1200 et seq. 
The FCC's ex parte rules govern presentations to or from Commission 
decision-making personnel. This statement, which was made in the course 
of a press conference at which no FCC decision-makers were present, is 
not such a presentation. Thus, the FCC's rules do not require the 
submission of any ex parte notice with the FCC, and to the best of my 
knowledge no such filing has been made.
    As your question notes, the Obama Administration, through the 
Department of Commerce, filed an ex parte letter on November 10, 2014. 
As stated in that letter, and in contrast to the circumstances 
discussed above, that filing disclosed that Jeff Zients, Director of 
the National Economic Council and Assistant to the President for 
Economic Policy, met privately with FCC Chairman Tom Wheeler and FCC 
General Counsel Jonathan Sallet to convey President Obama's ask that 
the FCC classify broadband under Title II and adopt four specific rules 
outlined in detail in the ex parte submission.

    Question 2. Have there been any communications between you, your 
office, and the White House about net neutrality?
    Answer. No.

    Question 3. Have you or the White House filed the required ex parte 
notices for any communications you would have had about net neutrality?
    Answer. I have not had any discussions with the White House about 
net neutrality or any other topic that have required the filing of an 
ex parte notice.

    Question 4. Mr. Carr, in your role as general counsel, you are the 
chief legal officer responsible for determining what the FCC considers 
as part of the record in its proceedings. On your watch, how has the 
FCC considered President Trump's tweets on issues and pending matters 
under your jurisdiction?
    Answer. I am not aware of any tweets from the President that the 
FCC should treat as part of the record in any of its proceedings.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Edward Markey to 
                              Brendan Carr
    Question. Earlier this year, the majority of the Commission 
indicated that a market is competitive where only one provider has 
service, and potentially a second provider may enter the market. Do you 
take the position that the agency should not regulate when there is a 
monopoly? What is your view on duopoloy and what actions should the 
agency take? What is your plan to evaluate, on an ongoing basis, 
conditions in business data services?
    Answer. In April 2017, the Commission adopted an order concerning 
the regulatory framework that should apply to business data services. 
That decision is now on appeal in the U.S. Court of Appeals for the 
Eighth Circuit.
    The FCC has many options available when determining the appropriate 
method of regulating any particular market. The degree and type of 
regulation depends on the specific facts and circumstances of that 
market, as well as any relevant statutory provisions. So it is not 
possible to provide a definitive answer as to the appropriate 
regulatory framework that the FCC should apply without the benefit of a 
developed record and knowing the particular features of the relevant 
market and applicable statutory provisions. But in general, the 
Commission can choose from, inter alia, ex ante regulation, ex post 
regulation, or other methods of promoting competition, investment, and 
innovation. I would always look to apply the regulatory method that 
reflects the facts, the law, and the public interest.
    In terms of my plans for evaluating the conditions in the business 
data services market in particular, if confirmed, I would welcome the 
chance to work with my colleagues on this issue.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Cory Booker to 
                              Brendan Carr
    Question 1. Mr. Carr, you say in your written testimony, ``When 
there are marketplace failures that harm consumers, the agency [the 
FCC] must take action consistent with the scope of our authority and 
the direction provided by Congress.'' I'd like to ask you about a 
marketplace failure that was described in a comment submitted to the 
Commission in regard to Chairman Pai's proposal to roll back Net 
Neutrality. The comment was submitted by Level 3 Communications, a 
global communications provider.
    According to Level 3, before the 2015 Open Internet Order, large 
consumer ISPs ``refused to augment'' Level 3's interconnection capacity 
unless Level 3 agreed to new, recurring charges. The ISPs did not 
justify these charges in terms of cost, and the charges frequently 
exceeded the price that Level 3 charges its own customers for global 
connectivity. Until the Open Internet Order, Level 3's customers paid 
the price in congestion and consumer experience. Then, after the Open 
Internet Order was adopted, the ISPs came to the table and renegotiated 
interconnection agreements.
    These were not disputes between reasonable parties over how to 
share the cost of doing business--the ISPs were gatekeeping.
    This is a clear example of ISPs charging tolls for capacity not 
because they need to meet their own costs, but just because they can. 
Why should the FCC relinquish its authority to protect the many 
consumers and businesses who benefit and rely upon a free and open 
internet?
    Answer. In the 2015 Open Internet Order, the Commission discussed 
interconnection and it specifically noted the perspective on 
interconnection disputes raised by Level 3. The Commission stated that 
``the causes of past disruption and--just as importantly--the potential 
for future degradation through interconnection disputes--are reflected 
in very different narratives in the record'' and that ``[t]he record 
reflects competing narratives.'' Based on that, and other 
considerations, the Commission stated in the 2015 Open Internet Order 
that ``this Order does not apply the open Internet rules to 
interconnection.'' The Commission then noted in the Order that its `` 
`light touch' approach does not directly regulate interconnection 
practices.''
    Right now, the FCC has a pending proceeding that is examining the 
appropriate regulatory framework for interconnection. If confirmed, I 
would examine this issue in light of the facts, the law, and the public 
interest.

    Question 2. Chairman Pai has defended his rollback of Net 
Neutrality by claiming that we have not seen evidence of harm to 
consumers from ISPs restricting access to broadband capacity. This 
claim contradicts numerous findings by the FCC, the Department of 
Justice, and the D.C. Circuit Court that large ISPs have acted and will 
act on the incentive and the ability to discriminate against 
competitors, especially Online Video Distributors or O-V-Ds, who rely 
on them for broadband capacity.
    The Department of Justice could not have made this point clearer in 
the Charter/Time Warner Cable complaint:

        ``Some MVPDs have sought to restrain nascent OVD competition 
        directly by exercising their leverage over video programmers to 
        restrict the programmers' ability to license content to OVDs.'' 
        \1\
---------------------------------------------------------------------------
    \1\ DOJ, quoted in Incompas public comment to Restoring Internet 
Freedom NPRM, July 17, 2017. See Pp. 13-16.

    DOJ has declined or imposed conditions on multiple mergers now to 
alleviate this concern. The Commission made similar findings in its 
recent Open Internet proceedings, and the D.C. Circuit confirmed these 
findings twice.
    Do you agree with the Department of Justice, the D.C. Circuit 
Court, and the Federal Communications Commission in their previous 
findings that ISPs can and do use their market power to discriminate 
against competitors?
    Based on the record I have outlined, how can Congress, OVD 
competitors, and consumers be expected to believe that large ISPs will 
enter any voluntary framework that forfeits their clear incentive and 
ability to undermine market competition?
    Answer. In the 2015 Open Internet Order, the Commission stated that 
``[c]onsistent with the [D.C. Circuit] Verizon court's analysis, this 
Order need not conclude that any specific market power exists in the 
hands of one or more broadband providers in order to create and enforce 
these rules. Thus, these rules do not address, and are not designed to 
deal with, the acquisition or maintenance of market power or its abuse, 
real or potential.'' Similarly, the Commission stated in the 2015 Open 
Internet Order that ``our reclassification of broadband Internet access 
service as a `telecommunications service' subject to Title II below 
likewise does not rely on such a test or any measure of market power.''
    On appeal, the D.C. Circuit stated that ``the partial dissent 
disagrees with our conclusion that the Commission had `good reasons' to 
reclassify because, according to the partial dissent, it failed to make 
`a finding of market power or at least a consideration of competitive 
conditions.' Concurring & Dissenting Op. at 10. But nothing in the 
statute requires the Commission to make such a finding.'' The 
Concurring and Dissenting Opinion similarly stated that ``[t]he [2015 
Open Internet] Order made no finding on market power.''
    So it is not clear to me that the Department of Justice, the D.C. 
Circuit, and the FCC have all made the finding of market power 
indicated in your question. With respect to the second part of your 
question, the FCC has a pending proceeding that seeks comment on the 
regulatory framework that should apply to broadband Internet access 
services and, if confirmed, I would make any decision in that 
proceeding based on the record, the law, and the public interest.

    Question 3. WJLP, northern New Jersey's only VHF television 
broadcast station, has been ordered by the FCC to identify itself as 
channel 33 instead of its real channel, channel 3. Applications for 
review of numerous rulings related to this issue have been submitted 
with no action for up to three years. It is my understanding that 
contested cases can take up to seven years to reach a determination. 
What actions have you taken, and what actions will you take if re-
confirmed, to reach a final determination on this case?
    Answer. If confirmed, I can commit to you that I would act quickly 
to cast a vote on any decision that is presented to the Commission 
concerning this matter.

    Question 4. E-Rate is an important Universal Service Fund program 
that helps underserved schools and libraries connect to high-speed 
Internet. I cannot overstate the value of broadband access for these 
learning centers. To remain competitive in the 21st century, our 
children must learn how to interact with the digital world.
    In 2016, my home state of New Jersey received $90 million for E-
Rate, which it used to connect 181,652 students to high-speed Internet 
in underserved schools.\2\ For these students, especially those who do 
not have access to broadband at home, this a potentially life-changing 
advance in educational opportunity. This program is critical to closing 
the digital divide.
---------------------------------------------------------------------------
    \2\ Education Superhighway, July 2017.
---------------------------------------------------------------------------
    Nationally, since the E-Rate Modernization Order in 2014, 30.9 
million unserved students have been connected to the high-speed 
broadband that they need to build our Nation's future.
    Will you commit to support the E-rate modernization order in its 
current form with need-based prioritized funding for underserved 
schools and libraries?
    Answer. The E-Rate program plays a critical role in the lives of 
students and communities across the country, including in New Jersey, 
as your question notes. I support a strong and effective E-Rate 
program, and I can commit to you that I approach this issue with an 
open mind. If confirmed, I would welcome the chance to work with all 
stakeholders to ensure that the program continues to serve its 
important purposes and has the funding necessary to do so.

    Question 5. The New Jersey Division of the Deaf and Hard of Hearing 
(DDHH) estimates that there are approximately 850,000 New Jersey 
residents who experience hearing loss. Many of these individuals rely 
on Video Relay Service (VRS) and Internet Protocol Captioned Telephone 
Service (IP CTS) to communicate with family, friends, emergency 
services, and other important people. How will you ensure that the FCC 
continues to administer these programs consistent with the requirements 
of the Americans with Disabilities Act?
    Answer. VRS and IP CTS are serving important purposes and helping 
to ensure that those with hearing loss can communicate with family, 
friends, and emergency services, as your question notes. The FCC has 
taken important steps this year to improve VRS services and, if 
confirmed, I would welcome the opportunity to work with all 
stakeholders to ensure that the FCC administers these programs 
consistent with the requirements of the Americans with Disabilities 
Act.

    Question 6. Expanding access to broadband connectivity is an 
incredibly important part of investing in the future of our Nation and 
closing the digital divide. This is especially true in rural areas. How 
do you view the role of TV White Spaces in expanding connectivity to 
hard-to-reach rural areas?
    Answer. I agree that expanding access to broadband connectivity is 
incredibly important. And I agree that this is especially true in rural 
areas. The FCC must take an all-of-the-above approach to expanding 
connectivity and that includes consideration of the role that TV White 
Spaces can play in reaching rural areas.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                              Brendan Carr
    Question 1. As a commissioner of the Federal Communications 
Commission, you have direct authority over the Nation's broadcast and 
media marketplace. The FCC as an independent agency controls whether 
broadcast stations are allowed access to the U.S. airwaves, oversees 
elements of the contractual relationships between media outlets and 
their distribution partners, renders judgements on mergers and 
acquisitions of media properties, and issues regulations that can 
affect the financial future of major media companies. And ultimately, 
the decisions that you, your fellow commissioners, and the agency staff 
make affect the viability and sustainability of news media.
    Accordingly, please respond directly, fully, and individually to 
the questions below, which will inform my ongoing consideration of your 
nomination to serve on the FCC Commission.
    Do you believe the media is the ``enemy'' of the American people?
    Answer. No.

    Question 2. Can you assure us that you will exercise your authority 
as an FCC Commissioner to regulate the media in an impartial manner?
    Answer. Yes.

    Question 3. Will you commit to us that the FCC will not act in a 
manner that violates the First Amendment and stifles or penalizes free 
speech by electronic media, directly or indirectly, even if requested 
by the administration?
    Answer. Yes.

    Question 4. Did you commit to the administration, as a condition of 
your nomination, to take any action against a specific media entity or 
generally against broadcast entities, cable network owners or other 
media outlets?
    Answer. No.

    Question 5. Will you commit to us that you will exercise your 
authority as an FCC Commissioner in a manner that fully respects the 
absolute independence of the agency from the executive branch?
    Answer. Yes.

    Question 6. Finally, will you commit to inform us and the public of 
any attempt by the White House or by any Executive Branch official to 
influence your decision-making or direct you to take or not take any 
action with respect to media interests within your jurisdiction, 
including the license renewal applications for broadcasters (whether or 
not such contacts fall under the ex parte rules or other legal or 
ethical rules applicable to the FCC)?
    Answer. Yes.

    Question 7. The FCC and this Committee have been talking about the 
need to build out rural broadband for many years. Progress is 
happening, but much too slowly. The free market did not deliver rural 
electricity--FDR, the New Deal, and the rural electric coops did it 
with major USDA support. The free market will not deliver rural 
broadband on its own either. We need the government to act. If there is 
going to be an infrastructure package, rural broadband must be in it in 
a very big way. Will you work with both parties in Congress, and the 
White House, to advance a consensus, bipartisan proposal to provide 
rural broadband to every part of America that is bold--and provides the 
necessary funding to achieve this goal?
    Answer. Yes.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Maggie Hassan to 
                              Brendan Carr
    Question. To the Panel: As you know, pursuant to the Americans with 
Disabilities Act, the FCC has an important mandate to ensure that deaf 
and hearing-impaired individuals have ``functionally equivalent'' 
access to telecom services. How will you work to ensure that the 
commission fulfils its obligation to individuals with hearing 
impairments under the ADA?
    Answer. I agree that the FCC has a mandate to ensure that deaf and 
hearing-impaired individuals have ``functionally equivalent'' access to 
telecom services. At the FCC, I have had the chance to work on efforts 
to help improve the quality of the agency's VRS and other programs and, 
if confirmed, I would welcome the opportunity to work with all 
stakeholders to make sure the FCC is fulfilling its obligations in this 
area.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                            to Brendan Carr
    Question 1. Diversity in Telecom: In reviewing the Federal Equal 
Employment Opportunity Commission's (EEOC) 2016 report on ``Diversity 
in High Tech,'' and it contains some frustrating and concerning 
observations regarding minority and female employment and leadership 
representation. Namely:

  <bullet> ``Compared to overall private industry, the high tech sector 
        employed a smaller share of African Americans (14.4 percent to 
        7.4 percent), Hispanics (13.9 percent to 8 percent), and women 
        (48 percent to 36 percent).''

  <bullet> ``Of those in the Executives category in high tech, about 80 
        percent are men and 20 percent are women. Within the overall 
        private sector, 71 percent of Executive positions are men and 
        about 29 percent are women.''

  <bullet> 2014 data of the labor force participation rate at select 
        leading ``Silicon Valley tech firms,'' with similarly upsetting 
        trends: ``Among Executives, 1.6 percent were Hispanic and less 
        than 1 percent were African American.''

    If you were to be confirmed to the FCC, what do you think we could 
do to establish a more inviting sector to diversity of staff and 
leadership at the FCC and the tech sector more broadly?
    Chairman Pai has expressed that there is authority the FCC has to 
address this issue with broadcasters and cable operators, so is there 
additional authority you could use to aid in this pursuit of more 
diversity in the overall tech sector?
    Answer. Diversity at the FCC is important, and I am pleased that 
the agency has promoted a diverse group of individuals to leadership 
positions at the Commission.
    With respect to the agency's efforts more broadly, the FCC is in 
the process of forming a new Federal advisory committee on Diversity 
and Digital Empowerment. The Commission has stated that ``[t]his 
Committee will provide advice and recommendations to the Commission 
regarding how to empower disadvantaged communities and accelerate the 
entry of small businesses, including those owned by women and 
minorities into the media, digital news and information, and audio and 
video programming industries.'' If confirmed, I would welcome the 
opportunity to work with this group, and other stakeholders, on the 
important issue of diversity in the technology and telecom sectors.
    With respect to the FCC's statutory authority, I am not aware of a 
provision that grants the FCC broad authority with respect to promoting 
diversity in the overall tech sector. I defer to Congress' ultimate 
judgment on whether to provide such authority to the FCC, but I would 
work to implement any such legislation.

    Question 2. Broadband Internet Speed Honesty: I asked Chairman Pai 
about a reported FCC filing from USTelecom and NCTA that is asking the 
FCC for a ruling confirming that ISPs are following Federal 
transparency rules by posting online their average performance during 
times of peak usage. But I know a bipartisan group of Attorneys General 
are concerned such an industry petition to the FCC on cost transparency 
``represents nothing more than the industry's effort to shield itself 
from state law enforcement.''
    Do you believe that an FCC ruling would circumvent the ability of 
the states to protect consumers?
    How can you best ensure that ISPs are truthful with consumers, 
given that prices and advertised speeds often influence consumer 
decisions about the service that is right for them?
    Answer. As your question indicates, on May 15, 2017, USTelecom and 
NCTA filed a petition for declaratory ruling asking the Commission to 
clarify certain aspects of the Commission's regulations governing 
broadband speed disclosures. On May 17, 2017, the FCC released a public 
notice that sought comment on that petition. Comments were due June 16, 
2017, and reply comments were due July 3, 2017. If confirmed, I would 
reach any decision in that proceeding only after considering the 
record, the law, and the public interest.
    With respect to ISPs, the FCC currently has an open proceeding that 
considers the regulatory classification of broadband Internet access 
service and the rules regulating ISPs' conduct. If confirmed, I would 
approach that proceeding with an open mind.

    Question 3. E-Rate: I'm deeply concerned about your noncommittal 
stance towards e-rate and any future plans you have for the program.
    Are you considering reducing funding for E-rate?
    And, are you considering major changes to E-rate?
    Answer. The E-Rate program plays a critical role in the lives of 
students and communities across the country, including in Nevada. If 
confirmed, I would welcome the chance to work with you, my colleagues 
at the FCC, and all stakeholders to ensure that the program continues 
to serve its important purposes. I commit to you that I would approach 
this issue with an open mind. I am not considering any changes at this 
time.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
